<html>
<title> - TRANSPORTATION AND AIR QUALITY: CMAQ AND CONFORMITY PROGRAMS</title>
<body><pre>[Senate Hearing 108-280]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-280

      TRANSPORTATION AND AIR QUALITY: CMAQ AND CONFORMITY PROGRAMS

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON CLEAN AIR, CLIMATE CHANGE AND NUCLEAR SAFETY

                                and the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION


                                   ON

 THE IMPLEMENTATION OF THE CMAQ PROGRAM AND TRANSPORTATION CONFORMITY 
   PROVISIONS OF TEA-21, THE TRANSPORTATION EQUITY ACT FOR THE 21ST 
                                CENTURY

                               __________

                             MARCH 13, 2003

                               __________


  Printed for the use of the Committee on Environment and Public Works







                      U.S. GOVERNMENT PRINTING OFFICE

90-365                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred eighth congress
                             first session

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texas                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                              ----------                              

             SUBCOMMITTEE ON CLEAN AIR, CLIMATE CHANGE AND 
                             NUCLEAR SAFETY

                  GEORGE V. VOINOVICH, Ohio, Chairman
MICHAEL D. CRAPO, Idaho              THOMAS R. CARPER, Delaware
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Lieberman
JOHN CORNYN, Texas                   HARRY REID, Nevada
CRAIG THOMAS, Wyoming                HILLARY RODHAM CLINTON, New York





                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 13, 2003
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    21
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     9
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     3
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......    18
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     1

                               WITNESSES

Frankel, Hon. Emil H., Assistant Secretary for Transportation 
  Policy, Department of Transportation...........................     7
    Graph, Percentage of Change in Motor Vehicle Emissions, 
      Demographics, and Travel (1970-2000).......................    72
    Prepared statement...........................................    65
    Responses to additional questions from Senator Voinovich.....    72
Holmstead, Hon. Jeffrey R., Assistant Administrator for Air and 
  Radiation, Environmental Protection Agency.....................     5
    Prepared statement...........................................    49
    Responses to additional questions from:
        Senator Jeffords.........................................    54
        Senator Voinovich........................................    63
Kaiser, Marsha, director, Department of Planning and Capital 
  Programming, Maryland Department of Transportation, on behalf 
  of the American Association of State Highway and Transportation 
  Officials......................................................    40
    Prepared statement...........................................   123
Lasker, Jerry, executive director, Indian Nations Council of 
  Governments....................................................    33
    Prepared statement...........................................   111
Liebe, Annette, manager, Air Quality Planning, Oregon Department 
  of Environmental Quality on behalf of the State and Territorial 
  Air Pollution Program Administrators and the Association of 
  Local Air Pollution Control Officials..........................    28
    Letter to Senator Voinovich..................................    80
    Prepared statement...........................................    75
    Procedures, Substitution of Transportation Control Measure 
      (D-10-2-Volume 3)..........................................    82
    Statement, STAPPA/ALAPCO--CMAQ and Transportation Conformity 
      Principles for Reauthorization of TEA-21...................    79
Maier, Howard R., executive director, Northeast Ohio Areawide 
  Coordinating Agency............................................    35
    Prepared statement...........................................   111
Replogle, Michael, transportation director, Environmental Defense    32
    Graph, Share of Selected Criteria Pollutants from Highway 
      Sources by Year and Area from Adopted or Submitted SIPs....   104
    Prepared statement...........................................    86
    Responses from a previous hearing held in the 107th Congress 
      on air quality to additional questions from:
        Senator Jeffords.........................................    96
        Senator Smith............................................   101
        Senator Voinovich........................................    99
Steed, Diane, president, American Highway Users Alliance.........    37
    Prepared statement...........................................   119
Teague, W. Gerald, M.D., professor and vice chairman of 
  pediatrics, director, Division of Pulmonary Medicine, Emory 
  University School of Medicine..................................    30
    Fact Sheet, Olympic Asthma Study.............................    86
    Graphs:
        Acute Care Visits for Asthma, 1-16 Year Old Residents of 
          Atlanta................................................    84
        Mean Levels of Major Pollutants Before, During, and After 
          the Olympic Games as a Percentage of the EPA's National 
          Ambient Air Quality Standard...........................    85
        One-Hour AM Peak Traffic Counts..........................    85
    Prepared statement...........................................    83

                          ADDITIONAL MATERIAL

Articles:
    Lawsuit Pits Risks and Roads, USA Today......................   131
    Too Freeway Close, The Times, December 15, 2002..............   133
Statements:
    Associated General Contractors of America....................   135
    Becker, S. William, executive director, State and Territorial 
      Air Pollution Program Administrators (STAPPA)/Association 
      of Local Air Pollution Control Officials (ALAPCO)..........    79
    Flowers, Melody, Sierra Club Washington Representative.......   127
        Report, Key Studies on Air Pollution and Health Effects 
          Near High-Traffic Areas, Sierra Club...................   129
    National Association of Home Builders........................    10



                    TRANSPORTATION AND AIR QUALITY: 
                      CMAQ AND CONFORMITY PROGRAMS

                              ----------                              


                        THURSDAY, MARCH 13, 2003

                               U.S. Senate,
         Committee on Environment and Public Works,
     Subcommittee on Clean Air, Climate Change and Nuclear 
                                                    Safety,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Senate Dirksen Building, Hon. George V. Voinovich 
(chairman of the subcommittee) presiding.
    Present: Senators Voinovich, Thomas, Carper, and Jeffords 
[ex officio].

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Good morning. The hearing will come to 
order.
    We will convene this hearing. We have a number of witnesses 
today, many of them in the second panel. I think that in 
fairness to them, we should get started.
    I will restrain myself from giving my opening statement 
which I will have put in the record.
    [The prepared statement of Senator Voinovich follows:]
     Statement of Hon. George V. Voinovich, U.S. Senator from the 
                             State of Ohio
    The Hearing will come to order. Good Morning.
    This hearing continues a long-running conversation that this 
subcommittee and indeed the whole EPW Committee has had on the issues 
of congestion and air quality.
    Specifically, we are here to discuss two programs--the Conformity 
program under the Clean Air Act and the Congestion Mitigation and Air 
Quality--or--CMAQ program under TEA-21. Although these two programs are 
placed under separate enabling legislation, they both have a lot to do 
with two major problems--congestion and air quality.
    The Department of Transportation has estimated that the cost of 
traffic congestion to travelers topped $72 billion in terms of hours of 
lost time and wasted fuel in 1999 alone. Between 1982 and 2000, the 
annual hours of delay per driver in 75 urban areas studied by the Texas 
Transportation Institute increased by 46 hours. Drivers in these areas 
spent 4 times longer sitting in traffic in 2000 than they did in 1982. 
Even more startling, small urban areas saw a 400 percent increase over 
the same period, according to U.S. DOT. These numbers are projected to 
grow even further in the near future.
    One recent study estimated that Cincinnati drivers spent an average 
of 43 hours in traffic jams in 2000, compared to 4 hours in 1982; while 
Columbus drivers sat in traffic an average of 38 hours in 2000 compared 
to 4 hours in 1982; and in my hometown of Cleveland, drivers spent an 
average of 21 hours in congestion in 2000, compared to 1 hour in 1982. 
As a result, 104 million gallons of fuel was wasted in these three 
cities in 2000.
    These costs--hours of delay, lost time and wasted fuel--are not the 
only costs associated with congestion. Congestion contributes to air 
quality degradation by increasing travel delays, engine idle time and 
unproductive fuel consumption.
    As we move forward on reauthorizing the Highway Bill in this 
Committee, it is critically important that we look for ways to reform 
these two programs--Conformity and CMAQ--so they can be used by the 
States to reduce congestion and improve their air quality.
    The transportation conformity process was designed to ensure that 
an area's transportation projects and plans fit within a State's 
implementation plan, which is set pursuant to the Clean Air Act. This 
sounds like a simple prospect, but making this process work in a high-
growth area is anything but simple. Those areas tend to simultaneously 
have transportation and air quality problems.
    As Governor of Ohio, I spent considerable effort to bring Ohio 
counties into attainment for the air quality standards. When I first 
entered office, 28 out of Ohio's 88 counties failed to meet the 1-hour 
ozone standard. As a result of some very hard choices, all 88 of Ohio's 
counties are now in attainment for ozone.
    Unfortunately, under two new NAAQS standards, many of these 
counties will likely be re-designated as non-attainment counties. Over 
the next 2 years, EPA is set to implement its new 8-hour standards for 
ozone and the new 2.5 standards for particulate matter. Preliminary 
estimates indicate that when these new standards go into effect, 30 
counties in Ohio will become non-attainment counties for ozone, and 
another 15 for particulate matter. Under the current rules, each of 
these counties stands to lose Federal funding for important highway 
projects, which imperils countless efforts to reduce congestion and 
repair our increasingly dilapidated infrastructure.
    According to the Ohio Department of Transportation, over $1.4 
billion worth of projects identified for fiscal year 2004 through 2007 
would be subject to conformity once the new 8-hour standards are 
effective.
    Many of you may recall that our late Chairman, Senator John Chafee, 
held a hearing on this topic back in 1999. At that hearing, I stated 
that a lot of communities in this country would have a dickens of a 
time meeting the new NAAQS standards and predicted that the chickens 
would come home to roost when they went into effect. Well, here we are 
4 years later, and it looks like the chickens indeed are coming home to 
roost. Under the new ozone standard, 232 counties in 32 States will be 
designated non-attainment next year and 176 counties in 26 States for 
the PM<INF>2.5</INF> standard in 2005. As I just mentioned, each of 
these counties stands to lose Federal funding for all of their highway 
projects under the current rules.
    As we move forward on reauthorizing the Highway Bill and on clean 
air legislation this year, I think we need to take a look at this 
process and see if there are ways we can change it to make it work 
better for States and counties in a manner that is consistent with our 
national clean air goals. I would be interested to hear from our 
witnesses what suggestions they would have on how to improve this 
process.
    In 1991, Congress authorized $6 billion for the Congestion 
Mitigation and Air Quality Improvement Program (CMAQ) in order to help 
areas fight congestion in order to maintain conformity. Congress 
reauthorized the CMAQ program in TEA-21, and increased the funding to 
$8.1 billion over 6 years. The main goal of CMAQ is to fund 
transportation projects that reduce emissions in non-attainment and 
maintenance areas. A second goal of CMAQ is to fund projects that slow 
the growth of congestion, reduce emissions, and maintain economically 
viable and mobile communities.
    CMAQ funding is apportioned to the States by means of a formula 
that takes into account the severity of air quality problems and the 
size of affected populations. The States are required to spend the 
money in non-attainment areas and maintenance areas. CMAQ funds are 
focused primarily on the transportation control measures contained in 
the 1990 Clean Air Act Amendments. The primary purpose of these 
measures is to lessen the pollutants emitted by motor vehicles by 
decreasing travel demand and decreasing congestion. Over the first 8 
years of the CMAQ program, funding has been concentrated in two areas--
transit and traffic flow improvements.
    Having been funded at a total of $14.5 billion over 8 years, the 
CMAQ program represents less than 1 percent of the total amount spent 
by all levels of government on highway and transit projects. However, 
the fact that CMAQ funding will not solve an area's air quality or 
congestion problems single-handedly does not mean that the program is 
not valuable. In fact, one of its greatest benefits has been toward 
assisting areas in the demonstration of conformity--by funding 
emissions-reducing projects which will offset the emissions increases 
that are expected when highway projects are completed. Such projects 
have included park-and-ride facilities, high-occupancy vehicle lanes, 
traffic monitoring and incident management centers, special freeway 
service patrols, and emissions-testing programs.
    One major concern that I do have with the CMAQ program is that--in 
terms of reducing emissions--you don't get much bang for your buck. A 
recent study of the CMAQ program conducted by the National Academy of 
Sciences revealed that most CMAQ funds have been allocated to the least 
cost-effective strategies for reducing emissions. Department of 
Transportation statistics show that 89 percent of CMAQ-funded projects 
in 1997 reduced VOC emissions by fewer than 100 kilograms per day or 
less. In fact, 50 percent of these projects reduced VOC emissions by 
fewer than 5 kilograms per day or less. This is simply an unacceptable 
waste of taxpayer dollars when several CMAQ-funded projects, such as 
inspection and maintenance programs, have shown much higher emissions-
reduction totals.
    As this Committee considers whether to reauthorizing this program, 
we need to take a look at whether there any changes--such as reforming 
the criteria used to fund these projects--that will deliver more 
emissions-reductions bang for our bucks. I would be interested to hear 
from our witnesses what suggestions they would have on how best to 
accomplish this.
    I look forward to examining these issues in today's hearing. As I 
mentioned earlier, we need to find a way to reform these programs in a 
way that will allow our States to fight congestion in a manner 
consistent with our national clean air goals.
    Our witnesses on the first panel today include Mr. Jeffrey 
Holmstead, the Assistant Administrator for Air Quality at the 
Environmental Protection Agency, and Mr. Emil Frankel, the Assistant 
Secretary for Policy at the Department of Transportation. In our second 
panel we will hear from various witnesses about the effects these 
programs have on States and local MPOs. I would like to thank these 
witnesses for coming here today to discuss these issues and I look 
forward to their testimony.

    Senator Voinovich. The former chairman would like to make a 
brief opening statement.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. This will be brief. I have a lengthy 
statement I would like to have made a part of the record.
    [The prepared statement of Senator Jeffords follows:]
      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont
    Thank you Mr. Chairman. In July 2002, the committee held a hearing 
similar to the one we are having today. From that hearing, I concluded 
that while there may be occasional conflicts between air quality 
protection and transportation investments, the overall system is 
working pretty well and continues to improve.
    Today, I hope we will hear about the Administration's plans for 
increased funding for the CMAQ program and tightening the linkages 
between air quality and transportation planning and policies. 
Strengthening the conformity process and ensuring that adequate 
resources are available for planners is essential.
    It is becoming clearer all the time that our ability to meet 
national air quality standards and continue economic growth requires a 
very thoroughly integrated approach.
    There is no doubt that coordinating these two policy areas and 
disciplines is complicated. But, our CMAQ investments and conformity 
have encouraged smarter growth, better land use decisions, and provided 
air quality benefits.
    We should continue moving aggressively along this same path. If we 
don't, even tomorrow's cleaner vehicles could swamp our efforts to 
achieve cleaner air as their numbers grow and they travel ever farther.
    The total vehicle miles travelled (VMT) has grown 4 times faster 
than the rate of population growth in the last 30 years. And, at least 
one study in Tennessee indicates that the VMT increases there will 
overwhelm the reductions from the cleaner Tier 2 vehicles and heavy 
duty vehicles. This may make it difficult for them to attain the 
national air quality standards.
    There is no question that attaining the revised ozone and fine 
particulate standards will be a challenge for all communities across 
the United States. Fortunately, nonattainment status and conformity 
requirements due to that status will only be new to a relatively small 
portion of the areas.
    For those that may experience nonattainment for the first time, EPA 
and DOT should already be providing guidance, training and resources, 
so these new areas can be ready with the necessary expertise. I hope 
our witnesses will comment on that.
    Expanding and increasing funding for the CMAQ program will make it 
an even more important tool for communities to reduce vehicle emissions 
creatively and permanently so that the standards can be attained. We 
also need to look at possible ways that CMAQ can be used effectively in 
clean areas so they might stay clean and avoid being designated as a 
nonattainment area at all.
    The first transportation authorization bill of the 21st Century 
should, in all respects, bring us closer to the point at which vehicle 
emissions are a trivial or disappearing source of air quality and 
environmental health problems. That means dealing with all emissions, 
not just those that contribute to nonattainment.
    Mobile sources are a significant source of toxic air pollutants. In 
1998, the entire transportation sector was responsible for emitting 2.3 
million tons or 4.6 billion pounds of toxic air pollutants, such as 
benzene and 20 other hazardous chemicals.
    Recent studies indicate that people living within a short distance 
of high-volume freeways have a much higher than normal risk of cancer 
and other adverse health effects. EPA's final rule on mobile source air 
toxics, which is scheduled for July 2004, should consider these 
studies.
    Federal Highways should use this information in conducting NEPA 
analyses too.
    As the Committee heard in the August 2001 hearing on mobile source 
air pollution, the transportation sector is a huge and growing 
component of the nation's greenhouse gas emissions. One third or 1.8 
billion tons in carbon emissions comes from the sector, about 18 
percent above 1990 levels and continuing to rise. Senators know my 
belief about global warming. Scientists appearing before this Committee 
have told us that unmitigated increases in emissions increase the risks 
associated with global warming and climate change.
    This year's reauthorization bill is the place to start thinking 
about how to reduce greenhouse gas emissions from this sector. We must 
also look for ways to strengthen the linkages we have already forged 
between transportation and air quality and environmental health 
protection.
    I hope we will hear today from DOT and EPA on their proposals, if 
any, to change policy or law in this area as part of reauthorization, 
rather than revisiting this again later.

    Senator Jeffords. One of the witnesses in the second panel 
is Jerry Lasker with whom I have worked since I was mayor of 
the city of Tulsa. We have gone through attainment programs 
over the years. This is something we are going to try to do 
under the leadership of Senator Voinovich to come up with some 
real sensible compromises and efforts to work with the States, 
the countries, and areas so that we are not assuming an 
attitude of punishment, but of help.
    So I look forward to working with you on your subcommittee, 
Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    I would like to welcome the two witnesses on our first 
panel. Our first witness is the Honorable Emil H. Frankel, 
Assistant Secretary for Transportation Policy, U.S. Department 
of Transportation. Mr. Frankel, we are glad to have you here.
    Our second witness is the Honorable Jeffrey R. Holmstead, 
Assistant Administrator for Air and Radiation, U.S. 
Environmental Protection Agency.
    We are here to discuss two programs--the Conformity Program 
under the Clean Air Act, and the Congestion Litigation and Air 
Quality, or CMAQ Program under TEA-21. Although these two 
programs are placed under separate enabling legislation, they 
both have to do with two major problems that we have in this 
country--congestion and air quality.
    I would like to call on you first, Mr. Holmstead.

STATEMENT OF HON. JEFFREY R. HOLMSTEAD, ASSISTANT ADMINISTRATOR 
     FOR AIR AND RADIATION, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Holmstead. Thank you very much for having me, Chairman 
Voinovich, and Chairman Inhofe. I am delighted to be here 
today. With your permission, I would also like to submit my 
written statement for the record.
    Congress has long recognized that a successful strategy for 
reducing emissions from mobile sources must address the 
vehicles we drive, the fuels we use, and the roads on which we 
travel. This morning, as you mentioned, I would like to briefly 
offer my thoughts on these programs--the Congestion Mitigation 
and Air Quality (CMAQ) Improvement Program and the 
Transportation Conformity Program.
    Since the passage of the Clean Air Act in 1970, we as a 
country have been extremely successful in reducing pollution 
from cars, trucks, and other mobile sources. For example, as I 
think you know, new cars today are more than 90 percent cleaner 
than cars purchased 30 years ago. They will become even cleaner 
still as the Agency gears to passenger and light truck 
standards and related fuel requirements that come into place 
beginning next year.
    In addition, new technologies for diesel engines, which are 
enabled by cleaner diesel fuel will result in even greater 
emission reductions over the next few years. Beginning in 2007, 
new heavy-duty diesel trucks and buses will be more than 90 
percent cleaner than they are today. Within the next 2 months, 
we will be proposing a rule for non-road diesel engines and 
fuels that will achieve even greater emission reductions than 
the 2007 rule for on-road trucks and buses.
    Concentrations of the four key pollutants affected most by 
the transportation sector--carbon monoxide, nitrogen dioxide, 
ozone, and particulate matter--have all declined significantly. 
They will decline even more because of the upcoming standards I 
just mentioned. These reductions will help protect public 
health by reducing incidents of premature mortality, asthma 
attacks, and other health problems caused by air pollution. 
These reductions are obviously extremely good news.
    But we have also learned that cleaner cars and cleaner 
fuels alone cannot achieve the air quality improvements we 
need. Notwithstanding all the progress we have made, 
transportation is still a major contributor to air quality 
problems. It accounts for about 15 percent of inventoried 
particulate matter emissions, almost 30 percent of the 
pollutants that cause ozone, and 62 percent of carbon monoxide 
emissions.
    Preliminary data suggests that about 80 million people will 
live in areas that don't meet the new National Ambient Air 
Quality Standard for ozone and about 75 million will live in 
areas not meeting the new fine particulate matter standard. The 
number of cars and the number of miles driven continue to 
increase dramatically. Since 1970, the number of vehicle miles 
driven has almost tripled to 2.8 trillion miles a year.
    CMAQ is an innovative and important tool designed to reduce 
pollution from the transportation sector by funding innovative 
projects and programs to reduce emissions, and also vehicle 
miles traveled. Many of these projects have not only improved 
air quality, but have the added benefit of reducing traffic 
congestion and making communities more livable.
    We agree with the recommendation of the National Academy of 
Sciences that CMAQ should be continued and even expanded in 
certain ways. We also agree, however, that this program can and 
should be improved. For example, fine particulate matter, or 
PM<INF>2.5</INF>, is the biggest health concern posed by air 
pollution and is clearly linked to motor vehicles.
    But fine particulate matter and the technologies to address 
it, such as diesel engine retrofits and anti-idling 
technologies are not currently considered in the allocation 
formula or eligibility criteria of CMAQ. As more areas need 
funds to help them address congestion and air quality issues, 
it is also clear that pressure on funding decisions will only 
increase, and so will the need for State and local 
transportation and air quality agencies to work together 
closely to select projects for funding. We believe that more 
effective consultation between air quality planners and 
transportation planners is critical to maximize the air quality 
benefits of limited CMAQ resources.
    In addition, areas that are able to make the leap from non-
attainment to attainment are essentially penalized by 
reductions to their CMAQ funds. We believe that this 
disincentive needs to be addressed and that a more stable 
funding basis should be provided for areas redesignated to 
attainment.
    In addition to the CMAQ program, Congress created another 
program known as the Transportation Conformity Program to 
ensure that air quality planning and transportation planning 
are better coordinated. We believe that the Conformity Program 
has helped to maintain progress toward meeting air quality 
goals without unduly compromising improvements in our 
transportation network. We also believe, however, that this 
program can and should be improved.
    As I mentioned earlier, new National Ambient Air Quality 
Standards for ozone and fine particulate matter will become 
effective in 2004. A significant number of counties will become 
new non-attainment areas under these new standards. A number of 
people have expressed concern about what this will mean for 
transportation programs. I want to just briefly address these 
concerns.
    We understand that there will be challenges, but we have 
learned a lot about the Conformity Program over the last 
decade. Perhaps more importantly, local and State agencies have 
developed expertise that will provide a solid basis for 
success. We are working with the Department of Transportation 
(DOT) to develop new conformity guidance and regulations that 
will streamline the program without compromising its air 
quality benefits. We also will be working with DOT to provide 
training and other assistance to help new non-attainment areas 
implement the Conformity Program successfully.
    Finally, I would like to briefly address a couple of common 
misperceptions about what happens if a State fails to meet the 
conformity deadlines. This is often referred to as a conformity 
lapse.
    First, these conformity lapses are relatively infrequent 
and generally resolved quickly. In some cases, conformity 
lapses have delayed some highway funding until the plan is 
approved. I don't want to minimize the impact of these delays 
because I know they can be disruptive. However, we are not 
aware of any State that has actually lost highway funding due 
to a conformity lapse.
    I know that there will be many questions about these 
issues. I would be delighted to answer those questions and to 
work with the committee to discuss these and any other issues.
    Thank you.
    Senator Voinovich. Thank you, Mr. Holmstead.
    Mr. Frankel.

  STATEMENT OF HON. EMIL H. FRANKEL, ASSISTANT SECRETARY FOR 
      TRANSPORTATION POLICY, DEPARTMENT OF TRANSPORTATION

    Mr. Frankel. Mr. Chairman, thank you for the opportunity to 
discuss transportation conformity and the CMAQ Program--the 
Congestion Mitigation Air Quality Program.
    I would also ask that my written statement be made part of 
the record of this hearing.
    Meeting the dual challenges of congestion relief and air 
quality improvement is a very high priority for the Department 
of Transportation, as I know it is for you personally and for 
the members of this subcommittee and the committee.
    Secretary Mineta has noted that one of the core principles 
of the Department of Transportation's efforts to reauthorize 
TEA-21 will be to ensure an efficient infrastructure while 
retaining environmental protections that enhance our quality of 
life.
    As you know, the bill to reauthorize TEA-21 is currently in 
interagency review and clearance. We are anticipating that that 
bill will be introduced to Congress within the next few weeks. 
While I obviously, under those circumstances, can't go into the 
specifics of the bill, which, therefore is not yet the 
Administration's bill, I do want to assure you that 
continuation of a robust and strong CMAQ Program will be a key 
feature of our proposal, building on the approximately $14 
billion that has been spent under this Program since its 
adoption in ISTEA.
    Over the last 30 years, as Mr. Holmstead has said, we have 
made remarkable progress in reducing air pollution, 
particularly from transportation sources. Since 1970, we have 
reduced carbon monoxide emissions by 45 percent, coarse 
particulate matter, or PM<INF>10</INF> emissions, by 38 
percent, and volatile organic compounds, VOC emissions, by 61 
percent, despite increases in population, GDP, and vehicle 
miles traveled.
    The automotive fuels: highway, and transit communities have 
managed to achieve this success while still working to improve 
mobility.
    While the downward trend in emissions is expected to 
continue, some of our Nation's largest metropolitan areas still 
face challenges in meeting the current 1-hour ozone standard. 
We must meet the challenges of implementing the new Ambient Air 
Quality Standards. The Department of Transportation and EPA are 
working together to help the States meet these challenges.
    We have learned a lot about the linkages between 
transportation and air quality, including that there is no one 
right way for the entire Nation to reduce congestion and 
improve air quality. The problem requires a flexible multilevel 
solution. The CMAQ Program provides States flexibility to fund 
transportation improvements that cross traditional Federal aid 
program boundaries, including transit, ride-sharing, bicycle 
and pedestrian, alternative fuels and vehicles, emissions 
inspection and maintenance, and ITS--Intelligence 
Transportation System--implementation.
    In addition, CMAQ supports experimentation by States and 
MPOs to meet travel demand in the most environmentally 
sensitive ways and has encouraged cooperation between 
transportation and air quality agencies.
    As we approach reauthorization of TEA-21 we must consider 
stakeholder concerns about the CMAQ Program. One issue relates 
to the statutory apportionment formula which I know is of 
interest to you and to members of this subcommittee. The 
current formula does not take into account areas that would be 
designated under the new Ambient Air Quality Standards. There 
is some concern that State apportionments would not be based on 
the total number of people living in non-attainment areas.
    Another issue relates to the integration of transportation 
and air quality planning. We have now almost a decade of 
experience in implementing the Clean Air Act's Transportation 
Conformity Provisions. Stronger institutional links between 
transportation and air quality planning agencies have been 
created and this has led to the development of more realistic 
plans.
    In addition, the conformity provisions have been 
instrumental in fostering improvements to the modeling 
processes. However, we have heard concerns that transportation 
and air quality plans are not synchronized and that this can 
cause unwarranted lapses in conformity that can disrupt the 
transportation funding process.
    While transportation plans have very long planning horizons 
and are updated frequently, most air quality plans have very 
short planning horizons and are updated less frequently. DOT 
and EPA are evaluating all of these issues as part of the 
reauthorization process.
    DOT actions other than highway and transit, such as airport 
development, are subject to a different EPA rule, the General 
Conformity Rule. We are working with EPA to improve 
implementation of these requirements as well.
    In addition, EPA's new Ambient Air Quality Standards will 
also impact the conformity process. These new standards are 
more stringent. Many areas across the Eastern United States and 
California have pollution levels now exceeding these standards. 
It is too early to tell the magnitude of transportation and air 
quality planning and conformity issues that might surface 
following implementation of the new standards. But the 
Department of Transportation and EPA are working with these 
areas to increase their capacity to deal with new non-
attainment designations and conformity.
    Finally, I want to assure you that the Department is 
committed to continue the progress our Nation has made in 
reducing motor vehicle emissions. I am proud of our successes 
under CMAQ with flexible funding for innovative transportation 
projects that improve air quality and mitigate the congestion. 
Continued progress will require improved coordination of the 
transportation and air quality planning processes.
    The American public demands and deserves both mobility and 
clean air. We must remain focused on providing the highest 
level of service and environmental protection possible.
    Mr. Chairman, this concludes my oral statement. I look 
forward to working with you and your colleagues as we prepare 
for reauthorization of the surface transportation programs and 
responding to any questions you may have.
    Senator Voinovich. Thank you, Mr. Frankel.
    The chairman has asked that I insert in the record, after 
his short opening statement, a letter from the National 
Association of Home Builders.
    Without objection, it will be inserted in the record.
    [The referenced statement and letter follow:]
         Statement of Hon. James M. Inhofe, U.S. Senator from 
                         the State of Oklahoma
    Over the years, I've have had the opportunity to work on the issue 
of conformity quite a bit. Having chaired this subcommittee during TEA-
21, I worked to ensure that States had the tools necessary to meet the 
requirements in the Clean Air Act. Working with Senator Bond, this 
committee gave States the flexibility to demonstrate conformity once an 
area may be newly designated as being in non-attainment. These new non-
attainment areas were given a 1-year grace period to demonstrate 
conformity avoiding the immediate risk of losing critical funding for 
highway projects.
    More recently, having served as Ranking Member for the 
Transportation and Infrastructure Subcommittee, I, again, had the 
opportunity to work closely on the issue of conformity by working to 
ensure that requirements of the Clean Air Act and the transportation 
needs of States and communities do not run in conflict with each other.
    Today, conformity remains a major issue. It is crucial that the 
important goals of conformity remain a top priority of the work of this 
committee. We must work to ensure that rather than being a process 
driven issue, conformity will be about striking the right balance 
between transportation needs and improving air quality standards, and 
allowing communities the flexibility to achieve both.
    I am pleased to report to this Committee that currently Oklahoma is 
fully in attainment. However, my home town of Tulsa may soon face 
issues with ozone attainment with the adoption of the new standards. I 
have invited Mr. Jerry Lasker here today representing the MPO for 
Northeastern Oklahoma. I understand that Tulsa is working on an ``early 
action compact'' to avoid a non-attainment designation. I look forward 
to hearing Mr. Lasker's testimony today on this ``compact.'' I wanted 
to highlight the ``early action compact'' because it is just another 
example of flexibility for States to meet air quality and 
transportation needs. Programs like early action compacts should shape 
our frame of mind in considering issues of conformity and attainment.
    Nevertheless, there are currently 196 counties in non-attainment 
for ozone. However, under the new standards, there will be 291 counties 
in non-attainment for ozone. In reality, this figure will be much, much 
higher because counties that are on the boarders of these new 291 non-
attainment counties will be also placed in non-attainment. With this 
many more areas in non-attainment, these ``early action compacts'' 
could be more important than ever. Regardless, these attainment 
problems around the country are the makings of a ``perfect conformity 
storm.'' Therefore, we must take a very close look at the issues 
surrounding conformity.
    Specifically, we should look at:
    1. Synchronizing conformity requirements with State Implementation 
Plans (SIP's), Transportation Improvement Plans (TIP's), and long range 
transportation plans in a better way;
    2. Ensuring that governmental agencies and MPO's have more 
flexibility on conformity; and
    3. A greater degree of predictability on the conformity process for 
the private sector.
    Under the same principle of flexibility, CMAQ was designed to give 
States flexibility to tailor projects to meet attainment with NAAQS. 
With ISTEA's and TEA-21's authorization of CMAQ funds, we now have a 
number of years of experience to evaluate the value of CMAQ funding to 
States. With that information and National Academy of Sciences Report 
264, it is important that this committee consider the future of CMAQ as 
to how best to enable States to meet air quality attainment.
    One last item: I would like to submit for the record testimony from 
the National Association of Homebuilders. I think Members and staff 
would benefit from NAHB's interesting perspective on the issues of 
conformity and CMAQ.
    I look forward to hearing from our witnesses today, and, again, 
would like to welcome Mr. Lasker and thank him for coming all the way 
to Washington from Oklahoma to help educate the Committee on these 
issues.
                                 ______
                                 
         Statement of the National Association of Home Builders
    Thank you for the opportunity to submit a statement for the record 
presenting the views of the National Association of Home Builders 
(NAHB) on the issue of the Congestion Mitigation and Air Quality 
Improvement Program (CMAQ) and transportation conformity process and 
their impact on the home building industry.
    NAHB represents more than 205,000 member firms involved in home 
building, remodeling, multifamily construction, property management, 
housing finance, building product manufacturing and other aspects of 
residential and light commercial construction. The members of NAHB 
recognize the importance and value of a safe, easily accessible and 
reliable transportation system. Homeowners and potential homebuyers 
depend upon transportation systems to move from homes, to places of 
employment, to shopping and to schools. Homeowners also demand 
communities with clean air. The transportation conformity process 
creates the nexus between the necessity of a safe and efficient 
transportation system with the desire for maintaining clean air. 
Unfortunately, the conformity process can be confusing, bureaucratic 
and burdensome without necessarily demonstrating unmistakable air 
quality benefits. The transportation conformity program goals and 
processes must be reevaluated and reforms need to be made. NAHB's 
members believe that the building industry can play a constructive role 
in addressing this issue.
                               background
Transportation Conformity
    Transportation conformity is a requirement under the Clean Air Act 
(CAA) and the Transportation Equity Act for the 21st Century (TEA-21) 
that mandates States with impaired air quality to conduct air quality 
assessments prior to Federal approval, or the expenditure of Federal 
funds, for construction of any major transportation project that may 
have an impact on regional air quality (e.g., highway expansion, bridge 
construction, new freeway construction, or transit project). In short, 
it is a Federal requirement that local transportation plans must 
``conform'' to the State air quality plan.
    Transportation conformity applies to counties with impaired air 
quality (``called ``non-attainment'' areas--today there are 
approximately 276 counties in 32 States that the U.S. Environmental 
Protection Agency (EPA) has designated as having excessive amounts of 
ozone (smog), particulate matter (soot), carbon monoxide, and/or 
nitrogen dioxide. In addition, EPA is in the process of implementing 
new, more stringent standards for ozone and particulate matter. With 
the implementation of these new standards, the number of non-attainment 
areas considered to have impaired air quality and subject to 
transportation conformity requirements could double by 2007.
    A transportation conformity determination is set up as an all-or-
nothing proposition. The projects in the local transportation plan are 
taken in the aggregate. If local planners are unable to show conformity 
of both a 20-year transportation plan and a 3-year transportation plan 
(including the funding to back the projects contained in those plans) 
with a the State air quality plan, the area experiences a ``conformity 
lapse.'' The result of a conformity lapse is that all Federal 
transportation funding for the area is frozen until the transportation 
plans are approved. With Federal funding suspended due to a conformity 
lapse, badly needed transportation projects are delayed or even 
canceled, leaving the population of these areas with continued traffic 
congestion and no better air quality.
Congestion Mitigation and Air Quality Improvement Program (CMAQ)
    Enacted as part of the Intermodal Surface Transportation Efficiency 
Act of 1991 and reauthorized in TEA-21, the CMAQ program sought to 
highlight the impact highways and transportation facilities have on the 
environment and quality of life. The CMAQ program provides a flexible 
funding source to State and local governments for transportation 
projects and programs that improve air quality and congestion in areas 
of the country with the most severe air quality problems. Originally, 
funding was available for only non-attainment areas for ozone and 
carbon monoxide. However, TEA-21 expanded the program to include former 
non-attainment areas that are now in Clean Air Act compliance 
(maintenance areas). Eligible activities for CMAQ funding include 
transit improvements, traffic flow improvements, cleaner fuels 
conversion of public vehicles, and bicycle and pedestrian programs that 
reduce congestion and emissions and improve the quality of life.
Impacts on the Home Building Industry
    By all measures, the housing industry, which accounts for 14 
percent of the nation's Gross Domestic Product, has been a bellwether 
during the recent difficult economic times. Fortunately, to date, 
transportation conformity requirements have not hindered the industry's 
ability to continue producing safe, affordable housing in most cities. 
In recent economic data for 2002, builders produced 1.7 million housing 
units, including 1.36 million single-family units and 345,000 
multifamily units. As a result, U.S. homeownership reached its highest 
level--yet 68.3 percent--in 2002's final quarter. Over the past year, 
low interest rates and strong underlying demographic demand has kept 
housing strong while the rest of the economy has struggled to regain 
its footing.
    The construction of 1,000 single-family homes generates 2,448 jobs 
in construction and construction-related industries, approximately 
$79.4 million in wages and more than $42.5 million in Federal State and 
local revenues. The construction of 1,000 multifamily homes generates 
1,030 jobs in construction and related industries, approximately $33.5 
million in wages, and more than $17.8 million in Federal, State and 
local revenues and fees. NAHB members will construct approximately 
eighty percent of the almost 1.6 million new housing units projected 
for 2003.
    In 2001, 41 of the largest 50 housing markets in the United States 
were either non-attainment or maintenance areas subject to 
transportation conformity requirements. As these population centers 
grow, the demand for affordable housing must be coupled with the need 
for a safe, efficient and modern transportation system. Driven by 
consumer demand, land developers and builders plan their projects 
according to local growth plans. Local transportation plans and 
projects must be designed to complement and support the local growth 
plan. Since many consumers factor transportation into their decisions 
about home location, delayed or canceled transportation projects change 
the demands of the homebuyer after development projects are planned or 
even completed. If a metropolitan area is unable to appropriately wade 
through the red-tape of the Federal conformity requirements so that it 
can keep transportation project funding flowing, previously approved 
transportation projects are halted, the congestion continues, and 
homebuyers are left idling in traffic.
    In 1999, a NAHB survey showed that 83 percent of the survey's 
respondents favored a detached single-family home in a suburban setting 
with a longer commute to work and farther distances to public 
transportation and shopping. Overwhelmingly, the survey showed that the 
greatest concern to respondents was traffic congestion. Respondents 
chose road widening (44 percent), new road construction (27 percent) 
and greater availability to public transportation (33 percent) as 
solutions to traffic problems. Though a substantial number of 
respondents advocated the use of public transportation, 92 percent 
owned automobiles and 85 percent said that they use them for commuting.
    The survey highlights the tradeoff Americans are willing to make: 
tolerance of traffic congestion in return for the home of their choice, 
in the setting of their choice. Further, while Americans support public 
transportation, they rely on the automobile as their primary means of 
transportation and support transportation improvements to ease traffic 
congestion. It is clear that transportation, whether by automobile or 
by transit, is a vital component of the decisionmaking process for 
homebuyers. This point is not lost on home builders. Home builders 
depend on a safe, efficient, modern transportation system (to 
complement land use choices and patterns) because it is an important 
selling point for the homebuyers they serve.
NAHB Activity
    NAHB began working on transportation conformity in 1999 when 
environmental advocates in Atlanta, Georgia decided to mount legal 
challenges to transportation plans in Federal court. Throughout the 
country, environmental groups have petitioned Federal courts to have 
transportation plans frozen and then voided by the court because they 
are ``flawed'' in some way. If a transportation plan is stricken, 
essentially there is no plan and, therefore, no conformity. Without 
conformity, Federal funding would be frozen until a ``better'' plan is 
approved.
    In response, NAHB formed a coalition with other construction 
interests to intervene on a national level in transportation conformity 
lawsuits. NAHB has participated in transportation-related litigation in 
Sacramento, Atlanta, Baltimore, and Salt Lake City. NAHB is of the 
opinion that Congress did not intend for environmental groups to have 
standing to challenge transportation planning decisions under the 
Federal Aid Highways Act and that the courts should not resort to 
picking and choosing specific transportation projects for a region. 
Congress envisioned a dynamic process where transportation documents 
are continuously reviewed and updated on a regular basis in an effort 
to account for new data, technology improvements, and shifts in 
transportation growth. The conformity process is not static, and by 
necessity, is dependent on estimates and predictions based on ever-
changing data and projections regarding future transportation trends. 
However, while this litigation continues, it is imperative for parties 
with an economic interest or those parties who are reasonably affected 
by an ultimate decision have the opportunity to intervene in those 
lawsuits. Efforts to keep transportation planning flowing without 
court-selection of specific transportation projects have been very 
successful.
    NAHB has also recognized that a conformity lapse can result from a 
poorly coordinated administrative process as much as any court 
decision. For example, Houston was days away from lapse in the summer 
of 2001, and San Francisco did experience conformity lapse twice in 
2002. Both of these areas became bogged down in underlying challenges 
to State air quality planning (such as modeling issues) that overlapped 
with upcoming deadlines for approval of transportation plans. It was 
not that the transportation plan itself was flawed, but that the air 
quality plan approval process was not synchronized with the 
transportation plan approval process. The transportation planning 
process itself can be unnecessarily burdensome on local planners, and 
changes should be made to the requirements to facilitate better air 
quality and transportation planning.
Concerns about Current Transportation Conformity Requirements
    In reconsidering transportation conformity while reauthorizing TEA-
21, NAHB urges Congress to carefully weigh the air quality benefits 
gained by implementing the complicated transportation conformity 
requirements against the economic impacts of the current transportation 
conformity system. NAHB supports air quality planning aimed at reaching 
the goals of the CAA and understands the need for future motor vehicle 
emissions to be factored into transportation planning. As the 
reauthorization effort progresses, Congress first should carefully 
consider whether the transportation conformity program is fundamentally 
addressing the goals of Congress.
    NAHB would like to work with Congress to address the major problems 
with the transportation conformity program. Through several meetings 
and conversations with industry stakeholders and transportation and 
environmental officials, NAHB has identified several areas of concern:
    <bullet> The inconsistency of statutory timelines between 
transportation and air quality plans results in the delay of 
transportation projects and subjects MPOs to excessive and burdensome 
planning requirements. Under TEA-21, conformity is required at least 
every 3 years, the regional transportation plan must be revised every 3 
years and the transportation improvement program (although a 3-year 
plan) must be revised every 2 years. Congress should enact statutory 
reforms to merge transportation and clean air requirements into a 
single timeline that avoids overlapping efforts and additional 
conformity requirements.
    <bullet> Excessive statutory triggers result in non-attainment 
areas continually performing countless transportation conformity 
demonstrations that often overlap and are considered obsolete before 
they are complete. Under the existing transportation conformity 
program, non-attainment areas must demonstrate conformity each time EPA 
proposes or approves a State Implementation Plan (SIP), each time EPA 
modifies a control measure that impacts the motor vehicle emissions 
budget (MVEB), and each time a transportation control measure is added, 
modified or deleted. Conformity determinations are also required each 
time a MPO adds or modifies a project in its transportation plan. 
Congress should ensure that conformity determinations are only required 
once every 3 years and on a cycle that has timelines consistent with 
transportation planning. Further, Congress should consider establishing 
a level of change in the MVEB below which MPOs can make changes to the 
transportation program without triggering a conformity determination.
    <bullet> Transportation planners are confused by current EPA and 
U.S. Department of Transportation (DOT) guidance about what procedures 
should be followed and which data should be used in planning. Under the 
current transportation conformity system, the introduction of ``new'' 
air or transportation data triggers the need for a new air quality plan 
and, in turn, a new conformity determination. Unfortunately, it is 
difficult to find a balance between introducing new air and 
transportation data into the system while still maximizing the time 
available to State and local transportation planners to make conformity 
determinations prior to statutory deadlines. Congress should ensure 
that a region is not liable for new data that becomes available during 
the course of developing a conformity determination. By doing so, an 
area will be able to meet conformity timelines and avoid penalizing the 
area for ongoing data collection and analysis.
    <bullet> The Federal agencies have not concluded properly or 
consistently what kind of transportation projects can move forward 
during a transportation conformity lapse. As EPA and DOT address a 
court decision from 1999 that interprets the statute, once a project is 
approved by a local government and well on its way to becoming a 
reality, conformity lapse can leave a partially completed project 
unfinished. Unfinished or idled transportation projects serve only to 
perpetuate traffic congestion and dirty air, the very consequences 
these projects presumably are intended to alleviate.
    <bullet> The way that EPA implements its new 8-hour ozone and fine 
particulate matter standards will have significant impact on the 
transportation conformity process. As stated previously, the number of 
non-attainment areas may double, limiting State and Federal resources. 
Further, the newly designated non-attainment areas will have little 
experience with the implementation of an already complicated conformity 
process.
Concerns about the Congestion Mitigation and Air Quality (CMAQ) Program
    Unfortunately, over its history, the CMAQ program, which is 
extremely popular with State and local officials, has funded some 
questionable projects that fail to improve air quality. As a result, in 
1998 Congress requested a National Academy of Sciences (NAS) study of 
the program's effectiveness in improving air quality. The study 
recommended reauthorization of the CMAQ program with caveats, such as 
that State and local air quality agencies should be more involved in 
the CMAQ project decisionmaking process and that CMAQ funding should be 
expanded to areas with pollutants other than ozone and carbon monoxide.
    During the reauthorization of TEA-21, NAHB urges Congress to weigh 
the air quality benefits gained by the current administration of the 
CMAQ program. First, Congress should fully examine whether the CMAQ 
program is realizing the goals of Congress. Through several meetings 
and conversations with industry stakeholders and transportation and 
environmental officials, NAHB has identified the following areas of 
concern:
    <bullet> CMAQ-funded projects must not only reduce congestion but 
also be scientifically proven to provide air quality benefits. By 
allowing projects with questionable results to continue to be funded, 
the CMAQ program is not fulfilling its intended goals of cleaning the 
air and reducing congestion. Further, the program is not making 
efficient use of taxpayers' dollars and deriving no air quality 
benefits for the citizens who live in non-attainment areas, the very 
citizens the program is designed to help.
    <bullet> Congress should preserve the original intent of the CMAQ 
program by ensuring that funding is used exclusively in non-attainment 
and maintenance areas. Opening up the CMAQ program to non-designated 
areas would serve only to dilute the already limited funding levels and 
take away projects from the areas that need the funding the most 
desperately.
    <bullet> Only a fully funded CMAQ program that accounts for the 
increase in non-attainment areas will ensure the popular program's 
viability. As stated previously, due to EPA's implementation of the new 
8-hour ozone and fine particulate matter standards, the number of non-
attainment areas may double, stretching limited CMAQ funding.
    Thank you for allowing NAHB the opportunity to share its views on 
the CMAQ and transportation conformity programs. NAHB applauds the 
efforts of the Senate Environment and Public Works Committee to tackle 
these difficult issues. We look forward to working with members of the 
committee on these issue and other issues of concern to the home 
building industry during the reauthorization of TEA-21.

    Senator Voinovich. Mr. Holmstead, several years ago, as a 
matter of fact when Senator Chafee was chairman of this 
committee, I indicated that under the new National Ambient Air 
Quality Standards that many communities would not be in 
conformity with the new ozone and particulate standards.
    According to the information that I have, under the new 
Standards, you will have 232 counties in 32 States that will be 
designated non-attainment and 176 counties in 26 States for 
PM<INF>2.5</INF> standard in 2005. In my own State, the 
statistics are that 30 of Ohio's 88 counties are projected by 
EPA to be designated as non-attainment for the new ozone 
standards, and 15 counties in 2005 for the particulate 
standards.
    As you know from previous conversations that we have had, I 
am very proud of the fact that when I was Governor of Ohio we 
worked very hard to bring all of our counties into attainment. 
Under these new standards, many of them are going to fall out 
of attainment.
    What are you going to do for these counties in terms of the 
problem of conformity? Many of the projections are that we 
could lose $1.7 billion of money in terms of these counties not 
being in conformity. You have talked about new technology that 
is out there, such as automobiles are cleaner.
    Where are you going right now, looking down the road, as to 
how this is going to be handled so we don't end up having a 
gigantic traffic jam of projects that are going nowhere?
    Mr. Holmstead. We are keenly aware of this issue. As you 
may know, we are going through this process that will culminate 
in April of next year of actually designating areas. We 
anticipate that nationally there will be about 50 new areas 
that haven't really had to deal with conformity before. As Mr. 
Frankel mentioned, we are doing a couple of things to address 
this issue.
    We are working with DOT to make the Conformity Program work 
better. There are things that we believe that we can do 
administratively. We are now, in fact, working on new 
conformity regulations that will address many of the issues 
faced by these new areas. We also will be providing additional 
assistance and training to States and local governments so that 
they can understand how the process works.
    One of the things that we take some comfort in is that when 
the Conformity Program was first created under the 1990 
Amendments--and you are certainly aware of all of the issues 
that that raised--there were some significant bumps in the road 
as people began doing conformity for the first time. I think 
EPA has learned from that experience.
    Senator Voinovich. They weren't doing conformity. Period. 
We had a lawsuit that was filed because people were ignoring 
that. We had quite a crisis for awhile to try to see if we 
could clean it up.
    Mr. Holmstead. We anticipate that this transition will be 
quite a bit smoother in part because our regulatory programs 
will be improved. We have ironed out some of the bugs in large 
part because of what Mr. Frankel mentioned. The tools are 
available to make this work. I don't want to minimize the 
challenges that we will face, but we really are doing 
everything we can within the current statutory scheme to try to 
minimize the burden, while at the same time encouraging State 
air quality planners and transportation planners to continue to 
work together on these issues.
    Senator Voinovich. Have you sat down and looked down the 
road at some of the major projects that are contemplated in 
areas where you know there will be non-attainment of ozone and 
particulate matter standards?
    Mr. Holmstead. I haven't done that personally. I am sure 
that is something that we could respond to you. I know that 
many of the areas that now have conformity lapses are areas 
where there are no projects going on, so they have no real need 
to resolve those lapses. This is something that Mr. Frankel and 
I could probably do together. We could look at where some of 
the upcoming projects are expected to come.
    As I think you might know, projects that are already 
approved, or steps in projects that are already approved, are 
not subject to these conformity lapses. So those will continue, 
as will many of the other non-exempt projects. At this point, I 
don't think we are anticipating that there will be a 
significant number of conformity lapses.
    I think it makes sense for us to look at big projects 
coming up in some of these areas. But we really don't expect 
that there will be a significant number of conformity lapses 
because of the way the program has been refined over the years.
    Senator Voinovich. Well, for example, in our State we have 
a track system of transportation allocation of resources. We 
have Tier 1, Tier 2, and Tier 3. We know what we are going to 
be doing in the next several years. Right away, design has been 
done. It would seem to me that you would look down the road to 
see where those kinds of things are going to occur. You are 
talking about educating people about what they can do. It seems 
to me that is where you can spend a little more time in some 
other areas.
    The other thing is that I would be very interested--and I 
know other members of the committee would be as well--as to how 
you are going about doing this. I think it is really important 
that those regulations be vetted; we would then have a lot of 
input. Once this is done, we won't have a cry from a lot of 
people out there saying that you are trying to get around the 
new ozone and particulate matter standards and trying to avoid 
the laws. This is what triggered the lawsuit that got us in a 
jam several years ago.
    Mr. Holmstead. Currently, we are going through what we 
refer to as a ``stakeholder process,'' to make sure that we 
really do understand the issues of various stakeholders. We are 
confident that the refinements that we are looking at will be 
fully in accordance with the laws. So we don't expect any 
significant problems there. We will have these revised 
regulations and guidance out well before areas are actually 
designated under the new standards.
    Senator Voinovich. You will share that with the committee?
    Mr. Holmstead. Yes.
    Senator Voinovich. Thank you.
    Mr. Frankel, you say that $14 billion has been spent over 
the last 8 years. I am familiar with some of those projects in 
the State of Ohio. The information that I have is that a lot of 
that money that has been spent has not gone for projects that 
really do very much about reducing emissions. In fact, I think 
the National Academy of Sciences did a study of them and was 
quite critical that many of the projects that were done. One 
could question about whether or not they complied with the 
congressional intent.
    I just wonder. Are you contemplating looking at some new 
criteria in determining which of those projects are going to be 
funded? There are certain ones that were highlighted in that 
study that contributed more toward reducing emission and 
helping with the conformity problem than many others. Could you 
share with us what your thinking on that is?
    Mr. Frankel. Well, Mr. Chairman, first of all, roughly $14 
billion has been authorized and $11 billion spent since the 
beginning of the program in 1991 and the enactment of ISTEA. 
That is actually a little longer period. As Mr. Holmstead has 
said, and as you acknowledged, the National Academy of Science 
study was generally supportive of the program and recommended 
its continuation.
    It is, as is true under the programs under TEA-21, and 
ISTEA before it, a grant program--in this case to the States, 
depending on their level of air quality attainment. There is 
flexibility on the part of the States and MPOs to develop 
specific programs and projects. Funded projects do have to meet 
certain standards, obviously, and must contribute to air 
quality improvements and congestion relief.
    We are looking, in the context of the reauthorization bill, 
at eligibility issues and what sorts of projects should be 
eligible or not. We will continue to examine what projects are 
selected by States to make sure, through general oversight of 
these programs, that the projects are consistent with the 
program requirements.
    As is true of programs under TEA-21 generally, there is 
flexibility on the part of States to develop programs that meet 
these goals. Overall, it is hard to measure the specific impact 
of the CMAQ program on improvements in air quality, let alone 
the impact of individual projects.
    I think you would acknowledge this, and both of us have 
said, there have been dramatic improvements in the reduction of 
emissions attributable to mobile sources. CMAQ has been a big 
part of that. I think CMAQ will continue to make those 
contributions while DOT exercises appropriate oversight of the 
program.
    Senator Voinovich. Well, I would like to have you review 
that report and get back to us with your comments on it. 
Perhaps you can give some consideration in terms of language. 
We want to be sure that we don't build a bunch of garages all 
over the United States that couldn't be built with any other 
money. CMAQ funds are there and people go after them.
    I just think that the programs that are being supported and 
paid for ought to have some real connection with reducing 
emissions in the area and helping with conformity. I know that 
is a tough one. I am for flexibility, but if you look at them, 
they don't fit in with the law that made this money available.
    Mr. Frankel. I appreciate that, Senator. We will be 
responsive to that.
    [Material to be supplied follows:]

    Response to Senator Voinovich's request: The National Academy of 
Sciences (NAS) report makes ten major recommendations in four different 
areas of evaluation. A review of each is discussed below.
    NAS Recommendation 1. The Congestion Mitigation and Air Quality 
Improvement Program (CMAQ) has value and should be reauthorized with 
modifications.
    We agree that CMAQ has value and should be continued. It is the 
only transportation program focused on contributing to improvement in 
air quality. We agree that some modifications are warranted, primarily 
for streamlining the program and allowing for funding of areas that 
will become nonattainment under the Environmental Protection Agency's 
new air quality standards. The exact changes that will be contained in 
the Administration's proposal for reauthorization have not been finally 
decided, but will likely address many of the report's recommendations.
    NAS Recommendation 2. Air quality improvement should continue to 
receive high priority in the CMAQ program.
    The report notes that there are other highway funding categories 
that focus on congestion relief and finds that the prohibition of 
construction of single occupant vehicle capacity with CMAQ funds should 
be continued. We agree that cost-effective congestion relief projects 
should be funded when they have been found to have emission reduction 
benefits.
    NAS Recommendation 3. State and local air quality agencies should 
be involved more directly in the evaluation of proposals for 
expenditures of CMAQ funds.
    We have encouraged interagency consultation in the CMAQ project 
selection process and many areas have responded by including State and 
local air pollution control officials in project selection. In the 
interests of local flexibility and decisionmaking, we have not required 
any specific make-up of these local project selection committees. It is 
not clear whether Federal specification of the local project selection 
process is warranted.
    NAS Recommendation 4. The CMAQ program should be broadened to 
include, at a minimum, all pollutants regulated under the Clean Air 
Act.
    The report specifically notes the new data showing fine 
particulates (PM<INF>2.5</INF>) as having serious human health impacts. 
That is our understanding as well. The current focus of the program is 
on those EPA-regulated pollutants that can be affected by 
transportation-related measures. While EPA has not yet designated any 
areas as being in nonattainment of its new standard for fine 
particulate matter or under the 8-hour ozone standard, there may well 
be justification for including these areas in the CMAQ apportionment 
formula. Failure to do so could restrict funding in States whose 
nonattainment populations have grown substantially. Other pollutants 
suggested in the NAS report may not be as applicable to mitigation 
under the CMAQ program. For example, transportation contributes just 2 
percent to sulfur dioxide, and no standards have yet been set for air 
toxics. As such, it may not be worthwhile to pursue funding for S02 
reduction since transportation sources are so small compared to thy 
whole. Similarly, without standards and nonattainment designations, we 
may not be able to target control strategies and areas to address air 
toxics in reasonable ways.
    NSA Recommendation 5. Any local project that can demonstrate 
potential to reduce mobile source emissions should be eligible for CMAQ 
funds.
    The report specifically mentions vehicle scrappage programs, which 
are statutorily ineligible, as well as public-private projects, diesel 
programs and freight, all of which are eligible and have been funded by 
the CMAQ program. With the exception of scrappage programs, it is not 
clear what else might be funded under the program that is not already 
eligible.
    NAS Recommendation 6. Relax the restriction on the use of CMAQ 
funds for operations.
    The use of CMAQ funds for operational support is being evaluated by 
the Department to determine whether eligibility for such funding should 
be continued and, if so, for how long. Discussions within the 
Department have ranged from 0 to 5 years of eligibility. The use of 
CMAQ for operations must be considered very carefully because CMAQ 
funds are used for transit projects, inspection and maintenance 
programs, as well as highway projects, and the combined operational 
needs of just the transit operators and the State and local highways 
agencies is about $32 billion annually, many times larger than the $1.8 
billion of CMAQ funding apportioned to the States in fiscal year 2002. 
In further discussions with the NAS panel, it is clear that this 
recommendation carried the requirement that further air quality benefit 
be demons trated. We are not sure that such a demonstration can be made 
under existing EPA procedures since operating support does not yield 
further emission reductions toward attainment.
    NAS Recommendation 7. Consider the use of CMAQ funds for land use 
strategies leading to long term reduction in future mobile source 
emissions.
    As noted in the report, the potential for land use strategies to 
reduce congestion or vehicle emissions is complex and unclear. An 
important consideration is that CMAQ funding, is derived from the 
Highway Trust Fund and must be used for ``transportation'' projects 
that assist attainment. Some land use strategies may not be reasonably 
considered to be transportation activities. Those that are 
transportation activities may already be eligible for CMAQ funding. At 
least one proposal for transit-oriented development has been determined 
to be eligible for CMAQ support. Further, it may be difficult to 
demonstrate an emission reduction which assists attainment of the 
standards.
    NAS Recommendation 8. Develop more rigorous procedures for 
selection and evaluation of CMAQ projects in the context of local air 
quality and congestion problems.
    The Department is evaluating what reauthorization recommendations 
to make concerning project selection. While we support performance-
based approaches, there is concern about balancing the needs of the 
local decisionmakers against the strictures of a federally required 
project evaluation and selection process.
    NAS Recommendation 9. Provide incentives and guidance to local 
recipients of CMAQ funds to encourage more evaluations of funded 
projects.
    We currently allow CMAQ funds to be used for evaluation purposes of 
a CMAQ-funded project. We even require it for experimental pilot 
projects. We are evaluating just how something more might be 
accomplished. One of the problems is that a high quality evaluation, 
including before and after studies, can cost as much as the 
transportation improvement being evaluated according to a recent NCHRP 
report. State and local jurisdictions might prefer to spend that money 
doing another project.
    NAS Recommendation 10. Undertake a national level, targeted program 
of evaluation.
    We find this an interesting proposal. The CMAQ program has funded 
more than $11 billion thus far; some funding might be justified to make 
sure that the program investment is optimized. It seems unlikely that 
State and local programs will have the ability to undertake such a 
program, and the Federal Government may be the only entity that could 
provide such assessments and disseminate the results nationally.

    Mr. Frankel. As I think you know, I served as a State 
transportation executive. So I am aware of that. I think that 
you would acknowledge, and I am sure under your leadership in 
Ohio, that it was the case that overall these projects are the 
ones that do meet the goals of the program.
    Senator Voinovich. You know and I know that in some 
instances you get a project and you figure out how you can fund 
it. You look at all the pots of money. ``There is the CMAQ 
money. Let's go after that money and use it.'' That is the way 
it is. I think that we ought to be careful about how we are 
going about spending that money.
    I have to excuse myself to cast a vote. I want to apologize 
to witnesses that we didn't get started on time. This is the 
last day that our Chaplain is giving our Senate prayer. We had 
a vote at 9:30. We just had another vote. That is how it is 
here in the Senate for our guests that haven't been around 
Washington.
    We never know about our schedule here. Senator Carper and I 
were once Governors. One of the things that we were able to do 
when we were Governors is control our schedules. Now we are 
members of the Senate, the system controls the system. So I 
apologize to you for the delay in opening the hearing.
    I am going to turn the gavel over to Senator Carper, the 
ranking member of this committee.
    Senator Carper. Thank you, Mr. Chairman.
    We have been joined by Senator Craig Thomas of Wyoming. 
Senator Thomas, do you have a statement you would like to make?

 OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman. Like the rest of 
us, I have another meeting to go to.
    I am concerned about the Congestion Mitigation Air Quality 
standards. Wyoming, of course, being fairly low in population, 
we don't have some of the difficulties that they have in other 
States. They have been in compliance. But now with the proposal 
to change the particulate matter portion of it from 10 ppm to 
2.5 ppm, it impacts us and reduces our ability to work with 
this. Much of it will be dust and dirt.
    I guess I am interested in where you think that is and 
whether it seems to be good policy to allow the States to get 
the money to be able to use them proactively before we had 
problems.
    Mr. Frankel. Obviously, I can't speak, Senator, to the 
specifics of what can be anticipated under the new standards 
for Wyoming. Perhaps Mr. Holmstead can. I don't think we 
necessarily anticipate that the change in the standards would 
necessarily have an impact on Wyoming.
    But nonetheless, there is a minimum allocation. Even though 
Wyoming doesn't currently have non-attainment areas, those 
funds can be utilized. The Federal Highway Administration 
funds, the STP program, are available so that a State can be 
proactive in trying to develop these sorts of projects that can 
meet air quality concerns in a State such as Wyoming.
    The Federal Highway Administration, I know, would look 
forward to working--and I am sure has worked--with your State 
government and your State Department of Transportation in 
trying to develop projects which would be appropriate under the 
circumstances.
    Senator Thomas. That minimum allocation has been useful. We 
have worked on projects. I am just concerned. I hope that we 
can continue to have that minimum payment to Wyoming. Thank you 
very much.
    Senator Carper. Gentleman, I apologize for missing your 
statements. I am not going to ask you to give your statements 
again.
    Mr. Holmstead. They were short.
    Senator Carper. They must have been.
    [Laughter.]
    Senator Carper. Could you each just take a minute or two 
and give me the gist of what you had to say. The nub of what 
you think I really need to take out of here would be helpful.
    Mr. Holmstead. I would be happy to do that quickly. As I 
think you know, we have made enormous strides in reducing air 
pollution from mobile sources. This is largely because of much 
cleaner cars and much cleaner trucks and buses, but it is also 
due in part to what Congress has done in the area of linking 
transportation and air quality through the CMAQ program and 
transportation conformity.
    I think we both agree with the recommendations of the 
National Academy of Sciences that it is an important program 
and that in certain respects, it could be expanded and 
improved. We are working with Mr. Frankel and other folks in 
the Administration to make some recommendations that will be 
part of the new Administration bill. But overall I think we are 
supportive of the goals of that program and think it has worked 
fairly well. Again, we have had some experience and we think it 
can be made better.
    On the transportation conformity side, as I think you know, 
conformity was created during the 1990 Amendments. It has been, 
in some respects, challenging, because for the first time it 
required State air quality planners and State transportation 
planners to work together in a way that they hadn't before.
    As you can imagine as a former Governor, there were a few 
bumps in the road, but we think it is working quite well now. 
In fact, a lot of the models that people use to do these plans 
have a significant amount of data that go into those models. 
This whole process has worked out fairly well.
    We do anticipate that with new non-attainment areas 
designated over the next 1\1/2\ or 2 years, there will be new 
areas that have not had to deal with transportation conformity 
before. We are working to make sure that, first of all, they 
are educated about how they can do conformity, and that second, 
our regulations can be further refined specifically to address 
the needs of some of these areas. We are committed to doing 
that before the designations occur.
    Our bottom line is that we think both of these programs 
have been good programs and successful programs, but we do 
agree with those who say they can be improved.
    Mr. Frankel. I might say, Senator, in response to your 
request, I want to emphasize something that Mr. Holmstead has 
said, and that I referred to in my opening statement. That is 
the closer relationship that both of these programs, CMAQ and 
conformity rules, have stimulated, particularly at the State 
level, between transportation officials, air quality officials, 
transportation planners, and MPOs.
    I know you are very aware of this from your experience, 
particularly as a Governor. Even though we are moving toward 
more developed and stricter standards, in some regards, in 
terms of attainment, I think we are not where we were in 1990, 
1991, and 1992. I think it is instructive, and I hope 
encouraging to the Congress. I know you have heard this from 
others.
    Congress adopted the Clean Air Act Amendments in 1990, and 
ISTEA in 1991. It was not accidental that these two programs 
were merged. I think this committee was in the lead in trying 
to tie and bridge the Clean Air Act Amendments of 1990, and 
ISTEA, the transportation programs, in 1991. I think Congress 
did so in a very imaginative and thoughtful way. There were a 
lot of bumps and a lot of difficulties. As you know, when these 
came into force, I was a State transportation executive in 
grappling with these sort of things. It is not perfect, by any 
means.
    As Mr. Holmstead has said, as we go forward developing the 
reauthorization of TEA-21, we will be with EPA. We have been 
trying to develop some ideas to make improvements in the 
conformity process. There are some issues that have developed 
in terms of the synchronization, if you will, of the timing, 
the scheduling, and the planning processes which I think 
together we can smooth out. Unintended conformity lapses can be 
addressed.
    Generally, we are committed. The Administration is 
committed specifically here through EPA and the Department of 
Transportation, to propose to Congress and to this committee 
some thoughtful changes which will continue to make 
improvements. As we go forward in the implementation of these 
programs, those institutional relationships which have 
developed at the State level, the metropolitan level, and the 
Federal level, I think will ensure that we can continue to make 
progress in reducing emissions.
    Senator Carper. I have a statement that I will ask be 
entered into the record. I am not going to go through my 
statement today.
    [The prepared statement of Senator Carper follows:]
       Statement of Hon. Thomas R. Carper, U.S. Senator from the 
                           State of Delaware
    Mr. Chairman, thank you for holding this hearing today, and to our 
witnesses, thank you for taking the time to be here.
    The connection between transportation and air quality is clear. Its 
interesting that at the same time this hearing is being held, the 
Banking Committee, on which I also serve, is having a hearing on 
transit. Talking about transit should remind us that it is simplest to 
manage air pollution from a vehicle that rarely hits the road--or even 
easier from one that is never built. Whatever we can do to reduce the 
number of vehicles on the road in any given day is important. But we 
should also remember, although today's hearing is not about this, we 
should continue to help our colleagues take steps to improve the 
mileage of vehicles and reduce the emissions from them.
    Today's hearing is about the TEA-21 Congestion Mitigation and Air 
Quality (CMAQ) program, which has been a successful effort to pursue 
our dual goals of improved mobility through reduced traffic congestion 
and a better environment through reduced air emissions. We should seek 
to buildupon this legacy of effectiveness through the reauthorization 
of TEA-21. By strengthening the program and providing more resources, 
we can continue to hand our States and Metropolitan Planning 
Organizations (MPOs) the tools they need to improve air quality while 
enhancing mobility.
    Transportation remains the dominant source of air pollution in our 
Nation, posing a significant threat to public health. As a former 
Governor, I understand the challenges States face in meeting clean air 
and conformity requirements. In Delaware, mobile source emissions 
account for over one half of the State's emissions inventory. Two of 
Delaware's three counties--including New Castle County where I-95 
runs--are currently non-attainment areas, with the third county most 
likely joining them as the new PM<INF>2.5</INF> and 8-hour Ozone 
standards are put in place.
    However, Delaware has managed to remain in conformity with its 
State Implementation Plan (SIP). The State has accomplished this by 
taking advantage of the CMAQ program to fund transportation projects 
that reduce emissions, by strengthening long-term air quality/
transportation planning processes and by facilitating close 
collaboration and cooperation between the State's Department of Natural 
Resources and Environmental Control and the Department of 
Transportation in harmonizing air quality and transportation goals.
    I believe we can improve the existing CMAQ program structure to 
provide even more benefits to air quality, while preserving the 
flexibility our States need to maintain our transportation network and 
improve our quality of life. To do this, we must first expand the 
amount of resources devoted to CMAQ. As more regions across our country 
face conformity issues, it is appropriate to expand available funds to 
meet the increasing needs. Out of this larger pot, we should make 
PM<INF>2.5</INF> and 8-hour ozone non-attainment and maintenance areas 
eligible for CMAQ funding. We should devise a way to fund former non-
attainment areas as needed to ensure continued attainment, and fund 
CMAQ projects in travel corridors feeding into non-attainment areas.
    Additionally, we should consider extending project funding by 
phasing it in over time and adopt an interim policy of funding projects 
beyond 3 years on a case-by-case basis based on continuing air quality 
benefits.
    To ensure that CMAQ resources are well spent and deliver the 
maximum air quality benefits, greater emphasis should be placed on 
projects that will result in direct, timely, and sustained air quality 
benefits. I believe State air quality agencies could help determine 
such projects by participating in a well-defined consultation and 
concurrence process during CMAQ project selection. The State air 
quality agency could establish criteria for identifying air quality 
benefits and determining a minimum air quality benefit threshold for 
projects. This would help ensure projects with the most impact get top 
priority for funding while still providing flexibility to the States to 
set their own standards and transportation agendas. Part of this 
process would be providing State resources to improve data collection 
so that we can clearly understand the impacts of transportation 
projects on air quality.
    Also, where we can make the conformity process more consistent, 
with planning horizons and the frequency of updates harmonized, we 
should. The purpose of the conformity requirement is to ensure a 
healthy and safe environment for us all and we must focus on reaching 
that result. We should maintain regular and timely analyses to 
demonstrate compliance of constrained Transportation Improvement Plan 
(TIP's) and Regional Transportation Plan (RTP's) with State 
Implementation Plan (SIP's) motor vehicle budgets, and possibly combine 
the TIP and RTP into one document to better harmonize timelines. 
Additionally, we should conduct conformity analyses on the combined 
TIP/RTP document no less than once every 3 years and retain the 20-year 
planning horizon for transportation plans. Because the conformity of 
transportation plans to air quality plans is critical to achieving 
clean air goals, particularly given the continued increase in motor 
vehicle use and vehicle miles traveled, preserving, and improving upon, 
the basic conformity requirements and schedules now in place is 
crucial.
    States and regions also need the flexibility that CMAQ provides to 
address their attainment goals. We need to further that flexibility by 
explicitly making both freight and intercity passenger rail eligible 
activities through the CMAQ program. Rail's ability to reduce emissions 
by taking drivers and trucks off the road is well documented and CMAQ 
has been used so far to fund rail projects in my State and others. We 
must push to make rail clearly eligible to encourage these types of 
investments when they can be shown to benefit air quality directly.
    Combined, these changes could make a good program even better, 
bringing CMAQ into the 21st century with an even stronger focus on air 
quality. But in this effort, we must also not forget the daunting issue 
of congestion. In fact, I believe that congestion is perhaps the single 
biggest transportations challenge facing my State and the Nation. Yet, 
the CMAQ program is the only TEA-21 program specifically aimed at 
fighting congestion. While I absolutely support the connection between 
air quality improvements and congestion reduction, I believe it is 
perhaps time to take congestion on, front and center, in new program. 
Simply put, congestion is too big for CMAQ, at its $1.35 billion annual 
funding level, to fight alone.
    According to the US DOT, vehicle miles traveled (VMT) have more 
than doubled over the past 20 years, with similar predictions for the 
next 20 years. Meanwhile, our highway infrastructure has roughly 
reached its development maximum, thereby greatly increasing congestion. 
We need to promote more options to fight congestion through transit, 
passenger and freight rail, smarter development, land use and other 
strategies. By providing more resources and enhanced flexibility to 
States and MPO's through a new program to fight congestion directly, we 
could make major improvements in mobility, while also including 
safeguards to ensure such projects are commiserate with a states' air 
quality goals.
    Mr. Chairman, in conclusion I will say that we have an important 
task ahead of us. The two major contributors to air pollution--
transportation and electricity generation--will be topics we should 
debate this year, and I hope we will. The fact is that we must make 
significant progress on both of these sources of pollutants. I think we 
all know it's the right thing to do. We should put out heads together 
and find a way to strengthen the conformity and CMAQ tools we have, and 
consider others if necessary, and I look forward to working with you 
and the committee to get something done that we can both agree to.

    Senator Carper. I do have a couple more specific questions 
that I would like to ask, if I could.
    Mr. Frankel, you have alluded to your sordid past, which 
included a stint as a transportation agency not far from ours.
    Mr. Frankel. Thank goodness for Delaware. Connecticut is 
bigger.
    Senator Carper. A little bit bigger.
    We think of Vermont and New Hampshire as big States.
    [Laughter.]
    Senator Carper. Put your old hat on, the hat you wore for a 
number of years as the head of a State transportation agency. 
Just talk to me a little bit about the kind of changes that you 
would recommend seeing made from the States' perspective, with 
respect to CMAQ or conformity. I am really looking for common 
sense changes.
    Mr. Frankel. Right. I would say in the CMAQ area, Senator, 
and you probably heard the part of my answer to the chairman, 
the CMAQ Program is like the other core highway programs. I 
would like to say that I think that the basic programs of the 
Department of Transportation through TEA-21 are really based on 
the flexibility, the discretion, of States to design their own 
programs. We set out national goals and national purposes for 
these core programs, whether it is the national highway system 
or interstate maintenance, or the CMAQ Program.
    I think you have heard me say this before, in the bill that 
we present on behalf of the Administration to reauthorize TEA-
21, we will try to build on that flexibility and discretion on 
the part of States. It is not so much that there are specific 
requirements that I would like to see added--and certainly 
wearing my old hat that is the case--but rather to continue to 
work with States and MPOs to assist them in developing their 
programs to meet their particular needs for shaping a 
transportation investment program that also meets the 
requirements of the Clean Air Act and environmental quality.
    I think we are on the right road with that. We have had 
extensive discussions with EPA, stakeholders, and others, about 
eligibility issues under CMAQ. The chairman has just asked 
about the other side of it, if you will, and that is projects 
that perhaps get funded under CMAQ that really don't meet 
objectives. So I think we need to continue to refine that. 
Basically the CMAQ Program is a good program that has made an 
important contribution to the reduction of emissions.
    In the case of conformity, again wearing my old hat, the 
disparity--if I can use that word--between the planning cycles 
is something that we have to address. I think too much burden 
has fallen on transportation planners and transportation 
agencies because the air quality planning process is not as up-
to-date as it should be in some places. We have addressed that, 
and I think we will have some proposals.
    I think that is very important not only at the State level 
and not only for Governors, commissioners, secretaries of 
transportation, but MPO officials and air quality environmental 
officials at the State level as well. So I think that is an 
important thing that we can address.
    Also, although not subject to legislation, but I can say we 
all have to work together to continue to make improvements in 
the modeling so that the analytical process that occurs on 
which the conformity findings are based, is more authentic.
    I think everybody would acknowledge that we have work that 
has to be done. Both agencies have struggled over the years to 
improve that. That is in everybody's interest. It is also 
extremely difficult, as you know--very, very challenging.
    Senator Carper. Thank you very much.
    Mr. Chairman, back to you.
    Senator Voinovich. Thank you, Senator Carper.
    Could you explain how Clear Skies might impact on the new 
National Ambient Air Quality Standards? As you know, Senator 
Inhofe and I recently introduced the Clear Skies Proposal. Is 
there any connection between the two?
    Mr. Holmstead. As I think all three of you know, the real 
issue in these transportation programs and their link to air 
quality is an attempt to come into attainment with national air 
quality standards.
    We have done very extensive projections, based on state-of-
the-art computer modeling techniques to explore what would 
happen over the next few years if there were these national 
caps put in place under Clear Skies. Just to put it in context, 
right now I think there are roughly 330 some odd counties in 
the country that are out of attainment with the ozone standard. 
There may be 125 or 130 counties that are out of attainment 
with the PM<INF>2.5</INF>. There is some overlap there. You 
don't just add those up, but it is hundreds and hundreds of 
counties.
    If you look at the reductions that you get regionally from 
Clear Skies, especially in the Eastern part of the United 
States, that number drops dramatically over time. Part of that 
is due to the other things that are happening--the cleaner 
standards and cleaner fuels are coming into place, which help 
to reduce emissions.
    So, when you look at those measures and you add on top of 
that the very dramatic reductions that you get from Clear 
Skies, the number of remaining non-attainment areas is 
dramatically reduced. I don't have the exact numbers, but by 
the 2015 timeframe, which will be the attainment date for most 
parts of the country for PM<INF>2.5</INF>, the number goes down 
from 300-400 to in the neighborhood of 50.
    This means that all of those counties that had to deal with 
transportation conformity, are now in a very different 
position. Some of them may still have to do conformity because 
they will be doing a maintenance plan. It will dramatically 
reduce the burden on States and local governments throughout 
the Eastern United States.
    Instead of putting all of that burden on the Conformity 
Program and on local controls, you just get a dramatic 
reduction in these regional air pollutants. It will make a very 
big difference, not only in terms of transportation conformity, 
but in terms of all of the other planning that States and local 
governments have to do to come into attainment.
    Senator Voinovich. I didn't see the ranking member of our 
committee, Senator Jeffords, come in. Have you had an 
opportunity to ask any questions?
    Senator Jeffords. No. I didn't make my statement either. I 
would like to make my statement part of the record.
    Without objection, I assume that would happen.
    [Laughter.]
    Senator Voinovich. Without objection, it will be included, 
reserving the right to object.
    [Laughter.]
    Senator Voinovich. No, not really.
    Senator Jeffords. We don't object down here.
    Mr. Holmstead, Governor Whitman testified that when Clear 
Skies is fully implemented, sometime around 2018 or later, it 
would prevent premature deaths of approximately 12,000. I have 
two questions for you.
    No. 1, how many people does EPA estimate are dying 
prematurely each year from power plant pollution right now?
    Mr. Holmstead. There is no way to attribute deaths just to 
power plants because, as I think you know, what is actually 
causing these premature deaths is PM<INF>2.5</INF>, fine 
particles. These fine particles are made up of emissions from 
power plants and emissions from cars. It is a collection of 
emissions from all of these sources. Collectively we believe 
that the total number of premature deaths from PM<INF>2.5</INF> 
is tens of thousands of people a year. I don't know that we 
have an official Agency estimate. But it is in the range of 
probably more than 25,000 or 30,000 premature deaths that occur 
every year.
    A number of programs already in place will reduce that 
number. On top of those existing programs, Clear Skies would 
reduce an additional 12,000 premature deaths. That is our best 
estimate. The improvement is very dramatic.
    Senator Jeffords. How many people does EPA estimate are 
dying prematurely each year from power plant pollution right 
now?
    Mr. Holmstead. We are not able to estimate that. As I said 
before, if power plants were the only source of emissions, then 
we could estimate that. But it really is not fair to power 
plants to say that they are causing all this pollution when, in 
fact, what is causing the premature mortality comes from a 
number of other sources at the same time. But what we can say 
is that by reducing pollution from power plants we can reduce 
this number very significantly. It is impossible for anybody to 
say with certainty the estimated number of premature deaths 
from power plants.
    Senator Jeffords. In the past 2 years, what specific steps 
has EPA taken using its existing authority to reduce that 
number?
    Mr. Holmstead. The Clean Air Act is passed by Congress and 
gives us limited ability to do anything until we go through 
this process of designating areas. We have done a number of 
things using our non-regulatory authority. For instance, we 
have a very significant program working with people to reduce 
diesel retrofits. We certainly continue to pursue enforcement 
cases that get reductions from power plant emissions. Since I 
have been at EPA, there have been several settlements of those 
cases. Additional settlements, I think, are expected fairly 
soon.
    The real reductions under our regulatory authority come 
once we actually have 3 years of data from States and we do the 
designations. As you know, this process takes many years to 
play out. This is one of the reasons why we are so eager to get 
multi-pollutant legislation, because we can get those 
reductions, and much bigger reductions, much sooner, especially 
over the next decade or so.
    Senator Jeffords. No regulatory actions have been done or 
started?
    Mr. Holmstead. We are, as you know, limited. We just can't 
go out and regulate anyone that we want to. We are constrained 
by the Clean Air Act. So we are actually right now looking at 
what we would do under something called the Transport Rule. We 
could do that at some point in the future.
    We are also in the process now of developing something 
called the MACT Standard for power plants. That MACT Standard 
will be finalized under a settlement agreement at the end of 
2004. So we are working on that standard right now.
    Under the Clean Air Act we have a number of existing 
programs that we implement including the Acid Rain Program and 
other things. We only have the authority that you give us. This 
is why we are so eager to ask you to put in place more 
stringent caps and a stronger program.
    Senator Jeffords. As you may know, I am not very happy 
about the Agency's level of cooperation with the committee, 
particularly regarding the Office of General Counsel and your 
office. Congress and this committee needs truly responsive 
information in a much more timely fashion.
    Just recently Governor Whitman pledged to reverse this 
unfortunate situation. I really hope that starts to happen. Can 
you tell me why I still don't have a complete answer to the 
questions, the NSR questions that I sent you on July 20, 2002, 
approximately 7\1/2\ months ago?
    Mr. Holmstead. Here is what I can tell you about that 
issue. First of all, Governor Whitman made it clear that she is 
following up on her commitment to you to make sure that we can 
be more responsive. We will do that.
    As you know, we have been involved in many, many activities 
regarding the NSR program, including working on regulations, 
preparing for hearings and answering questions. I believe that 
we have answered several hundred questions. We have a handful 
that we still haven't answered. I will check to see and make 
sure we can get that.
    Senator Jeffords. I appreciate your doing that because I am 
concerned.
    This is not a question but rather a comment. There are 
several other air-related examples where the Agency has given 
us the runaround in the form of inadequate answers, 
unresponsive answers, or no answers. I will be talking with the 
Governor about those shortly. In general, you should note that 
this noncooperation of NSR and other matters will make it 
harder to get the multi-pollutant bill done. I just urge you to 
expedite that.
    I have many questions, but we will do it for the record.
    Senator Voinovich. Thank you.
    The only comment I have, Senator Jeffords, is that I know 
the utilities in Ohio are moving forward with the SER 
technology which is to reduce their emissions which have some 
side benefits in terms of particulate matter. All of the 
utilities are moving forward to comply with the NOx SIP call 
that is upcoming in 2004 or 2005?
    Mr. Holmstead. Yes, 2004. That is correct.
    Senator Voinovich. So there is some action taking place. I 
would comment that because of the uncertainty about new source 
review, many of them are doing nothing but what they have to do 
because they are uncertain about whether if they go forward 
with something, it will trigger new source reviews. So the 
sooner we get that cleared up so they know where they stand, 
the better off we will be.
    Senator Carper, do you have any other questions?
    Senator Carper. I would just like to ask one more quick 
question.
    Putting on my old hat, and looking back at my checkered 
past, as Governor of Delaware and a colleague of Governor 
Voinovich, I was always struck by how in our States we could 
use CMAQ money for freight railroads, for highways, for 
bridges, for roads, and for bicycle paths, but we couldn't use 
it for passenger rail. I always thought that was peculiar. I 
know the Senate has voted a couple of times by fairly wide 
margins to change that. I don't think it has worked its way 
through the House and dropped out in conference.
    Do you have any thoughts on that proposal?
    Mr. Frankel. Well, again, Senator, the projects have to 
have Congestion Mitigation Air Quality benefits. I take to 
heart what the chairman has said that there are some projects 
perhaps that kind of sneak through that stretch a bit. But that 
continues to be the requirement.
    For example, grade separation projects--rail and road--I 
think frequently CMAQ funds have been utilized for that. States 
have made the decision to utilize that. Perhaps that is what 
you have in mind. A freight-rail project in and of itself is 
not appropriately fundable under CMAQ unless you can show the 
benefits in terms of traffic movements at a place where there 
was not grade separation. So I think one needs to look a little 
bit more at the specific projects as opposed to the elements 
that would be funded.
    Senator Carper. Thank you. And then one last question if I 
could, Mr. Holmstead, for you.
    With respect to the Administration's budget request for 
2004 for CMAQ funds, do you have any idea how CMAQ fares in the 
Administration's proposal for funding?
    Mr. Frankel. Actually, I guess I would let Mr. Holmstead 
answer that but since it is our budget and our proposal, I will 
try to be responsive. The funding--and I don't want to hold you 
up--in the President's budget for fiscal year 2004 for CMAQ--
generally the highway core program is somewhat down from fiscal 
year 2003 which was contained in the Omnibus Appropriations 
bill.
    But over the life of the Reauthorization bill, it is our 
anticipation that the funding for the CMAQ Program will grow 
consistent with the growth in the other highway core programs.
    Senator Carper. Thank you. Thank you, Mr. Chairman.
    Senator Voinovich. Thank you very much for your testimony. 
We look forward to the responses to the questions that we have 
asked of you today.
    Our next panel will come forward. While you are coming 
forward, I am going to be introducing you.
    On our panel we have Howard Maier, executive director of 
the Northeast Ohio Area Coordinating Agency. Howard, it is nice 
to see you. Howard and I have worked with each other since my 
days when I was mayor of the city of Cleveland and then 
Governor. Howard, I think, represents many of the other people 
that we are having here from various States.
    Mr. Jerry Lasker is executive director of the Indian Nation 
Council of Governments, Tulsa, OK. Annette Liebe is manager, 
Air Quality Planning, Oregon Department of Environmental 
Quality. Marsha Kaiser is director of the Department of 
Planning and Capital Programming, Maryland Department of 
Transportation.
    These are people that work for government. Many of them 
have been at it for a long, long time. We thank you for your 
service to your country. Thank you for coming a long distance 
to testify today.
    Our other witnesses are W. Gerald Teague, M.D., professor 
and vice chairman of Pediatrics, and director, Division of 
Pulmonary Medicine, Emory University School of Medicine. Mr. 
Michael Replogle, Environmental Defense. Michael has been here 
before, I think, to testify. We also have Ms. Diane Steed, 
president, American Highway Users Alliance.
    Because we have so many witnesses today, I am going to 
stick to our 5-minute rule as fastidiously as I possibly can. 
So if you could limit your remarks to 5 minutes, I would be 
most grateful. I want you to know that we appreciate the 
testimony that you have submitted for the record. They will be 
looked at in terms of the decisionmaking that we are going to 
have to make in terms of these two important programs.
    Senator Carper. Mr. Chairman, I would just like to make an 
observation. If we had more witnesses, we would need a bigger 
table.
    [Laughter.]
    Senator Carper. The second thing, the Banking Committee in 
the Senate has jurisdiction over transit. We are having a 
simultaneous hearing there on transit funding. I am going to 
slip out. I don't mean to be rude. It is not a walkout or a 
protest in anything that you are saying. But I need to be in 
two places at once which is not uncommon here, as Senator 
Voinovich knows.
    Senator Voinovich. Thank you.
    Ms. Liebe, we will start with you.

  STATEMENT OF ANNETTE LIEBE, MANAGER, AIR QUALITY PLANNING, 
 OREGON DEPARTMENT OF ENVIRONMENTAL QUALITY, ON BEHALF OF THE 
STATE AND TERRITORIAL AIR POLLUTION PROGRAM ADMINISTRATORS AND 
    THE ASSOCIATION OF LOCAL AIR POLLUTION CONTROL OFFICIALS

    Ms. Liebe. Good morning, Mr. Chairman and Senator Carper. 
As you know, my name is Annette Liebe. I am with the Oregon 
Department of Environmental Quality. I am here today testifying 
on behalf of STAPPA and ALAPCO, which are two national 
associations of State and local air quality agencies in 54 
States and territories, and over 165 major metropolitan areas.
    We are here today because transportation remains a dominant 
source of air pollution across the Nation, contributing 
substantial amounts of smog-forming emissions, particulate 
matter, carbon monoxide, greenhouse gasses, and toxic air 
pollutants, as well as to the formation of regional haze.
    Although we continue to make great progress, as 
Administrator Holmstead mentioned, in reducing emissions from 
mobile sources, it is clear that the benefits from 
technological advances alone will not keep pace with current 
and foreseeable trends in the growth of vehicle miles traveled.
    We firmly believe that the CMAQ and transportation 
conformity programs are critically important to the goal of 
achieving full integration of environmental and transportation 
decisionmaking processes, and to ensuring that transportation 
choices do not undermine efforts to achieve and sustain clean, 
healthful air throughout the country.
    For this reason, our associations have adopted a set of 
CMAQ and transportation conformity principles for the 
reauthorization of TEA-21. A copy of our principles is attached 
to our written statement.
    We strongly support the CMAQ program and believe it can be 
strengthened in several ways. First, since CMAQ was originally 
established, the scope and magnitude of transportation-related 
emissions and their impact on air quality have expanded 
significantly. As you know, EPA has adopted new health-based 
standards for fine particulate and ozone, both of which will be 
implemented in the next few years, and we have gained an 
increased understanding of the phenomenon of transported 
pollution.
    Accordingly, we urge that areas eligible to receive CMAQ 
funding be expanded to also include any area that faces air 
quality challenges as a result of transportation-related 
emissions. Specific recommendations are included in our written 
testimony.
    We strongly urge a substantially increased Federal 
commitment of resources to the CMAQ Program to reflect the true 
and very significant impact of transportation-related emissions 
on air quality. This increase should be no less, 
proportionately, than that to be provided for highway 
investments.
    In Oregon, for example, CMAQ funds have been critical to 
the implementation of transportation control measure 
commitments in our air quality plans. I have also cited those 
examples in the written testimony.
    However, to meet the challenges that lie ahead, continued 
and additional CMAQ funding is necessary. With respect to 
project eligibility, we urge that greater emphasis be placed on 
projects that result in direct, timely, and sustained air 
quality benefits.
    Finally, we recommend that the concurrence of State and 
local air quality agencies be required for CMAQ project 
selection through a well-defined consultation and concurrence 
process. In Oregon, for example, this concurrence has occurred 
through an ongoing robust interagency consultation process that 
we established under our own conformity rule.
    With respect to transportation conformity, our associations 
strongly believe that the purpose of the program, which is to 
ensure that transportation plans and programs stay within the 
allotted motor vehicle emissions budget, is absolutely crucial 
to achieving clean air goals. Unless this purpose is achieved, 
it will be necessary to call upon other source sectors, 
potentially including small businesses, to further reduce 
emissions.
    We believe conformity is working well and strongly endorse 
preserving the major conformity requirements and schedules that 
are now in place. Therefore, we are deeply concerned with 
recent proposals seeking changes. I would like to cite three 
examples.
    First, we are strongly opposed to proposals to shorten the 
planning horizon for the transportation plan so that the plan's 
conformity determination would be based on a 10-year rather 
than a 20-year planning horizon.
    In planning for clean air, we must not only chart a course 
for achieving healthful air quality, but also for maintaining 
it over the long term. Major transportation investments can 
have huge air quality impacts, much of which may not occur for 
several decades. These investments can also significantly have 
growth and sprawl. Therefore, long-term planning, over at least 
a 20-year planning horizon, is imperative to ensuring that the 
potential growth in mobile source emissions is identified, the 
impact on air quality is assessed, and appropriate adjustments 
are made.
    Second, we oppose proposals to reduce the frequency of 
conformity determinations for transportation plans from 3 to 5 
years. Continued timely analyses will ensure that sound data is 
generated and allow for the timely improvement of motor vehicle 
emission estimates.
    Finally, we are concerned with the suggestion to lengthen 
from 1 to 3 years the grace period before an area found to be 
in violation of an air quality standard for the first time must 
demonstrate conformity. To allow transportation planning in an 
area with poor air quality to go unchecked for 3 years is a 
substantial weakening of the conformity program and of public 
health protection.
    We believe that, as it is currently structured, conformity 
provides ample flexibility to States to accommodate individual 
needs and circumstances, while maintaining the integrity of the 
program. Rather than statutory changes to such things as 
planning horizons, analyses frequencies, and grace periods, we 
believe that State and local officials should retain the 
flexibility to work through a robust interagency consultation 
process to resolve issues in a way that results in the best 
solution for everyone.
    Thank you for the opportunity to testify. I am happy to 
answer any questions. I would ask that my testimony be included 
in its entirety.
    Senator Voinovich. Thank you for your excellent testimony.
    Dr. Teague.

  STATEMENT OF DR. W. GERALD TEAGUE, M.D., PROFESSOR AND VICE 
    CHAIRMAN OF PEDIATRICS, DIRECTOR, DIVISION OF PULMONARY 
         MEDICINE, EMORY UNIVERSITY SCHOOL OF MEDICINE

    Dr. Teague. Good morning and thank you. I am Gerald Teague, 
a pediatrician and a professor at Emory University. I would 
like to thank Senators Voinovich and Carper for having me here 
today.
    As many in the room know, outdoor air quality does affect 
respiratory health. Studies that were done 10 years ago in 
children showed a clear relationship between exposure to 
unhealthy levels of ozone and asthma attacks. Other studies--
and these are also done in Atlanta--showed that apart from 
ozone, suspended particles can increase respiratory symptoms in 
children.
    Today, as a practicing pediatrician, I regularly see and 
care for children with asthma attacks due solely to air 
pollution episodes. We have also known, since the 1950's, that 
vehicle exhaust has a major role in the deterioration of air 
quality in urban areas. The Clean Air Act, originated in 1970, 
helped this a lot, and as a result, the air is cleaner today 
compared to its levels in 1970.
    During this same time, though, the prevalence of asthma in 
urban areas has increased significantly. An estimated 62 
million Americans live in areas where the air quality does not 
meet health-based standards. At the same time as the 
improvement in air, the United States has experienced a 
staggering increase in traffic congestion. From 1982 to 1997, 
traffic congestion increased by 45 percent in metropolitan 
Atlanta.
    This gets to the study that I did that was published in the 
Journal of the American Medical Association. The study 
basically looked at a simple question: What happens when a city 
makes a well organized highly collaborative attempt to decrease 
automobile traffic congestion? Would this have any impact on 
the health of its residents?
    The 1996 summer Olympic games in Atlanta provided an 
opportunity to answer these questions. Atlanta was preparing to 
be host to an additional 1 million visitors during the 17 days 
of the games. The visitors would all be concentrated downtown.
    To meet this challenge, the city of Atlanta, the Department 
of Transportation, and the Atlanta Committee on the Games, 
along with local business leaders, came today to enact a 
traffic mitigation strategy. It consisted of five basic 
efforts.
    No. 1, we encouraged use of public transportation. We 
promoted alternative commuting practices to the residents of 
Atlanta, to shift travel away from rush hour periods, media 
warnings of severe traffic congestion, specific highway 
improvements, additional lanes, and widened lanes, and finally 
traffic restrictions around the venue.
    This brings me to the study. To study the effects of this, 
what we did--colleagues with the Centers for Disease Control--
was to measure all acute care visits for asthma around the 
city. We measured the air pollution variables--weather, 
traffic, gasoline sales, and public transportation use. We did 
this during the 17 days of the Olympics and compared all these 
variables to a baseline period consisting of 4 weeks before and 
4 weeks after the Olympic games. That would be a reasonable 
scientific project.
    This is what we learned. During the Olympic games, acute 
asthma events around Atlanta decreased 42 percent for George 
Medicaid recipients, 44 percent in a health maintenance 
organization, 11 percent in two pediatric emergency rooms, and 
for Georgia hospitals in the region, a 19 percent reduction in 
asthma-related discharges.
    Was the air cleaner? Peak daily ozone concentrations fell 
28 percent from 81.3 ppb during the pre-Olympic period to 58.6 
ppb during the Olympics. I will refer you to the figures in my 
submitted written testimony. The peak weekday a.m. traffic 
counts decreased 22.5 percent.
    So based on our study we conclude that efforts to decrease 
downtown traffic congestion in Atlanta during the Olympic games 
resulted in reduced automobile use, particularly during the 
critical morning rush hour period. These changes were 
associated with a long period of low ozone pollution and 
significantly lower rates of childhood asthma events.
    This study provides direct evidence and supportive evidence 
to reduce air pollution, and to improve the health of children 
via reductions in motor vehicle traffic.
    Thank you very much.
    I would ask that my statement be included in the record in 
its entirety.
    Senator Voinovich. Thank you, Dr. Teague. It is wonderful 
that you did that study during that period of time. We have 
some good information. Thank you.
    Mr. Replogle.

    STATEMENT OF MICHAEL REPLOGLE, TRANSPORTATION DIRECTOR, 
                     ENVIRONMENTAL DEFENSE

    Mr. Replogle. Thank you, Mr. Chairman. I am Michael 
Replogle, Transportation Director of Environmental Defense. I 
am representing our 300,000 members. I also chair the Energy 
and Environment Issue Team of the Surface Transportation Policy 
Project. I speak on behalf of a dozen other groups this 
morning, including the National Trust for Historic 
Preservation, Sierra Club, NRDC, Defenders of Wildlife, the 
Oregon Environmental Council, the Tri-State Transportation 
Campaign in New York, the Southern Environmental Law Center, 
and the Chesapeake Bay Foundation.
    Conformity is vital to keeping transportation accountable 
for effects on public health, air quality, and the environment. 
Like balancing a checkbook, conformity keeps track of the 
impacts of transportation spending. Conformity requires 
transportation plans to respect the pollution limits that are 
established in the State Air Quality Plans, the SIPs.
    Conformity was strengthened by Congress in 1990 because for 
two decades growth and motor vehicle use and related emissions 
have been underestimated, leading to the failure of SIPs and 
missed attainment deadlines. Although cars and trucks are much 
cleaner than in 1970, their pollution will cause continuing 
serious harm to the health of Americans in coming decades, even 
with all the cleaner technologies that are coming down the 
pike.
    Although setbacks have delayed and hampered its 
implementation, conformity has produced huge benefits. It has 
been very effective behind the scenes, motivating actions to 
curb pollution and to protect health.
    Now grumbling from conformity's accountants has often 
drowned out tales of conformity's successes. Yet, conformity 
has spurred support for cleaner vehicles, fuels, and 
maintenance, and strategies to curb traffic and pollution 
growth with better travel choices. It has transportation and 
air quality agencies finally talking to each other.
    Some assert there is a timing mismatch that should be fixed 
by having conformity look only at the first half of 20-year 
transportation plans, or by allowing use of out-of-date 
assumptions and data for conformity analysis, or by reducing 
the frequency of conformity checks. These ideas would likely 
cause regional air quality control strategies to fail for the 
fourth time since the 1970 Clean Air Act.
    I met this week with Federal highway officials who could 
cite no examples where demonstrating conformity for all the 
projects in the 20-year plan, rather than just the projects in 
the first 10 years, had created a problem that States hadn't 
fixed by committing to future emission controls. ``If it ain't 
broke, don't fix it.''
    Some propose that conformity disregard new data that would 
show motor vehicle emissions will exceed the estimates that 
have been used to demonstrate attainment in SIPs. This would 
simply reenact the old broken pre-1990 system that conformity 
was intended to fix. There would be no accountability for 
excess emissions, no need to find solutions, and SIPs would 
fail again.
    Conformity is like balancing your checkbook. It is not a 
fun way to spend time, but it is vital to your welfare. If you 
do it frequently and routinely with current data, you avoid 
surprises, bounced checks, and overdrafts that are due to bad 
recordkeeping or bad arithmetic.
    Most areas redo their conformity analysis annually 
voluntarily as they add new road projects. This means timely 
improvements in tracking vehicle emission assumptions. They get 
updated when a change of vehicle mix, or parking fares, or 
transit costs, development patterns, or the models get better. 
Timely updates improve accountability and protect the integrity 
of the transportation and the air quality planning process.
    What is causing the timing mismatch? Well, it is the 
failure of the air agencies and EPA to prepare required 
milestone compliance demonstrations for SIPs every 3 years, 
with corrective actions where necessary. This is parallel to 
the current required transportation conformity schedule--every 
3 years.
    Rather than disconnecting the schedule for conformity 
determinations from other schedules in the Clean Air Act, this 
committee should compel prompt EPA action on compliance 
demonstrations.
    The 5-year conformity schedule that is proposed by some 
would leave no mechanism to hold transportation accountable to 
revised emission budgets or improved estimates of emissions 
within the time between the approval of new SIPs and the 
attainment deadlines. This means that the pollution cleanup 
burden would fall alone on stationery and area sources or the 
SIPs would fail again.
    In Metro Washington, here in our home region, updated data 
on the use of SUVs and light trucks show that emissions would 
exceed the SIP emission budget. Officials in a timely way 
solved this conformity problem with better accounting for 
emission strategies that were already under way, by adopting 
$42 million of clean buses and other measures to cut pollution, 
and trimming $800 million from the region's road programs which 
cut forecast traffic growth, congestion, and pollution. This 
saved taxpayers $800 million.
    In Charlotte, NC, conformity showed excess emissions in the 
20-year transportation plan. Officials considered and adopted a 
revised plan with better transit and smarter growth, trimming 
the forecast traffic growth and pollution by almost a quarter, 
and winning voter approval for that plan.
    To conclude, Congress should reject the changes that have 
been proposed to the successful Conformity Program that would 
threaten these successes and harm public health and the 
environment.
    Thank you. I would ask that my prepared testimony be placed 
in the record.
    Senator Voinovich. Thank you, very much.
    Mr. Lasker.

  STATEMENT OF JERRY LASKER, EXECUTIVE DIRECTOR OF THE INDIAN 
                 NATIONS COUNCIL OF GOVERNMENTS

    Mr. Lasker. Thank you, Mr. Chairman, for the opportunity to 
address this subcommittee. I am Jerry Lasker. I am the 
executive director of the Indian Nations Council of Governments 
in Tulsa, OK.
    We have been very proactive in trying to make our air 
cleaner in our region. We have taken many steps in this regard. 
To give you a little bit of history, in 1990 the Tulsa area was 
in non-attainment. We got in attainment before the Clean Air 
Act Amendments came into effect. In 1991, we had two 
exceedences of the 1-hour standard. We developed a program in 2 
weeks called the Ozone Alert! Program. It is the fastest I have 
ever seen Government act.
    We established an Air Quality Committee which consisted of 
public agencies, the private sector, environmental groups, and 
just general citizens. We came up with the Nation's first 
episodic voluntary control program. This was called the Ozone 
Alert! Program. We went the rest of the summer and the next 
year without having any exceedences of the standard.
    The program was very successful. One of the major things 
was our oil companies and our gasoline suppliers and 
distributors volunteered to reduce the revapor pressure in 
their gasoline. This helped out a lot. Our transit company gave 
free bus rides on ozone alert days. Our health department 
forecasted the days when there was a potential to exceed the 
ozone standard. General citizens volunteered to do things that 
would reduce emissions. As I said, this was a very successful 
program.
    We went from there into being the Nation's first flexible 
attainment region. This was a program that the private sector, 
the public sector, the State, the environmental agencies, and 
the transportation agencies all agreed to. This was a program 
that if we had problems, exceedences, or violations, we would 
agree to undertake various measures to bring our emissions down 
and to keep us in attainment.
    With the FAR expired, we went into what is called the 0-3 
Flex Program. Again, this was a program where we got into a 
Memorandum of Agreement with the EPA. Here, if we had an 
exceedence of the standard, we would institute various measures 
to again reduce emissions.
    I am proud to say that from 1991 until the present, we have 
been in attainment of the 1-hour standard. We did this for many 
reasons. The first reason was health related. We were very 
concerned about the air quality impacts on the health of our 
citizens.
    Second, we wanted to avoid the stigma of non-attainment. 
When you are looking to develop a region and you need growth, 
you do not want to be on EPA's Dirty Air List because that is 
one of the things that if a company is looking to relocate they 
are looking at certain factors. If you are on that list, it is 
not going to help you.
    The third thing was that we were very concerned about 
conformity. We have never done conformity, but we had heard 
that it takes a lot of work and, as Mr. Replogle said, it is 
not any fun. So we have tried to avoid that.
    We are in attainment for the 1-hour standard. When the new 
8-hour standards came into effect, this was going to provide a 
great challenge for the Tulsa area. Right now, two of our five 
monitors are slightly above the 8-hour standard. Again, we are 
being very proactive.
    What we have done is that we have gotten into an agreement 
with the EPA and the State to have an Early Action Compact. 
What this Compact does is basically commits us to being in 
attainment in the Year 2007, which would be 2 years earlier 
than if we did nothing and just slipped into non-attainment in 
this next season.
    To do this we have agreed to undertake SIP modeling. We 
have agreed to have our stakeholders agree on what emission 
reduction measures we would implement to reach attainment in 
the year 2007. In return, the Compact basically says that EPA 
would defer the effective date of the designation of non-
attainment if we were to continue to be slightly above in our 
monitoring.
    The problem we are running into right now is that EPA has 
told us that they have to make a designation of attainment or 
non-
attainment. Since we are slightly above, they will probably, in 
April 2004, designate us non-attainment. When DOT looks at 
that, they say, ``Well, you are in non-attainment''. That means 
that conformity will kick in 1 year from the date of 
designation.
    This makes no sense to us. We have signed an agreement with 
EPA. We are doing all the things to come into attainment 2 
years earlier than if we did nothing. It looks like we are 
being penalized for getting into this Agreement and being 
proactive. We are very concerned about that.
    Our resolution to that problem is to take areas, like 
Tulsa, that are doing proactive things like becoming an agent 
in an early action compact, and classifying those areas as 
unclassifiable. If we miss a milestone, if we don't meet it at 
the monitors in 2007, we are going to go into non-attainment 
anyway. But don't penalize us for doing things that are 
proactive in nature.
    That is our main concern right there. We believe that when 
you do conformity that there should be some consistency in 
terms of looking at the SIP and the transportation plan. Right 
now, as much as I like my planning staff, what we have is a job 
security act that keeps us going and doing things that can be 
done more efficiently.
    Flexibility in CMAQ--right now we are in attainment. We are 
not eligible to receive CMAQ funds. We believe that areas that 
are doing things proactively should be eligible.
    Thank you for the opportunity to appear before you.
    Senator Voinovich. Thank you. It is nice to hear from 
someone who has been involved and has practical experience with 
some of these things that we are talking about today. Thank you 
for being here.
    Howard, we are glad to have you here, as I mentioned.

  STATEMENT OF HOWARD R. MAIER, EXECUTIVE DIRECTOR, NORTHEAST 
               OHIO AREAWIDE COORDINATING AGENCY

    Mr. Maier. Thank you, Mr. Chairman. I am Howard Maier, 
executive director of the Northeast Ohio Areawide Coordinating 
Agency. I will just refer to it as NOACA from now on. Thank you 
for inviting me here to address air quality and the CMAQ 
Program for our region and metropolitan planning organizations, 
or MPOs, across the country.
    I am representing NOACA in my national association today, 
the National Association of Regional Councils, which is working 
with MPOs large and small to better understand changes we can 
make to CMAQ and to conformity to make them more 
understandable, easier to implement, and more flexible.
    NOACA is the regional voice for the Greater Cleveland area. 
It represents the five counties of Cuyahoga, Geauga, Lake, 
Lorain, and Medina. Within these five counties are 170 units of 
local government. NOACA is the one forum in which these 
communities come together and make decisions from a regional 
perspective. The five counties we represent have a population 
of 2.1 million, which makes us the 14th largest metropolitan 
area in the United States.
    Mr. Chairman, like all major metropolitan regions, we are 
concerned about growth, our business climate, and being an 
active partner in national and international trade. NOACA is 
not only in the business of encouraging economic development, 
but also in trying to enhance the quality of our life.
    I am sure, as the former mayor of Cleveland and former 
Governor and former NOACA board member, you remember the 
delicate edge we walk when we choose transportation investments 
that provide accessibility, recreational, and employment 
opportunities, and yet do not damage our natural and community 
systems. NOACA, like all regional councils and MPOs, represents 
the interests of the public through a comprehensive 
transportation decisionmaking process.
    Conformity is one piece of the overall process we use to 
plan and program projects in our region. In 1992, the Federal 
Government classified Northeast Ohio as a moderate non-
attainment area for ozone. This generated a planning challenge 
for our region. We were required to reduce hydrocarbon 
pollutants by 15 percent in a 4-year period. That amounted to a 
reduction of 75 tons per day. That is a substantial amount.
    The EPA requirement gave areas less than 4 years to 
generate this considerable decrease. The reductions identified 
had to be real, that is, the activities had to meet Federal 
requirements. We used CMAQ funding to develop some projects 
that were able to meet this verifiable reduction requirement.
    The CMAQ Program, through its specialized focus, afforded 
us the unique opportunity to pursue projects that helped us 
meet this requirement. We used this money to purchase buses and 
other transit improvements, construct park-and-ride lots, 
develop traffic signal projects, and also to develop our public 
education program, Ozone Action Days. Of course, there are many 
other eligible activities, such as trails and intelligent 
transportation systems. We hope to have projects along those 
lines in the future.
    It is likely that given the limited resources available, 
these projects would not be completed with regular 
transportation dollars. They would fall victim to the many 
competing priorities for these funds.
    For this reason, NOACA believes that the CMAQ Program 
should be expanded to give life to these project opportunities. 
A very real conformity challenge for us has been the fact that 
our transportation plans, programs, and projects must be 
conformed. In our case, it was an eight-county basis that 
included not only the five counties of NOACA, but also the two 
counties represented by the Akron Metropolitan Area 
Transportation Study plus one other county not affiliated with 
a MPO.
    It was quite a challenge for governing bodies of two 
independent MPOs to be required to establish transportation 
schedules based solely on required conformity finding. It was 
costly in terms of time and other factors. This was through 
MPOs that get along just fine. We had some difficulties to work 
through.
    NOACA recognizes that its experience with CMAQ and 
conformity analysis has been possibly different from other 
MPOs. Many of our projects really emphasize the maintaining and 
rebuilding of the existing infrastructure rather than adding 
capacity. So that has given us a bit of an advantage in that 
regard. We have to look at the entire totality of MPOs across 
the country.
    Let me mention some recommendations quickly. Congress 
should make the planning horizons, the State implementation 
plans, and transportation plans consistent. Furthermore, the 
metropolitan transportation plans should only have to conform 
every 5 years instead of every 3 years. Federal and State 
Government, as well as the MPO modeling process, should be 
consistent and help realize our regional transportation goals. 
We had to see our transportation projects held hostage to 
updates in computer programs.
    Congress should allow the use of trading between point, 
area, and mobile sources to allow us to meet cleaner goals. 
Clean air is clean air and we can all collaborate to help make 
that happen.
    Mr. Chairman, the loss of highway funds as a penalty for 
lack of conformity should be closely reexamined. Of course, I 
think that Congress should increase CMAQ funding. It helps make 
the existing system more efficient. We believe that locally 
elected officials are best suited to make these decisions. I 
have an exhaustive list.
    Thank you for inviting me here. We will be available 
through NOACA and through NARC to be helpful in any way we can. 
I would ask that my statement, which is together with Mr. 
Lasker's, be placed in the record in its entirety.
    Senator Voinovich. Thank you.
    Ms. Steed.

  STATEMENT OF DIANE STEED, PRESIDENT, AMERICAN HIGHWAY USERS 
                            ALLIANCE

    Ms. Steed. Mr. Chairman, I am very pleased to appear before 
you today for the first time as the new president of the 
American Highway Users Alliance. For 70 years the Highway Users 
has represented both motorists and a broad cross-section of 
businesses that depend on safe and efficient highways to 
transport their families, customers, employees, and products.
    Our members pay the user fees that finance the Federal 
Highway Program, and they expect the Government to be good 
stewards of their investment in our Nation's roads and bridges. 
Highway Users members strongly believe that the user fees paid 
on the Nation's roads should be rapidly returned to the roads 
through projects that make their motoring safer and less 
frustrating.
    I use the term ``rapidly'' for a reason, Mr. Chairman. I 
know that you have been a leader among those who want to 
streamline the project delivery process. I want to thank you 
for your attention to that issue and assure you that we want to 
work with you and support your efforts to advance highway 
projects quickly.
    When I tell someone that I work for the Highway Users, the 
frequent, joking reply is that he is she is one. Nearly every 
American can claim to be a highway user regardless of race, 
creed, or even political affiliation. Representing such a broad 
group, I can say confidently that highway users, like all 
Americans, care about the quality of the air we breath and we 
want to see it getting cleaner.
    But we have also lost patience with the increasing amount 
of traffic that chokes up our roads, delays our trips, causes 
accidents, strangles commerce, and even slows emergency 
vehicles when time really matters. With that in mind, I am very 
pleased to talk about the Clean Air Act and the CMAQ Program in 
particular, a transportation program that should address both 
the problems of congestion and pollution.
    The good news is that we have a freer, more mobile society 
than ever and our air is cleaner. The dramatic improvements in 
air quality are truly a testament to the outstanding benefits 
of the Clean Air Act. Incredibly, today's cars on the roads 
emit less pollution than a 1960's car sitting in its driveway 
with the engine off.
    More progress has been made in mobile source pollution 
reduction than any other source. For most metropolitan areas, 
mobile source emissions are no longer the principal source of 
pollution, and in many cases they aren't even second. The chart 
I have here to my left depicts the huge gains that have been 
made in reducing pollution at the same time we have seen 
increasing population, more cars, more vehicles on the road, 
and more vehicle miles traveled. Impressively, vehicle miles 
traveled has increased nearly point-by-point with the gross 
national domestic product, and that is no coincidence. Mobility 
leads to economic growth.
    In his State of the Union address, President Bush said, 
regarding his fuel cell car initiative, that the greatest 
environmental progress will come about through technology and 
innovation. When contrasting the gross and vehicle miles 
traveled with the reduction in Clean Air Act pollutants, it is 
clear that technology and innovation have done far more to 
clean the air than increased travel has done to sully it.
    For example, today's diesel truck engine is eight times 
cleaner than the engine built just a dozen years ago. With new 
technology for dramatically cleaner fuels and engines coming 
along, it is clear that technological advancement leading to 
cleaner air is only gaining in momentum.
    Last summer, this committee held a hearing on CMAQ and 
conformity. One of the common conclusions reached by several of 
the witnesses was that the biggest environmental bang for the 
buck comes from traffic flow improvements, diesel engine 
retrofits, and in vehicle inspection and maintenance programs.
    Yet according to EPA the highest priority for CMAQ funds is 
the implementation of transportation control measures intended 
to reduce VMT. The use of the word ``control'' I think is very 
telling. TCMs are intended to control the so-called bad people 
who either need or want to drive alone. Those measures are 
advocated by some anti-car, anti-motorist planners and groups 
who believe that Government should be in the business of 
forcing people out of their cars. TCMs just don't sit well with 
the population accustomed to basic freedoms.
    However, even if that were not the case, TCMs are doomed to 
failure for another reason, we believe. They are directed 
mainly at commuters. Eighty percent of trips are not commutes. 
It should be no surprise that TCMs have little or no proven 
track record in causing measurable clean air progress or 
congestion relief.
    Many projects that would result in clean air progress and 
congestion relief are not mutually exclusive. Nowhere is that 
more clear than in a comprehensive evaluation of the benefits 
of making modest improvements to unclog America's bottlenecks. 
In 1999 we analyzed those bottlenecks and took a look at what 
it would do to make a small improvement in those bottlenecks.
    What we found was astonishing. If the worse 167 bottlenecks 
were unclogged, the average emissions of volatile organic 
compounds would drop 44 percent, and carbon monoxide would be 
reduced 45 percent. Greenhouse gases would drop more than 70 
percent and at the same time traffic delays would be reduced 71 
percent, saving the average commuter 40 minutes per trip.
    Clearly a comprehensive program to relieve bottlenecks is 
an example of a program that should meet the logical 
requirements for active congestion mitigation and air quality 
programs. But currently it is ineligible because it would 
provide capacity for single occupancy vehicle.
    Although we clearly have concerns with the CMAQ Program, 
the majority of problems can be remedied with only minor 
statutory adjustments, we think. We believe the CMAQ Program 
can be restructured to better meet the true pollution reduction 
goals of the Clean Air Act and markedly reduce traffic 
congestion. So we recommend the following:
    First, allow all transportation projects that reduce 
congestion and clean air act pollutants to be eligible for 
funding. Next, focus on technological improvements instead of 
trying to get people out of their cars. We think we have to be 
realistic. TCMs just aren't convincing people to stop driving 
and they never will.
    When funding CMAQ projects, we believe that we should 
measure the benefits and the costs of alternative strategies to 
relieve congestion and clean air pollution. Based on those 
criteria, engage in those projects that can be shown to do the 
most good for congestion and air quality.
    Finally, frustrated drivers stuck in traffic would really 
appreciate targeted programs that fix the worse bottlenecks. We 
need to give motorists a break from traffic jams and clean the 
air.
    In conclusion, since 1991, $41 billion, as you have already 
heard, has been spent for the CMAQ program. But CMAQ doesn't 
reduce congestion and clean the air just because of its name. 
Changes in the way the account is administered could go a long 
way toward realizing the transportation goals of the Clean Air 
Act.
    We look forward to working with you. I would be pleased to 
answer any questions. I would ask that my testimony be placed 
in the record in its entirety.
    Senator Voinovich. Thank you.
    Ms. Kaiser.

 STATEMENT OF MARSHA KAISER, DIRECTOR, DEPARTMENT OF PLANNING 
AND CAPITAL PROGRAMMING, MARYLAND DEPARTMENT OF TRANSPORTATION, 
  ON BEHALF OF THE AMERICAN ASSOCIATION OF STATE HIGHWAY AND 
                    TRANSPORTATION OFFICIALS

    Ms. Kaiser. Thank you, Mr. Chairman. My name is Marsha 
Kaiser. I am the director of Planning and Capital Programming 
for the Maryland Department of Transportation. On behalf of the 
American Association of State Highway and Transportation 
Officials, we thank you for your leadership in holding this 
important hearing on transportation congestion and Congestion 
Mitigation and Air Quality Program.
    Just since 1977, over 80 non-attainment or maintenance 
areas have gone into or barely missed going into a lapse, 
putting billions of transportation dollars at risk or on hold. 
Meanwhile, conformity has become a year-end and year-out 
process consuming scarce staff and resources at a time when our 
planning needs are growing and our funding for staff is 
dwindling.
    Our recommendations for legislative improvement include 
four key areas: consistency, flexibility, consultation on new 
standards, expanded flexibility and eligibility for the CMAQ 
Program.
    On consistency: The goal of conformity, as you know, is to 
ensure that transportation plans are consistent with plans for 
attaining air quality standards. But the two planning processes 
have not been coordinated well. The result is a mismatch of 
deadlines, timeframes, emission estimates, basic planning 
assumptions, and penalties, resulting in a convoluted and 
ineffective process.
    I will give you an example in Baltimore. A couple of years 
ago, as we were updating our long-range plan, we decided to 
update some assumptions we were using in our traffic 
forecasting process. However, we were using SIP, State 
implementation plan assumptions, that were almost 10 years old. 
What happened was that the huge change and the type of vehicles 
manufactured and their attractiveness to the driving public 
alone have resulted in a substantial increase in emissions, a 
factor that we as a transportation department or metropolitan 
planning organization, had no control over.
    We are not asking that the transportation sector use 
outdated assumptions. We are asking that the assumptions used 
be coordinated between the air quality and the transportation 
planning process. Achieving alignment and greater consistency 
between these planning processes, including analytical tools 
and planning assumptions is essential.
    Flexibility is needed to help States achieve conformity, 
greater flexibility is needed to adjust to changing 
circumstances and chose cost-effective emission reduction 
strategies. You may be surprised to learn that transportation 
control measures that are included in State air quality plans 
cannot be added, deleted, or changed, even if they are not 
working without going through the cumbersome and very time 
consuming task of revising the entire State air plan. If a 
conformity lapse does occur, States are prohibited from 
applying any off-the-road remedies, even if they reduce 
emissions in a cost-effective way.
    Let me give you two examples. In the Metropolitan 
Transportation Commission in the San Francisco Bay area, they 
were sued because one of their transportation control measures 
from their 1982 SIP increased transit spending, and failed to 
achieve the projected results and increased ridership. Since 
the measure was not revised in the SIPs, the court ruled that 
the MTC was still obligated to continue the provision and to 
provide funding for this ineffective service.
    Another example is in the Maryland-Washington Region of an 
inadmissible emission solution. The Maryland DOT, with our 
State air agency, came up with a creative solution. We found 
that if we provided a million dollars of our transportation 
funding to the State Air Agency for development of a gas can 
replacement program, we could get reductions of emissions of 
almost a ton per day. However, this kind of off-road emission 
reduction, known as intersector trading, is not allowed to be 
used in the conformity process.
    TEA-21 should increase flexibility and allow TCMs 
substitutions with equivalent emission reduction and to allow 
trading emission savings from other off-road savings if the 
goal is truly to clean the air.
    In terms of consultation, the bad news is that things are 
about to get worse. As a result of the new standards for ozone, 
242 counties are likely to become new non-attainment areas 
while another 150 counties will fail to meet new standards for 
fine particulate matter. There is great uncertainty about what 
requirements will be applied and how the process will work.
    The Environmental Protection Agency should issue guidance 
on the new standards in consultation with stakeholders prior to 
the designations. We believe a 3-year grace period to 
demonstrate conformity is needed once a non-attainment 
designation is made in order to allow these new areas to 
develop the tools to establish the consultation process, and to 
obtain the resources they need, especially in non-urbanized 
areas to do conformity analysis.
    Expanded eligibility for the Congestion Mitigation and Air 
Quality Program is something we hope happens under the 
reauthorization. This program has broad support, as you have 
heard from most members of this panel. It should be continued 
but with some added flexibility to allow us to address both air 
quality improvements and the challenges of congestion.
    For example, in California decisionmakers have found it 
cost effective to provide cash incentives to owners to replace 
older, heavily polluting diesel trucks and buses with cleaner 
models that were built after 1994. This proven program for 
reducing emissions is not eligible for CMAQ funding under 
current restrictions.
    Mr. Chairman, our detailed recommendations are presented in 
our written testimony. We have engaged in a dialog with the 
environmental councils of the State on these important issues. 
I would be glad to answer any questions you may have.
    I would ask that my prepared statement be inserted in the 
record in its entirety.
    Senator Voinovich. Thank you all for your testimony.
    When you are doing this work on conformity, do you rely 
upon your own staff to do this, or do you do it in conjunction 
with your State's environmental protection agency?
    Ms. Kaiser. We do it with our staff.
    Senator Voinovich. I would be interested in the comments of 
all of you that are in the business.
    Ms. Kaiser.
    Ms. Kaiser. I have staff in the DOT that works on it. We do 
it in consultation with the State air agency staff. The DOT, by 
the way, provides funding to the environmental staff to pay for 
it. We do it in consultation with the Metropolitan Planning 
Organizations.
    Ms. Liebe. Mr. Chairman, if I may, I would also like to 
offer a few comments on that question.
    I think one of the common misperceptions about the 
conformity process is that the air quality agencies somehow 
establishes an emission budget that then gets imposed on the 
transportation community. Just to clarify, when the conformity 
rule was originally established, it required our agencies to 
work together on both transportation planning and on 
development of the air quality plans.
    When we develop an air quality plan, we use the regional 
transportation plan for purposes of evaluating the mobile 
source emissions that will go into an air quality plan. We also 
then evaluate the regional transportation plan for what 
elements are in that regional transportation plan that might be 
instrumental to achieving that level of travel that is 
predicted under the regional transportation plan. We look at 
those elements for selecting our transportation control 
measures.
    So really the consultative process goes both ways. The 
regional transportation plan becomes a very important source of 
input in the air quality planning process, not only from the 
travel data, but also the population and employment forecasts 
that are used in that process.
    Senator Voinovich. The question I have is in terms of 
getting things done. So often what really stands in the way of 
progress in dealing with some of these problems is the adequacy 
of the people that you need to get the job done.
    Ms. Liebe, you indicated that the Oregon Department of 
Environmental Quality oversees what the MPOs are doing. Do you 
provide them any staffing? How does that work?
    Ms. Liebe. Mr. Chairman, we work in partnership. Their 
staff is responsible for running the travel model. They help us 
with the emission estimates. We don't pay them. They provide 
those resources to us.
    Senator Voinovich. But in your State they do have the staff 
to get that done; is that correct?
    Ms. Liebe. That is correct.
    Senator Voinovich. How about in Maryland?
    Mr. Maier. The Metropolitan Planning Organization has the 
staff. They have the resources to do it. The Maryland 
Department of the Environment has staff that the Department of 
Transportation pays for to do the conformity analysis and the 
air quality planning.
    Senator Voinovich. Do you feel that you have the adequate 
staff combined to get the job done?
    Mr. Maier. At the State level, the process is becoming more 
complex. It's getting more difficult to stay on top. I have had 
to add more staff to keep on top of the issues. My concern is 
in some of the newer non-attainment areas. In some of our more 
rural, less urban, non-attainment areas, MPOs, they don't have 
the resources and the qualified staff to really deal with the 
complexity of the conformity rule.
    Senator Voinovich. Howard.
    Mr. Maier. Thank you. At NOACA we are fortunate in that we 
do have staff members who are well trained and quite able to 
take care of the modeling process. We work with the Ohio EPA, 
as you know, on that. We also work with our neighboring MPOs, 
as well. I don't see any particular problem with the staff 
work. They have to continually get upgraded and reeducated to 
work with the models. But they do what they have to do.
    Senator Voinovich. You all have concerns about conformity 
and the different perspectives on it. We heard Mr. Holmstead 
talk. They are trying to deal with this on a regulatory basis; 
is that correct? It is not statutory. They have the authority 
through regulation to deal with the conformity problems. Is 
that your understanding?
    The issue is: How much input do those of you who are on the 
ground actually doing the work in your respective organizations 
have? Have you been consulted, those of you that represent 
national organizations that are professionals with the MPOs or 
with the environmental agencies in their working on these 
changes? Are they not that far along yet to share that 
information?
    Has there been any input from any of you in terms of these? 
Mr. Holmstead said they were putting together some new 
regulations dealing with conformity. Mr. Replogle, you 
commented about some of the suggestions that they have?
    Mr. Maier. I can start with that, Mr. Chairman. In a word, 
no. We have not had much--maybe directives have been addressed 
to staff members. I have not seen anything yet.
    Senator Voinovich. So the people that are there where the 
rubber hits the road haven't been involved? I want to find out 
what the status is?
    Mr. Holmstead. Mr. Chairman, the National Association of 
Regional Councils is looking at the whole picture. We have 
advisory committees made up of executive directors and others 
that are making recommendations. I believe we do have a series 
of recommendations that Howard has referred to that we are 
willing to put forth.
    Senator Voinovich. How about the environmental groups? Have 
you had any input? Didn't you say, Mr. Replogle, that you were 
over there?
    Mr. Replogle. Well, we met earlier this week with Federal 
highway officials to talk about some of conformity issues. We 
do engage, on occasion, with EPA staff as well. EPA is familiar 
with them.
    Senator Voinovich. EPA has the conformity responsibility 
though, right?
    Mr. Replogle. Well, it's a shared responsibility between 
the two agencies to jointly agree upon revisions to the 
conformity rules. I understand from the testimony this morning 
that they are working together on new guidance. They have been 
working for some time on developing a new set of regulations 
around conformity in the wake of various court decisions in 
past years. That has been long in the works. I am not sure what 
the status of it is.
    Senator Voinovich. Here is the thing. I have a lot of 
questions to the process. Maybe this is too simple.
    Mr. Lasker, you say your organization has some 
recommendations on what should be done on conformity.
    Mr. Lasker. The National Association of Regional Councils 
has developed a position which I will leave with you. Howard 
has referred to those recommendations.
    Senator Voinovich. Are there any other organizations that 
have developed some recommendations?
    Ms. Kaiser. Mr. Chairman, AASHTO has developed some 
positions. I believe all of us probably have forwarded our own 
positions to EPA and Federal Highway. I can't say there has 
been any dialog with them.
    Senator Voinovich. Here's a suggestion. I used to be 
president of the National League of Cities and chairman of the 
National Governors Association. When we had a major problem 
that was involved with State and local governments, I was very 
involved in what we called the ``Big Seven.'' These were the 
mayors and the State legislators. We would try to get various 
people in a room to start to talk with each other about what 
various groups were recommending to see if there isn't some way 
that you could come back to a Federal agency, for example, and 
say, ``Here is what we really think ought to be done.''
    Too often it seems here that your group is going to see 
them, and then Mr. Replogle's group comes to see them, and 
somebody else's group comes to see them. So they have all of 
this on their table.
    I am suggesting, Mr. Replogle, that Environmental Defense 
be the responsible organization. Perhaps maybe you could work 
with the regional groups and maybe try to get together and talk 
about these things. You would share your point of view and they 
share their point of view. There would be some coordinated 
effort so that when you talk to the Agency there would be a 
consensus to say, ``Hey, this is the way we think that this 
thing should get done.'' This is rather than have you just 
listen to us and then go off and do your own thing.
    Mr. Replogle. That's is an excellent idea. In the last 4 to 
6 weeks, environmentalists, including myself, have sat down and 
met on several occasions with representations from the 
Association of MPOs and AASHTO, trying to find some common 
ground on some of these issues. We still have a long way to go.
    Senator Voinovich. I would like to challenge you to get 
back to me in a month's time. You represent a lot of the 
environmental groups, the Sierra Club and so forth. I would 
like to know what you have been able to do in a month's time 
about what progress you have made in getting things done. I 
would like you to do it on your own. If you don't, I may ask 
you to come in.
    We have some of these problems that confront us. It just 
seems so often there is a lot easier way of getting some of 
these things done. I would really encourage you to do that. I 
am going to be in touch with you to see if it is happening.
    Senator Voinovich. Yes, Ms. Kaiser?
    Ms. Kaiser. Mr. Chairman, just last week, AASHTO, the 
environmental councils of the States, STAPPA/ALAPCO, and AMPO 
did spend a whole day discussing our different positions on 
conformity and CMAQ. I have to say it was a very long day. I 
can't say we reached much in the way of consensus, but we did 
enter into a dialog. We have committed to continue that dialog 
going.
    Senator Voinovich. That would be good. There are different 
perspectives on things. It is also to hear what they have to 
say and if there is some compromise that could be made. There 
are some practical things.
    Mr. Lasker, I was impressed with you. You really tried to 
move along and deal with problems. You have been very flexible. 
What you are saying to me is that the Agency doesn't seem to 
have any kind of flexibility in terms of some of these things. 
It would seem if you have somebody that is consciousness and 
not dragging their feet and they are moving forward, that that 
should be recognized.
    Mr. Lasker. Two key words--flexibility and common sense. If 
that could prevail, everyone would be happy. The National 
Association of Regional Councils works very closely with the 
National League of Cities and the U.S. Conference of Mayors. We 
will involve them in this discussion.
    Senator Voinovich. It is really difficult. If you all came 
to the Agency and said this is what you think, it would be very 
difficult for them to say no to you. What you are saying is 
that the environmental groups thinks that means dragging our 
feet, delaying what needs to be done. I know from your 
testimony that is not what you are doing. So there is this 
commonality that I think can somehow be achieved.
    Ms. Liebe, you have been trying to get in a word in.
    Ms. Liebe. Actually, I just wanted to make you aware that 
STAPPA/ALAPCO also has a position on some potential 
improvements. There are a number of areas where we, in the 
State of Oregon, have implemented this program with a great 
degree of flexibility. I would be happy to provide those 
examples to you and to the committee.
    I also just want to make you aware of the effort that was 
already mentioned with the environmental commissioners of 
States and STAPPA/ALAPCO and AASHTO to try to come up with some 
consensus position on conformity.
    Senator Voinovich. That is good. The other one is the CMAQ 
Program. I have been there. We worked the system. There is 
nothing wrong with working the system in trying to get money 
for projects that you think are very important for your 
community.
    Is there any consensus that we ought to review the CMAQ 
Program to make sure that the dollars that we are providing are 
more oriented toward things that are going to make a difference 
and really help? Am I stepping on someone's toes? Any comment?
    Ms. Steed. That's exactly what we would like to see done. 
In fact, we would like to see cost effective measures be 
developed. We know, for example, there has been some transit 
projects that cost something like $272,000 per ton of pollution 
removed while at the same time traffic signalization 
improvements cost something like $23,000. And yet that year 
most of the funding for CMAQ projects went toward the transit 
area which is not as cost effective. That is why we are 
recommending some cost effective measures be developed for the 
program.
    Mr. Replogle. Mr. Chairman, I think this area of evaluating 
cost effectiveness is one that in principle everyone would 
agree with that we ought to be looking at cost effective 
strategies. Where the challenge comes is in getting agreement 
on reasonable analysis methods to make that evaluation. Sadly, 
we still have very deficient methods in use in many 
metropolitan areas to evaluate. For example, what is the 
effectiveness of making an area a safe and attractive place to 
walk? More people then can walk and fewer people have to drive 
their car just to go across the street because you can't get 
across the street.
    We have a difficult challenge getting good evaluations of 
some transit projects in areas where if you implement it in one 
place, it is highly effective and if you implement it in a 
different context where everybody gets free parking and where 
you can't walk anywhere, you will get very much less great 
effectiveness.
    The context is everything for implementation. The CMAQ 
Program is a tiny fraction of the total Federal transportation 
dollars which, in turn, is a small fraction of the total 
transportation dollars. So we really can't evaluate small CMAQ 
projects except within their larger context. If they are being 
implemented in a region in an area where we are throwing 
billions of dollars to subsidize car use and car dependence to 
work against those alternatives, then it is hard to say whether 
that investment in a bicycle project is ineffective or whether 
it is simply being undermined by our spending.
    Senator Voinovich. It is a difficult decision. To put in 
some criteria might be very difficult because of the difficulty 
in objectively evaluating it. You are leaving that up to the 
local folks who are pretty conscientious about trying to do the 
right thing.
    The last point I am going to make is this. We don't have 
enough money for highways. The challenge is that we need to 
recognize that. Ms. Steed was talking about the bottlenecks. 
There is no way with the current funding today that we are 
going to be able to take care of the bottlenecks. I think we 
had some other hearing here with Ms. Peters. I think it is $109 
billion a year that is required between the Federal and the 
State to take care of the issue of highways. We are only 
spending about $67 billion for it.
    So we have a big discrepancy here in what is needed. I am 
lobbying you and your respective organizations to really look 
at this issue and to come back to us with some recommendations 
on what you think is a practical thing that we ought to be 
doing to deal with this problem, recognizing that highway 
funding is a partnership.
    I know that in my State we have a very bad financial 
situation, as we have in most of the States, but our Governor 
is recommending that we increase the gas tax in the next 3 
years, 2 cents, 2 cents, and 2 cents. He is trying to sell it 
on the basis of environmental and economic development.
    I think we need to face up to this situation. We need to do 
it rapidly. We were able to get the Highway Trust Fund. Senator 
Carper and I worked on that in 1998. We worked very hard to get 
the Trust Fund money to be used exclusively for highways. We 
were successful.
    Unfortunately, the money coming into that is not adequate 
to get the job done. Some of us that consider ourselves 
conservative fiscal hawks do not want to borrow the money to do 
it. That is where we are. We are borrowing money right now.
    It has to be paid for if we are going to move forward. I 
would be interested in your organization's position on this 
issue.
    Senator Carper.
    Senator Carper. Senator Voinovich, I need to be somewhere 
else at 12 o'clock. So I am going to not ask you to respond 
orally right now, but I am going to ask you to respond in 
writing to this question, if you would.
    When we have a big panel like this, one of the things I 
often times look for, particularly when there are people from 
diverse backgrounds and diverse points of view, is what do you 
agree on? Senator Voinovich may have already asked this. But 
what basic concepts or precepts do you agree on, that there is 
broad agreement on?
    That would be helpful to us as we approach our job 
particularly in the months ahead in the area of transportation. 
That makes our job so much easier. If you can help me with 
that, I would appreciate that very much.
    Mr. Maier.
    Mr. Maier. If I may get started on this, one of the things 
that I gather just from listening to the comments is that CMAQ 
as a funding source is very well accepted, whether it is for 
traffic signals, whether it is for transit, no matter what. It 
does make the existing system more efficient. It allows for us 
to conserve the funds that we do have and have some opportunity 
to fund projects that can help all of us, no matter what our 
points of view might be.
    Mr. Lasker. Let me add to that. CMAQ is a good program. But 
if you are in attainment, you do not get any CMAQ. So what you 
are doing is that you are getting penalized for being good. If 
you fail, we will give you money. If you don't fail and you 
want to do good things, we won't give you any money for that.
    I think that you have to look at those areas that are doing 
something, that have a proactive program. You should get 
something to try to continue to reduce emissions. I will leave 
it at that.
    Senator Carper. Thank you.
    Mr. Replogle.
    Mr. Replogle. I sense a general agreement across the 
community about expanding the CMAQ Program and expanding its 
eligibility so that communities can spend those funds in ways 
that help reduce pollution and address pressing community 
needs.
    Recognizing that we are going to have a lot more people 
living in non-attainment areas with the new designations, that 
we have air toxics problems, and fine particulate problems that 
need to be addressed--the additional population and the 
additional problems to which we need to apply that program, are 
things that justify significant program growth over and above 
the baseline.
    Another area where I think there is a general consensus, or 
a good potential to get one, is that we are all well served by 
investing more in better analysis tools and strategic planning 
systems that help us to better understand that the traffic 
consequences, air pollution consequences, and growth 
consequences are of different policies. We can then spend less 
time fighting about the numbers and spend more time talking 
about what is the most sensible set of policies that gets us 
the best performance for the taxpayer dollar.
    Ms. Steed. I should also add that there is an EPA/DOT 
program called ``It All Adds Up to Clean Air'' that the highway 
users are participating in. That is exactly what it is trying 
to, is to come to agreement on some of the things that could be 
done that has broad agreement across the spectrum. So we will 
be happy to get back to you on that as well.
    Senator Carper. One more comment. I will just ask you to 
flesh this out a little more in writing, please.
    Ms. Liebe. This will be short. Just as a final comment, I 
do think that we all very much support the goal of achieving 
public health objectives. One very important way of doing that 
is integrating transportation and environmental planning.
    Senator Voinovich. Dr. Teague, you were left out. I would 
be real interested if you have some material on asthma, in 
light of the fact that we have been reducing emissions overall, 
what you attribute that increase in asthma. What specifically 
has the most impact on it?
    We have a study down at the University of Cincinnati, Dr. 
James Lacky. He is looking at diesel fuel and how the 
particulates from diesel are impacting on children. I would be 
interested in this whole area of asthma and really what is the 
culprit here?
    Dr. Teague. Thank you. The growth of asthma in the United 
States population has become a staggering problem, and is close 
to epidemic proportions. The reason is not known. It is 
complex. There are many, many factors.
    Clearly there are more allergies among the general 
population. Thirty years ago, 30 percent of people were 
allergic. Today 60 percent are.
    There is something in our lifestyle. It may be a more 
sedentary lifestyle, staying indoors more, not enough exercise, 
and maybe dietary patterns related to saturated fat intake. 
Something has created this asthma epidemic. It has also 
occurred in other civilized nations while the air has gotten 
cleaner.
    The role of air pollution in asthma was pretty clear, I 
think, from our study. You come with asthma as a child. Your 
airways are sensitized. They are inflamed. Then the pollution 
event occurs. It triggers an attack. That seems to be the role.
    We just found by reducing pollution in Atlanta during the 
Olympics, there was less asthma in the children in Atlanta.
    Senator Voinovich. Well, anything you have on that, I would 
really like the best stuff that's out there and the best 
research work. It seems to me that because it is growing there 
ought to be the best and brightest looking at it to come up 
with some recommendations.
    I would like to thank all of the panelists for coming. This 
has been very, very informative for me. I look forward to 
hearing back from you. Thank you.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
                              ----------                              

Statement of Hon. Jeffrey Holmstead, Assistant Administrator Office of 
        Air and Radiation, U.S. Environmental Protection Agency
    Thank you, Mr. Chairman and members of the subcommittee, for the 
opportunity to appear here today to discuss the Congestion Mitigation 
and Air Quality Improvement (CMAQ) program and the transportation 
conformity program in the context of the new health-based air quality 
standards for ozone and fine particulate matter.
    There has been considerable progress in achieving better air 
quality for Americans since the passage of the Clean Air Act Amendments 
in 1990. As we move forward with the implementation of the new air 
quality standards, the continued integration of transportation and air 
quality planning will be important for meeting these new standards.
    Achieving and maintaining healthy air quality remains an important 
national priority. EPA sees the reauthorization of TEA-21 as an 
opportunity to employ all tools available to improve air quality, 
including transportation, in ways that could help cities across the 
country make progress toward attainment under both the pre-1997 and the 
new ozone and particulate matter standards.
    According to EPA's latest air quality trends report, air quality 
monitoring data show that from 1992-2001, concentrations of all six 
criteria pollutants have declined, including the four criteria 
pollutants that are most affected by the transportation sector: carbon 
monoxide, nitrogen dioxide, ozone (smog), and particulate matter 
(soot).
    These air quality data are good news, and are attributable to the 
transportation and air quality programs currently in place. However, 
there are approximately 51 million Americans living in 77 counties that 
are measuring violations of the current 1-hour ozone ambient air 
quality standard, and 11.1 million people living in 17 counties that 
are measuring violations of the current standard for particulate 
matter. Furthermore, when we begin to implement the new, health-based 
standards for ozone and particulate matter and designate the areas that 
are not attaining the standards, the number of people living in areas 
with air quality considered unhealthy will increase.
    The criteria pollutant emissions have a significant impact on the 
health of Americans. Particulate matter is linked to aggravation of 
pre-existing respiratory ailments, reductions in lung capacity, and a 
significant number of premature deaths. Ozone can impair lung function, 
cause chest pain and coughing, and worsen respiratory diseases and 
asthma. Carbon monoxide can aggravate angina (heart pain).
    Even though overall emissions have been reduced, on-road mobile 
sources continue to be a significant contributor to pollution problems. 
EPA estimates that in 2001, motor vehicles accounted for 62 percent of 
the total U.S. carbon monoxide emissions, 27 percent of the ozone 
precursor of volatile organic compounds (VOCs), 37 percent of the ozone 
precursor nitrogen oxides (NOx), and 6 percent of the traditionally 
inventoried direct emissions of particulate matter nationwide. On a 
regional scale, motor vehicles can be an even larger portion of an 
area's inventory. For example, in 1999, motor vehicles accounted for 48 
percent of NOx in Atlanta, Georgia. According to State air quality 
plans, on-road vehicles account for 63 percent of total NOx in the 
Springfield, Massachusetts area; 56 percent of the total NOx in the Los 
Angeles region in California; and 80 percent of the total carbon 
monoxide and 53 percent of the total coarse particulate matter in the 
Las Vegas, Nevada area. Although emissions reductions from stationary 
sources are important in many areas throughout the country, the 
continued high incidence of health problems related to these pollutants 
demonstrates the continuing need to reduce air pollution from motor 
vehicles. As a Nation, our techniques for reducing motor vehicle 
emissions have to encompass both technology improvements to vehicles 
and fuels, as well as programs that encourage other, less polluting, 
transportation choices and practices.
    Technology has provided significant air quality benefits in the 
past and will continue to do so into the future. Emissions from today's 
new cars have been reduced by more than 95 percent per vehicle relative 
to new cars 35 years ago. EPA's new Tier 2 vehicle standards are 
designed to reduce the emissions of new passenger cars and light trucks 
even further. The rule combines these requirements with requirements 
for much lower levels of sulfur in gasoline. We estimate by 2020, NOx 
produced by vehicles will be approximately 70 percent lower as compared 
to what the levels of NOx would have been without the Tier 2 program in 
place.
    EPA's new clean diesel program for large trucks and buses is 
another technology-based program. It will achieve emissions reductions 
based on the use of high-efficiency exhaust emissions control devices 
coupled with changes in diesel fuel sulfur levels. Testing indicates 
that this program will result in particulate matter and NOx emissions 
levels that are as much as 90 and 95 percent below the current 
standards for heavy duty engine emissions in effect today.
    A third example of emissions-reducing technologies is EPA's 
Voluntary Diesel Retrofit Program, which is designed to help owners of 
trucks, buses, and off-road equipment install innovative and cost-
effective emission control technology on existing diesel engines. These 
technologies can result in reductions of particulate matter and 
volatile organic compounds.
    But technology may not be able to achieve all the necessary 
emission reductions from transportation sources alone. Although 
emissions per vehicle have declined dramatically, the number of miles 
Americans are driving continues to increase. In 1970, Americans 
traveled just over one trillion vehicle miles per year; in 2000 it was 
almost 2.8 trillion. Growth in vehicle miles traveled (or VMT) has far 
outpaced population growth. From 1970 to 2001, population grew 39 
percent, but VMT grew 149 percent. These trends are continuing. A 
conservative national estimate of VMT growth is approximately 2 percent 
per year. However, in many cities, particularly in the southern and 
western States, VMT is growing much faster than this average. For 
example, in the early 1990's, Charlotte's VMT grew about 4.9 percent 
per year, Denver's VMT grew 4.5 percent per year, and Salt Lake City's 
VMT grew by 4.3 percent per year. Las Vegas projects that its VMT will 
increase more than 4 percent per year through the year 2020. The 
continued integration of transportation planning and air quality 
planning is a means to preserve and continue the progress we have made 
in ensuring that Americans breathe healthy air.
    In addition to technology-based programs, programs that are based 
on providing travel choices are also important in achieving better air 
quality. For example, the Commuter Choice Leadership Initiative is a 
new and successful non-regulatory approach to achieving emission 
reductions. Built around the tax-free commuter benefits in TEA-21 and 
modeled after the Energy Star partnership programs, the Commuter Choice 
Leadership Initiative is an EPA-DOT voluntary partnership program with 
business to reduce traffic and traffic-related emissions. In the first 
year and a half of the program, over 1,300 companies from 28 States and 
Washington, DC, have signed voluntary agreements to offer 640,000 
employees commuter benefits meeting a national standard of excellence. 
EPA projects that if half of U.S. employees worked for employers that 
offered commuter benefits at the national standard of excellence 
promoted by the Commuter Choice Leadership Initiative, air pollution 
and traffic would be cut by the equivalent of taking 15 million cars 
off the road every year.
    In January of this year, EPA launched another innovative, non-
regulatory clean air program, SmartWay Transport--a voluntary 
partnership program that aims to reduce ground freight sector energy 
use by promoting the use of energy-efficient technologies and improved 
management practices. Over a dozen top companies representing a diverse 
group of ground and freight shippers and carriers have already joined 
EPA as Charter Partners and are helping the Agency to develop 
performance measures for the program. Although the SmartWay Transport 
program was created primarily to reduce carbon emissions, the program 
will also result in voluntary reductions of NOx (a precursor to ozone) 
and particulate matter that could assist areas in achieving the new air 
quality standards.
     the congestion mitigation and air quality improvement program
    The CMAQ program, initially begun under ISTEA and reauthorized in 
TEA-21, provides funding for transportation projects to improve air 
quality and reduce congestion. EPA views the program as a valuable 
transportation funding tool for air quality improvement because the 
pool of potential projects is largely restricted to areas with poor air 
quality, (non-attainment areas), or those that had poor air quality in 
the past (maintenance areas). The CMAQ funds are not restricted to just 
traditional highway or transit projects. The funds can be used for 
Travel Demand Management (TDM) programs such as park and ride lots, car 
and van pool programs and public education, or for other unique 
Transportation Control Measures (TCMs). There is increasing interest in 
using CMAQ funds for other measures, such as diesel engine retrofit 
programs and anti-idling equipment.
    An EPA analysis of the benefits of TCMs, such as those funded by 
the CMAQ program, documents the emission reductions from 22 different 
shared ride, bicycle and pedestrian, traffic flow, transit and demand 
management programs. The CMAQ program has funded projects that:
    <bullet> contribute to attainment and maintenance of the NAAQS;
    <bullet> produce long-term emission reductions and support 
sustainable growth;
    <bullet> fund innovative transportation options (enabling projects 
such as public education, technology, and support services); and,
    <bullet> provide alternatives to single occupant vehicle travel and 
reduce congestion through, for example, regional rideshare programs.
    While some of the projects may produce small emission reductions, 
cumulatively these projects can add up to significant reductions over 
the life of the attainment plan. In many cases our stakeholders 
indicate that CMAQ projects are important for helping a State to meet 
Clean Air Act air quality planning and conformity requirements. The 
benefits of the CMAQ program, and particularly projects that reduce VMT 
or manage system capacity, extend beyond emissions reductions. Other 
benefits include roadway congestion relief, energy conservation, 
greenhouse gas emission reductions, as well as economic development and 
community livability. By requiring the project to be implemented in 
nonattainment areas, more local government and public involvement in 
transportation investment decisions is encouraged.
    EPA and DOT have documented CMAQ's numerous benefits in reports, 
brochures and fact sheets available to transportation and air quality 
planners. From EPA's perspective, there is little doubt that the 
program is beneficial for air quality and is an important program for 
nonattainment areas and maintenance areas that want to address 
transportation emissions. Air quality agencies have told us how 
important it is to have a transportation funding program that is 
dedicated for air quality purposes. We have been told that many 
projects that have been highlighted as examples of innovative and 
effective emission reduction programs would not have been implemented 
without the availability of CMAQ funds. A National Academy of Science 
study mandated by Congress and undertaken by the Transportation 
Research Board draws similar conclusions. The findings of ``Special 
Report 264. The Congestion Mitigation and Air Quality Improvement 
Program: Assessing 10 Years of Experience'' are favorable and include 
recommendations to reauthorize and expand the program.
    While EPA generally agrees with the NAS recommendations, there are 
some important issues to consider. These issues fall into two main 
categories apportionment and eligibility. At a time when implementation 
of the 8-hour ozone NAAQS may change the nonattainment landscape based 
upon our most advanced understanding of how air pollution affects 
public health, EPA, as well as other stakeholders, are concerned that 
the eligibility criteria and apportionment formula in TEA-21 are based 
upon the old standards and nonattainment classifications.
    Under the current program, a change in the classification of 
nonattainment areas, or the number of areas, will likely change both 
the amount of CMAQ funds apportioned to each State and the amount 
available to nonattainment areas. Given the current statutory language 
in TEA-21, nonattainment areas designated under the 8-hour ozone 
standard would be eligible for CMAQ funding, but the funds apportioned 
to the States would not account for the new areas unless they were 
classified under the system for the 1-hour standard. EPA is working 
with the Department of Transportation to evaluate this issue and 
possible solutions.
    Like 8-hour ozone nonattainment areas, areas that are designated 
nonattainment for particulate matter are eligible to receive CMAQ 
funding under the current program, but the apportionment formula does 
not explicitly account for them. Just as our knowledge of the health 
risks of particulate matter has grown, programs to reduce the very 
small but hazardous particulates known as PM<INF>2.5</INF> will likely 
increase in importance. Generally, both diesel and gasoline powered 
vehicles emit fine particulate matter as well as NOx and VOCs that lead 
to its formation. Since the emphasis of most TCMs over the past two 
decades has been to reduce VOCs and to a lesser degree NOx, the degree 
to which TCMs can reduce PM<INF>2.5</INF> is not as well understood. 
However, there is optimism that new programs for heavy-duty diesel 
retrofits, anti-idling devices, cleaner fuels and travel demand 
strategies can produce significant reductions in concentrations of 
PM<INF>2.5</INF>. The CMAQ program offers the opportunity for regions 
to explore innovative strategies to address this pollutant. 
Consideration should be given to amending the apportionment formula to 
account for the importance of this emerging air quality issue.
    TEA-21's flexible guidelines allow DOT to issue project eligibility 
guidance that cuts across traditional modal boundaries and makes the 
funds available for highway, transit and some non-traditional program 
areas that are more difficult to categorize. EPA and DOT continue to 
work collaboratively within those guidelines, to make the CMAQ program 
a more effective air quality resource for State and local government 
agencies. State and local transportation and air quality agencies need 
to work together to get the most out of the program as well. Some 
stakeholders have indicated that consultation between transportation 
and air quality agencies is not taking place on an ongoing and 
consistent basis. We believe that more consultation between State and 
local transportation and air quality agencies would make the program 
more effective.
   transportation conformity and the new ozone and fine particulate 
                            matter standards
    Transportation conformity was established by Congress in the Clean 
Air Act Amendments of 1990 and was designed to help ensure that an 
area's transportation activities are consistent with its air quality 
goals. EPA is responsible for writing the conformity regulations and 
the Department of Transportation (DOT) must concur with all conformity 
rules, as DOT is our Federal partner in the implementation of the 
program. EPA first published the conformity rule in November 1993. We 
subsequently streamlined and clarified the rule in August 1997, based 
on extensive discussions with State and local air pollution officials, 
transportation planners, and other stakeholders, as well as the 
experience of both DOT and EPA in the field.
    In March 1999, however, a decision from the D.C. Circuit Court of 
Appeals changed several aspects of the 1997 conformity rule. Shortly 
after that decision, EPA and DOT published guidance that addressed 
issues affected by the court. Nonattainment and maintenance areas have 
been operating under this existing guidance since it was published in 
1999. On August 6, 2002, we finalized a rule to provide flexibility in 
implementing conformity, consistent with the court decision. We also 
plan to incorporate EPA and DOT's existing guidance implementing the 
court decision into the conformity regulations.
    The transportation conformity program requires State and local 
agencies to evaluate the impact of new transportation activities on air 
quality on a regular basis. Areas that have air quality worse than the 
national standards (nonattainment areas) or that have violated the 
standards in the past (maintenance areas) are required to examine the 
air quality impacts of their transportation system to ensure that such 
systems are compatible with clean air goals. In the simplest terms, 
conformity serves as an ``accounting check'' to assure that a 
nonattainment or maintenance area's future transportation network 
conforms to the area's air pollution reduction plan.
    A benefit of conformity accounting is that it requires State and 
local governments, and the public, to consider the air quality impacts 
of the planned transportation system as a whole, before transportation 
plans are adopted and projects are built. Billions of dollars every 
year are spent on developing and maintaining our transportation system. 
Conformity helps ensure that these dollars are not spent in a manner 
that would worsen air quality, as that outcome would only necessitate 
spending additional money to reverse the air quality impact.
    Prior to the 1990 Clean Air Act, transportation planners and air 
quality planners often did not consult with one another or even use 
consistent information regarding future estimates of growth. To address 
these problems, the 1990 Clean Air Act Amendments explicitly linked the 
air quality planning and transportation planning processes in a manner 
that had not previously existed. Above all, transportation conformity 
has compelled the two types of planning agencies to work together 
through the interagency consultation process to find creative and 
workable solutions to air quality issues. Most everyone agrees that 
consultation is an important benefit of the conformity program. A 1999 
Harvard study on the program, which was jointly funded by DOT and EPA, 
confirmed that the program has improved consultation between 
transportation and air quality planners, and made that consultation 
more effective.
    Consultation is meaningful because air quality and transportation 
planners have a common goal: transportation activities that are 
consistent with the State's air quality goals. A State's air quality 
plan (a State implementation plan, or SIP) establishes emissions 
ceilings, or budgets, for the various types of sources that contribute 
to air pollution problems. Transportation conformity makes State and 
local agencies accountable for keeping the total motor vehicle 
emissions from an area's current and future transportation activities 
within these air quality plan budgets. We believe that the interagency 
consultation that occurs as areas work to ensure that their planned 
transportation activities conform to their air quality plan budgets 
will continue to play a critical role in States' efforts to meet the 
new ozone and particulate matter standards in the future.
    EPA is currently working on an implementation strategy for both the 
new ozone and fine particulate matter standards and intends to finalize 
the strategies prior to designating areas for these standards. Under 
the Clean Air Act, newly designated nonattainment areas must start to 
comply with the conformity requirements beginning 1 year after the 
effective date of EPA's designation. Because most areas already know 
whether they are likely to be designated nonattainment under the new 
standards, we strongly encourage them to prepare themselves for 
implementing the conformity program by establishing interagency 
consultation roles, assessing modeling capabilities and updating 
planning assumptions as soon as possible. Engaging in these activities 
now will greatly ease their transition to conformity under the new 
standards.
    Before making designations under the new ozone standard, EPA will 
provide clarification to States and local government about several 
broad issues that relate to the conformity program. For example, some 
areas that will be designated as nonattainment for the 8-hour standard 
already designated nonattainment for the 1-hour standard and we are 
working to ensure a smooth transition from the 1-hour standard to the 
8-hour standard. This issue is relevant for conformity because the 
Agency believes that States should not be required to demonstrate 
conformity for both ozone standards at the same time. We will address 
this important issue in our 8-hour implementation which will be 
finalized before areas are designated under the 8-hour standard.
    Along with our 8-hour implementation rule, EPA also plans to issue 
guidance and conformity regulations so that areas are fully aware of 
the specific criteria and procedures for meeting conformity under the 
new standards. Through this process, EPA will address questions such 
as: what options does an area have for demonstrating conformity before 
a State implementation plan for the new air quality standards is 
submitted? The current conformity rule provides for alternative 
conformity tests when an area has not yet submitted a State air quality 
plan. EPA plans to make these alternative conformity tests available to 
newly designated areas. We will be answering specific questions about 
how to apply these tests in our upcoming conformity guidance and 
rulemaking. We understand that providing areas with adequate and timely 
guidance is imperative and are working with the Department of 
Transportation to ensure a smooth transition to implementing conformity 
under the new air quality standards.
    Under the conformity program, there are consequences for an area 
that does not meet a conformity deadline. However, there may be some 
misconceptions about these conformity consequences and how they affect 
a State's highway and transit funding. Under the new air quality 
standards, for example, if a metropolitan area does not have a 
conforming transportation plan in place by the expiration of its 1-year 
grace period, the area would not lose its Federal funding for highway 
and transit projects. Rather, the area's conformity status would 
``lapse.'' During a conformity lapse, additional project funding and 
approvals are restricted to certain types of projects. These types of 
projects that can proceed during a lapse include: exempt projects such 
as safety projects, projects in an approved State air quality plan, 
traffic signal synchronization projects and Federal highway and transit 
projects that received funding and approval prior to the lapse. Once a 
metropolitan area resolves its conformity issue and establishes a 
conforming transportation plan, the lapse ends and all Federal funding 
and approvals can resume.
    EPA has no knowledge of any State that has lost its highway funding 
due to an area's inability to demonstrate conformity, but recognizes 
that even short term conformity lapses can cause disruptions to the 
transportation planning and project development processes. However, in 
some cases, lapses have no effect on an area's transportation projects 
because the area has no new non-exempt projects pending. Most 
conformity lapses that have occurred over the past 5 years have been 
relatively short. There have been few instances during this time period 
where lapses have occurred for more than 6 months.
    When communities face difficulties demonstrating conformity, they 
can choose from several options. When a transportation plan's emissions 
are greater than the allowable budgets in the air quality plan, areas 
can decide whether to revise the transportation plan or revise the air 
quality plan. For example, some areas have added transit programs to 
reduce the emissions of their transportation plan, while others have 
gone back to the State air quality plan to see if other sources of 
pollution could be further controlled to allow the transportation 
sector's emissions budget to grow. An area can choose to build 
transportation projects that increase emissions, as long as the net 
effect of the total transportation system is consistent with the State 
air quality plan. Due to continued improvements in vehicle emission 
performance, most areas have been able to continue adding to their 
transportation network and still stay within their clean air budgets. 
Consultation between transportation and air quality agencies has played 
a critical role in developing such solutions that have allowed areas to 
meet both transportation and air quality goals.
    EPA estimates the number of areas that will possibly be designated 
as nonattainment for the new ozone and particulate matter standards 
will be less than 150. Of these, around 50 areas will not have had 
prior experience with demonstrating conformity. EPA and DOT, as well as 
stakeholders across the United States, have gained a wealth of 
experience in implementing conformity over the past decade. Newly 
designated areas with no prior experience with conformity will benefit 
from our collective experience and implementation guidance.
    We also expect that several recent EPA actions will make it easier 
for States and local governments to meet their emissions targets and 
demonstrate conformity. For example, the emissions reductions from 
EPA's Tier 2 and clean diesel standards will greatly benefit all areas 
that are designated under the new standards in their efforts to achieve 
those standards and ensure conformity. In addition, the President's 
Clear Skies legislation will reduce emissions of SO<INF>2</INF> by 73 
percent, and NOx by 67 percent. These substantial reductions from the 
power sector will provide great flexibility for many counties by 
reducing the need for reductions from other sectors. We have learned a 
great deal about the conformity program and how we can make it less 
cumbersome while still preserving its benefits. We are pursuing several 
actions to simplify the conformity process, which should help the areas 
designated under the new standards.
    As part of this effort, EPA is exploring options that would 
specifically address two aspects of the conformity process that have 
been of concern to many stakeholders. The first issue pertains to how 
often conformity is required. Some air quality planners believe that 
any change in the minimum frequency of conformity would delay the use 
of new information in the transportation and conformity process. On the 
other hand, many transportation planners believe that conformity is 
required too often, leaving them with little time to focus on planning. 
These stakeholders claim that increasing the minimum 3-year conformity 
and transportation plan updates would give transportation planners the 
ability to develop better plans that focus on other environmental and 
planning issues, such as environmental justice, in addition to air 
quality.
    In coordination with the Department of Transportation, we are 
evaluating options that might be able to improve the current conformity 
frequency requirements.
    The second aspect of conformity that is of concern to some 
stakeholders is the timeframe over which conformity must be 
demonstrated. The transportation community believes that the current 
20-year timeframe for which transportation plans must demonstrate 
conformity is unfair. Since State air quality plans typically cover a 
shorter timeframe (typically 10 years or less), they claim that the 
burden of growth in the years past the timeframe of the State air 
quality plan rests on the transportation sector. However, environmental 
stakeholders see a need for long-term planning to ensure that both 
transportation and air quality goals are achieved.
    In response to these stakeholders, EPA is working with DOT to 
examine the current conformity timeframe requirement to determine 
whether there is a compromise that would address the issues raised by 
the transportation community and the long-term air quality concerns 
held by environmental agencies.
    In conclusion, EPA is committed to partnering with DOT to continue 
our progress in meeting both transportation and air quality goals. EPA 
has been actively working with the Department of Transportation in 
developing the President's proposal for the reauthorization of TEA-21, 
and that proposal will be submitted to Congress soon. Based on our 
collective experience in implementing the CMAQ and transportation 
conformity programs, we believe the Administration's proposal will 
build on the success of TEA-21 and will further assist areas in their 
efforts to achieve clean air now and in the future, as we move forward 
with implementing the new ozone and fine particulate matter standards. 
Thank you again for this opportunity to testify today and discuss our 
programs with you. I would be happy to respond to any questions that 
you may have.
                                 ______
                                 
       Response of Jeffrey R. Holmstead to Additional Questions 
                         from Senator Jeffords
    Question 1. Please describe the resources and the guidance that 
your agency is going to provide in fiscal year 2004, assuming the 
budget request is satisfied, to States and communities to help them 
demonstrate conformity with the PM<INF>2.5</INF> standard.
    Response. A top priority for the EPA is to ensure that newly 
designated 8-hour ozone and PM<INF>2.5</INF> nonattainment areas are 
provided with adequate guidance for implementing these new health-based 
air quality standards. With regard to the PM<INF>2.5</INF> standard, 
EPA is currently working on a broader implementation strategy proposal 
to provide States with the procedures and criteria for PM<INF>2.5</INF> 
area designations and compliance to the Clean Air Act requirements for 
that standard. We plan to propose this broader implementation strategy 
in December 2003, with a final rule expected later in 2004.
    EPA is also working on another rulemaking that would amend the 
conformity regulations to provide clear guidance and rules for 
implementing conformity for the new 8-hour ozone and PM<INF>2.5</INF> 
air quality standards. EPA plans to publish a proposal (the ``new 
standards proposal'') for this conformity rulemaking this summer, and 
will hold a public hearing on the proposal in Washington, DC, soon 
after it is published. We anticipate taking a final action on the new 
standards proposal by April 2004. We will also be releasing guidance 
documents, as needed, to implement the conformity program for the new 
standards.
    In addition, EPA has supported and will continue to support 
throughout fiscal year 2004 specific training opportunities to assist 
areas in meeting the conformity requirements for the new air quality 
standards. These training opportunities include:
    <bullet> NTI Conformity Course: The National Transit Institute has 
been offering a course called, ``Introduction to Transportation/Air 
Quality Conformity'' in locations across the country. This course was 
developed by the Federal Transit Administration, in coordination with 
the Federal Highway Administration and EPA. This 2.5 day course offers 
an in-depth overview of the criteria and procedures for implementing 
conformity and is designed for Federal, State and local agencies 
involved in the conformity process. This course is offered free of 
charge.
    <bullet> MOBILE6 training: MOBILE6 is EPA's latest motor vehicle 
emissions factor model for official use by State and local governments 
to meet Clean Air Act requirements outside of California. EPA announced 
the availability of MOBILE6 in the Federal Register on January 29, 
2002, (67 FR 4254). EPA and DOT jointly sponsored seven MOBILE6 
training courses across the country in 2002. These courses were open to 
the public and were offered free of charge. The training materials for 
these courses are on the MOBILE6 website and can be downloaded at: 
http://www.epa.gov/otaq/m6.htm Other training materials prepared by EPA 
are also available on this website.
    <bullet> EPA is also considering other potential training and 
outreach mechanisms and tools that could be developed and made 
available, within current budget constraints, to State and local 
transportation and air quality agencies affected by the designations 
for the new standards.

    Question 2. As has been discussed, the purpose of conformity is to 
ensure that transportation plans achieve the motor vehicle emissions 
levels set in State Implementation Plans (SIPs) for air quality. Would 
the Agency agree this coordination is needed for all national ambient 
air quality standards (NAAQS), including the new ozone and PM<INF>2.5</INF> 
standards?
    Response. Yes. EPA would agree that linking transportation and air 
quality planning through the conformity process is necessary for all 
pollutants and standards for which on-road motor vehicles are 
important. The purpose of conformity is to ensure that emissions from 
transportation sources stay within the air quality targets or 
``budgets'' established by the SIP so that public health is protected. 
Therefore, we believe that it makes environmental sense to have 
conformity apply for those criteria pollutants, including ozone and 
PM<INF>2.5</INF>, for which transportation sources are a major 
contributor.

    Question 3. As I understand the responses you provided last fall to 
the Committee on this subject, many States have not demonstrated 
compliance with their 1999 milestones--that is the showing of 
reasonable further progress in reducing V.O.C.'s and NOx as required by 
section 182(g) of the Act. What is EPA doing to correct that situation?
    Response. Under sections 182(c), (d) and (e) of the Clean Air Act 
(CAA) as amended in 1990, State plans for serious, severe, and extreme 
ozone nonattainment areas are required to demonstrate attainment of the 
1-hour ozone standard no later than specific dates in the CAA. The 
dates are 1999 for serious areas, 2005 or 2007 for severe areas, and 
2010 for the single extreme area.
    In addition, subsections 182(a)-(e) of the Act requires States to 
show that their clean air plans provide for ``rate-of-progress'' (ROP) 
emission reductions. The Act requires a rate of progress of 15 percent 
reduction in an area's volatile organic compounds (VOC) emissions by 
1996 and a 9 percent reduction of VOC or equivalent oxides of nitrogen 
(NOx) emission reductions every 3 years thereafter until the attainment 
date. A progress report, called a ``milestone compliance 
demonstration'' is due from affected States, in accordance with EPA 
regulation, after the applicable milestone is to have been met. If a 
milestone is not met or the milestone compliance demonstrations are not 
submitted, the State, under section 182(g)(3), has three options: it 
can request that the area be reclassified to a higher classification, 
it can implement specific additional measures adequate to meet the next 
milestone, or it can adopt an economic incentive program.
    In the late 1990's, EPA began to draft a rule suggesting to States 
two possible approaches to performing the milestone compliance 
demonstration: (1) emission inventory updates (where possible) and/or 
(2) indicators of compliance such as growth rates, VMT change 
information, regulations planned and adopted, etc.
    As it analyzed the issue, EPA recognized that technical problems, 
centering upon the timeliness of State emission inventory updates and 
associated growth projections, would arise in many States when the 
control agencies attempted to develop complete milestone 
demonstrations. In other words, many States would have problems 
synchronizing the periodic inventories with the milestone compliance 
time period. For States with this problem, it would have been 
prohibitively expensive to implement a revised emissions inventory 
program, or a separate new inventory program, that matched the 
compliance milestone demonstration period. Additional costs to States 
and industry would have resulted from condensing the process of 
collecting and quality assuring emissions data, which could take from 
12 to 18 months, into a 90-day period.
    Consequently, EPA did not finalize the draft rule because there 
were no reliable, readily available methods to evaluate compliance with 
the milestones. Under the terms of section 182(g)(2), States are not 
obligated to submit milestone compliance demonstrations until EPA 
promulgates the rule. Although not required, some States did submit 
specific milestone compliance demonstrations. While New Jersey did not 
submit a milestone compliance demonstration, information submitted with 
its emission inventory update showed that the milestone target were 
met.
    To assist States, the EPA has issued a series of guidance documents 
that outline how to calculate the many different inventories and how to 
prepare rate-of-progress SIP revisions. These were made available to 
States for use in their individual efforts:
    1. Guidance on the Adjusted Base Year Inventory and the 1996 Target 
for the 15 Percent Rate-of-Progress Plans, EPA-452/R-92-005, October 
1992.
    2. Guidance for Growth Factors, Projections, and Control Strategies 
for the 15 Percent Rate-of-Progress Plans, EPA-452/R-93-002, March 
1993.
    3. Guidance on the Relationship Between the 15 Percent Rate-of-
Progress Plans and Other Provisions of the Clean Air Act Amendments, 
EPA-452/R-93-007, May 1993.
    4. Guidance on Preparing Enforceable Regulations and Compliance 
Programs for the 15 Percent Rate-of-Progress Plans, EPA-452/R-93-005, 
June 1993.
    5. Guidance on the Post-1996 Rate-of-Progress Plan and Attainment 
Demonstration, EPA452/R-93-015, January 1994.(Erratta 2-18-94)
    The EPA intends to complete rulemaking for the milestone compliance 
demonstration associated with the rate of progress requirements for 
implementing the 8-hour ozone NAAQS in the near future. Our rule and 
guidance will address a number of issues concerning this requirement, 
including the mismatch of deadlines between the emissions inventory 
cycle and the milestone compliance demonstration deadlines.

    Question 4. Please provide the Committee with an update to the 
information requested last summer regarding the status of milestone 
compliance demonstrations that were required to be filed by the States 
in February 2003 with respect to the 2002 milestones.
    Response. The EPA has received documents relating to the 2002 
milestone compliance demonstrations for the Illinois portion of the 
Chicago nonattainment area; Ventura Co., CA and from Sacramento, CA.

    Question 5. Would the Agency agree that the purpose of 
transportation conformity is to ensure that motor vehicle emissions 
will be reduced to stay within the emissions budgets established in the 
State Implementation Plans for the most recent milestone and the 
attainment years, and then the 10-year maintenance year once an area 
has attained? And that that should be the case even after those 
milestones or dates have passed?
    Response. Yes. The purpose of transportation conformity is to 
ensure that emissions from on-road motor vehicles stay within the air 
quality limits or ``budgets'' established by the State air quality 
implementation plan (SIP). The 1990 Clean Air Act Amendments emphasize 
reconciling the estimates of emissions from transportation plans and 
programs with the SIP. This integration of transportation and air 
quality planning is intended to protect the integrity of the SIP by 
ensuring that: (1) its growth projections are not exceeded without 
additional measures to counterbalance the excess growth; (2) progress 
targets are achieved; and, (3) air quality maintenance efforts are not 
undermined.
    To achieve the purpose of conformity and ensure that the SIP's 
goals are achieved and maintained, EPA has always required 
transportation plans, programs and projects to demonstrate conformity 
to the most recent applicable budget in a control strategy SIP 
(attainment plans and reasonable further progress plans) or maintenance 
plan for the year that budget is established and for all future years. 
In the original 1993 transportation conformity rule (58 FR 62194) we 
state: ``The emissions budget applies as a ceiling on emissions in the 
year for which it is defined, and for all subsequent years until 
another year for which a different budget is defined or until a SIP 
revision modifies the budget.'' The budget represents an emissions 
target that is established to make progress toward, attain or maintain 
the respective air quality standard by a given date.
    Therefore, EPA believes it is reasonable to expect that if an 
area's planned transportation activities continue to meet that 
emissions target in future years, such activities will not cause or 
contribute to any new violations, increase the frequency of existing 
violations, or delay timely attainment of the air quality standard.

    Question 6. EPA has proposed changes to the conformity provisions 
of the Clean Air Act or the CMAQ program as part of the 
Administration's pending proposal for reauthorization of TEA-21. What 
outside groups were consulted in the process of developing your 
proposal?
    Response. Proposed Changes to Transportation Conformity and CMAQ 
Programs: The U.S. Department of Transportation took the lead for the 
Administration in developing the Administration's proposal for the 
reauthorization of TEA-21, including the proposals concerning 
conformity and CMAQ. EPA was one of many Administration participants in 
this process and did not hold a formal stakeholder process. However, we 
have heard from a number of stakeholders through various forums about 
their views on potential changes to various aspects of the current 
conformity and CMAQ processes.

    Question 7. Please provide a quantitative and qualitative air 
quality and emissions analysis and a justification for the statutory 
changes in the Clean Air Act, or in other laws affecting that Act's 
implementation, that the Administration proposes to make as part of 
reauthorization of TEA-21, at whatever time that proposal is submitted 
to Congress.
    Response. Transportation Conformity: The Administration has 
included in its proposal for the reauthorization of TEA-21 four changes 
that will affect the transportation conformity program. Those changes 
include: (1) defining the ``transportation plan'' for the purposes of 
conformity to be, at a minimum, the first 10 years of the plan; (2) 
combining the transportation plan and transportation improvement 
program (or TIP) into one planning document; (3) extending the minimum 
conformity frequency and transportation plan updates requirements in 
nonattainment and maintenance areas to 5 years; and (4) streamlining 
the Clean Air Act's requirements for State conformity SIPs, so that 
such SIPs only include the interagency consultation procedures for a 
given nonattainment or maintenance area.
    EPA did not perform a quantitative analysis for each of these 
proposed legislative changes, as we do not have the specific local area 
information that is required to perform such analyses. In addition, EPA 
believes it is reasonable to assume that results from individual area 
analyses, if conducted, would greatly vary. When considering these 
targeted improvements to the conformity program, however, EPA did 
consider a wealth of qualitative information.
    For example, when considering the proposed change to the conformity 
timeframe horizon we considered whether prohibiting the implementation 
of transportation projects today because of emissions that may exceed 
an emissions budget 20 years into the future is a reasonable and 
equitable approach to implementing the conformity program. For the 
Administration's proposed changes to conformity frequency and other 
planning requirements, EPA primarily considered the need to develop 
good, comprehensive transportation plans with the need to incorporate 
new planning information into the conformity process. EPA understands 
that transportation planners need time and resources to develop 
comprehensive transportation plans that adequately address many 
planning and environmental factors including air quality. On the other 
hand, EPA believes it is important to incorporate the most recent 
planning information into the conformity process in a timely manner so 
that good transportation and air quality decisions can be made. From 
our experience implementing the conformity program, we believe the 
Administration's proposals strike this balance.
    EPA considered the resource burden that the current conformity SIP 
requirements place on States. Under the current Clean Air Act section 
176(c)(4)(C), States are required to submit a conformity SIP that 
establishes State and local rules for implementing conformity, much of 
which mirrors the Federal transportation conformity rules verbatim. The 
Act also requires areas to revise their conformity SIPs each time EPA 
amends the conformity regulations to reflect such changes in their 
State rules. Under the Administration's proposal, however, States would 
be required to establish conformity rules that include only the area-
specific interagency consultation procedures required by the Federal 
regulations. This streamlined proposal would result in fewer required 
SIP revisions, as States could rely on the Federal rules for most 
conformity provisions and would no longer have to revise their SIPS 
each time EPA amends the Federal conformity rule. Furthermore, this 
proposal would ensure that all States can take advantage of regulatory 
changes to the conformity program as soon as they are promulgated. EPA 
believes it can offer this flexibility in the conformity SIP 
requirement without any adverse impacts on the environment.

    Question 8. Do you agree with Mr. Frankel or with the State and 
local air directors who disagree with him on the so-called ``mismatch'' 
between air quality and transportation planning cycles?
    Response. There are two different ``mismatch'' issues in the 
conformity process. The first is the difference between transportation 
and air quality planning timeframe horizons. The second is the 
difference between transportation plan and SIP updates.
    To address the difference between transportation and air quality 
planning horizons, the Administration has included in its proposal for 
the reauthorization of TEA-21 to define the ``transportation plan'' for 
the purposes of conformity to be, at a minimum, the first 10 years of 
the plan. The proposal would also require a ``For Informational 
Purposes Only'' regional emissions analysis for the last year of the 
transportation plan. Transportation plans are required to cover a 
planning horizon of at least 20 years. However, SIPs are typically 
developed for a timeframe of 10 years or less. The Administration's 
proposal would address this discrepancy in the timeframe horizons for 
the two different planning processes.
    In the past, areas have had difficulty demonstrating conformity of 
the last 10 years of the plan to a budget that is established for a 
year in the near future (e.g., demonstrating conformity of a 2003-2023 
transportation plan to an attainment budget established for 2010). Such 
difficulties arising from emissions projected 10 to 20 years into the 
future could cause delays in the implementation of transportation 
projects that are presently scheduled. EPA believes that the 
Administration's proposal for adjusting the transportation plan 
timeframe horizon would provide a reasonable and equitable approach to 
implementing the conformity program. In addition, the information only 
analysis would ensure that emissions in the last year of the plan are 
considered for future conformity determinations.
    With regard to the difference in transportation plan and SIP update 
cycles, EPA believes that the current flexibility provided by the Clean 
Air Act allows States to decide for themselves whether a SIP revision 
to incorporate new data or additional control measures justifies the 
costs of conducting an update to the SIP. States are in a better 
position to decide whether a revision to their existing SIP is 
necessary. Since the SIP is based on a demonstration of how to achieve 
clean air, the motor vehicle emissions budgets within the SIP are also 
representative of a level of transportation emissions that can protect 
public health. Therefore, although transportation mobility goals and 
the models and assumptions on which a SIP is based may change over 
time, in many cases the SIP's public health goals can be appropriate 
even without regular SIP updates. Furthermore, most SIP revisions 
require a great deal of time and resources from State and local 
agencies and EPA to complete. Therefore, EPA would not want to require 
regular SIP updates in areas where air quality improvements are 
occurring as anticipated by the SIP and conformity determinations are 
being made without difficulty.
    Although the CAA does not mandate regular SIP updates, some areas 
have updated or are in the process of updating their SIPs and as a 
result, may have more recent mobile source emissions budgets available 
for conformity purposes. In particular, areas that have had conformity 
difficulties have often addressed such issues by revising their SIPs to 
incorporate new planning assumptions and data and/or additional control 
measures to allow for growth in transportation (e.g., Baltimore MD, New 
Jersey, Salt Lake City, UT, Albuquerque NM). In addition, many 1-hour 
ozone areas are revising their current SIPs to accurately reflect 
estimates of EPA's Tier 2 emissions standards (e.g., New York City, 
Philadelphia PA, Baltimore MD, Houston, TX). Also, after area 
designations have been made for the new 8-hour ozone and PM<INF>2.5</INF> 
standards, many areas that are designated nonattainment for these 
standards will be submitting new SIPs to address these standards.

    Question 9. How many premature deaths could be avoided starting in 
2010 as a result of implementation of the so-called ``straw'' proposal 
prepared by the Agency in 2001 and its emission reductions?
    Response. Although for internal discussion EPA did some preliminary 
and incomplete analysis of some benefits in the year 2020 of emissions 
reductions at the levels of the `straw' proposal, the analysis did not 
include any of the more detailed and necessary analysis that we have 
performed for the Clear Skies Act of 2003. Thus, neither the `straw' 
proposal emissions caps nor our preliminary benefits analysis were 
based on adequate analysis of technology and engineering feasibility, 
nor of the ability of capital and labor markets for the power sector to 
meet the levels and timing of the proposal.

    Question 10. In your testimony, you claimed that the Clean Air Act 
gives the Agency limited ability to do anything [to reduce the number 
of people dying prematurely from power plant pollution] until the 
Agency goes through the process of designating [nonattainment areas]. 
What specific regulatory steps, using sections 176A, 184, 111(d),112, 
etc. or other parts of the Act that provide useful authorities, has the 
Agency taken since January 2001 to reduce power plant pollution that 
contributes to premature deaths?
    Response. EPA has promulgated rules under sections 110 and 126 to 
reduce regional NOx emissions to reduce interstate ozone pollution in 
the East. NOx reductions can help reduce fine particle pollution as 
well.
    Section 110: In 1998, EPA issued the NOx SIP Call under section 
110(a)(2)(D) of the CAA requiring 22 States and the District of 
Columbia to revise their SIPs to impose additional controls on NOx 
emissions. The NOx SIP Call required statewide NOx emissions reductions 
by an average of 28 percent (over emissions projected to occur in 
2007). EPA recommended that States could meet their NOx emission 
budgets, in part, by establishing a cap-and-trade program for NOx 
emissions from large power plants and large industrial boilers and 
turbines. Under the NOx SIP Call EPA expects these sources to achieve 
an average reduction of 64 percent (over emissions projected to occur 
in 2007). Since January 2001, EPA has completed rulemaking to approve 
State implementation plan revisions which meet the NOx SIP Call 
requirements for the following areas: AL, the District of Columbia, DE, 
IL, IN, KY, MD, NJ, NY, OH, PA, SC, and WV. Eight of these States and 
the District of Columbia began implementation of the NOx emission 
reduction requirements in May 2003.
    This program is the single most important measure to reduce 
interstate ozone pollution from power plants in the short term. 
Reductions of NOx emissions from the program will enhance the 
protection of public health for over 100 million people in the Eastern 
half of the United States. It is a centerpiece of the clean air plans 
for many cities.
    Sec. 126: In 2000, EPA issued a rule to control NOx emissions under 
section 126 of the CAA (the Section 126 Rule). This rule required large 
power plants and large industrial boilers and turbines located in 12 
Eastern States and the District of Columbia to reduce NOx emissions. It 
established a cap-and-trade program that was essentially the same as 
that suggested by EPA for State implementation in the NOx SIP Call. 
Both the Section 126 Rule and the NOx SIP Call are intended to reduce 
interstate ozone pollution. When EPA approves a State implementation 
plan revision as meeting the NOx SIP Call requirements, the Agency 
withdraws the Section 126 rule requirements for that State.
    In addition, EPA has published two additional actions related to 
the NOx SIP Call and the section 126 rulemakings which affect power 
plant pollution. On February 22, 2002 (67 FR 8396), EPA proposed to 
amend these rules in response to court remands. On May 1, 2002 (67 FR 
21868), EPA responded to two court decisions directing EPA to 
reconsider heat input growth rates projected and used in setting NOx 
emission budgets in the two rules. After reviewing the heat input 
growth rates and considering the court decisions and additional 
comments, EPA decided to continue to use the heat input growth rates 
developed in the rules.

    Question 11. What is the status of the implementation rules and 
guidance necessary for the areas that will soon be designated 
nonattainment for the 8-hour ozone or fine particulate matter 
standards?
    Response. On June 2, 2003, EPA published proposed rulemaking on 
alternative approaches to implementation of the 8-hour ozone standard. 
EPA held three public hearings: Irving, Texas (Dallas area), on June 
17, 2003; San Francisco, California on June 19, 2003; and Alexandria, 
Virginia on June 27, 2003. The public comment period runs to August 1, 
2003. EPA plans to publish a final rule by the end of December 2003. 
Supplemental guidance on specific technical aspects related to 
preparation of State implementation plans for the 8-hour standard are 
either available in draft for comment now or are under preparation.
    PM<INF>2.5</INF> designations are scheduled to be finalized in late 
2004 or early 2005. State implementation plans would be due no later 
than 3 years after designations. EPA is in the process of developing a 
proposed rule outlining the requirements for State implementation plans 
designed to attain the standards. We intend to issue the proposal in 
the fall or early winter 2003 and to finalize the rule in the fall or 
early winter of 2004.
    EPA is also conducting another rulemaking that will revise the 
transportation conformity regulations to address conformity for the new 
8-hour and PM<INF>2.5</INF> standards. EPA plans to publish a proposal 
(the ``new standards proposal'') for this conformity rulemaking this 
summer, and will hold a public hearing on the proposal in Washington, 
DC, soon after it is published. We anticipate taking a final action on 
the new standards proposal by April 2004. This proposal will provide 
clear guidance for when conformity will first apply in areas that are 
designated nonattainment for the 8-hour ozone and PM<INF>2.5</INF> 
standards. Specifically, the proposal will discuss the implementation 
of the 1-year conformity grace period and revocation of the 1-hour 
ozone standard.
    The conformity rulemaking will also describe the general 
requirements for conducting transportation conformity determinations 
for the new standards. It will include the conformity test(s) that 
would apply during the time period before newly designated 
nonattainment areas submit an initial 8-hour ozone or PM<INF>2.5</INF> 
SIP that establishes motor vehicle emissions budgets. In addition, the 
rulemaking will address PM<INF>2.5</INF> as a criteria pollutant 
subject to transportation conformity and will outline the specific 
conformity requirements that would apply in newly designated PM<INF>2.5</INF> 
nonattainment areas.

    Question 12. At my and Senator Lieberman's request, the GAO has 
been doing a survey of all the States' air quality and transportation 
planners on conformity. The final report should be available by the end 
of April. It will cover many of the topics discussed at the hearing, in 
plenty of time to factor into reauthorization. But so far, it appears 
that GAO has found that most of the conformity lapses are a result of 
administrative or procedural issues, unrelated to emissions budgets 
constraints. Is that EPA's experience?
    Response. EPA agrees with the GAO report that in some cases areas 
lapse because of administrative or procedural issues such as delays in 
the planning process. EPA also agrees with the GAO report that most 
lapses are relatively short (less than 6 month). Although the GAO 
report does not provide information on the impact of these 
administrative or procedural lapses that in most cases did not persist 
for a significant amount of time, EPA believes that most of these 
short-term administrative lapses had no significant impact on 
transportation projects or the planning process. However, EPA believes 
it is important to ensure that the final mix of projects in the plan 
and TIP conform to the area's SIP before such projects are allowed to 
proceed, especially in areas where lapses are due to an area not 
meeting its emissions budget.
    We would also like to note that the GAO report did not discuss the 
number of nonattainment and maintenance areas that have and continue to 
meet their conformity deadlines on time. There are currently well over 
a hundred nonattainment and maintenance areas that are meeting the 
frequency requirements for demonstrating conformity. At any given time, 
typically no more than 8-10 areas experience a conformity lapse, some 
of which have no consequences on projects. In those areas where 
emissions increases from transportation activities exceed the limits 
established in the SIP and a conformity lapse occurs, EPA believes it 
is important for air quality and the public health to limit those 
projects that can proceed during the lapse since the emissions from 
such projects could cause violations or worsen existing violations of 
the air quality standard.

    Question 13. Would the Agency agree that a transportation plan and 
TIP may not be found to conform to the SIP if it fails to reduce motor 
vehicle emissions to the level of the motor vehicle emissions budget 
for an attainment year?
    Response. Yes. EPA generally agrees that if the projected emissions 
from an area's transportation plan and TIP are not at or below the 
motor vehicle emission budget in the applicable SIP by a specific 
conformity deadline, the plan and TIP do not conform and the area 
enters into a conformity lapse. Motor vehicle emissions budgets can be 
established for several different years in an area's SIP, including the 
attainment year, rate-of-progress (or milestone) years, maintenance 
years, and any other year for which the area chooses to establish a 
conformity budget. Therefore, to satisfy the conformity requirements 
the plan and TIP must conform in all years that establish an adequate 
or approved budget that are within the timeframe of the transportation 
plan and TIP.
    If an area conducts a conformity determination and discovers that 
emissions from the transportation plan and TIP exceed the motor vehicle 
emissions budgets in the SIP, such a result is a clear indication that 
air quality and public health goals are not being met. In this case, 
the area will need to make changes to either the plan/TIP and/or the 
SIP. Options that many areas have considered to address such conformity 
issues include adding air quality beneficial projects to the plan/TIP, 
delaying capacity increasing highway projects, and revising the SIP to 
incorporate new information or additional control measures. Other 
areas, however, have not had to make any adjustments to their plan and 
TIP or SIP because emissions from their transportation activities have 
routinely been at or below the budgets in the SIP.

    Question 14. Would the Agency agree that a transportation plan and 
TIP may not be found to conform to the SIP if it fails to reduce motor 
vehicle emissions to the level of the motor vehicle emissions budget 
for a number of years following the attainment years?
    Response. Yes. It is important that areas continue to maintain 
clean air to protect public health after the attainment year. EPA has 
always believed it was reasonable to require conformity of planned 
transportation activities for some time into the future, since the full 
emissions impact of projects that are built today may not be fully 
realized until some years later. Therefore, for nonattainment areas 
that only have an adequate or approved attainment year budget, EPA's 
policy has always been that conformity of transportation plans, 
programs and projects be demonstrated to that attainment budget for the 
year for which it was established and for all subsequent years that 
require a regional emissions analysis and budget test.

    Question 15. Would you support a rollback of the conformity lapse 
enforcement provisions so that metropolitan areas failing to comply 
with transportation planning requirements face no mandatory 
consequences?
    Response. No. EPA believes that allowing areas to implement an 
existing plan and TIP during a conformity lapse could worsen air 
quality since all projects in that plan and TIP could still proceed, 
even though the emissions impact from those projects no longer conform. 
The purpose of conformity is to ensure that an area's planned 
transportation activities are consistent with or ``conform to'' the 
motor vehicle emissions level established by the SIP before such 
activities can be federally funded or approved. Conformity ensures that 
future funding for additional air pollution control measures won't be 
needed to offset emissions from previously approved and funded 
projects.
    Furthermore, EPA does not believe that allowing areas to continue 
to implement their existing planned transportation activities during a 
conformity lapse is necessary. Lapses are not frequent; only about 56 
lapses have occurred since 1997 and the majority of these lapses have 
been brief. However, there have been other areas where lapses created a 
forum to consider significant air quality concerns. EPA believes that 
removing the incentive to determine conformity by specific deadlines in 
areas that have difficulty keeping emissions from planned 
transportation activities within the limits established in the SIP 
would not be protective of air quality or public health in those areas.

    Question 16. In the case of Sierra Club v. Atlanta Regional 
Commission decided by the Eleventh Circuit Court of Appeals in October 
2002, the Court held that the transportation plan could be found to 
conform even though motor vehicle emissions had not been reduced to the 
level required by the SIP for attainment year 1999, and the emissions 
analysis performed by the metropolitan planning organization 
demonstrated that if the proposed long-range transportation plan and 
TIP were adopted motor vehicle emissions in the Atlanta area during 
2000 would exceed the NOx emissions budget for 1999 by 50 tons per day, 
and would likely not be reduced to the budget levels during any year 
prior to 2004. Is this a correct interpretation of the conformity 
requirements of the Act?
    Response. In Sierra Club v. Atlanta Regional Commission (ARC), the 
Eleventh Circuit Court of Appeals ruled that the analysis years for 
which ARC chose to demonstrate conformity for the Atlanta 2001-2025 
transportation plan were consistent with the Clean Air Act and existing 
conformity regulations. EPA agrees with the court decision and its 
interpretation of the statutory and regulatory conformity requirements.
    The conformity rule (40 CFR 93.118) outlines the budget test and 
regional emissions analysis years required of areas that have an 
applicable motor vehicle emissions budget. Specifically, the rule 
requires a regional emissions analysis for the attainment year (if it 
is in the timeframe of the transportation plan), the last year of the 
transportation plan and any interim years so that analysis years are no 
more than 10 years apart. The rule contains similar requirements for 
the budget test, but in no case has EPA ever required the budget test 
or a regional emissions analysis for a year outside the timeframe of 
the transportation plan. EPA structured the conformity rule in this 
manner for two primary reasons.
    First, EPA believes that to require a conformity determination for 
every year within the timeframe of a transportation plan would be a 
tremendous resource burden on transportation agencies. Describing the 
transportation system envisioned for future horizon years and running a 
regional emissions analysis for those years requires a great deal of 
time and technical capability. Therefore, EPA believes that requiring 
such analyses for a few select years provides a workable approach for 
meeting the conformity requirements for the entire transportation plan.
    Second, the purpose of conformity is to be an iterative and 
prospective evaluation of the emissions impact of planned 
transportation activities. Therefore, EPA has never required areas to 
look backwards and demonstrate conformity for years that are now in the 
past. At the time that ARC demonstrated conformity for its 2001-2025 
plan, the only applicable budgets in Atlanta's SIP were the 1999 
attainment year budgets. In this case, EPA saw no environmental value 
in having ARC run a regional emissions analysis for 1999, since 1999 
was in the past and any projects scheduled to advance during that year 
were already approved and funded. Under the conformity regulation, ARC 
had the option of choosing any analysis year within the first 10 years 
of the 2001-2025 plan (since analysis years can be no more than 10 
years apart for the entire timeframe of the transportation plan). EPA 
believes ARC's decision to select 2005 as its first analysis year was 
consistent with the Clean Air Act and conformity rules requirements. 
Our position is supported by the Eleventh Circuit Court's ruling.

    Question 17. Does EPA intend to apply this interpretation to other 
nonattainment areas, or does EPA intend to clarify its rule to require 
that transportation plans and TIPs achieve the emissions budgets 
established by a State Implementation Plan for the attainment year and 
each year thereafter?
    Response. EPA sees no discrepancy between its interpretation of the 
Clean Air Act and conformity regulation for Atlanta and for other 
nonattainment areas. As previously stated, an adequate or approved 
motor vehicle emissions budgets (e.g., an attainment budget) is 
applicable for the year for which it is established and for any future 
analysis year as required by 40 CFR 93.118. EPA does not intend to 
require nonattainment or maintenance areas to demonstrate conformity 
for every individual year within the timeframe of the transportation 
plan due to the tremendous resource burden of such a requirement, nor 
does EPA intend to require areas to analyze years outside the timeframe 
of the transportation plan.
    The Atlanta situation was unique in that the area had failed to 
attain the 1-hour ozone standard by its Clean Air Act deadline and 
controversy arose over how the conformity rule would apply due to the 
missed attainment date. However, consistent with our implementation of 
the conformity rule in other nonattainment areas, ARC chose analysis 
years and made a conformity determination using the most recent 
applicable budgets available to them (i.e., the 1999 attainment budget) 
that met the rule's minimum requirements.

    Question 18. Given the current growth rate of VMT, projections on 
vehicle fuel efficiency, and any other relevant factors, please provide 
the Committee with an estimate of mobile source emissions of greenhouse 
gases in 2020.
    Response. The Energy Information Administration's Annual Energy 
Outlook 2003 projects transportation carbon dioxide emissions of 767 
million metric tons of carbon equivalent (MMTCE) in 2020. (This is 
equivalent to 2,813 million metric tons of carbon dioxide.) This 
compares to emissions of 514.5 MMTCE in 2001, and projected emissions 
of 530.1 MMTCE in 2003. These estimates do not include other greenhouse 
gas emissions--nitrous oxide (N20), methane (CH4), or hydrofluoro-
carbons (HFCs). In 2001, carbon dioxide accounted for roughly 95 
percent of transportation greenhouse gas emissions, with the other 
gases accounting for the remaining 5 percent.
    Note that the EIA projections of CO<INF>2</INF> emissions in 2020 
are based on the continuation of current trends in VMT growth and a 
limited increase in vehicle fuel economy through technology improvement 
and through increases in CAFE. Successful introduction of advanced 
automotive technologies has the potential to improve fuel efficiency 
and lower CO<INF>2</INF> emissions more than the ``business as usual'' 
case currently projected by the EIA. Development of clean and efficient 
technologies are a major focus of the Bush Administration. One key 
program is the FreedomCAR Partnership, a joint effort between DOE and 
the automotive industry to develop fuel cell and other technologies. 
Another is the 21st Century Truck Partnership that has as its goal to 
accelerate technologies that can improve the efficiency of heavy 
trucks.
    EPA's Clean Automotive Technology program is also developing 
technologies that have the potential to provide cost-effective 
improvements in fuel economy and reductions in CO<INF>2</INF> 
emissions. EPA engineers are the world's leading experts in hydraulic 
hybrids and now have cooperative research and development agreements 
with Ford Motor Company, Eaton Corporation, and Parker-Hannifin. 
Because hydraulic hybrids are particularly efficient at recapturing the 
energy otherwise lost in vehicle braking, the Agency is currently 
working with several automotive companies interested in developing and 
demonstrating hydraulic hybrids in urban delivery truck applications. 
EPA has also developed Clean Diesel Combustion, a diesel engine design 
that retains the diesel engine's high efficiency while reducing engine-
out emissions of oxides of nitrogen to levels that could potentially 
meet future stringent emission standards without the need for oxides of 
nitrogen after treatment. EPA is actively discussing Clean Diesel 
Combustion with industry partners who could commercialize the 
technology.
    In addition, EPA has initiated voluntary programs that will reduce 
CO<INF>2</INF> emissions from motor vehicles. One is the Best 
Workplaces for Commuters Program (formerly known as Commuter Choice). 
As a result of this program, 3500 employers around the country 
currently offer their 900,000 employees commuter benefits, such as 
transit subsidies, van pools, and tele-commuting, as incentives to 
driving alone to work. Another is the SmartWay Transport Program, in 
which EPA and 15 charter partners (including major trucking firms, 
railroads and shipping companies) are developing specific performance 
goals to improve efficiency, reduce fuel consumption and lower 
emissions from the U.S. freight industry.
                                 ______
                                 
       Responses by Jeffrey R. Holmstead to Additional Questions 
                         from Senator Voinovich
    Question 1. In my opening remarks, I mentioned that 30 of Ohio's 88 
counties are projected by EPA to be designated as nonattainment in 2004 
when the new ozone NAAQS is implemented, along with 15 additional 
counties in 2005 when the new PM<INF>2.5</INF> NAAQS is implemented. I 
was glad to hear in your opening remarks that you are currently working 
with States, like Ohio, that will be affected by these new NAAQS.
    What specifically are you doing to help these States and counties 
so that they do not have their highway funding cutoff when these new 
NAAQS standards get implemented?
    Response. A top priority for the EPA is to ensure that newly 
designated 8-hour ozone and PM<INF>2.5</INF> nonattainment areas are 
provided with adequate guidance for implementing transportation 
conformity under these new health-based air quality standards. EPA is 
currently working on a rulemaking that would amend the conformity 
regulations to achieve this goal. EPA plans to publish a proposal (the 
``new standards proposal'') for this conformity rulemaking this summer, 
and will hold a public hearing on the proposal in Washington, DC, soon 
after it is published. We anticipate taking a final action on the new 
standards proposal by April 2004. We will also be releasing guidance 
documents, as needed, to implement the conformity program for the new 
standards.
    Every area that is designated nonattainment for the new air quality 
standards will receive a 1-year grace period for conformity to the new 
standards upon the effective date of their designation. Areas should 
use the conformity grace period and the time prior to designations to 
prepare themselves for demonstrating conformity. EPA has and will 
continue to support specific training opportunities to assist areas in 
meeting the conformity requirements for the 8-hour ozone and PM<INF>2.5</INF> 
standards by the 1-year grace period deadline. These training 
opportunities include:
    <bullet> NTI Conformity Course: The National Transit Institute has 
been offering a course called, ``Introduction to Transportation/Air 
Quality Conformity'' in locations across the country. This course was 
developed by the Federal Transit Administration, in coordination with 
the Federal Highway Administration and EPA. This 2.5 day course offers 
an in-depth overview of the criteria and procedures for implementing 
conformity and is designed for Federal, State and local agencies 
involved in the conformity process. This course is offered free of 
charge.
    <bullet> MOBILE6 training: MOBILE6 is EPA's latest motor vehicle 
emissions factor model for official use by State and local governments 
to meet Clean Air Act requirements outside of California. EPA announced 
the availability of MOBILE6 in the Federal Register on January 29, 
2002, (67 FR 4254). EPA and DOT jointly sponsored seven MOBILE6 
training courses across the country in 2002. These courses were open to 
the public and were offered free of charge. The training materials for 
these courses are on the MOBILE6 website and can be downloaded at: 
http://www.epa.gov/otaq/m6.htm Other training materials prepared by EPA 
are also available on this website.
    <bullet> EPA is also considering other potential training and 
outreach mechanisms and tools that could be developed and made 
available, within current budget constraints, to State and local 
transportation and air quality agencies affected by the designations 
for the new standards.
    No metropolitan area's highway funding will be adversely affected 
once the new standards are implemented unless the area fails to 
demonstrate conformity by the time the 1-year grace period expires, and 
as a consequence, enters into a conformity lapse. Of course, highway 
funding could also be restricted if an area fails to submit a new State 
implementation plan (or SIP) for the new standards on time and highway 
sanctions are imposed 24 months later. Under EPA's anticipated 
implementation rules for the 8-hour ozone and PM<INF>2.5</INF> 
standards, areas will have no more than 3 years after nonattainment 
designations to develop and submit SIPs for the new air quality 
standards. Under these anticipated rules, some areas may also need to 
submit plans within 2 years after nonattainment designations that 
provide for reasonable further progress toward attainment. EPA intends 
to work with areas over the next several years to insure that all areas 
complete their transportation and air quality planning in a timely 
manner to avoid any potential adverse impacts on highway funding.

    Question 2. As you know, Senator Inhofe and I introduced the 
President's Clear Skies bill last month, and this subcommittee is going 
to hold hearings on that legislation next month.
    What effect would Clear Skies have on this situation where the 
NAAQS are being made even more stringent than they have been for the 
last several years?
    Response. Clear Skies combined with existing and proposed Federal 
rules would dramatically bring most of the Eastern United States into 
attainment with both the fine particle and 8-hour ozone NAAQS (see 
chart below). According to 1999-2001 measured air quality data, there 
are 129 counties nationwide that are currently exceeding the level of 
the annual fine particle standard and 290 counties that are currently 
exceeding the level of the 8-hour ozone standard. Our modeling projects 
that, in 2020 with Clear Skies, in combination with existing air 
quality control programs and the proposed non-road diesel rule, only 
eight counties in the Eastern United States would be out of attainment 
with the national standards for fine particles and only 20 eastern 
counties would be out of attainment for the 8-hour ozone standard. In 
the West, 10 counties (all in California) are predicted to remain out 
of attainment for the fine particle standard and 7 counties (all in 
California) are predicted to remain out of attainment for the 8-hour 
ozone standard.


                 Clear Skies Would Help Areas Attain the National Ambient Air Quality Standards
----------------------------------------------------------------------------------------------------------------
                                     Counties Projected to Exceed the NAAQS
-----------------------------------------------------------------------------------------------------------------
                                                            Fine Particle Standards     8-Hour Ozone Standards
                                                         -------------------------------------------------------
                                                            Existing     Clear Skies    Existing     Clear Skies
                                                             Control    and Existing     Control    and Existing
                                                            Programs       Control      Programs       Control
                                                           (Base Case)    Programs     (Base Case)    Programs
----------------------------------------------------------------------------------------------------------------
Monitored Data 1999-2001................................          129           129           290           290
Projection: 2010........................................           80            38            59            56
Projection: 2020........................................           53            18            30            27
----------------------------------------------------------------------------------------------------------------


    Question 3. I understand that the Administration has been working 
on some new proposals to reform the Conformity program. Can you tell me 
what you are considering and what your timetable is for them?
    Response. EPA has and continues to develop both legislative and 
regulatory proposals to improve the conformity program. In May 2003, 
the Administration unveiled its proposal for the reauthorization of 
TEA-21. This legislative proposal contains four changes that will 
affect the transportation conformity program, including: (1) defining 
the ``transportation plan'' for the purposes of conformity to be, at a 
minimum, the first 10 years of the plan; (2) combining the 
transportation plan and transportation improvement program (or TIP) 
into one planning document; (3) extending the minimum conformity 
frequency and transportation plan updates requirements in nonattainment 
and maintenance areas to 5 years; and (4) streamlining the Clean Air 
Act's requirements for State conformity SIPs, so that such SIPs only 
include the interagency consultation procedures for a given 
nonattainment or maintenance area. EPA believes that, if enacted, these 
proposed changes would provide a more flexible and practicable approach 
to implementing the conformity program.
    EPA is also working on two rulemakings that will change the 
transportation conformity program. First, EPA is developing a 
rulemaking to incorporate into the conformity rule EPA and DOT's 
current guidance that implements the March 2, 1999, U.S. Court of 
Appeals decision affecting EPA's 1997 amendments to the conformity 
regulations. We recently published a proposal for this rulemaking in 
the Federal Register on June 30, 2003 (68 FR 38973), and we anticipate 
a final action on the proposal by April 2004. Specifically, the 
proposed rulemaking addresses two major issues affected by the court 
regarding projects that can proceed during a conformity lapse and EPA's 
process for finding newly submitted SIP budgets appropriate to use in a 
conformity determination (i.e., the ``adequacy process''). The proposal 
would also make a few additional changes to the conformity regulation 
that would streamline and improve implementation of the program. Of 
particular interest are EPA's proposals to streamline the number of 
triggers that require a new conformity determination, and to allow 
transportation planners to base regional emissions analyses on 
assumptions available at the beginning of the conformity process.
    The second conformity rulemaking that EPA is conducting would amend 
the conformity rule to address the new 8-hour ozone and PM<INF>2.5</INF> 
air quality standards. EPA plans to publish a proposal (the ``new 
standards'' proposal) for this conformity rulemaking this summer, with 
a final rule expected in April 2004. This proposal will provide clear 
guidance for when conformity will first apply in areas that are 
designated nonattainment for the 8-hour ozone and PM<INF>2.5</INF> 
standards.
    The new standards proposal will also describe the general 
requirements for conducting transportation conformity determinations 
for the 8-hour and PM<INF>2.5</INF> standards. It will address the 
conformity test(s) that would apply during the time period before newly 
designated nonattainment areas submit an initial 8-hour ozone or 
PM<INF>2.5</INF> SIP that establishes motor vehicle emissions budgets. 
In addition, the rulemaking will address PM<INF>2.5</INF> as a criteria 
pollutant subject to transportation conformity and will outline the 
specific conformity requirements that would apply in newly designated 
PM<INF>2.5</INF> nonattainment areas.
                               __________
      Statement of Hon. Emil H. Frankel, Assistant Secretary for 
        Transportation Policy, U.S. Department of Transportation
    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to discuss transportation conformity and the Congestion 
Mitigation and Air Quality Improvement (CMAQ) Program.
    Meeting the dual challenges of congestion relief and air quality 
improvement is a high priority for all of us at the Department of 
Transportation, as I know it is for members of this Committee. In the 
Transportation Equity Act for the 21st Century (TEA-21), you gave us 
new tools and authorities to assist us in achieving this goal, and we 
are proud of the progress that has been made. In reauthorization, the 
Department wants to continue to buildupon the successes of TEA-21 and 
the Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA). 
Five key performance goals, including the protection of the human and 
natural environment, form the basis for the fiscal year 2004 budget 
request. Under Secretary Mineta's leadership, these goals will help us 
develop a safer, simpler, and smarter national transportation system 
for a strong America.
    We are developing the President's proposal for surface 
transportation reauthorization, and expect that the Secretary will 
submit it to the Congress soon. The Department has articulated a set of 
core principles and values that have guided development of our 
proposal. We plan to build on the successes and lessons of TEA-21. We 
seek to enhance the safety and security of all Americans, even as we 
increase their mobility, reduce congestion, and strengthen the economy. 
We want to ensure an efficient infrastructure while retaining 
environmental protections that enhance our quality of life.
    In my testimony today, I will address three main points. First, I 
want to assure you that progress has been made in reducing 
transportation-related emissions of pollutants, and that the Department 
of Transportation is committed to doing its part to ensure progress 
continues. Second, I will describe how the CMAQ program has assisted 
States and localities in addressing their mobility, air quality, and 
quality of life concerns. Finally, I want to restate the commitment of 
the Department to work with our transportation planning and air quality 
planning partners for effective coordination of the transportation and 
air quality planning processes.
              continued focus on air quality improvements
    As a Nation, we have made remarkable improvements in reducing air 
pollution, especially pollution that comes from transportation sources. 
Where transportation is a significant source of pollutants, the 
Environmental Protection Agency (EPA) reports that ozone (formed by the 
reaction of volatile organic compounds (VOC) and oxides of nitrogen 
(NOx), carbon monoxide (CO), and particulate matter (PM), have all 
decreased substantially since 1970. A majority of the areas designated 
as nonattainment (that is, areas that do not meet air quality 
standards) since 1990 now meet national air quality standards. Air 
quality monitoring data through 2001 shows that 77 out of 78 carbon 
monoxide nonattainment areas, 73 out of 85 coarse particulate matter 
(PM<INF>10</INF>) areas, and 69 out of 101 ozone areas no longer show 
air pollution levels that exceed the national ambient air quality 
standards.
    The Clean Air Act (CAA) has led to reduced pollutant emissions from 
all air pollution sources, the greatest success can be found in the 
reduction of motor vehicle emissions: CO emissions have been reduced by 
45 percent since 1970, PM<INF>10</INF> emissions reduced by 38 percent, 
and VOC emissions by 61 percent from motor vehicles (see Attachment A). 
While NOx emissions increased by 10 percent over the period, the rate 
of increase was less than the increase from all sources (19 percent). 
And, NOx emissions from automobiles (excluding sport utility vehicles 
(SUVs) and light trucks) decreased by 33 percent. For VOC and CO, motor 
vehicle emission reductions were greater than the reductions from all 
other sources. Thus, motor vehicle emissions now make up a smaller 
percentage of total emissions. In 1970, motor vehicles contributed 59 
percent of total emissions of carbon monoxide, NOx, VOCs, and 
PM<INF>10</INF>, when compared to stationary, area, and non-road mobile 
sources. However, by 2000, the motor vehicle portion of emissions of 
these pollutants dropped to 46 percent. Most of these emissions 
reductions have resulted from stricter emissions standards, improved 
engine technology, and cleaner fuels.
    It is especially important to note that these reductions in 
emissions were accomplished during a period of 38 percent increase in 
population, 157 percent growth in gross domestic product (GDP), and 148 
percent increase in vehicle miles traveled. The automotive, fuels, 
highway, and transit communities have managed to achieve this success 
in improving air quality while at the same time working to address 
increasing demands to improve mobility.
    The downward trend achieved in emissions is expected to continue 
into the future. Engines and fuels are to become even cleaner under 
recent EPA-issued regulations for emissions standards and cleaner fuel 
requirements. Between 2004 and 2007, more protective tailpipe emissions 
standards will be phased in for all passenger vehicles, including SUVs, 
minivans, vans, and pick-up trucks. This regulation marks the first 
time that larger SUVs and other light-duty trucks will be subject to 
the same national pollution standards as cars. In addition, the EPA 
tightened standards for sulfur in gasoline, which will ensure the 
effectiveness of low-emission control technologies in vehicles and 
reduce harmful air pollution. When the new tailpipe and sulfur 
standards are implemented, Americans will benefit from the clean-air 
equivalent of removing 164 million cars from the road. These new 
standards require all passenger vehicles sold after the phase-in period 
to be 77 to 95 percent cleaner than those on the road today, and will 
reduce the sulfur content of gasoline by up to 90 percent.
    We expect that motor vehicle emissions will be reduced as new 
heavy-duty vehicles that meet the 2004 emissions standards for heavy-
duty engine standards enter the fleet. Beginning with the 2007 model, 
heavy-duty engines for trucks and buses must meet even tighter 
emissions standards, and the level of sulfur in diesel fuel must be 
reduced by 97 percent by mid-2006. As a result, after a phase-in 
period, each new truck and bus will be more than 90 percent cleaner 
than current models. In addition to tighter standards, the Federal 
Transit Administration (FTA) has been working with industry to develop 
and demonstrate low-and zero-emissions advanced propulsion technologies 
for transit buses, including hybrid-electric, battery electric, and 
fuel cell-powered buses. UUnder FTA/DOT leadership, a national program 
is underway to accelerate the development and commercial viability of 
these advanced technologies. Projects to purchase clean-fuel buses are 
eligible for assistance under FTA's funding programs.
    However, despite dramatic improvements in air quality, some of the 
nation's largest metropolitan areas still face challenges in meeting 
the current ozone standard (also known as the 1-hour standard due to 
the averaging time for the ozone concentration levels). Areas that do 
not meet the national air quality standards must develop air quality 
``State implementation plans'' that show how the areas will achieve the 
standards. The transportation plan for these areas, taken as a whole, 
as well as individual transportation projects receiving Federal funds, 
must be found to conform to the air quality plans.
    Furthermore, the Nation as a whole, and the transportation 
community in particular, face additional challenges as new air quality 
standards are implemented. The new 8-hour ozone and fine particulate 
(PM<INF>2.5</INF>) standards will be more stringent, and many areas 
across the Eastern United States and in California have pollution 
levels now exceeding these standards. Some of these areas, including 
small urban and rural areas, may be designated nonattainment for the 
first time. Other existing nonattainment areas may become larger and 
involve more jurisdictions under the new standards. The Department and 
EPA are working with these areas to increase their capacity to deal 
with new nonattainment designations.
    The President's Clear Skies legislation will assist in these 
efforts by reducing emissions of nitrogen oxide and sulfur dioxide by 
approximately 70 percent from the power generatingpower-generating 
sector. In many areas, these reductions will provide needed flexibility 
in meeting the new standards, thus reducing the pressure on other 
sources.
       congestion mitigation and air quality improvement program
    We have learned a great deal about transportation and air quality 
over the last 30 years, and over the last 10 years in particular. One 
thing we have learned is that there is no one ``right way'' to address 
transportation needs that meets the requirements of the entire nation. 
The transportation needs of Houston differ markedly from those of 
Chicago. This is doubly true when trying to reduce congestion and 
improve air quality. We have also learned that if we are to address our 
mobility and air quality needs simultaneously, we must incorporate 
national approaches, State and local planning, and project-level 
investments.
    The CMAQ Program was established in 1992 by ISTEA as one of the 
programs designed to provide States and metropolitan areas flexibility 
to better address their particular needs, specifically targeted at air 
quality improvements. Through this program, we have provided $6 billion 
during the life of ISTEA and $8 billion under TEA-21 (1998-2003) to 
States and local governments for innovative programs and projects that 
demonstrate an air quality benefit and contribute to attainment of a 
national ambient air quality standard. Under TEA-21, State and local 
governments also received additional CMAQ funds from the programmatic 
distribution of minimum guarantee funds and funds made available 
through the revenue aligned budget authority (RABA) mechanism.
    The concept of the CMAQ program is to provide needed flexibility to 
fund transportation improvements, whether they be highway, transit, 
shared ride, bicycle and pedestrian or other types of projects. This 
flexible approach allows for investments that cross traditional 
boundaries of the Federal-aid program to support projects focused on 
transit systems, alternative fuels and vehicles, intermodal highway 
facilities, emissions inspection and maintenance (I&M) programs, and a 
host of other projects.
    The CMAQ program has also supported more highway and systems 
management improvements that contribute to emissions reductions through 
traffic flow enhancements or other means, and has been an important 
funding source in the implementation of Intelligent Transportation 
Systems (ITS). In Arizona, for example, CMAQ funding accounted for 87 
percent of the Federal funds used for ITS investments.
Overview of CMAQ-Funded Projects
    Through fiscal year 2002, about $11.3 billion had been obligated 
under the CMAQ program. According to the latest data, the majority of 
CMAQ funding goes for new and enhanced transit services and traffic 
flow improvements that ease congestion, reduce starts and stops, and 
reduce emissions. These two categories are the backbone of any 
metropolitan area's transportation system, but they are also the most 
capital-intensive of the types of projects eligible under the program.
    A breakdown of CMAQ funding by type of project is provided in the 
table below.

               CMAQ Funding by Type of Project: 1992-2000
------------------------------------------------------------------------
                                                  Amount
                                                Obligated
               Type of Project                      ($       In Percent
                                                Millions)
------------------------------------------------------------------------
Transit......................................       $3,383          44%
Traffic Flow.................................        2,452         32
Shared Ride..................................          290          4
Demand Management............................          249          3
Bicycle/Pedestrian...........................          268          3
Inspection and Maintenance and Other.........          588          8
States with no Nonattainment or Maintenance            491          6
 Areas.......................................
------------------------------------------------------------------------

    In recent years, there has been a significant increase in the 
amount of CMAQ funding used for emissions I&M programs. Both Illinois 
and New Jersey have used CMAQ funding extensively for this purpose. In 
fact, 75 percent of New Jersey's recent CMAQ funding has been used for 
its I&M program. This is noteworthy because I&M programs have proven to 
be important strategies for meeting Federal air quality standards, 
demonstrating relatively large emission reductions, especially in acute 
ozone nonattainment areas.
The Benefits of the CMAQ Program
    Some CMAQ projects and programs, for example those supporting 
vehicle I&M programs, have registered notable emissions reductions. 
According to the States' annual CMAQ reports, I&M programs can yield a 
reduction of about 5 tons per day in VOC in Illinois to over 40 tons 
per day in New Jersey. Regional projects, like traffic management 
centers and other projects that contribute to a modern, intelligent 
transportation system, also demonstrate larger emissions reductions 
than local or corridor level projects. Finally, we foresee greater 
potential for projects that advance new vehicle and fuel technologies 
which can be much more cost-effective than traditional projects. On the 
transit side, funding for bus replacement, removing older higher 
polluting vehicles from city streets in favor of newer models, has 
shown results, as have heavy-duty diesel retrofit programs and the 
introduction of alternative fuels.
    Further, even the more traditional transportation control measures 
(TCMs) funded under the CMAQ program can help our State and local 
partners achieve other goals in addition to improving air quality. 
Examples include High Occupancy Vehicle Lanes (HOV), turn lanes, 
transit projects and new buses. These measures improve our quality of 
life, by reducing pollution, by relieving congestion, and by allowing 
us to walk or bike in a more pleasant environment.
    Finally, the flexibility of the CMAQ program supports 
experimentation by our partners in the States and metropolitan planning 
organizations (MPOs) to meet travel demand in the most environmentally 
sensitive ways. In addition to ITS services, intermodal projects, and 
I&M programs, the CMAQ program has funded:
    <bullet> Station cars and car-sharing programs
    <bullet> Telecommuting
    <bullet> Parking cash-out programs
    <bullet> New vehicle technologies, including fuel cell vehicles
    <bullet> Alternative fuels
    <bullet> Public-private partnerships
    <bullet> Transit-oriented development
    Many States have made excellent use of their CMAQ funds by 
implementing innovative and useful projects to address their congestion 
and air quality problems. In Ohio, for example, the State has spent 
more than $50 million in recent years for Intelligent Transportation 
Systems (ITS) projects, including signalization improvements, freeway 
surveillance and transit communications that can help speed traffic 
through its metropolitan areas and reduce emissions. It has also 
invested about $20 million in Intermodal Centers, including the modern 
and very popular Waterfront Station serving the Rock-n-Roll Hall of 
Fame in Cleveland. Over $17 million has been used for new buses to 
expand transit systems in several Ohio cities, with another $4 million 
to support transit fare reductions during the ozone season. And 
finally, Ohio has used CMAQ funding to continue its focus on reducing 
the number of at-grade crossings benefiting not only air quality and 
congestion, but also reducing fatalities. In Ohio and other places 
around the country, CMAQ funding has facilitated the implementation of 
critical transportation improvements with multiple benefits.
    The National Academy of Sciences (NAS) released a comprehensive 
assessment of the CMAQ program in April 2002. A number of findings and 
recommendations were offered, with the study concluding the program is 
valuable to State and local governments and should be continued. The 
assessment highlighted in particular the importance of the program's 
flexibility, encouragement of innovative approaches to reduce 
emissions, and support for new partnerships across jurisdictions.
Recent Issues
    In recent discussions, stakeholders have raised several issues 
about the CMAQ program and its role in the overall surface 
transportation program. The first involves concerns about the CMAQ 
funding formula. The statutory formula apportions funds to the States 
based on the population living in nonattainment and maintenance areas 
and the severity of the ozone and CO pollution problem. However, the 
statutory formula does not include factors for the EPA's new air 
quality standards. Thus, a State whose nonattainment population will 
grow under the new EPA standards will receive no comparable increase in 
funding. Because these new areas will be eligible to use CMAQ funding 
under provisions enacted in TEA-21, the States' CMAQ apportionments 
will be stretched thin to cover them. The NAS report and others in the 
air quality community have also pointed out the importance of 
addressing the new fine particulate matter standard in the 
apportionment formula and eligibility, because of the mortality impacts 
associated with this type of pollution.
    Expanding the eligible use of CMAQ funding for operating assistance 
constitutes a second issue. One of the current strengths of the program 
is the focus on improvement projects, which could be diminished by 
providing assistance for routine operations. Currently, we provide 
operating assistance for up to 3 years under the CMAQ program for new 
services to help them get established.
    A third issue that has been raised is whether to expand CMAQ 
funding to areas outside of existing nonattainment and maintenance 
areas. In January of 2002, DOT published a Federal Register notice 
maintaining our current policy of limiting funding to nonattainment and 
maintenance areas, but allowing projects to be funded that are in close 
proximity to, and primarily benefiting, a nonattainment or maintenance 
area. Comments to the docket revealed that our stakeholders are divided 
on the issue of funding outside of existing nonattainment and 
maintenance areas, although the majority of States and MPOs favored 
retention of our current policy.
    We are considering these issues as we develop our reauthorization 
recommendations. We expect to send a proposal to Congress soon.
  the transportation conformity process: coordinating transportation 
                        and air quality planning
    Conformity refers to a requirement of the CAA that is designed to 
ensure that federally funded or approved highway and transit projects 
conform to the air quality goals and priorities established in a 
State's implementation plan (SIP). For programs administered by the 
Federal Highway Administration and the Federal Transit Administration, 
we determine whether highway and transit projects conform to a State's 
SIP by comparing the total expected air quality emissions from the 
whole transportation system within the nonattainment or maintenance 
area, including the expected emissions that would result from projects 
contained in the transportation plan and transportation improvement 
program (TIP), with the emissions budget for motor vehicles in the SIP.
    A failure or inability to make a conformity determination by the 
required deadline is referred to as a ``conformity lapse.'' During a 
conformity lapse, the use of Federal highway and transit funds is 
restricted. Currently, most areas of the country are in conformity. 
But, as of March 4, 2003, seven areas are in a conformity lapse.
    Fulfilling the transportation conformity requirements has created 
stronger institutional links between two sets of agencies--
transportation and air quality--that operated quite independently of 
each other prior to enactment of the Clean Air Act Amendments of 1990 
(CAAA). This interagency consultation has played a crucial role in the 
development of more realistic and achievable transportation and air 
quality plans. In addition, the transportation conformity provisions 
have been instrumental in fostering improvements to the travel demand 
and emissions modeling processes, because of the specificity of data 
necessary to meet conformity requirements.
    We now have almost a decade of experience in implementing the 
transportation conformity provisions of the CAAA and, despite 
successes, stakeholders indicate that there remain opportunities to 
improve the transportation conformity process. Transportation 
conformity was intended to form strong linkages between the 
transportation and air quality planning processes. However, there is a 
concern among transportation agencies--and even some air quality 
agencies--that transportation plans and SIPs are not synchronized with 
one another due to different planning horizons and update frequencies. 
This sometimes causes ``lapses'' in conformity that can disrupt the 
transportation funding process. While transportation plans have very 
long planning horizons and have to be updated frequently, most air 
quality plans have comparatively shorter planning horizons and are 
updated less frequently.
    TEA-21 and the CAA require that transportation plans must cover at 
least 20 years and be found conforming for that entire time period. 
However, air quality plans have much shorter planning horizons, often 
only 5-10 years, resulting in a ``mismatch'' in which transportation 
plans must consider emissions controls in the absence of comprehensive 
air quality planning. Without comprehensive air quality planning, there 
is no analysis of the most cost-effective emissions controls across all 
sources beyond the end of the SIP timeframe. If an MPO has a conformity 
problem in the timeframe beyond that covered by the SIP, it has limited 
options for achieving substantive emissions reductions with programs 
over which the transportation agencies have control. Traditional TCMs 
have little impact on regional emissions levels, despite benefits 
realized at the local level, and such strategies will provide even 
fewer reductions in the future, as technology continues to reduce total 
mobile source emissions. Although MPOs bear the responsibility of 
assuring that plans conform to air quality budgets, they do not have 
the authority under current law to establish more effective measures, 
like I&M programs or reformulated fuels. That process of identifying 
future control strategies is the intended purpose of the SIP.
    This ``mismatch'' can be further aggravated by differences in the 
frequency with which transportation plans and air quality plans are 
updated. Conformity determinations for transportation plans must be 
made at least every 3 years, must be based on the latest demographic 
and travel information, and must use the latest emissions estimation 
model. However, air quality plans are not updated on a regular cycle, 
and may reflect out-of-date assumptions or may have been developed 
using an outdated emissions estimation model. When a conformity 
analysis is performed in such a situation, it is impossible to 
determine whether the emissions associated with the transportation plan 
are truly consistent with the emissions budget in the air quality plan. 
This may be because the transportation plan emissions were estimated 
using one set of assumptions and model, while the emissions budget was 
developed under another. Some stakeholders have reported that such 
situations have occurred and are likely to happen again with the recent 
release of a new emissions estimation model.
    EPA, in coordination with U.S. DOT, has allowed a 2-year grace 
period before States have to use the new emission model, MOBILE6, for 
conformity. EPA also requires that SIPs that are started after the 
official release use MOBILE6. While the Clean Air Act does not require 
SIP updates in all cases, EPA guidance encourages States to evaluate 
the effects of MOBILE6 early to plan for any needed SIP updates to 
accommodate change.
    Stakeholders indicate that conformity lapses have occurred because 
areas could not complete the complex, comprehensive transportation 
planning and conformity processes within the required timeframes, even 
though they met their emissions budgets. Data collection, model 
development, public outreach, and consensus building can all take a 
considerable amount of time and resources. MPOs also face other daily 
challenges of ever-increasing congestion, transportation needs due to 
economic growth, protection of water quality and other environmental 
resources, efficient freight management, safety, and security.
    Many stakeholders have suggested bringing the planning horizons and 
frequency of updates of both the transportation plans and air quality 
plans much closer together. Some have suggested a shorter planning 
horizon, and less frequent updates, while others have suggested a 
longer air quality planning horizon. We note that some areas have opted 
to voluntarily extend their air quality planning horizons.
    In any case, some stakeholders have suggested it is in the best 
interests of an effective, integrated process that the air quality 
plans and the transportation plans are both using the latest, and most 
consistent, set of planning assumptions, and that the air quality plans 
include the necessary control measures to ensure timely attainment of 
the standards. Stakeholders have stated that this would also help us 
anticipate air quality problems and correct them in a more proactive 
and coordinated transportation and air quality planning process.
    The Department recognizes the value of transportation conformity, 
and is committed to reducing motor vehicle emissions. We will monitor 
potential and actual transportation conformity lapses, and strive to 
minimize the number of conformity lapses that occur.
    EPA's new air quality standards will also impact the conformity 
process. The new standards are more stringent, and many areas across 
the Eastern United States and in California have pollution levels now 
exceeding these standards. Some of these areas, including small urban 
and rural areas, may be designated nonattainment for the first time. 
Other existing nonattainment areas may become larger and involve more 
jurisdictions under the new standards. It is too early to tell the 
magnitude of transportation and air quality planning and conformity 
issues that might surface following implementation of the new 
standards. However, based on our experience when the 1990 Clean Air Act 
amendments were implemented, we would expect these areas to face 
challenges in the early years. The Department and EPA are working with 
these areas to increase their capacity to deal with new nonattainment 
designations and conformity.
    Over the years, we have worked closely with EPA and our State and 
local stakeholders to improve the transportation conformity process. We 
are committed to better coordinating the transportation and air quality 
planning processes and will continue to work with EPA and our 
stakeholders to identify ways to remedy the mismatch issues, including 
consideration of possible remedies in the development of our 
reauthorization proposal.
                           general conformity
    The Clean Air Act's General Conformity requirement applies to 
Federal actions other than the highway and transit actions to which 
Transportation Conformity applies, and requires that Federal actions 
conform to State air quality implementation plans. These provisions 
affect airport improvement and other DOT programs. The FAA and EPA 
issued guidance last September that will help FAA and airport sponsors 
perform the analysis supporting FAA conformity decisions on federally 
assisted and approved airport projects. Because we expect new 
nonattainment areas to be designated under the new air quality 
standards, the new standards can also be expected to increase the 
number of actions requiring general conformity determinations.
                               conclusion
    In conclusion, the Department of Transportation is committed to 
continuing the progress made over the last 30 years in reducing motor 
vehicle emissions and strongly supports the goals of the Clean Air 
Act's transportation conformity provisions. Improving transportation 
safety and mobility, while protecting the environment and enhancing the 
quality of life for all of our communities, are compatible goals. I am 
proud of the successes we have achieved under the CMAQ program by 
providing flexible funding for innovative transportation projects that 
improve air quality and by improving interagency cooperation between 
transportation and air quality agencies. However, I also recognize that 
additional improvement in the coordination of the transportation and 
the air quality planning processes can be achieved.
    Integrating transportation and environmental decisionmaking can 
effectively advance environmental stewardship and improve our 
efficiency in meeting our nation's mobility needs. The American public 
demands and deserves both mobility and clean air, and we must remain 
focused on providing the highest level of service and environmental 
protection that we can provide.
    Mr. Chairman and members of the subcommittee, this concludes my 
statement. I again thank you for the opportunity to testify today and I 
look forward to working with you as we prepare for reauthorization of 
the surface transportation programs.
    I will be pleased to answer any questions you may have.
    [GRAPHIC] [TIFF OMITTED] 90365.001
    
                                 ______
                                 
    Responses by Emil Frankel to Additional Questions from Senator 
                               Voinovich
    Question 1. Please describe the resources and the guidance that 
your agency is going to provide in fiscal year 2004, assuming the 
budget request is satisfied, to states and communities to help them 
demonstrate conformity with the PM<INF>2.5</INF> standard.
    Answer. The Department of Transportation (DOT) and the 
Environmental Protection Agency (EPA) have worked closely in providing 
technical assistance to nonattainment and maintenance areas to address 
conformity and transportation air quality issues. In anticipation of 
the number of new areas designated nonattainment for the first time, 
DOT has embarked on a number of activities to prepare the areas for 
this challenge:
    1. Revise transportation conformity regulations--DOT is working 
closely with EPA to revise the EPA conformity rule for the 
implementation of the new ozone and fine particulate standards. Our 
goal is to complete the rulemaking process by the time the new ozone 
nonattainment designations are finalized. We believe this will allow 
newly designated nonattainment areas to fully utilize the 1-year 
conformity grace period in meeting conformity requirements.
    2. Continue existing training courses--DOT has developed a well-
received basic training course on transportation conformity. EPA 
assisted in the development of this training course. The course was 
offered 6 times during FY 2002, and about 230 public and private sector 
representatives of transportation and air quality disciplines attended 
the course. DOT offered this course through the National Transit 
Institute in 7 cities in FY 2003 and anticipates offering it 7 times in 
FY 2004. Our field resource centers provided workshops and tailored 
seminars, primarily focusing on emissions modeling, transportation 
conformity, and the CMAQ program. In 2004, the Federal Highway 
Administration (FHWA) will also continue to provide training in 
MOBILE6, EPA's current emissions factor model.
    3. Provide new training opportunities--FHWA's National Highway 
Institute will be launching 3 new training courses in FY 2004 that will 
be very helpful in preparing for conformity analysis.
        La. Estimating Regional Mobile Source Emissions
        Lb. The Implication of Air Quality Planning on Transportation
        Lc. The CMAQ Program: Purpose and Practice.
    4. In May 2002, FHWA launched a Transportation Conformity Community 
of Practice (CoP) website to allow for sharing of best practices, free 
exchange of ideas and discussions on topics related to conformity among 
practitioners. The CoP website can be accessed at: http://
www.fhwa.dot.gov/environment/aqupdate/index.htm

    Question 2. Studies are showing that toxic air pollutants from 
mobile sources are turning out to be a very significant health threat 
for people living near high-volume traffic. How is DOT incorporating 
this elevated risk of cancer and developmental problems from mobile 
source toxics exposure into NEPA reviews of projects?
    Answer. The Department is aware of the evolving science surrounding 
toxic air pollutants, and is following the basic research that is 
underway by the Health Effects Institute (HEI) and others to enhance 
our knowledge. HEI, which is jointly funded by EPA and industry to 
provide unbiased assessments of health effects, just announced a new 
research program, ``Assessing Exposure to Air Toxics`` to reduce what 
it refers to as ``large data gaps in understanding exposures to many 
air toxics.'' (see www.healtheffects.org/RFA/RFA2003.pdf). HEI's 
Strategic Plan 2000-2005 focuses its air toxics research on reducing 
uncertainties in evaluating the human health risks associated with 
exposure to mobile-source air toxics.
    FHWA is also funding studies focusing on mobile sources to help 
fill in the current gaps in our understanding. Among major research 
efforts, FHWA has commissioned research on:
    <bullet> the Multiple Air Toxics Emissions Study (MATES II) in 
California and its transferability to other areas,
    <bullet> particulate matter and air toxics analyses in 7 cities to 
establish the relationship between transportation activity and air 
toxic emissions,
    <bullet> differences between modeling results and monitoring data, 
and
    <bullet> development of a Strategic Workplan for Air Toxic 
Emissions for the transportation community at large.
    We are also interested in the nature of mobile source air toxics, 
the analytical tools available or in development, and the contrast 
between regional and local, i.e. project-level, impacts.
    Finally, FHWA has convened a working group with our EPA 
counterparts to establish a policy framework for agency field staff and 
State Departments of Transportation to better assess the effects of air 
toxics during project development and the NEPA process.

    Question 3. Your agency has proposed changes to the conformity 
provisions of the Clean Air Act or the CMAQ program as part of the 
Administration's pending proposal for reauthorization of TEA-21. What 
outside groups were consulted in the process of developing your 
proposals?
    Answer. The Department consulted with a broad range of 
transportation and environmental stakeholders in developing SAFETEA 
proposals, including the American Association of State Highway and 
Transportation Officials, the Association of Metropolitan Planning 
Organizations, the National Association of Regional Councils, the State 
and Territorial Pollution Prevention Association/Association of Local 
Air Pollution Control Officials, and State and local air quality 
agencies. Other interest groups such as the Highway Users Alliance, the 
National Association of Home Builders, the Surface Transportation 
Policy Project, Environmental Defense, and the Sierra Club were also 
consulted. For the conformity and CMAQ recommendations, DOT also worked 
closely with EPA.

    Question 4. Can you provide the Committee with some examples where 
an MPO had a problem with finding conformity in the out-years of the 
transportation plan (the second 10-year period) that had not been 
solved by the State using EPA's enforceable commitment policy under the 
conformity rule?
    Answer. In SAFETEA, DOT proposes a new provision regarding 
metropolitan planning to more closely align the transportation and air 
quality planning horizons for purposes of transportation conformity, 
and to better integrate the transportation planning and air quality 
planning processes. Transportation conformity currently must be 
determined for the entire 20-year planning horizon of metropolitan 
transportation plans. On the other hand, air quality State 
implementation plans (SIPs) usually cover a much shorter timeframe (10 
years or less). This mismatch in timeframes does not provide for an 
integrated planning process beyond the life of the SIP.
    Without comprehensive air quality planning, there is no analysis of 
the most cost-effective emissions controls across all sources beyond 
the end of the SIP timeframe. If an MPO has a conformity problem in the 
time frame beyond that covered by the SIP, it has limited options for 
achieving substantive emissions reductions with programs over which the 
transportation agencies have control. Traditional TCMs have little 
impact on regional emissions levels, and such strategies will provide 
even fewer reductions in the future, as technology continues to reduce 
total mobile source emissions. Although MPOs bear the responsibility of 
assuring that plans conform to air quality budgets, they do not have 
the authority under current law to establish more effective measures, 
like I&M programs or reformulated fuels. That process of identifying 
future control strategies is the intended purpose of the SIP.
    MPOs that have experienced conformity problems in the outyears have 
worked with their air quality partners through the interagency 
consultation process, because they often could not solve these issues 
themselves. In several cases, the SIP was revised to establish out-year 
conformity budgets to solve the issue (e.g., Washington, DC established 
budgets and a trading program in the outyears to address projected 
emission increases in future years.) In addition, Colorado committed to 
re-implement an I/M program in the future to solve the outyear 
conformity problems.
    The potential for timeframe mismatch is found in the June 2002 
Senate Environment and Public Works Committee (SEPW) staff survey of 16 
MPOs on their experience of the conformity process. The Southern 
California Association of Governments (SCAG) described the potential 
for this mismatch in the following excerpt. However, it should be noted 
that although the potential for a mismatch issue exists in this case, 
SCAG does not actually report that it has an outyear emissions problem 
for its 2025/2030 transportation plan.
    Federal regulations require at least a 20-year planning horizon for 
the development of any RTP [Regional Transportation Plans]. However, 
SIPs are only required to address the time period up to the attainment 
or maintenance date for the relevant area. Thus, SCAG's 2001 RTP 
extends up to the year 2025, and the upcoming 2004 RTP will extend up 
to the year 2030. However, and as one example, the 1-hour Ozone SIP for 
the South Coast Air Basin (SCAB) in the SCAG region is only required to 
consider the period preceding its stipulated attainment year of 2010. 
As a consequence, there is always a gap of about 15 to 20 years between 
SIP and RTP planning horizons. The complex interplay of socio-
demographic projections and emission budgets between the SIP and the 
RTP processes means that there is almost always the potential of a 
procedural conformity lapse.\1\
---------------------------------------------------------------------------
    \1\ SCAG's Comments on Transportation Conformity Issues for the 
Senate Hearing on TEA-21 Reauthorization, July 22, 2002.
---------------------------------------------------------------------------
    Other examples can also be found in the same SEPW survey. The 
PM<INF>10</INF> attainment year for a PM<INF>10</INF> nonattainment 
area in the South Coast Air Basin in California is 2006, while the 
transportation planning horizon is 2025--a gap of at least 19 years. In 
the absence of realistic PM<INF>10</INF> emissions budgets for these 
future years, the MPO has experienced difficulty in demonstrating 
conformity beyond the attainment year of 2006. The MPO for San Joaquin 
Valley (PM<INF>10</INF> nonattainment) had a similar experience.
    SAFETEA proposed to address this issue by revising the conformity 
requirement of a transportation plan to be more closely aligned with 
the timeframe of a SIP. SAFETEA proposed to limit transportation 
conformity to the first 10 years of the transportation plan, the latest 
year for which the SIP contains a motor vehicle emissions budget, or 
the completion date of a regionally significant project, if the project 
requires approval before the subsequent conformity determination, 
whichever is longer. Areas will still be required to conduct a regional 
emissions analysis for the last year of the transportation plan, for 
informational purposes only, if the transportation plan extends beyond 
the timeframe covered by the conformity analysis. The proposed changes 
will ensure that a coordinated and integrated transportation and air 
quality planning process is used to develop the SIP budgets and to 
determine transportation conformity. This provision is also intended to 
encourage the development of longer-term SIPs in areas that anticipate 
extended air quality problems.

    Question 5. At my and Senator Lieberman's request, the GAO has been 
doing a survey of all the states' air quality and transportation 
planners on conformity. The final report should be available by the end 
of April. It will cover many of the topics discussed at the hearing, in 
plenty of time to factor into reauthorization. But so far, it appears 
that GAO has found that most of the conformity lapses are a result of 
administrative or procedural issues, unrelated to emissions budgets 
constraints. Is that DOT's experience?
    Answer. The GAO report, ``Federal Planning Requirements for 
Transportation and Air Quality Protection Could Potentially Be More 
Efficient and Better Linked,'' was issued in May 2003. It found that 
since 1997, about half of the conformity lapses were caused by 
resource, administrative, or technical problems rather than 
difficulties meeting emissions budgets. The report indicates that most 
areas resolved their conformity problems in 6 months or less. The GAO 
report also included DOT's observation that even short conformity 
lapses can have an impact on the transportation planning process. 
However, GAO itself did not specifically analyze the impacts of these 
lapses in its report. The GAO report also stated that ``a majority of 
transportation planners who had trouble demonstrating conformity or 
failed to do so by a deadline said that the required frequency of 
demonstrations robs them of time and resources to solve other issues, 
such as growing congestion.'' The GAO findings are consistent with DOT 
analysis.

    Question 6. It has been said: ``If you build it, drivers will 
come.'' In transportation planning, metropolitan planning organizations 
(MPOs) typically consider a wide array of factors including economic 
growth, safety, efficiency, and air quality. Is it appropriate for MPOs 
to also consider the need for open space in conducting metropolitan 
transportation planning?
    Answer. It is appropriate for MPOs to consider the need for open 
space in conducting transportation planning. The role of the MPO in 
land use and transportation varies according to state and locality. In 
some areas, MPOs are responsible for reviewing regionally significant 
local land use decisions, including the need for open space. In others, 
land use decisions are solely the prerogative of local officials. 
Regardless of the MPO's role in decisionmaking, transportation planners 
need to consider the comprehensive land use plans of the region and 
local jurisdictions, including plans for open space, and create a 
constructive dialogue with land use officials. In that way, each group 
is informed of actions that might affect the other. In SAFETEA, the 
Administration proposes language to encourage each MPO to coordinate 
its planning process, to the maximum extent practicable, with those 
officials responsible for other types of planning activities that are 
affected by transportation, including State and local economic 
development, environmental protection, airport operations, and freight.

    Question 7. TEA-21 required DOT to streamline the environmental 
review process for highway projects. While we are still waiting for the 
Administration's proposal, some have suggested exempting transportation 
plans from NEPA altogether. Does it make more sense to try implementing 
TEA-21 by streamlining environmental reviews before considering 
exempting transportation plans from requirements that all other federal 
actions have needed to comply with since 1969?
    Answer. The Department's position has long been that metropolitan 
and statewide transportation plans and programs are not major Federal 
actions under the National Environmental Policy Act. Section 1203 (m) 
of TEA-21 explicitly continued this practice by stating that any 
decision by the Secretary on a metropolitan transportation plan shall 
not be considered to be a Federal action subject to review under NEPA 
(23 USC 134(o)), and Section 1204(h) made a similar provision for 
statewide plans (23 USC 135 (i)). Individual projects and actions that 
receive DOT funding or approval are subject to NEPA.
                               __________
   Statement of Annette Liebe, Manager, Air Quality Planning, Oregon 
    Department of Environmental Quality on Behalf of the State and 
Territorial Air Pollution Program Administrators and the Association of 
                 Local Air Pollution Control Officials
    Good morning, Mr. Chairman and members of the subcommittee. I am 
Annette Liebe, Manager of the Air Quality Planning Section of the 
Oregon Department of Environmental Quality. I am testifying today on 
behalf of STAPPA--the State and Territorial Air Pollution Program 
Administrators--and ALAPCO--the Association of Local Air Pollution 
Control Officials--the two national associations of air quality 
officials in 54 States and territories and over 165 major metropolitan 
areas. The members of STAPPA and ALAPCO have primary responsibility 
under the Clean Air Act for implementing our nation's air pollution 
control laws and regulations and, moreover, for achieving and 
sustaining clean, healthful air for our citizens. Accordingly, we are 
pleased to have this opportunity to provide our perspectives on 
implementation of the Congestion Mitigation and Air Quality Improvement 
(CMAQ) program under the Transportation Equity Act for the 21st Century 
(TEA-21) and the transportation conformity program under the Clean Air 
Act.
    STAPPA and ALAPCO are acutely aware of the key role that 
transportation plays in our nation's economy. We endorse the 
fundamental principle that transportation and environmental goals need 
not be at odds with one another, but, rather, that our transportation 
system can flourish and our economy can grow without jeopardizing our 
environment. In fact, our transportation choices can contribute to 
environmental improvements.
    Today, however, transportation remains a dominant source of air 
pollution across the country, contributing substantially to unhealthful 
levels of ozone, particulate matter (PM) and carbon monoxide (CO). In 
particular, according to the U.S. Environmental Protection Agency 
(EPA), these sources are responsible for over 40 percent of volatile 
organic compounds and more than 50 percent of nitrogen oxides--both of 
which are ozone precursors--more than 25 percent of fine particulate 
matter emissions and 70 percent of CO emissions. Transportation sources 
are also very significant contributors of greenhouse gases--including 
over a third of carbon dioxide emissions--and toxic air pollutants and 
play a role in the formation of regional haze. Although we continue to 
make great progress in reducing emissions from mobile sources, it is 
clear that the benefits of these technological advances cannot keep 
pace with current and foreseeable trends of steadily increasing vehicle 
miles traveled (VMT).
    STAPPA and ALAPCO firmly believe that the CMAQ and transportation 
conformity programs are critically important to our goal of achieving 
full integration of our environmental and transportation decisionmaking 
processes and ensuring that transportation choices do not undermine our 
efforts to achieve and sustain clean, healthful air throughout the 
country. For this reason, last fall, our associations adopted a set of 
CMAQ and transportation conformity principles for the reauthorization 
of TEA-21; a copy of our principles is attached.
                              cmaq program
    STAPPA and ALAPCO strongly support the CMAQ program, which provides 
a discrete source of funding explicitly set aside for transportation 
projects that meet air quality objectives and for projects that result 
in sustainable air quality improvement. The CMAQ program appropriately 
reinforces the interrelationship between the transportation and air 
quality planning processes by specifically recognizing and seeking to 
ameliorate the transportation sector's impact on air quality. Over the 
past 10 years, it has been demonstrated that CMAQ can play a 
significant role in helping States and localities address 
transportation-related air quality problems. We believe, however, that 
this important program can be strengthened in several ways.
    First, since CMAQ was originally established, the scope and 
magnitude of transportation-related emissions and their impact on air 
quality have expanded significantly. EPA has adopted new, health-based 
National Ambient Air Quality Standards (NAAQS) for fine particulate 
matter and 8-hour ozone, both of which will be implemented in the next 
few years. A National-Scale Air Toxics Assessment has concluded that 
motor vehicles are the largest source of hazardous air pollutants 
nationwide, producing nearly 1.4 million tons of air toxics each year. 
And we have gained an increased understanding of the phenomenon of 
transported pollution and precursors and its impact on the ability of 
many areas to attain and maintain clean air goals.
    While STAPPA and ALAPCO believe CMAQ funds should be apportioned 
based on the severity of an area's air quality problem and its 
population, we urge that the areas eligible to receive CMAQ funding be 
expanded from 1-hour ozone, PM<INF>10</INF> and CO nonattainment and 
maintenance areas, to also include PM<INF>2.5</INF> and 8-hour ozone 
nonattainment and maintenance areas; areas nearing nonattainment; areas 
whose transportation-related emissions have an impact on a 
nonattainment area; and areas that experience other air quality 
problems as a result of transportation-related emissions, including, 
but not limited to, hazardous air pollutants from mobile sources.
    Accordingly, we believe that the historic allocation of CMAQ funds 
is inadequate. We strongly urge a substantially increased Federal 
commitment of resources to the CMAQ program, to reflect the true and 
very significant impact of transportation-related emissions on air 
quality. This increase should be no less, proportionately, than that to 
be provided for highway investments.
    In Oregon, CMAQ funds have been used to implement transportation 
control measure commitments in numerous maintenance plans. Some 
examples include expansion of transit service and programs, support of 
transit-oriented development, implementation of commuter trip reduction 
programs, expansion of bicycle and pedestrian facilities and the 
purchase of advanced equipment to remove winter road sand that could 
contribute to PM<INF>10</INF>. In order to meet the challenges of 
implementing new standards to protect public health, it is necessary to 
increase the amount of funding available for these types of projects 
and assure eligibility for areas that are making progress to maintain 
healthful air.
    With respect to project eligibility, we urge that greater emphasis 
be placed on projects that will result in direct, timely and sustained 
air quality benefits. Certain types of congestion mitigation projects, 
such as road and bridge construction and expansion, may have the long-
term effect of promoting growth in VMT and urban sprawl, and of 
creating new congested corridors. CMAQ funding should be directed to 
projects that demonstrate sustained air quality benefits. STAPPA and 
ALAPCO also recommend that to qualify for CMAQ funds, a project should 
be required to demonstrate that a specified minimum air quality benefit 
threshold is met or exceeded, based on established criteria and 
supporting data, with such a threshold determined with--the concurrence 
of the appropriate State and/or local air quality agency. Based on more 
clearly defined funding eligibility criteria and guidance, States and 
localities should have discretion in determining which qualifying 
projects receive funding.
    Finally, STAPPA and ALAPCO recommend that State and local air 
quality agencies have a more defined and consistent role in the 
evaluation and selection of CMAQ projects. We believe the concurrence 
of State and local air quality agencies must be required for project 
selection, through a well-defined consultation and concurrence process. 
In Oregon, this concurrence has occurred through the ongoing 
interagency consultation process that we established under the 
conformity rule.
                       transportation conformity
    STAPPA and ALAPCO remain firmly committed to the purpose of 
transportation conformity, which is to ensure that shorter-term 
Transportation Improvement Programs (TIPs) and long-term Regional 
Transportation Plans (RTPs) contribute to the timely attainment and 
maintenance of healthful air quality and are consistent with the motor 
vehicle emissions budgets contained in the State Implementation Plan 
(SIP) for air quality; we believe that conformity can be implemented as 
intended, and that its purpose can be fulfilled with increasing 
success.
    In numerous areas, the conformity process has improved working 
relationships between State and local air quality and transportation 
officials by requiring consultation and coordination among agencies. 
The process has made air quality and transportation planners more aware 
of each others' objectives; resulted in the inclusion in TIPS and RTPs 
of additional projects that benefit air quality; and opened up the SIP 
development process to more input from the transportation community. 
Clearly, this has been the case in Oregon. STAPPA and ALAPCO believe 
that we must continue to strive for such successes across the country. 
Moreover, our associations strongly believe that the purpose of 
conformity--to ensure that transportation plans and programs stay 
within the allotted mobile vehicle emissions budget--is absolutely 
crucial to achieving clean air goals, especially given the continued 
increase in motor vehicle use. While we understand that others seek 
changes to the conformity process, STAPPA and ALAPCO strongly endorse 
preserving the major conformity requirements and schedules that are now 
in place.
    For example, we understand that some seek to shorten the planning 
horizon for the RTP, so that the plan's conformity determination would 
be based on a 10-year horizon versus the current 20-year horizon. 
STAPPA and ALAPCO strongly oppose such a change.
    Long-term planning, over a 20-year horizon, is imperative to 
ensuring that the potential growth in mobile source emissions is 
identified, the impact on air quality is assessed and appropriate 
adjustments to transportation plans are made accordingly. In planning 
for clean air, State and local air agencies must not only chart a 
course for achieving healthful air quality, but also for maintaining it 
over the long term. Shortening the timeframe over which a 
transportation plan is required to demonstrate conformity is extremely 
troubling to us because it takes only the first part of our 
responsibility--attaining an air quality standard--into account, and 
ignores our responsibility to plan for maintenance over the subsequent 
20 years. Major transportation investments can have huge air quality 
impacts, much of which may not occur for several decades; these 
investments can also significantly induce growth. If we eliminate the 
responsibility to account for the impact of transportation investments 
beyond 10 years, then we eliminate the ability to hold these projects 
accountable for their air pollution, and severely compromise our 
ability to adequately protect public health.
    We also understand that some are seeking to reduce the frequency of 
conformity determinations for transportation plans from every 3 years 
to every 5 years, and to eliminate the requirement for conformity 
determinations on the TIP, currently conducted every 2 years. STAPPA 
and ALAPCO oppose these changes, as well.
    Regular and timely analyses to demonstrate compliance of 
financially constrained TIPs and RTPs with SIP motor vehicle emission 
budgets must be maintained. Such continued frequency will ensure that 
sound data is generated and allow for the timely improvement of motor 
vehicle emission estimates. The result will be improved air quality and 
timely progress toward attainment of health-based NAAQS and other air 
standards. However, in recognition of the desire of transportation 
officials to improve the alignment of conformity timelines, STAPPA and 
ALAPCO recommend that the frequency of the conformity analysis on the 
TIP and the RTP be synchronized and conducted no less frequently than 
once every 3 years.
    A final example of a conformity requirement where change is being 
sought is the length of the grace period to be allowed before an area 
found to be in violation of an air quality standard for the first time 
must demonstrate conformity. We understand that some seek to extend the 
length of the grace period for such areas from the current 1 year to 3 
years. First, we note that Congress has already addressed this issue. 
Just 2 years ago, statutory conformity provisions were amended to 
provide for a 1-year grace period. Moreover, an extension of this 
period to 3 years is of significant concern to our associations. To 
allow transportation planning in an area with poor air quality to go 
unchecked for 3 years would be a substantial weakening of the 
conformity program and of public health protection. While both ozone 
and PM<INF>2.5</INF> pose dangerous health consequences, PM<INF>2.5</INF> 
is especially dire because of its potentially deadly nature. We believe 
the 1-year grace period following formal designation is sufficient in 
terms of allowing an area to ramp up to its responsibilities, even for 
areas that have never faced nonattainment and conformity before. Most, 
if not all, of these areas are already aware of their forthcoming 
nonattainment status. In addition, given all of the areas that already 
implement conformity, there is now a wealth of experience for new areas 
to draw on. At least part of the reason many areas across the country 
will become nonattainment for the new ozone and PM<INF>2.5</INF> 
standards is transportation-related sources. This being the case, 
postponing for 3 years efforts to address the impact of transportation 
plans and programs on air quality is highly imprudent.
    STAPPA and ALAPCO believe conformity is working. We believe it is 
well worth the effort it requires, given the benefits that will follow 
in terms of public health and smart growth. In addition, we believe 
that conformity as it is currently structured provides ample 
flexibility to States to accommodate individual needs and 
circumstances, while maintaining the integrity of the program. Rather 
than statutory changes to such things as planning horizons, analysis 
frequency and grace periods, STAPPA and ALAPCO believe that State and 
local officials should retain the flexibility to resolve issues in the 
way that works best at the State and local level. This may involve 
revising the emissions budget in a SIP in one area, adding 
transportation control measures to a TIP in another area or extending 
the air quality planning horizon in yet another area. In each case, the 
State and local officials can develop the best solution for their 
jurisdictions through a strengthened interagency consultation process.
                               conclusion
    At its winter meeting last month, the National Governors 
Association (NGA) reaffirmed its existing policy on ``Transportation 
Conformity with the Clean Air Act.'' In that policy, the Governors 
state:

          With the enactment of the Clean Air Act Amendments of 1990, 
        the Intermodal Surface Transportation Efficiency Act of 1991, 
        and the Transportation Equity Act for the 21st Century, 
        Congress took steps to advance two essential national goals: 
        achieving air quality standards and providing for the 
        transportation needs of the American people. The Governors 
        strongly support the attainment of both of these goals and 
        believe that neither should be sacrificed in pursuit of the 
        other.

    STAPPA and ALAPCO embrace this perspective, as well. To that end, 
we are very pleased to have the opportunity to participate with State 
environmental commissioners, and their transportation counterparts, in 
a dialog initiated by the Environmental Council of the States and the 
American Association of State Highway and Transportation Officials at 
the request of NGA to explore potential areas of common-ground 
regarding CMAQ and transportation conformity. Likewise, we look forward 
to working with members of this subcommittee, as well as with EPA, U.S. 
DOT and other stakeholders, as discussions regarding these two 
extremely important programs continue.
    Thank you.
                                 ______
                                 
     Statement of S. William Becker, Executive Director, State and 
 Territorial Air Pollution Program Administrators (STAPPA)/Association 
           of Local Air Pollution Control Officials (ALAPCO)
   STAPPA/ALAPCO--CMAQ and Transportation Conformity Principles for 
                       Reauthorization of TEA-21
    Transportation is the dominant source of air pollution in our 
Nation, posing a significant threat to public health. The State and 
Territorial Air Pollution Program Administrators (STAPPA) and the 
Association of Local Air Pollution Control Officials (ALAPCO) endorse 
the fundamental principle that transportation and air quality goals 
should be harmonized to ensure that our transportation choices 
contribute to improving our environment. As we seek to reduce 
transportation-related emissions, we recognize the critical importance 
of the Congestion Mitigation and Air Quality Improvement (CMAQ) 
program, long-term air quality/transportation planning processes and 
close collaboration and cooperation between air quality and 
transportation agencies in harmonizing air quality and transportation 
goals. As the Transportation Equity Act for the 21st Century (TEA-21) 
undergoes reauthorization, STAPPA and ALAPCO urge that opportunities 
for enhancing these programs and processes be explored.
       congestion mitigation and air quality improvement program
    STAPPA and ALAPCO strongly support the CMAQ program, which 
appropriately reinforces the interrelationship between the 
transportation and air quality planning processes by specifically 
recognizing and seeking to ameliorate the transportation sector's 
impact on air quality. Over the past 10 years, it has been demonstrated 
that CMAQ--which provides a discrete source of funding explicitly set 
aside for transportation projects that meet air quality objectives and 
for projects that result in sustainable air quality improvement--can 
play a significant role in helping States and localities address 
transportation-related air pollution problems. As CMAQ undergoes review 
as part of the reauthorization of TEA-21, STAPPA and ALAPCO offer the 
following principles for enhancing the program:
Role of Air Quality Agencies in CMAQ Project Selection
    <bullet> State and local air quality agencies must have a more 
defined and consistent role in the evaluation and selection of CMAQ 
projects.
    <bullet> The concurrence of State and local air quality agencies 
must be required for project selection, through a well-defined 
consultation and concurrence process.
Increase in CMAQ Funds and Expansion of Areas Eligible to Receive 
        Funding
    <bullet> The historic allocation of CMAQ funds is inadequate to 
address transportation-related air quality problems that exist now and 
that. will exist in the future. Therefore, overall funding of the CMAQ 
program should be increased, to reflect the expanding scope and 
magnitude of transportation-related emissions and their impact on air 
quality, and in anticipation of new PM<INF>2.5</INF> and 8-hour ozone 
nonattainment areas.
    <bullet> CMAQ funding should be apportioned based on the severity 
of an area's air quality problem and its population.
    <bullet> The types of areas currently eligible to receive CMAQ 
funding ``(i.e., 1-hour ozone, PM<INF>10</INF> and CO nonattainment and 
maintenance areas) should be expanded to include PM<INF>2.5</INF> and 
8-hour ozone nonattainment and maintenance areas.
        <bullet> Lareas eligible to receive funding should also 
        include:
        <bullet> Lareas nearing nonattainment;
        <bullet> Lareas whose transportation-related emissions have an 
        impact on a nonattainment area; and
        <bullet> Lareas that experience other air quality problems as a 
        result of transportation-related emissions, including, but not 
        limited to, hazardous air pollutants from mobile sources.
Project Eligibility
    <bullet> Greater emphasis should be placed on projects that will 
result in direct, timely and sustained air quality benefits; criteria 
for substantiating such benefits should be established and data to 
support the quantification of such benefits should be required.
    <bullet> Certain types of congestion mitigation projects (e.g., 
road and bridge construction and expansion) may have the long-term 
effect of inducing growth in vehicle miles traveled and urban sprawl, 
and of creating new congestion corridors. CMAQ funding should be 
shifted away from such projects unless there is a demonstration that 
these projects will result in sustained air quality benefits.
    <bullet> To qualify for CMAQ funds, a project should be required to 
demonstrate that a specified minimum air quality benefit threshold is 
met or exceeded, based on established criteria and supporting data; 
such a threshold should be determined with the concurrence of the 
appropriate State and/or local air quality agency.
    <bullet> Funding eligibility criteria and guidance should be more 
clearly defined to meet the above objectives.
    <bullet> To the extent that these project eligibility criteria are 
followed, States and localities should then have discretion in 
determining which qualifying projects receive funding.
Project Funding Beyond Three Years
    <bullet> Project funding beyond 3 years should be allowed and 
decided on a case-bycase basis and contingent on a demonstration of 
need and continuing air quality benefit.
    <bullet> Such extended project funding should be phased out over 
time.
Transportation Conformity
    Implementation of transportation conformity as Congress envisioned 
it in Section 176(c) of the Clean Air Act Amendments of 1990 has only 
begun to occur within the last few years. Delays in establishing motor 
vehicle emissions budgets resulted in the unintended consequence of 
protracted use of the less-than-perfect build/no-build test for 
determining conformity. However, now that motor vehicle budgets are in 
place in nonattainment areas, STAPPA and ALAPCO firmly believe that 
conformity can be implemented as intended, and that its purpose--to 
ensure that shorter-term Transportation Improvement Programs (TIPs) and 
long-term Regional Transportation Plans (RTPs) contribute to the timely 
attainment of healthful air quality and are consistent with (i.e., 
conform to) the motor vehicle emissions budgets contained in the State 
Implementation Plan (SIP) for air quality--can be fulfilled with 
increasing success.
    Because the conformity of transportation plans to air quality plans 
is critical to achieving clean air goals--particularly given the 
continued increase in motor vehicle use and vehicle miles traveled--
preserving the conformity requirements and schedules now in place is 
crucial. Specifically, STAPPA and ALAPCO recommend the following:
Frequency of Conformity Determinations
    <bullet> Regular and timely analyses to demonstrate compliance of 
constrained TIPs and RTPs with SIP motor vehicle budgets must be 
maintained. Such continued frequency will ensure that sound data is 
generated and allow for the timely improvement of motor vehicle 
emissions estimates. The result will be improved air quality and timely 
progress toward attainment of the NAAQS and other air quality goals.
    <bullet> To better harmonize timelines, conformity analyses. on the 
TIP and the RTP should be synchronized and conducted no less frequently 
than once every 3 years.
    <bullet> In addition, the 18-month SIP ``trigger'' for determining 
conformity must be maintained.
Planning Horizon
    <bullet> The 20-year planning horizon for transportation plans must 
also be retained. Such long-range planning is imperative to ensuring 
that the potential for growth in mobile source emissions is identified, 
the impact on air quality is assessed and adjustments to transportation 
plans are made accordingly.
                                 ______
                                 
                       Department of Environmental Quality,
                                       Portland, OR, April 2, 2003.
Hon. George Voinovich,
U.S. Senate,
Washington, DC.

Re: Subcommittee on Clean Air, Climate Change and Nuclear Safety--CMAQ 
and Conformity Hearing of March 13, 2003

    Dear Senator Voinovich: At the March 13th hearing I testified on 
behalf of the State and Territorial Air Pollution Program 
Administrators and the Association of Local Air Pollution Control 
Officials (STAPPA/ALAPCO) about transportation conformity and the 
Congestion Mitigation-Air Quality program. At the end of the hearing I 
offered to provide additional information concerning how the conformity 
and air quality planning processes work in Oregon. Overall, I believe 
that transportation conformity works well in Oregon because affected 
agencies work cooperatively to achieve conformity's intent: ensure that 
transportation decisions and investments do not jeopardize healthful 
air quality.
    When the conformity rules were implemented in Oregon, the Oregon 
Department of Environmental Quality (ODEQ), the Oregon Department of 
Transportation (ODOT) and the State's Metropolitan Planning 
Organizations (MPOs) organized themselves as standing committees to 
achieve the required interagency consultation. These committees meet 
monthly, and the regular contact allows participants to develop mutual 
trust and to identify issues before they become critical problems. 
Moreover, transportation and air quality planning is integrated into 
the activities of the various agencies through workload sharing. 
Typically, an MPO or the ODOT conducts the transportation modeling and 
combines the results with the output of the mobile emissions modeling 
performed by ODEQ. The product is an estimate of motor vehicle 
emissions derived from the efforts of several organizations with a good 
understanding of, and a degree of ownership in, the outcome. Whenever 
possible, ODEQ utilizes the results of travel modeling that is done for 
transportation planning purposes in the air quality planning process. 
This minimizes the amount of modeling that is needed and ensures that 
the planning processes are coordinated.
    This climate of collaboration helped develop of some of the 
innovative features first applied in the Portland, Oregon maintenance 
plans for ozone and carbon monoxide. One of the features developed in 
these plans was the ``TCM Substitution'' process. Transportation 
Control Measures (TCM) are motor vehicle emission reduction strategies 
in a SIP that are backed by especially strong enforcement requirements. 
They include techniques such as expanding public transit services and 
designating lanes that are available only to High Occupancy Vehicles. 
Normally, changes to TCMs must be formally approved by EPA before those 
modifications can take effect. This usually results in a protracted 
process. Working with EPA's Region X and the MPO for the Portland area, 
DEQ found ways accelerate the procedure and reduce the amount of 
effort.
    Briefly explained, TCM substitution can be used when ODEQ, EPA and 
the MPO agree that a replacement control measure of equal or greater 
effectiveness is appropriate. First a substitute measure is identified 
using an advisory committee process and that substitute is made 
available for public comment. Following a comment period that meets 
both Federal and State procedural criteria, comment materials are 
provided to EPA for their concurrence. If EPA finds the measure to be 
acceptable, Oregon's Environmental Quality Commission is free to adopt 
and implement the substitution without a SIP revision. (Please see 
enclosure from the Portland Carbon Monoxide Maintenance Plan for 
details.)
    Another feature of the Oregon SIP is a Motor Vehicle Emissions 
Budget that extends beyond the duration of the air quality plan. The 
addition of new highway capacity typically leads to changes in land use 
that can often result in sprawl. In turn, these changes in land use 
frequently lead to ever greater demand for highway construction. The 
phenomenon is identified as ``induced demand'' and is the reason many 
conclude ``you can't build your way out of congestion.'' The 
interaction between transportation and land use can be subtle, and it 
takes decades for its effects to be felt. Therefore, we feel that a 
long planning period is essential to capturing the full consequences of 
an area's transportation decisions. To address this concern Oregon DEQ 
established motor vehicle emission budgets 10 years beyond the last 
year of the SIP to balance the emissions from industry, ordinary 
citizens and highway vehicles. This approach to addressing the 
``mismatch'' between transportation and air quality planning horizons 
can be implemented by any jurisdiction under current law.
    In order to effectively evaluate alternatives during the planning 
processes, it is necessary to have the analytical tools available that 
are capable of assessing the full impacts of the proposed alternatives. 
Computer models for predicting travel behaviors are often not sensitive 
to the complete range of policy choices that transportation and air 
quality planners need to assess. In Oregon, potential solutions to 
these problems are discussed and developed by the Oregon Modeling 
Steering Committee (OMSC).
    The OMSC was organized by ODOT about the same time the conformity 
rules took effect, and consists of representatives from the Federal 
Highway Administration, State agencies for Housing, Transportation, 
Environmental Quality and all of Oregon's MPOs. Through quarterly 
meetings and modeling projects of common interest, the OMSC has 
provided a vehicle for standardizing and improving travel models across 
the State. These efforts allowed the development of new modeling 
capabilities that can better inform policymakers of the consequences 
their transportation choices will have on the environment, land use and 
economic development. The OMSC has also been a forum for sharing 
expertise between large and small MPOs and the group has recently 
devised a mechanism that allows the temporary sharing of expert 
personnel among participating agencies. Such close cooperation broadens 
members' professional perspective and nurtures a sense of common 
purpose.
    These examples illustrate how the interagency consultation process 
can address concerns that have been raised about conformity without the 
need for changes to the statute. Thank you again for the opportunity to 
testify on behalf of STAPPA/ALAPCO and to share this information about 
our experience in Oregon. If you or your staff would like further 
information, please contact me.
            Sincerely,
                                             Annette Liebe,
                                     Manager, Air Quality Planning.
                                 ______
                                 
  Substitution of Transportation Control Measures (D2-10-2--Volume 3)
    In the event that a Transportation Control Measure (TCM) is not 
included in the Regional Transportation Plan (RTP) or Transportation 
Improvement Program (TIP) in the timeframe contained for that measure 
in this maintenance plan adopted by the Environmental Quality 
Commission (EQC), the parties in the interagency consultation process 
established pursuant to OAR 340-020-0760 shall assess whether such 
measure continues to be appropriate. Where the Metro and the Department 
of Environmental Quality (DEQ) concur that a transportation control 
measure identified in the SIP is no longer appropriate, the agencies 
may initiate the process described in this Appendix to identify and 
adopt a substitute transportation control measure.
    A substitute TCM must provide for equivalent or greater emissions 
reductions than the measure contained in the maintenance plan. In 
addition, a replacement measure must be implemented in the timeframe 
established for the measure contained in this plan. Where such 
implementation date has already passed, funding based measures selected 
pursuant to this Appendix must be included in the first year of the 
next TIP and long range plan adopted by Metro. The substitution process 
described in this Appendix may be a basis for a finding of timely 
implementation under OAR 340-020-0840 for no more than 2 years after 
the implementation date established for the measure to be replaced.
    Metro will convene a committee (or working group) to identify and 
evaluate possible substitute measures. The committee shall include 
members from all affected jurisdictions, State and/or local air quality 
agencies and local transportation agencies. In addition, the working 
group shall consult with EPA. Consultation with EPA may be accomplished 
by sending copies of all draft and final documents, agendas and reports 
to EPA Region 10.
    Metro, DEQ, and EPA Region 10 must concur with the appropriateness 
and equivalency of the substitute TCM. All substitute measures must be 
adopted by the Environmental Quality Commission following the. public 
comment period and EPA's 14-day concurrence period described below. The 
measure to be replaced shall stay in effect until the substitute 
measure has been adopted.
    The TCM to be replaced must be rescinded for the new TCM 
substituted pursuant to this Appendix to be effective. By adopting a 
substitution under this Appendix, the EQC formally rescinds the 
previously applicable TCM and adopts the substitute measures.
    Prior to adopting a substitute measure under this Appendix, the 
substitute transportation control,measure(s) must have been subject to 
a public hearing and comment process. This means there must be at least 
one public hearing on the substitution. The hearing can only be held 
after reasonable public notice which will be considered to include, at 
least 30 days prior to the hearing:
    <bullet> notice given to the public by prominent advertising in the 
area affected announcing the date time and place of the hearing;
    <bullet> availability of each proposed plan or revision for public 
inspection in at least one location in each region to which it, will 
apply;
    <bullet> notification to interested parties in accordance with the 
Oregon Administrative Procedures Act;
    <bullet> notification to the Administrator (through the Region 10 
Office);
    <bullet> notification to the Southwest Washington Air Pollution 
Control Agency and the Washington Department of Ecology; and
    <bullet> notification of the chief executives of affected local 
governments, planning agencies, transportation agencies, environmental 
control agencies, and economic development agencies.
    A description of the measure(s) and analysis supporting the 
proposal, including assumptions and methodology, must be made available 
to the public, DEQ, and EPA Region 10 within a reasonable time before 
the public hearing, and at least 30 days prior to the close of the 
comment period. DEQ shall submit to EPA Region 10 a summary of comments 
received during the public comment period along with DEQ's responses 
following the close of the public comment period. EPA shall notify DEQ 
within 14 days if the Agency's concurrence with the substitution has 
changed as a result of the public comments. Where EPA fails to notify 
DEQ within 14 days, EPA is deemed to concur.
    The analysis of substitute measures under this Appendix must be 
consistent with the methodology used for evaluating measures in the 
maintenance plan. Where emissions models and/or transportation models 
have changed since those used, for purposes, of evaluating measures in 
the maintenance plan, the TCM replaced and the substitute measure(s) 
shall be evaluated using the latest modeling techniques to demonstrate 
equivalent or greater emissions reductions will be achieved through 
implementation of the substitute measure(s).
    Key methodologies and assumptions that must be consistent, and 
reconciled in the event of a discrepancy, are, for example:
    <bullet> EPA approved regional and hot-spot (for CO and 
PM<INF>10</INF>) emissions models;
    <bullet> the area's transportation model; and
    <bullet> population and employment growth projections.
    DEQ will maintain documentation of approved TCM substitutions. The 
documentation, will also provide a description of the substitute and 
replaced TCMs, including the requirements and schedules. The 
documentation will also provide a description of the substitution 
process including the committee or working group members, the public 
hearing and comment process, EPA's concurrence, and EQC adoption. The 
documentation will be submitted to EPA following adoption of the 
substitute measure by the EQC, and made available to the public as an 
attachment to the maintenance plan. See Section 4.51.4.4, Maintenance 
Plan Commitments.
                               __________
  Statement of W. Gerald Teague, M.D., Professor and Vice Chairman of 
Clinical Affairs, Director, Division of Pulmonary Medicine, Department 
           of Pediatrics, Emory University School of Medicine
    Good morning. I am Dr. Gerald Teague, Professor of Pediatrics at 
the Emory University School of Medicine in Atlanta. I would like to 
thank Senators Voinovich and Carper and the Senate Committee on the 
Environment and Public Works for inviting me here today.
                 health effects of urban air pollution
    As many of us in this room already know, outdoor air quality is 
known to affect respiratory health. Studies done over 10 years ago in 
children seen at Grady Hospital, an inner city hospital that serves 
primarily minorities, established a clear relationship between exposure 
to unhealthy levels of ozone and increased symptoms of asthma (White et 
al). Other studies done in Atlanta showed that airborne particles, 
apart from ozone, can also increase respiratory symptoms in children 
(Tolbert et al). As a pediatrician who practices in Atlanta, a city 
which has not met U.S. air quality standards, I regularly care for 
children with asthma attacks caused by air pollution episodes.
    The evidence that air quality significantly impacts health is not 
limited to breathing problems like asthma. The link between particulate 
pollution and increased deaths due to heart attacks and arrhythmias in 
adults is clearly established (Samet et al). Evidence is also mounting 
that air quality is directly linked to the risk of lung cancer, 
childhood leukemia, complications of pregnancy like low birth weight, 
prematurity, and possibly congenital heart defects.
                    importance of traffic congestion
    Since the 1950's, we have known that vehicle exhaust fumes play a 
major role in the deterioration of air quality in urban areas (CMAQ). 
The Clean Air Act, passed in 1970, authorized the EPA to cap pollutants 
emitted from a wide range of sources to meet air quality standards and 
preserve human health. As a result of this legislation, the air is much 
cleaner today than it was in 1970. However, the prevalence of asthma in 
urban areas has increased significantly, and an estimated 62 million 
Americans live in areas where the air quality does not meet the health-
based standards. Furthermore, the United States has experienced a 
staggering increase in traffic congestion (CMAQ). From 1982 to 1997, 
traffic congestion increased by 45 percent in metropolitan Atlanta.
               introduction to the atlanta olympics study
    All of this leads me to the questions we face today. What happens 
when a city makes a well-organized, highly collaborative, and 
aggressive attempt to decrease automobile traffic congestion? Can such 
a strategy work in terms of decreasing traffic volumes and traffic 
congestion, and increasing traffic flow? If it does, what impact would 
this have on the air quality of that city? And what impact would this 
improvement in air quality, in turn, have on the health of the 
residents of that city?
    The 1996 Summer Olympic Games in Atlanta provided an opportunity to 
answer these questions. To set the stage, Atlanta was preparing to be 
host to an additional 1 million visitors during the 17 days of the 
Olympic Games. These visitors would be concentrated in the downtown 
area, where traffic congestion was already a very serious problem.
 methods to reduce traffic congestion during the 1996 atlanta olympic 
                                 games
    In response, the city of Atlanta, the Department of Transportation, 
and the Atlanta Committee of the Olympic Games along with local 
business leaders came together to develop and enact a comprehensive 
traffic mitigation strategy which included the following key 
components:
    <bullet> Expand and encourage use of public transportation--24 hour 
bus and rapid rail services, additional buses
    <bullet> Promote alternative commuting practices to shift travel 
away from rush hour periods--telecommuting, flex hours, etc.
    <bullet> Media warnings of particularly severe traffic congestion
    <bullet> Highway improvements--additional lanes, widened lanes
    <bullet> Traffic restrictions around the venue
                             study methods
    To do this study, we measured acute care visits for asthma, mean 
air pollution concentrations, weather variables, traffic counts, public 
transportation use, and monthly gasoline sales during the 17 days of 
the Olympics. This was compared to a baseline period consisting of the 
4 weeks before and after the Olympics.
                                results
[GRAPHIC] [TIFF OMITTED] 90365.002


    During the Olympics, acute asthma events decreased 42 percent in 
the Georgia Medicaid Claims file, 44 percent in a health maintenance 
organization, 11 percent in 2 pediatric emergency rooms, and 19 percent 
in the Georgia Hospital Discharge data base (see figure above).
[GRAPHIC] [TIFF OMITTED] 90365.003


    Peak daily ozone concentrations decreased 28 percent from 81.3 ppb 
during the baseline period to 58.6 ppb during the Olympics (see figure 
above).
[GRAPHIC] [TIFF OMITTED] 90365.004


    Peak weekday AM traffic counts decreased 22.5 percent (see figure 
above).
                              conclusions
    Efforts to reduce downtown traffic congestion in Atlanta during the 
Olympics resulted in decreased automobile use, especially during the 
critical morning rush hours. These changes were associated with a 
prolonged period of low ozone pollution and significantly lower rates 
of childhood asthma events. This study provides evidence in support of 
efforts to reduce air pollution and improve health via reductions in 
motor vehicle traffic.
                                 ______
                                 
                 Olympic Asthma Study Media Fact Sheet
    Friedman MS, Powell KE, Hutwagner L, Graham LM, Teague, WG. Impact 
of changes in transportation and commuting behaviors during the 1996 
Summer Olympic Games in on air quality and childhood asthma. JAMA 2001; 
285(7): 897-905.
    1. Our study showed that decreased city-wide use of automobiles in 
Atlanta during the Olympics led to improved air quality and a large 
decrease in childhood asthma events.
    2. Automobile use decreased most dramatically during the weekday 
morning rush hour period, which we believe is a critical time period 
for the buildup of ozone pollution latter in the day.
    3. Dramatic increases in public transportation use and the 
widespread implementation of alternative downtown commuting schedules 
resulted in the observed decrease in automobile use. Strategies to 
decrease rush hour commuting included closure of the downtown area to 
car traffic, flextime, carpooling, telecommuting, and promotion of 
commuting alternatives through the media. Cooperation between city 
government, ACOG, local businesses, the local media, and residents of 
Atlanta ensured the success of these strategies.
    4. Our findings are consistent with other studies linking poor air 
quality to increased asthma events and decreased lung function in 
children.
    5. Our study is important because: (1) it provides evidence that 
decreasing automobile use can reduce the burden of asthma in our 
cities. (2) City-wide efforts to reduce rush hour automobile traffic 
through the use of public transportation and altered work schedules is 
possible in America.
    6. Atlanta's inner-city children on Medicaid seemed to benefit the 
most from this Olympic experiment in city transportation planning.
    7. While some Atlantans may have left the city during the Olympics, 
we found that overall emergency medical visits did not change while 
emergency asthma visits did, suggesting this was a real decrease.
    8. The decrease in automobile use was driven by the Olympics; the 
question is whether there can be such a dramatic change in car usage 
under more routine and sustainable conditions.
    9. We believe that sustainable transportation changes are possible 
if city governments, businesses, and city residents have a strong 
desire to reduce automobile pollution, and work together in innovative 
ways to accomplish this.
    10. We hope that this study spurs interest in the development and 
use of near emission-free cars in our cities. The technology and 
practical application of such cars already exist. Efforts now need to 
focus on how to encourage and promote their use over the next 5 years.
    11. Asthma is a very complicated disease with many possible causes. 
Air pollution and automobile congestion is only one factor in why a 
person's asthma may flare up. Efforts to decrease automobile emissions 
and improve air quality will not help everyone's asthma. But as our 
study shows, it may have a significant impact on the burden of asthma, 
especially in our inner-cities.
                               References
    1. Friedman MS, Powell KE, Hutwagner L, Graham LM, Teague, WG. 
Impact of changes in transportation and commuting behaviors during the 
1996 Summer
    Olympic Games in on air quality and childhood asthma. JAMA 2001; 
285(7): 897-905.
    2. White MC, Etzel RA, Wilcox WD, Lloyd C. Exacerbations of 
childhood asthma and ozone pollution in Atlanta. Environ Res 1994; 
65:56-68.
    3. Tolbert P, Mulholland JA, MacIntosh DL, et al. Air quality and 
pediatric emergency room visits for asthma in Atlanta, Georgia. Am J 
Epidemiol 2000; 151: 798-810.
    4. U.S. Department of Transportation/Federal Highway 
Administration. The congestion mitigation and air quality improvement 
program. Publication No. FHWA-EP-00-020.
    5. Samet JM, Dominici F, Curriero FC, Coursac I, Zeger SL. Fine 
particulate air pollution and mortality in 20 U.S. cities 1987-1994. N 
Engl J Med 2000; 343: 1742-1749.
                               __________
        Statement of Michael Replogle, Transportation Director, 
                         Environmental Defense
    Mr. Chairman, my name is Michael Replogle, and I serve as 
Transportation Director of Environmental Defense. Environmental Defense 
is a leading, national, NY-based nonprofit organization, representing 
300,000 members, that links science, economics, and law to create 
innovative, economically viable solutions to today's environmental 
problems. I serve as Chair of the Energy and Environment Issue Team of 
the Surface Transportation Policy Project, and today also speak on 
behalf of the Sierra Club, Natural Resources Defense Council, Defenders 
of Wildlife, Center for Community Change, America Walks, the Southern 
Organizing Committee for Economic and Social Justice, Metropolitan 
Atlanta Transportation Equity Coalition, the Tri-State Transportation 
Campaign (based in New York), and the Chesapeake Bay Foundation.
    I am pleased to have this opportunity to discuss transportation and 
air quality, especially focusing on transportation conformity and the 
Congestion Mitigation and Air Quality (CMAQ) Program and to offer our 
views as the subcommittee begins work in reauthorizing TEA-21. I want 
to incorporate by reference the extensive testimony I provided on 
transportation and air quality issues to the full Senate EPW hearing on 
July 30, 2002. I stand by that testimony.
     transportation conformity: a key element in timely attainment 
                             of healthy air
    Conformity is a principal way to keep the transportation system 
accountable to public health, air quality and the environment. In the 
12 years, since TEA-21 was enacted, the science linking emissions from 
the transportation sector to public health has confirmed, time and 
again, the powerful link between health and the environment. Conformity 
is way to balance the checkbook, to keep track of air quality impacts 
and spur greater efficiency in the transportation system. Without 
conformity, money will be spent on transportation without this basic 
accountability.
    Clean Air Act (CAA) transportation conformity requires 
transportation plans that are designed to achieve motor vehicle 
emission within the pollution limits established in State air pollution 
implementation plans (SIPs). Conformity was strengthened in the 1990 
CAA Amendments to require quantitative emission limits so 
transportation plans could be held accountable for their performance, 
and to assure that transportation and air quality planners would 
coordinate their activities.
    Conformity was strengthened because, since adoption of the 1970 
CAA, growth in the number of vehicle miles traveled and related 
transportation emissions had been routinely underestimated, leading to 
repeated failure of many metropolitan areas to attain healthful air 
quality by established deadlines. Despite the adoption of far cleaner 
vehicle and fuel technologies, air pollution from motor vehicles--then 
and now--continues to harm the health of millions of our citizens.
    Today, it is clear that, despite setbacks that have delayed and 
hampered its implementation, transportation conformity has been 
successful in many ways.
    <bullet> It has spurred broad support for timely implementation of 
cleaner vehicle technologies, fuels, and vehicle maintenance 
initiatives.
    <bullet> It has spurred adoption of strategies to reduce traffic 
and related pollution growth by expanding transportation choices and 
better managing transportation systems.
    <bullet> Conformity has made it routine business for transportation 
planners to consider the air quality implications of alternative 
policies and investments and fostered much better interagency 
coordination.
    Conformity: Like Balancing Your Checkbook. Transportation 
conformity has been most effective behind the scenes, providing timely 
information to decisionmakers to motivate action to reduce pollution 
and protect public health. Most conformity success stories have gone 
unreported and little noticed, while the complaints from some 
transportation officials about the nuisance of transportation 
conformity are often recounted.
    Conformity is a lot like balancing your checkbook--it's not a fun 
way to spend your time, but its vital to the health of your household 
or business in the long run that it be done. Doing it routinely, 
frequently, and with the most accurate, up-to-date information 
available helps avoid surprises, bounced checks, and overdrafts that 
can result from untimely failure to record an ATM banking transaction, 
catch checkbook register arithmetic errors, or mis-recording of data, 
thereby protecting one's financial health and reputation. So too 
metropolitan areas doing frequent conformity analysis can catch early 
errors in forecasting motor vehicle emissions that result from changes 
in assumptions--such as the share of SUVs and light trucks vs. 
passenger cars, job and housing patterns, transit fares, parking rates, 
or improved travel behavior data--or from mistakes in transportation 
and emissions modeling and analysis. Timely updates to modeling 
assumptions improve accountability and protect the integrity of 
transportation and air quality planning.
    However, some highway officials argue that there is a ``timing 
mismatch'' between the transportation and air quality planning process. 
They advocate ``fixing'' this by reducing the frequency of conformity 
analyses, limiting the future time horizon for air quality analysis, 
and by allowing use of out-of-date assumptions and data for conformity 
analysis. Such proposals would greatly weaken transportation conformity 
and make it likely that regional air quality control strategies will 
fail for the third time since enactment of the Clean Air Act in 1970. 
These proposals would put off for another generation the day when all 
Americans might breathe healthful air. Congress should reject these 
proposals that threaten public health and the environment.
    To explain why, I'd like to recount several conformity success 
stories, including a recent one here in the Washington, DC-northern 
Virginia-suburban Maryland area. Successes like these would be 
imperiled by ill-advised proposals from some highway officials.
    Frequent Conformity Checks Deliver Timely Correction of Emission 
Reduction Shortfalls. In July 2001, Washington-area officials sought to 
update the region's transportation plan more than a year before its 
conformity finding was due to expire, so they could include several new 
regionally significant highway projects. The area's Metropolitan 
Planning Organization (MPO), in a routine update of modeling 
assumptions, found mobile source emissions exceeding the SIP emission 
limits by about 8 tons per day of Nitrogen Oxides (NOx) when the 
growing use of sport utility vehicles (SUVs) and light trucks was 
accounted for, as these vehicles produce significantly more pollution 
per mile driven than standard cars. This finding was an early warning 
that additional emission reduction strategies needed to be adopted 
before new road projects could be added to the transportation plan. 
Officials formed a task force to consider reopening the SIP to allow 
for more motor vehicle pollution by finding offsets from other emission 
sources or fixing the conformity problem by adopting added emission 
reduction measures. Over the course of a year, area officials 
deliberated, and eventually settled on three major types of actions 
which each contributed significantly to address the conformity problem 
within the transportation planning process:
    <bullet> The MPO refined their models to better account for 
emissions and for emission reducing measures already being implemented 
by the District of Columbia and other jurisdictions, but not previously 
credited by planners.
    <bullet> The State of Maryland advanced a $42 million package of 
new transportation emission reduction strategies, including buying 
clean buses, improving pedestrian and bicycle access to transit, and 
supporting transit oriented development and telework.
    <bullet> The State of Virginia cut back its proposed short-term 
road program for 2005 by 100 lane miles of new road capacity 
(representing about 0.5 percent of 2005 modeled road capacity), which 
the MPO estimated would result in a 1 percent reduction in regional 
mobile source NOx, a 0.1 percent decrease in VOC, a 0.6 percent 
reduction in daily VMT, and a 1.3 percent increase in daily transit 
trips.\1\ And Virginia taxpayers saved $800 million.
---------------------------------------------------------------------------
    \1\ Kirby, Ronald. F., ``Emissions Estimates Associated with the 
2002 CLRP and fiscal year 2003-08 TIP, and Potential Transportation 
Emissions Reductions Measures (TERMs), memorandum of June 28, 2002 to 
Transportation Planning Board, Washington, DC, Attachment 1, ``New 2005 
Emissions Calculations Reflecting Changes In the Six-Year Plan and 
Certain Posted Speed Limits in Virginia''.
---------------------------------------------------------------------------
    If proposals being pushed by some transportation officials and road 
lobby groups to reduce the frequency of required conformity analysis of 
regional transportation plans to every 5 years or to allow the use of 
obsolete data assumptions for conformity analysis had been in effect, 
this $42 million package of emission reduction measures would almost 
certainly not have been funded. Awareness of the emission benefits of 
reduced road expansion--driven by fiscal problems more than by the 
pressures of transportation conformity--would have gone unnoted. The 
MPO would have devoted less time and resources to considering 
strategies to reduce emissions and traffic growth.
    If the region had been allowed to use old data for conformity 
analysis of Transportation Improvement Programs (TIPs) and regional 
transportation plans, the region's officials would have been able to 
add major new highway projects to the plan at a time when it was clear 
that motor vehicle emissions would far exceed the pollution budget 
established in the SIP, almost guaranteeing that the region would not 
be able to attain the 1-hour ozone standard by 2005, after it had 
already missed the 1999 deadline for meeting that standard that was set 
in the 1990 Clean Air Act.
    Our families here in the Washington region would face worse health 
problems from breathing the air. The ``fixes'' proposed by some highway 
officials ostensibly to ``align planning horizons and frequency of 
updates for transportation plans and SIPs'' would actually have the 
effect of reducing the timely alignment of transportation and air 
quality plans, leading to much dirtier air, more sick kids, more 
premature deaths from respiratory problems, and more damage to the 
health of the Chesapeake Bay and other ecosystems caused by excess air 
pollution from motor vehicles.
    Twenty-Year Conformity Planning Horizon: Vital to Considering Long-
Term Effects of Transportation Investments. I'd like to recount another 
relatively unheralded conformity success story that would have been put 
in peril by the ``fixes'' proposed by AASHTO and the road lobby. In the 
mid-1990's, it became clear that Charlotte, North Carolina's 20-year 
transportation plan would not stay within the pollution limits set in 
the region's air quality plan. This helped prompt local officials to 
consider and adopt a new 2025 Transit Land/Use plan for Charlotte-
Mecklenburg with bus rapid transit and light rail to support the five 
major transportation and development corridors. Funding for the plan is 
coming from a combination of local, State, and Federal funding, 
including a half cent local sales tax approved in 1998 by Mecklenburg 
County voters to expand bus and rapid transit improvements. The 
requirement that the regional transportation conform 20 years into the 
future was a vital element in motivating this regional progress and 
action to curb pollution while expanding transportation choices.
    Indeed, the proposal by the road lobby to weaken conformity by 
having it apply only to the first 10 years of the RTP or to the last 
horizon year in the SIP threaten to cause a renewed widespread failure 
of SIP control strategies. Such a proposal would allow major projects, 
such as new outer beltways, to advance far into planning, development, 
and construction before accounting more fully for their profound long-
term impacts on regional growth and traffic patterns, and related air 
pollution. The unsophisticated regional traffic models currently in use 
by most MPOs are already too insensitive to induced traffic and land 
use effects. This proposal would exacerbate this problem. Some State 
DOTs complain that they must make up for pollution growth from traffic 
in the out years of their 20-year transportation plans, without help 
from SIP control strategies after the attainment year. While SIPs are 
not required to adopt control strategies beyond the attainment year 
until the attainment year is reached and requirements for a 10-year 
maintenance plan are triggered, at least a half dozen States have 
adopted SIP control strategies that extend beyond or begin after the 
attainment year, to help transportation agencies deal with this 
problem.
    But this problem would not materialize if metropolitan areas 
adopted development policies that combine transit oriented development 
with the implementation of comprehensive regional transit programs. To 
eliminate the obligation of the transportation agencies to account for 
the long-range impats of the choices they make will force other 
emissions sources to bear the entire cost of future emission 
reductions.
    Adoption of Emission Controls For Years After Attainment Deadline: 
Ready Solution to Emissions Growth Issues. For example, Denver was 
faced with a terrible particulate matter (PM) problem in the 1980's. 
Agencies began taking action against wood burning. There was progress 
made during this period, but PM was still measuring 185  g/m<SUP>3</SUP> 
compared to the NAAQS of 150  g/m<SUP>3</SUP>. Conformity made 
transportation planning and air quality agencies look at other sources 
of PM. They started looking at street maintenance practices and 
implemented street sanding and sweeping strategies in the mid-1990's as 
a short-term emission reduction measure. Strategies have been 
implemented beyond the initial strategies adopted as part of the 
Colorado SIP. Within 2 years PM level dropped to 80  g/m<SUP>3</SUP>. 
Conformity spurred Denver to also build into regional plans enough 
maintenance plan measures to meet long-term health standards through 
2015. Conformity provided additional incentive for developing light 
rail in Denver since it would provide long-term help to mitigate the PM 
problem. Conformity also led to the development of Metro Vision 2020 
which includes a commitment by metro area governments to limit growth 
to a 730-square mile area and has committed the region to 
transportation alternatives to support this goal. Denver also has a 
number of travel demand management (TDM) strategies in their long range 
plan such as a RideArrangers program and a telework program. They do 
not take credit for TDM system management in the 2025 conformity 
finding, but they recognized the potential for reduction and retain 
them as a safety margin in meeting the emissions budget.
    Transportation Control Measures (TCMs) are recognized in the Clean 
Air Act as a key part of attaining and maintaining healthful air 
quality. Some regions have used them extensively to help assure 
progress on clean air, including them in their plans even well beyond 
the attainment year of the SIP. For example, TCMs represent nearly 5 
percent of total emission reductions in the San Joaquin region of 
California. The MPO projects that TCMs will deliver as much as 10 
percent reduction in emissions by 2020. In San Joaquin County 
rideshare, vanpool, and commuter rail provide significant emissions 
reductions, with a large percentage of San Joaquin County residents 
facing long distance commutes into the San Francisco Bay Area.
    Conformity: A Key to Coordination Between Transportation and Air 
Quality Agencies. Since the 1990 Clean Air Act Amendments, conformity 
has been a significant factor fostering local, regional, and national 
political support for cleaner fuels and vehicles and inspection and 
maintenance programs that have helped produce more timely progress 
toward attainment of healthful air quality. In that period, conformity 
has been the single greatest factor promoting interagency cooperation 
between transportation and air quality agencies at the State, local, 
and Federal levels. Prior to 1990, transportation agencies paid no 
attention to the air quality consequences of transportation investments 
and plans. But in recent years, many metropolitan areas have adopted 
changes to their transportation plans and programs to help reduce 
traffic growth and emissions. Consideration of air quality impacts of 
investments has become a routine matter in many metropolitan areas 
where pollution problems are more severe. In most regions with serious 
air quality problems, officials and staff of air agencies and 
transportation agencies routinely meet and work together to help foster 
effective program administration that delivers progress on both 
mobility and air quality goals.
    For example, Atlanta's conformity problems led the Governor to 
create a new regional authority responsible for better planning and 
funding transportation, air quality, and growth management in Georgia's 
non-attainment areas in an effort to fix a broken interagency 
cooperation process. The political impetus to accomplish this was 
obtained only once the transportation plan conformity finding expired. 
Had the road builder's proposal for a once in 5 year conformity review 
been in force, informed observers can have little doubt this governance 
reform would have faced insurmountable obstacles.
    And while road builders have often raised the spectre of 
transportation conformity causing major disruptions to transportation 
programs, there have been no such disruptions. Even in Atlanta, where 
the longest conformity lapse of consequence to date took place, the 
region lost no transportation funding but instead redirected several 
hundred million dollars of funds from sprawl-inducing, pollution-
generating roads into projects that reduced pollution and into safety 
and system improvements that would not increase emissions.
    Proposals to reduce the frequency and time horizon for conformity 
analysis and to allow use of obsolete assumptions for conformity will 
not make the system work better. Instead, by reducing incentives for 
agency coordination they will make the system less efficient. 
Conformity works well when transportation and air quality experts work 
closely together on a routine basis, to plan and implement highway and 
transit investments and air pollution reduction strategies. Conformity, 
and the current schedule of deadlines, gives these agencies a powerful 
incentive to work together. The deadlines are also spaced just far 
enough apart to allow problems to be identified early--before they 
become crises that threaten air quality targets.
    If the minimum frequency of conformity determinations for 
transportation plans is set at 5 years, and if the life of a short-term 
transportation funding program conformity finding is extended beyond 
the current 2 years, as some propose, this will likely be too far apart 
to detect and correct significant increases in emissions, especially in 
fast-growing metropolitan areas where vehicle miles traveled or the use 
of SUVs and light trucks grows, or to account in a timely way for 
important new data on housing, employment, and travel patterns produced 
periodically by the U.S. Census and other sources.
    Conformity Time Frames Must Be Keyed to Attainment Schedules. The 
ultimate purpose of conformity is to ensure that motor vehicle 
emissions are reduced to the levels required by the States in the SIPs 
to attain the national health standards. For the Clean Air Act to work, 
all emissions in an area must be reduced to the allowable levels 
established in the SIP by the deadline for attainment, and kept within 
those levels thereafter.
    Updates of motor vehicle emissions must be coordinated with the 
Act's attainment deadline. In areas where the deadline has been 
extended, emissions updates must also be coordinated with the 
milestones set for making interim progress toward attainment. If the 
motor vehicle emissions analyses required for conformity are not 
coordinated with important CAA deadlines, then there is no possibility 
for taking corrective action to reduce motor vehicle emissions to meet 
the emission-reduction targets that must be met to attain the national 
standards.
    The key points when emissions targets must be met are the 
attainment date, and the 3-year interim milestones that are required to 
ensure progress toward attainment. All the intervals between these 
dates are 3 years, or less.
    For example, the Act's default schedule for nonattainment areas 
allows less than 3 years between the time the limit on motor vehicle 
emissions, i.e., the ``motor vehicle emissions budget,'' established in 
the SIP by the State, and the date when the area is required to attain 
the NAAQS. Unless EPA grants an extension, States are required to 
submit a SIP for each nonattainment area within 3 years after 
designation as nonattainment, and the SIP is required to provide for 
attainment within 5 years after designation. See CAA section 172(b). 
That means an area is only allowed 2 years from the time the motor 
vehicle emissions budget is established in the SIP until the attainment 
date when motor vehicle emissions must meet the budget.
    If the conformity analysis is not required for 5 years, the 
conformity process would be disconnected from moving an area toward 
attainment of the NAAQS because the transportation agencies would not 
have to analyze emissions, or take corrective action to revise their 
transportation plans and TIPs, during the period when emissions must be 
reduced. This entire process would become irrelevant. Then the 
transportation agencies would come back 5 years from now and ask for 
repeal because conformity had become a paper exercise that no longer 
served any air quality purpose. To ensure that conformity continues to 
play a very important role in attaining the NAAQS, the schedule for 
conformity reviews must remain closely coordinated with statutory 
timeframes for achieving emissions reductions.
    Another set of important emissions reduction targets mandated by 
the Act are the 3-year milestones established for areas that have 
extended attainment dates. The Act allows EPA to set later attainment 
dates than the 5-year deadline required by section 172(b), but also 
requires interim reductions to achieve ``reasonable further progress.'' 
See sections 171(1), 172(c)(2) generally. Section 182(c)(2)(B) requires 
the adoption of measures to achieve at least 9 percent reductions in 
emissions every 3 years, and 182(g) requires the States to determine if 
actual emissions comply with the milestones at the end of each 3-year 
period.
    To establish milestones for total emissions in an area, motor 
vehicle emissions must be determined for the area as well as stationary 
source emissions. To determine compliance at the end of a milestone, 
motor vehicle emissions must again be analyzed. The 3-year schedule for 
conformity was intended to ensure that the transportation agencies 
would be determining motor vehicle emissions around the time that 
milestone compliance demonstrations are required by the Act. If 
conformity is determined every 5 years, the emissions estimates will 
not be available for the States to make their compliance 
demonstrations. More importantly, the transportation agencies will have 
no obligation to take corrective action when a milestone is violated as 
a result of motor vehicle emissions that exceed the budgets in the SIP. 
Corrective action will not be required until a new conformity 
determination is required, which could be as much as 4 years later.
    In short, the Act can't work as intended if the conformity schedule 
is not coordinated with the key statutory deadlines for emissions 
reductions. Nor will the transportation agencies be as likely to 
receive cooperation from the State in the development of additional 
emissions to solve excess motor vehicle emissions. Under current law, 
sections 182(c)(5) and 182(g)(3), when motor vehicle emissions exceed 
SIP levels, the State is required to submit additional measures to 
reduce motor vehicle emissions back down to the levels used to 
demonstrate attainment in the SIP. If these State obligations are not 
coordinated with conformity determinations, the transportation agencies 
may not get timely help to prevent or resolve a conformity lapse.
    Transportation agencies and others, such as the authors of the 
misguided January 2003 Resources for the Future (RFF) Report, 
Exhausting Options, who propose to relax the current conformity 
schedule do not discuss any of these coordination issues, or the 
potential adverse impacts on implementation of the Act if the schedules 
are no longer coordinated. They only consider the burdens on 
transportation agencies that result from the obligation to keep 
transportation emissions within the limits required by the States' air 
quality plans. A balanced approach to these issues is required to 
ensure that the Act remains an effective tool for achieving a safe air 
supply for every American. The evidence in the RFF Report demonstrates 
that while significant efforts are required to keep motor vehicle 
emissions within bounds, the cooperative efforts of air and 
transportation agencies has produced effective solutions to these 
challenges. This kind of effective partnership was a goal of the Act, 
and is working. Emissions are being kept in bounds and the public is 
being well served.
    Air Agency Performance Needs to Be Enhanced. Rather than 
disconnecting the schedule for conformity determinations from the other 
schedules in the Act, the committee should require effective 
implementation of the corrective measures required of the State air 
agencies and EPA. EPA supplied this committee with responses to 
questions transmitted at the hearing last summer which indicate that, 
aside from California, almost all States with serious and severe ozone 
nonattainment areas have not submitted the milestone compliance 
demonstrations for 1999 required by section 182(g). Even more 
disturbing, EPA States in its response to Question 16: ``We sent no 
correspondence addressing State failures to submit milestone compliance 
demonstrations.'' EPA has been derelict in not taking action to require 
emissions updates needed to determine if the States are on track toward 
attainment, and to require corrective action if they are not.
    Implementing this requirement of the Act would go a long way toward 
resolving the complaints from the transportation agencies that the 
States are not updating their SIPs to overcome shortfalls in achieving 
the emissions reductions needed for conformity, milestone compliance 
and attainment.
    Effects of Conformity Fix on New NAAQS Attainment and on Use of 
2000 Census Data. Let's look at how the road builder's package of 
conformity ``deadline mismatch fixes'' might affect the timeliness of 
considering new information, data, and control strategy requirements.
    <bullet> Data from the 2000 Census journey-to-work survey is 
expected to become available in late 2003. Many MPOs continue to use 
inadequate transportation analysis models that were calibrated on 
travel data from the early or mid-1990's on 1990 Census data. Many MPOs 
are anticipating revisions to their travel forecasting models using 
2000 Census data so they can better reflect current travel patterns and 
behavior. It is not uncommon for a major MPO model update to take 18-24 
months, which means improved analysis methods and data to support 
conformity analysis may become available in late 2005. But a new 
conformity analysis of a 10-year regional transportation plan, based on 
a deficient travel model based on obsolete 1990 travel data, might be 
adopted in the fall of 2005 and, under the road lobby's proposal, this 
analysis would continue to be valid until late 2010, after the 
expenditure of all the funds authorized in a new 6-year transportation 
bill. In the meantime, major pollution-increasing transportation 
projects could proceed to be approved and funded for construction 
without any consideration of their emissions impacts, even if the 
revised travel data and model shows that the previous 1990-data based 
model significantly underestimated emissions.
    <bullet> The MOVES model, which will update the Mobile 6 emission 
factor model for mobile sources, is anticipated to be made available by 
EPA in the fall of 2005, and will become mandatory for use in SIPs and 
conformity analysis by 2007. A conformity analysis made in 2006 might 
rely on by then out-of-date Mobile 6 emission estimates, but would not 
need to be updated and replaced with a new regional plan conformity 
finding until 2011, 6 years after the issuance of the improved MOVES 
model, which is likely to lead to significant changes in the estimation 
of mobile source emissions. In the meantime, major pollution-increasing 
transportation projects could proceed to be approved and funded for 
construction without any consideration of their emissions impacts, even 
if the MOVES model shows that the Mobile 6 emission estimates were 
significantly underestimated.
    <bullet> The 8-hour ozone designations to be made by EPA in April 
2004 are not anticipated to require adoption of SIPs and motor vehicle 
emission budgets until 2007. The first conformity analysis will be 
required for newly designated areas 1 year after designation in 2005. 
The SIP for such areas will be required to provide for attainment by 
2009 (see section 172(b)), but the next conformity demonstration would 
not be required until 2010. Thus, if the transportation plan is not 
adequate to reduce motor vehicle emissions to the level required for 
attainment, there would be no requirement to change the plan before the 
attainment deadline. As a result, the area would fail to attain and 
another SIP would be required. Thus, a new conformity finding made in 
early 2007 for a 10-year regional transportation plan might continue to 
be valid until 2012, allowing a network of new outer beltways to be 
approved for construction in 2010 or 2011 which would result in massive 
sprawl, traffic growth, and pollution without considering the impact on 
the region's capacity to meet the deadline for attainment of the 8-hour 
ozone standard in 2012. The burden for emissions reduction required for 
attainment would fall on stationary and area sources, small businesses, 
and consumers, while giving the road construction industry a free pass 
to build new roads that cause substantially greater pollution at 
taxpayer expense. All the funds authorized in a new 6-year 
transportation bill would be spent before considering the impacts of 8-
hour ozone and PM<INF>2.5</INF> air quality standards on the road 
building industry, even if it was clear that the transportation plan 
approved in 2007 would make it impossible to attain the new NAAQS by an 
extended 2010 or 2012 deadline.
    Helping Conformity Work Better. Instead of the statutory ``fixes'' 
sought by the road lobby, schedule coordination should come from better 
interagency coordination and by ensuring that EPA carries out its 
obligations to review the adequacy of SIPs every 3 years, not through 
relaxing the frequency of accounting system checks and balances.
    If there is any statutory adjustment to conformity, it should 
assure that areas in a conformity lapse will be able to add new 
emission-reducing transportation projects to non-conforming short-term 
Transportation Improvement Programs (TIP) and long-range transportation 
plans, even if those projects were not previously contained in a 
conforming, fiscally constrained TIP or plan. This is discussed in 
greater detail in Attachment 1 to this testimony, which is the response 
I offered to this Committee to followup questions after the July 30, 
2002 hearing on transportation and air quality.
    Promote Performance-Oriented Planning Systems. Better interagency 
coordination and air quality and transportation planning, and more 
timely project delivery, could also result from a requirement that all 
State and metropolitan areas develop and periodically update, with 
public involvement, coordinated transportation, natural resource 
protection, and growth management plans that consider alternative 
scenarios that considerably reduce traffic growth and enhance 
environmental performance through better system management. Such an 
activity would fit naturally within a new environmental management 
system for transportation agencies. Such a system should be supported 
by annual reports on the current and projected performance of 
transportation system management, investment, and proposed programs and 
plans, accounting for cumulative and secondary impacts on growth 
patterns, public health, greenhouse gas emissions, the achievement of 
natural resource planning goals for air, water, and habitat protection, 
and the provision of equal access to jobs and public facilities for all 
residents, including those without cars, without undue time and cost 
burdens. Short of a mandate for such activities, the Congress could 
offer a 100 percent Federal funding share for these activities to 
encourage their voluntary adoption by States and MPOs.
    Enforce Fiscal Constraint and Travel Modeling Requirements. 
Congress should also take steps to assure that EPA and FHWA will better 
comply with the Clean Air Act and transportation planning laws. Traffic 
and emission forecasts often rely on unsupportable assumptions that go 
unquestioned in the interagency review process. FHWA and EPA have 
failed to enforce key Clean Air Act and TEA-21 planning requirements 
that transportation plans and programs must be fiscally constrained and 
show the sources of funding that can be relied upon to implement and 
operate them. They have also failed to enforce regulatory requirements 
that the effects of congestion and new transportation capacity on 
travel time and cost appropriately be ``fed-back'' through the travel 
behavior analysis process and reflected in emission and traffic 
estimates.
    Many MPOs continue to rely on unrealistic and questionable 
financial and technical forecasts as they determine the quality and 
performance of regional transportation systems in future years, 
including the level and price of transit services, the characteristics 
of motor vehicles being driven, and the amount of traffic and 
emissions. Poor accounting often leads to underestimation of motor 
vehicle emissions, making it more likely that State Implementation Plan 
(SIP) air pollution control strategies will again fail to deliver on 
the promise of healthful air for all Americans, more than 35 years 
after the first Clean Air Act. These problems were detailed in my 
testimony to the full Senate Environment and Public Works Committee on 
July 30, 2002.
    The failure to reflect ``induced'' traffic often leads to 
underestimation of emissions. EPA and FHWA should assure that MPO 
traffic models used for conformity and project impact analysis 
appropriately reflect scientifically established relationships between 
travel time, travel cost, and traveler behavior, as reflected in 
numerous induced traffic studies. If MPO models do not reflect these 
relationships adequately, immediate corrective action should be 
required to assure honest accounting for traffic and emissions growth, 
with a timely investment in developing best practice analysis methods, 
regionally and nationally. These empirical relationships are well 
reviewed in a paper by two former EPA scientists, which I attach to 
this testimony by reference. Their survey of the literature found that 
in general for every 10 percent increase in road lane miles, it is 
typical to find a 3 to 11 percent increase in vehicle miles traveled, 
with 8 percent being a typical median value. As this paper notes,

          Regional transportation planning agencies (or the States) 
        generally maintain a system of models to forecast and evaluate 
        the impact of transportation projects and plans. These models 
        are usually deficient in accurately forecasting emissions 
        (Transportation Research Board 1995) partially because they do 
        not adequately account for both short and long run induced 
        travel effects. This can be partially corrected by building 
        feedback mechanisms into the models to at least account for 
        some of the short run impacts (Johnson and Ceerla, 1996 a). Air 
        quality regulations already require this step for conformity 
        analysis, though actual practice has generally not kept up with 
        the regulatory requirement.
          Some EPA regions are working with metropolitan planning 
        organizations to improve the State of the practice in the 
        modeling of transportation impacts, in particular the impacts 
        of transportation on land development. Various modeling 
        packages (none of which are ideal) are available to provide 
        estimates of land development changes induced by transportation 
        and accessibility changes. Improved modeling of these impacts 
        would provide decisionmakers with far better information on the 
        short-run and long-run emission impact of alternative 
        transportation plans and are critical for development of State 
        Implementation Plans that will actually help bring a region 
        into attainment of the NAAQS. Project selection criteria would 
        also be vastly improved.\2\
---------------------------------------------------------------------------
    \2\ Robert Noland and Lewison Lem, ``A review of induced travel and 
changes in transportation and environmental policy in the US and the 
UK,'' Transportation Research Part D, Vol. 7, 2002.

    Notable improvements to models used for transportation and air 
quality planning are being made in many regions, including Portland, 
Oregon and Sacramento, California. And other States are making 
progress.
    Mr. Chairman, the Ohio Department of Transportation has launched a 
$6 million program to develop an integrated transportation and land use 
model. This work follows the example of Oregon, which has pioneered a 
similar State-wide model and which is sharing it with its metro area 
planning agencies. And the Columbus Mid-Ohio Regional Planning 
Commission is developing an activity-based travel micro-simulation 
model which offers the promise of bringing that area's analysis tools 
up to best practice standards. These kinds of tools are vital to making 
performance-based planning a reality rather than an ill-supported pipe-
dream.
    Ensure the Integrity of SIP Attainment Strategies.EPA has issued 
guidance that encourages submission of Attainment SIPs that sound 
science suggests are unlikely to provide for the attainment of the 
National Ambient Air Quality Standards (NAAQS) as they are required to 
do. Moreover, EPA has been finding such SIPs adequate and granting them 
full approval. Conformity to the emission budgets in these SIPs is 
unlikely to result in attainment by the statutory deadlines.
    In January 2002, EPA released a new Mobile 6 emission factor model 
that metropolitan areas and States must use this year or next year to 
update their SIPs. In nearly all metropolitan areas, this improved 
model is showing that mobile source emissions of NOx and VOC are 
significantly higher than previously estimated for years prior to 2007. 
Thus, emissions will be higher than previously thought in the 
attainment deadline years that have been established for serious and 
severe 1-hour ozone nonattainment areas. These substantial excess 
emissions in the attainment year are likely to cause the attainment 
SIPs to fail unless these emissions are offset by added emission 
reductions.
    Before accepting new Mobile 6 SIPs as adequate for purposes of 
conformity, or as new attainment demonstrations, EPA should require 
States to either offset these increased emissions or to use a regional 
airshed model to evaluate whether their SIP strategies will be adequate 
to demonstrate attainment by the statutory deadlines. However, EPA has 
offered States guidance that would allow them to use scientifically 
unsupported ``rollback'' methods in lieu of new modeled demonstrations 
of attainment with the latest emission inventories and forecasts.
    Congress should ask EPA in what areas and by how much emissions 
will increase in each SIP milestone and attainment year using Mobile 6, 
compared to the emissions estimated using the older Mobile 5 model, and 
ask EPA or the States to evaluate with regional airshed models the 
effect these increased emissions will have on forecast ozone levels in 
various attainment years. Congress should ask EPA to explain the 
science behind its assumption of a linear relationship between NOx and 
VOC emissions and ozone levels that is at the heart of the EPA weight-
of-evidence and rollback methods for appraising the adequacy of 
attainment SIPs, in light of a National Academy of Sciences study 
finding that:

          Nonlinearities in the response of ozone concentrations to 
        emission changes generally result in smaller ozone reductions 
        than might be expected or desired from reducing emissions. For 
        example, by the year 2000, mobile sources in Los Angeles are 
        expected to account for about 30 percent of total VOC 
        emissions. Airshed model calculations indicate that removing 
        this fraction of VOCs would decrease peak ozone 16 percent from 
        270 to 230 ppb for the particular set of episode conditions 
        studied (Russell et al., 1989) . . .
          Several recent studies have shown that ozone in rural areas 
        of the Eastern United States is limited by the availability of 
        NOx rather than hydrocarbons, and that reductions in NOx 
        probably will be necessary to reduce rural ozone values.\3\
---------------------------------------------------------------------------
    \3\ National Research Council, Rethinking the Ozone Problem in 
Urban and Regional Air Pollution, National Academy Press, Washington, 
DC, 1991, page 361-363.
---------------------------------------------------------------------------
        assure progress in dealing with local health impacts of 
                        transportation projects
    Recent scientific research shows that there are many adverse local 
health impacts experienced by those who live close to major highways 
carrying large volumes of traffic, including high cancer risk and 
multiple adverse health effects related to the exposure to small 
particle air toxics. While diesel exhaust is implicated as the largest 
contributor to these toxic exposures, all motor vehicles make a 
contribution. The South Coast Air Quality Management District's 
Multiple Air Toxics Exposure Study (MATES-II), a Colorado study of 
leukemia risk factors, and a California Air Resources Board study of 
the Barrio Logan in San Diego have all found that mobile sources 
contribute as much as 90 percent to the excess cancer risk people 
experience due to exposure to hazardous air pollutants. At a January 
2003 panel of the Transportation Research Board annual meeting in 
Washington, DC, several US DOT and EPA officials agreed that this was a 
serious problem that both agencies are working to develop new policies 
to address it. Panelists agreed that hot spot exposures near major 
roads and bus terminals represent a significant health threat that 
warrants further study.
    However, the Federal Highway Administration has thus far resisted 
calls to evaluate and take steps to mitigate or avoid these health 
effects in relation to major highway expansion environmental review 
studies, as required by law. This issue is currently in litigation in 
relation to the US-95 highway widening project in Las Vegas, Nevada, 
and has been raised in transportation plan and project reviews in 
several other regions.
    Congress should assure timely EPA action to regulate air toxics and 
assure that FHWA accounts for and avoids or mitigates the adverse 
health impacts of exposure of communities to hazardous air pollutants 
caused by expansion of major highways. Appendix 1 provides more 
information on this subject.
            assuring adequate resources for the cmaq program
    The Congestion Mitigation Air Quality Program (CMAQ), which helps 
local communities and States reduce traffic and transportation 
pollution, should be reauthorized at a substantially higher level, 
recognizing the much larger population living in non-attainment areas 
and exposed to hazardous air pollutants. CMAQ funds should be targeted 
to innovative strategies that produce lasting traffic and pollution 
reduction, rather than to short-term one-time emission reduction 
strategies or traffic flow improvements.
    Health studies have shown air pollution is more widespread and 
hazardous at lower levels than previously thought, with major health 
threats from fine particulate matter and air toxics. There is 
widespread consensus that CMAQ funds should be made available to help 
the hundreds of additional counties that face new requirements to 
address their previously unrecognized air quality problems. We join in 
that consensus. There is also wide support for allowing CMAQ funds to 
be used to help reduce emissions and exposures to air toxics. We agree 
with this as well. But this means that CMAQ funding must rise by about 
half over current levels in the next transportation authorization just 
to sustain the current level of effort in non-attainment areas on a per 
capita per pollutant basis.
    CMAQ is the key source of transportation funding dedicated to 
improving transportation related air quality. Failure to boost CMAQ 
funding levels is likely to hamper the ability of existing non-
attainment areas to sustain ongoing pollution-reduction transportation 
investments or limit funds available to newly designated non-attainment 
areas that need similar access to resources.
    TEA-21's CMAQ obligation formula currently recognizes only the 
population living in ozone and carbon monoxide non-attainment areas, 
even though funds can be spent on project that help reduce particulate 
matter. In 1999, nearly 54 million people live in areas that do not 
meet the 1-hour ozone standard. According to the latest available 
monitoring data from EPA, more than double this number--123 million 
people--live in the 333 counties violating the new 8-hour ozone 
standard. Some 82 million live in 173 counties that violate the PM fine 
National Ambient Air Quality Standards (NAAQS), with some overlap with 
ozone non-attainment areas. If contiguous counties that make up 
metropolitan areas are included, as is usual in designating non-
attainment areas, these numbers will grow significantly. Additional 
millions live in areas that violate the CO standards.
    The Federal Highway Administration counts 172 million people living 
in 1-hour ozone and CO non-attainment or maintenance areas and has used 
this figure for fiscl year 2003 CMAQ apportionments to States. Initial 
estimates suggest that this apportionment population number will 
increase by about one-fourth when non-attainment area designations are 
made under the new 8-hour ozone and fine particulate NAAQS in 2004 and 
2005. But this increased apportionment estimate does not include the 
population living in areas affected by air toxics that are outside of 
what will likely be designated as non-attainment areas under the new 
NAAQS, nor does it take into account the increased scope of air 
pollution control efforts that will be needed by existing non-
attainment areas to attain the new 8-hour ozone and PM fine air quality 
standards.
    Broad consensus exists that CMAQ eligibility should be expanded to 
help counties, cities, and States deal with fine particulates and air 
toxics in addition to ozone and CO. Reauthorization apportionments 
should recognize the expanded scope of funding needs by proportionate 
expansion of CMAQ funding based on both population and the degree of 
pollution remediation needed. Otherwise existing non-attainment areas 
will face cut-backs in funds for air pollution reduction programs while 
being asked to take additional steps to further cut pollution to 
protect public health.
    If the eligibility of the CMAQ program is expanded to include air 
toxics and fine particulates and all newly designated non-attainment 
areas without cutting the per capita allocation of CMAQ funds to 
existing non-attainment areas, an increase of at least 50 percent in 
CMAQ funding will be needed in TEA-3. This will require growing the 
program from its fiscal year 2002 program obligation level\4\ of $1.435 
billion in fiscal year 2003 to an average of $2.15 billion a year over 
the upcoming authorization period.
---------------------------------------------------------------------------
    \4\ estimated: http://www.whitehouse.gov/omb/budget/fy2004/pdf/
appendix/DOT.pdf, page 721.
---------------------------------------------------------------------------
                                 ______
                                 
    Reprinted Responses by Michael Replogle to Additional Questions 
                         from Senator Jeffords
    Question 1. In general would you agree that conformity is spurring 
investments in transportation strategies and technologies that reduce 
air pollution and create better interagency cooperation?
    Answer. Yes. Since the 1990 Clean Air Act Amendments, conformity 
has been a significant factor fostering local, regional, and national 
political support for cleaner fuels and vehicles and inspection and 
maintenance programs that have helped produce more timely progress 
toward attainment of healthful air quality. In that period, conformity 
has been the single greatest factor promoting interagency cooperation 
between transportation and air quality agencies at the State, local, 
and Federal levels. Prior to 1990, transportation agencies paid no 
attention to the air quality consequences of transportation investments 
and plans. But in recent years, many metropolitan areas have adopted 
changes to their transportation plans and programs to help reduce 
traffic growth and emissions. Consideration of air quality impacts of 
investments has become a routine matter in many metropolitan areas 
where pollution problems are more severe. In most regions with serious 
air quality problems, officials and staff of air agencies and 
transportation agencies routinely meet and work together to help foster 
effective program administration that delivers progress on both 
mobility and air quality goals.
    Atlanta's conformity problems led the Governor to create a new 
regional authority responsible for better planning and funding 
transportation, air quality, and growth management in Georgia's non-
attainment areas in an effort to fix a broken interagency cooperation 
process. While road builders have often raised the spectre of 
transportation conformity causing major disruptions to transportation 
programs, there have been no such disruptions. Even in Atlanta, where 
the longest conformity lapse of consequence to date took place, the 
region lost no transportation funding but instead redirected several 
hundred million dollars of funds from sprawl-inducing, pollution-
generating roads into projects that would reduce pollution and into 
safety and system improvements that would not increase emissions.
    After conformity analysis led Charlotte, North Carolina, to see 
that its transportation plan would lead to emission problems 20 years 
in the future, local officials developed, considered, and adopted a new 
2025 Transit Land/Use plan for Charlotte-Mecklenburg with a new rapid 
transit system to support the five major transportation and development 
corridors identified in the 1994 Centers and Corridors Plan as well as 
connections to key development hubs between these corridors. The plan 
seeks to concentrate jobs around stations, provide residential multi-
family housing at stations, and develop rail and bus rapid transit. 
Capital costs, plus operation, maintenance and other expenditures will 
cost $1.085 billion over 25 years and quantifiable benefits such as 
travel time savings and vehicle operating cost savings total $72 
million a year, generating a benefit cost ratio of 1.6. There are also 
numerous benefits of the plan that are not quantifiable such as 
improved access to jobs and revitalization of the core center. Funding 
for the plan will come from a combination of local, State, and Federal 
funding. Mecklenburg County Voters approved a half-cent local sales tax 
in 1998 to fund expansion of bus service and rapid transit improvements 
in major corridors. The requirement that the RTP conform 20 years into 
the future was a vital element in motivating this regional progress and 
action. Limiting conformity determinations to a 10-year time horizon--
as some propose--might reduce the incentive for other regions to take 
the kind of leadership initiatives seen in Charlotte.
    Conformity helped Denver develop cost-effective strategies to 
reduce particulate matter (PM) problems. Agencies began taking action 
against wood burning in the 1980's, but PM was still measuring 185  g/
m<SUP>3</SUP> compared to the NAAQS of 150  g/m<SUP>3</SUP>. Conformity 
made transportation planning and air quality agencies look at other 
sources of PM. They found that street sanding and sweeping strategies 
was a very effective measure and implemented controls beyond what was 
federally mandated, reducing PM levels to 80  g/m<SUP>3</SUP>. 
Conformity also provided an incentive for developing light rail in 
Denver and the Metro Vision 2020 Plan, which seeks to limit growth to a 
700 square mile area with supportive transportation strategies. Denver 
also has a number of travel demand management (TDM) strategies in their 
long-range plan such as a Ride Arrangers program and a telework 
program. While Denver does not take credit for TDM system management in 
the 2025 conformity finding, the region recognizes TDM emission 
benefits as a safety margin in meeting their emissions budget.
    To deal with emissions problems recognized through the conformity 
process, many other regions have adopted transportation control 
measures (TCMs). These represent nearly 5 percent of total emission 
reductions, for example, in the San Joaquin region of California. The 
San Joaquin Council of Governments projects that TCMs, including 
rideshare, vanpool, and commuter rail, will deliver as much as a 10 
percent reduction in emissions by 2020.
    Conformity has also been valuable in helping to win adoption of new 
short-term emission reduction strategies in the metropolitan 
Washington, DC region. In July 2001, the DC metropolitan planning 
organization updated its modeling assumptions to reflect the growing 
use of sport utility vehicles (SUVs) and light trucks, which produce 
more pollution per mile driven than standard cars. As a result, they 
observed that that they could no longer add new road projects to their 
transportation improvement program (TIP) and regional transportation 
plan (RTP) and still conform with the NOx motor vehicle emission budget 
in their adopted SIP. Officials formed a task force to consider 
reopening the SIP to allow for more motor vehicle pollution by finding 
offsets from other emission sources or fixing the conformity problem by 
adopting added emission reduction measures. With adjustments for some 
refinements to their model estimates and for emission reducing measures 
already being implemented but not previously credited, the MPO found 
that the 8 tpd NOx excess emissions over budget was reduced to about 3 
tpd.
    Following further meetings and analysis, Maryland proposed a $42 
million package of transportation emission reduction strategies, 
including buying clean buses, improving pedestrian and bicycle access 
to transit, and supporting transit oriented development. Along with 
measures advanced by other jurisdictions, this package provides 
sufficient reductions to offset this emission budget shortfall and the 
region in July 2002 adopted them as part of a new TIP and RTP. If 
proposals made by some parties to lengthen the life of TIP conformity 
findings to 3 or 5 years had been in effect, this $42 million package 
of emission reduction measures would almost certainly not have been 
funded.

    Question 2. If Congress does make any changes in the conformity 
process as part of the next transportation bill, what would be your No. 
1 suggestion and please be specific?
    Answer. Congress should make one change to the conformity process 
as part of the next transportation bill. It should adopt the bill 
introduced in the 106th Congress, 2nd Session as H.R. 3686, the ``Road 
Back to Clean Air Act,'' by Rep. John Lewis and as S. 2088 by Senator 
Max Cleland. This bill would put into law the EPA and DOT guidance that 
helped get Atlanta more focused on solving the city's transportation 
and air quality problems. It would increase flexibility so other areas 
of the country could continue to receive Federal funds for transit, 
safety improvements, road rehabilitation, and other projects even 
during a lapse in the conformity of their transportation plans. Without 
this legislative change, because of the way that DOT has at times in 
the past administered conformity and planning requirements, regions in 
a conformity lapse can face difficulty adding air quality improving 
projects to their transportation spending plans unless those projects 
had been part of a previously conforming fiscally constrained TIP and 
regional transportation plan.
    The text of this bill follows:
                                 A Bill
To amend the Clean Air Act and titles 23 and 49, United States Code, to 
provide for continued authorization of funding of transportation 
projects after a lapse in transportation conformity.
        Be it enacted by the Senate and House of Representatives of the 
        United States of America in Congress assembled,
Section 1. Continued Authorization of Funding of Transportation 
Projects After Lapse in Transportation Conformity.
    Section 176(c)(2) of the Clean Air Act (42 U.S.C 7506(c)(2)) is 
amended by adding at the end the following:
    ``(E) Notwithstanding subparagraphs (C) and (D), any transportation 
project identified for funding in a transportation plan and 
transportation improvement program adopted under section 134 of title 
23 or sections 5303 through 5306 of title 49, United States Code, shall 
remain eligible for funding under title 23 or chapter 53 of title 49, 
Unites States Code, as applicable, after the long-range transportation 
plan or transportation improvement program no longer conforms as 
required by subparagraphs (2)(C)(i) or (2)(D), if----
          ``(i) the long-range transportation plan and transportation 
        program met the requirements of subsection (c) at the time at 
        which a project agreement for the transportation project was 
        approved under section 106 (a)(2) of title 23 United Sates 
        Code, or the project was otherwise approved for assistance 
        under chapter 53 of title 49, United States Code, as 
        applicable;
          ``(ii) the transportation project is a transportation control 
        measure (as defined in section 93.101 of title 40 of the Code 
        of Federal Regulation s (as in effect on March 1, 1999);
          ``(iii) the transportation project qualifies for an exemption 
        from the requirement that the transportation project come from 
        a conforming metropolitan long range transportation plan and 
        transportation improvement program under section 93.126 or 
        93.127 of title 40, Code of Federal Regulations (as in effect 
        on March 1, 1999); or
          ``(iv) the transportation project is exempt from a 
        prohibition on approval under section 179(b)(1), except that 
        this paragraph shall not apply to a transportation project 
        described in section 179(b)(1)(B)(iv).''
Section 2. Amendment of Long-Range Transportation Plans and 
Transportation Improvement Programs Not Conforming to Applicable 
Implementation Plans.
    (a) Transportation Plans--Section 134 of title 23, United States 
Code, is amended by adding at the end of the following:
    ``(p) Amendments to Plans and Programs Not Conforming to Applicable 
Implementation Plans--Notwithstanding any other provisions of law, a 
long-range transportation plan or transportation improvement program 
under this section that no longer conforms to the applicable 
implementation plan under section 176(c) of the Clean Air Act (42 
U.S.C. 7506(c)) and part 93 of title 40, Code of Federal Regulations 
(or a successor regulation), may be amended without a demonstration of 
conformity if the amendment is solely fort he purpose of adding 
transportation project----
          ``(1) for which that State submits a revision of the 
        applicable implementation plan to the Administrator of the 
        Environmental Protection Agency requesting approval of the 
        project as a transportation control measure (as defined in 
        section 93.101 of title 40, Code of Federal Regulations (as in 
        effect on March 1, 1999); or
          ``(2) that qualifies for an exemption from the requirement 
        that the transportation project come from a conforming 
        metropolitan long-range transportation improvement program 
        under section 93.126 or 93.127 of title 40, Code of Federal 
        Regulations (as in effect on March 1, 1999)''
    (b) Mass Transportation Plans--Section 5303 of title 49, United 
States Code, is amended by adding at the end the following:
    ``(i) Amendments of Plans and Programs not Conforming to Applicable 
Implementation Plans--Notwithstanding any other provision of law, a 
long-range transportation plan under this section or a transportation 
improvement program under section 5304 that no longer conforms to the 
applicable implementation plan under section 176(c) of the Clean Air 
Act (42 U.S.C. 7506(c)) and part 93 of title 40, Code of Federal 
Regulations (or a successor regulation), may be amended without a 
demonstration of conformity if the amendment is solely for the purpose 
of adding a transportation project----
    ``(1) for which the State submits to the Administrator of the 
Environmental Protection Agency a request for approval as a 
transportation control measure (as defined in section 93.101 of title 
40, Code of Federal Regulation s (as in effect on March 1, 1999)) under 
section 110 of the Clean Air Act (42 U.S.C. 7410); or
    ``(2) that qualifies for an exemption from the requirement that the 
transportation project come from a conforming metropolitan long-range 
transportation plan under and transportation improvement program under 
section 93.126 and 93.127 of title 40, Code of Federal Regulations (as 
in effect on March 1, 1999).''
                                 ______
                                 
    Reprinted Responses by Michael Replogle to Additional Questions 
                         from Senator Voinovich
    Question 1. During the hearing, several witnesses talked about how 
the coordination of the frequency of submittals for the State 
Implementation Plan (SIP), the Transportation Plan, and the 
Transportation Improvement Program (TIP) is an important and necessary 
reform. Among other things, such a reform would lessen the confusion of 
those involved, reduce costs, and help States meet air quality goals. 
In your testimony, you reject any proposal to reduce the frequency of 
conformity analyses. Do you see value in better coordinating the 
transportation and air quality planning processes?
    Answer. Environmental Defense and other environmental groups 
strongly support better coordination of transportation and air quality 
planning processes. However, we strongly object to proposals currently 
being put forward under the misleading name of ``streamlining.'' By 
extending deadlines and creating overly long gaps between conformity 
analyses, these proposals will threaten air quality, threaten public 
health and reduce information available to the public about the air 
they breathe.
    Equally important, these proposals won't make the system work 
better--they'll make the system more inefficient. They reduce 
incentives for agency coordination. Conformity works well when 
transportation and air quality experts work closely together on a 
routine basis, to plan and implement highway and transit investments. 
Conformity, and the current schedule of deadlines, gives these agencies 
a powerful incentive to work together. The deadlines are also spaced 
just far enough apart to allow problems to be identified early--before 
they become crises that threaten air quality targets.
    But reducing the frequency of required conformity analysis--
currently 2 years for TIPs and 3 years for regional transportation 
plans (RTPs)--is likely to reduce rather than enhance such 
coordination. Conformity analysis is rather like balancing one's 
checkbook. If done routinely and frequently, problems will be detected 
when they are small and correctable. If done infrequently, the costs of 
errors is likely to soar, as unrecorded transactions or errors go 
undetected, with their impacts compounded over time.
    If the minimum frequency of conformity determinations is set at 3 
or 5 years, this will likely be too far apart to detect and correct the 
rapid growth in VMT in fast-growing metropolitan areas. Across the 
country, this rapid growth is causing those areas to fail to attain on 
time. At a time when ou transportation investments are proving to 
threaten air quality and health, it makes no sense to relax deadlines.
    Instead of statutory changes, schedule coordination (if any is 
needed) should come from better interagency coordination, not through 
relaxing the frequency of accounting system checks and balances. With 
wider gaps between reporting deadlines, opportunities for abuses and 
poor accounting grow larger. Uncertainty about true air quality impacts 
and benefits would increase.
    Today, most metropolitan areas update their TIPs annually and redo 
their conformity analysis as they do so. Analysis of conformity as TIPs 
undergo changes to regionally significant projects provides 
opportunities for timely improvement of what have often proven to be 
out-of-date or previously incorrect model assumptions.
    Many regions, such as Washington, DC, have recently updated motor 
vehicle fleet data assumptions to reflect the growing use of SUVs and 
light trucks, which produce more pollution per mile traveled than light 
duty cars, with a resulting increase in the estimates of motor vehicle 
emissions in the attainment year. In the case of Washington, DC, this 
conformity re-analysis led to increased attention by transportation and 
air officials and staff to the need for improved interState and 
interagency coordination and collaborative data collection to upgrade 
the regional inventories of motor vehicle pollution factors. It also 
led local and State officials to add $42 million in new emission-
reducing transportation projects to the region's TIP in July 2002 to 
offset the increased pollution observed through the conformity re-
analysis. This investment would not likely have occurred had the 2-year 
life of the TIP conformity finding been relaxed to 3 or 5 years. These 
investments will benefit not just air quality, but they will increase 
mobility in the region, increase access to jobs, foster better quality 
of life, and promote economic growth.
    Conformity helped catch this problem sooner rather than later, when 
it was still a manageable problem that could be addressed through 
transportation measures, without needing to reopen the SIP. Had the 
problem been left to fester, it is more likely that the region's 
officials would simply have said the problem was too big to manage, and 
sought to make it someone else's problem. In fact, fear of this kind of 
crisis is what may motivate concerns about conformity. But by having 
tight deadlines and careful coordination among agencies, the challenges 
can be addressed with incremental measures before they escalate to 
crisis. The beneficiaries of tight deadlines are the millions of 
children, elderly people, and other individuals who suffer respiratory 
distress, premature death, injury, and other impairments every year 
when Federal air quality health standards continue to be unmet. The 
beneficiaries of relaxed conformity deadlines are primarily polluting 
industries and other special interests that profit at our society's 
expense.
    In fact, States already have flexibility and discretion in the 
current system. The current tiered schedule for reappraising TIP and 
RTP conformity provides appropriate advance notice of conformity 
problems in a way to encourage timely solutions. For example, many 
regions first uncover conformity challenges when updating their TIPs to 
incorporate new projects. Updating these planning factors uncovers 
previous underestimates in regional vehicle emissions and allows timely 
corrective measures to be adopted--as they have been in Washington, DC, 
in the example described above.
    At times, this may create what some call a ``conformity lockdown,'' 
during which the current 2-year TIP conformity finding remains valid, 
but no new regionally significant transportation projects can be added 
to the TIP until the region adopts new emissions-reducing measures to 
offset the incremental increase. At this point, the increment of 
emissions imbalance is usually still relatively small and manageable, 
and measures can be taken reasonably easily to offset the impacts of 
the new projects. In essence, the system provides ``early warning'' 
that provides the time to adopt new emission reduction measures to 
ensure that the TIP stays in conformity.
    If the region fails to offset motor vehicle emissions that exceed 
the adopted SIP motor vehicle emission budget before the expiration of 
the 2-year TIP conformity finding, the region would likely enter a 
conformity lapse. In a lapse, there is yet another safety valve: the 
region can adopt an Interim TIP composed of projects with funding 
agreements, exempt projects, and transportation control measures drawn 
from the conforming long-range RTP, relying on its 3-year conformity 
finding. At any time, a State can choose to reopen its SIP to identify 
additional emission reduction measures from mobile or non-mobile 
sources to offset excess emissions from mobile sources that are in 
violation of the motor vehicle emission budget.
    In short, States have discretion at every stage to align the 
schedule for updating their transportation and air quality plans and 
where they choose to seek emission reductions. The system works and 
should be sustained. If any change is warranted, it would be toward 
more frequent reviews of SIPs--but not less.
    Better coordination of air quality and transportation planning 
should take several forms:
    <bullet> Interim Milestone Reports. First, Congress should enhance 
this interagency coordination by ensuring that EPA adopts regulations 
to govern State submissions of SIP milestone compliance reports. These 
reports would track and report regional emissions every 3 years in 
nonattainment areas and ensure that remedial measures are implemented 
immediately when emission reduction targets are not met, as required by 
Clean Air Act Sections 182(c)(5) and (g). EPA has failed to issue these 
sorts of regulations, and that failure must be remedied. By ensuring 
that States meet this required 3-year cycle of SIP reappraisal, 
Congress could address the concerns of transportation agencies that 
SIPs are too infrequently updated, while transportation plans are 
subject to more frequent updates.
    <bullet> Prompt Upgrade of Models. Second, transportation agencies 
should be required to promptly upgrade their computer models to 
effectively consider air quality, induced traffic, and fully up-to-date 
planning factors. Congress should provide EPA and DOT with a strong 
mandate to establish best-practice planning model standards and to 
require timely action by MPOs and other agencies to meet these 
standards for conformity and SIP planning. A recent report (U.S. 
General Accounting Office, Environmental Protection: Federal Incentives 
Could Help Promote Land Use That Protects Air and Water Quality, 
Washington, DC, October 2001, GAO-02-12, page 95) notes that, ``DOT and 
EPA efforts to improve travel-demand-forecasting models may help MPOs 
and communities determine the effects of transportation improvements on 
congestion and air quality. However . . . these efforts currently do 
not call for integrating land use or environmental components into the 
travel demand model . . . Without such integrated models, communities 
cannot consider the likely effects that their transportation decisions 
will have on land use, future growth and development, and air 
quality.'' U.S. GAO-02-12, op. cite, page 95.
    In regions where transportation models used for conformity and air 
quality planning have not been upgraded to integrate land use and 
environmental components, including full sensitivity to induced traffic 
and growth effects of transportation investments, urban design, and 
pricing policies, less frequent conformity analysis is likely to impair 
timely upgrading of analyses.

    Question 2. Do you think there are more cost-effective options for 
achieving air quality improvements in the transportation sector than 
through the current program?
    Answer. Transportation conformity is not an air quality improvement 
strategy in and of itself. It is a highly cost effective accounting 
mechanism that assures the integrity of adopted air quality attainment 
plans by preventing adoption of transportation plans and programs 
likely to cause pollution in excess of the levels determined to 
endanger public health. The Clean Air Act allows States great 
flexibility in determining how to achieve health-based air quality 
standards--whether through controls on stationary sources, area 
sources, or transportation sources, and whether through adoption of 
cleaner technologies, management and pricing strategies, or growth and 
demand management.
    Without a strong and well-enforced transportation conformity 
program, experience shows that transportation emissions tend to be 
underestimated, leading to the failure of air pollution control 
strategies. That failure--more than three decades after the 1970 Clean 
Air Act--continues to impose huge costs on our society, with the 
adverse health costs of motor vehicle air pollution estimated by US DOT 
in 2000 at $40 billion to $65 billion, which pales beside the $27 
billion in annual Federal transportation expenditures.
    Transportation conformity has played a significant behind-the-
scenes role fostering cost-effective air pollution improvements in the 
transportation sector, including adoption of cleaner vehicle and fuel 
standards by States and Federal agencies, adoption of inspection and 
maintenance programs, and reallocation of transportation investments 
from sprawl-inducing, pollution-generating roads into transit, walking, 
bicycling, and Smart Growth strategies that meet economic and social 
needs for mobility with less need for travel by single-occupant 
vehicles.
    EPA's own recent analysis shows that proposed air pollution 
reduction strategies and technology fixes alone are insufficient to 
deliver healthful air quality for all Americans over the next decade or 
even two (http://www.epa.gov/clearskies/maps.pdf). Thus, conformity is 
vital to assuring that motor vehicle emissions are properly accounted 
for as States and regions strive to achieve emission reductions from 
various sources and avoid having uncontrolled traffic growth undo 
progress toward healthful air quality.
                                 ______
                                 
    Reprinted Responses by Michael Replogle to Additional Questions 
                           from Senator Smith
    Question 1. You testified that before State SIP's had established 
motor vehicle emission budgets, the transportation agencies were forced 
to rely on complex and widely criticized transition rules. EPA and DOT 
may be proposing a return of these transition rules in new non-
attainment areas that will have a 1-year grace period to make a 
conformity determination. Would you agree that our air quality goals 
are better served by coordinating conformity with motor vehicle 
emissions budgets, rather than returning to these transition rules?
    Answer. As designed by Congress in the 1990 Clean Air Act, 
conformity is intended to focus on comparing forecast motor vehicle 
emissions in a transportation plan and program with an adopted motor 
vehicle emission budget (MVEB) established in a SIP designed to enable 
a region to attain the National Ambient Air Quality Standards (NAAQS) 
by deadlines established by law. Where such MVEBs exist, they should be 
used as the fundamental yard-stick to measure conformity of 
transportation plans and programs with air quality plans.
    The problem we see with the ``build/no-build'' transition rule is 
principally in how it has been applied, and in the length of the 
transition to conformity against adopted SIP MVEBs, not in the 
underlying principal of the build/no-build transition rule. The build/
no-build rule, first issued by EPA and DOT in 1991, compares emissions 
in a base-case no-build future scenario vs. emissions in a build 
scenario, adding or subtracting the applicable transportation projects 
changes proposed in any given TIP or RTP amendment. This is a desirable 
and acceptable conformity test to use in the absence of an adopted SIP 
MVEB when the evaluation uses analysis methods that properly account 
for induced land use and traffic effects of transportation investments 
and policies. However, as applied in many regions, build/no-build 
analyses have assumed no induced land use change or shift in the time-
of-day of traffic caused by transportation system changes. Numerous 
peer-reviewed studies have demonstrated that induced traffic effects 
are profound and the addition of 10 percent more lane miles of roadways 
can be expected to induce an additional 6 to 10 percent vehicle miles 
traveled in a region in a few years time. If induced traffic is 
unaccounted for, the build/no-build analysis is invalid, and will 
underestimate motor vehicle emissions growth associated with major 
highway system expansions, working against the CAA statutory mandate 
that transportation plans and programs must contribute to timely 
attainment of the NAAQS.
    It is vital that areas expected to be designated as new non-
attainment areas should now begin to take steps to prepare to meet 
conformity analysis requirements. The TEA-21 Federal transportation law 
provides flexible funding to States and regions in the Surface 
Transportation Program and other funding categories that can be used 
for planning and data collection. Such funds should be used now to 
establish sound, up-to-date, local inventories of jobs, housing, 
highways, transit resources, and travel behavior, to develop locally 
applicable transportation planning models that meet best practice 
standards for appraising travel behavior and induced traffic, to code 
information on planned transportation investments and forecast job and 
housing growth expectations, and other information. Outside consultants 
should be retained to help cultivate local expertise to sustain these 
analysis systems, which have many cost-effective applications beyond 
conformity analysis in supporting sound capital program planning, 
traffic and transit operations planning, transportation equity 
analysis, growth management, cost-allocation evaluation, and other 
activities. The cost of establishing such planning and analysis systems 
is but a tiny fraction of the annual capital facilities investment 
costs of most States and regions, but can have a payoff far in excess 
of these costs by assuring more sound decisionmaking, investment 
planning, and identification of lower-cost and more optimal strategies 
for meeting local and national mobility, environmental, economic 
development, and equity goals. Establishing these planning and analysis 
tools in a metropolitan area can be accomplished in less than a year, 
but does require agency commitment and ongoing support.
    EPA and DOT should promptly issue long-promised additional model 
guidance and regulations to assure that non-attainment areas properly 
account for induce land use and traffic effects in conformity analysis 
and SIP transportation modeling.
    There are no valid reasons why any newly designated non-attainment 
area cannot establish the requisite transportation and emissions 
analysis systems well in advance of the expiration of the 1-year grace 
period following designation. Until adopted SIP MVEBs are available to 
provide a basis for conformity, the build/no-build test (with 
appropriate consideration of induced land use and traffic effects), 
along with the Reasonable Further Progress requirements of the CAA, 
should be the basis for evaluating conformity in non-attainment areas.

    Question 2. If I am interpreting your testimony correctly, you 
appear to suggest that one way to judge the success of conformity is by 
how much it redirects transportation spending away from new highway 
construction. In Northern Virginia, however, they have delayed over 
$800 million in highway projects generating a total of 2 tons reduction 
in emissions, or $400 million per ton reduced. By comparison, EPA's 
vehicle emission standards cost below $1600 per ton. Stopping new 
highways does not sound like a very cost-effective strategy to reduce 
emissions, wouldn't you agree?
    Answer. I'm sorry, but you have misinterpreted my testimony and 
data and I must disagree with your assertion. I noted that a recent 
analysis by the Metropolitan Washington Transportation Planning Board 
showed that by deferring 100 lane miles of highway expansion projects 
in 2002--a 0.5 percent reduction in lane-miles of road capacity--
Virginia saves $800 million in capital costs while cutting NOx 
emissions by more than 1 percent, or nearly 2 tons per day, and 
reducing vehicle miles of traffic by 0.6 percent. This illustrates how 
the very expensive expansion of new highways typically produces a 
growth in air pollution emissions by spurring more traffic, rather than 
a reduction in emissions as often claimed by the road lobby. It 
illustrates how reducing expenditures on new roads is often the most 
cost-effective emission reduction strategy, because it avoids 
generating both costs and air pollution. By not building additional 
traffic, sprawl, and pollution-inducing highways, regions like Northern 
Virginia can avoid the need for additional expenditures of up to $1600 
per ton to reduce emissions because they can prevent the pollution from 
being emitted in the first place.
    A savings of nearly $400 million per ton of NOx reduction for 
cutting highway expansions is highly competitive when compared to 
alternative emission reduction costs of $1600 per ton for pollution-
control technology investments! More regions faced with missed 
deadlines for clean air attainment should be protecting public health 
and the taxpayer's wallet by redirecting public investments from road 
expansions into other more productive forms of investment, such as 
transit, the revitalization of walkable neighborhoods, education, 
affordable housing close to jobs, and public health services.

    Question 3. You have been an advocate of using land use and other 
``Smart Growth'' strategies to reduce air pollution. Yet, we all know 
that these strategies take a decade or more to change transportation 
patterns. How do you expect to generate substantial pollution 
reductions from these projects when the emission levels from these 
vehicles will be 95-99 percent cleaner than their 1970's counterparts?
    Answer. Even with significantly cleaner cars and truck 
technologies, Smart Growth strategies offer the promise of avoiding--at 
essentially no cost--as much as one-quarter of the potential motor 
vehicle emissions in 2020, thus helping to achieve more timely 
attainment at less cost. If Smart Growth strategies are ignored and 
sprawl and highway building advance without any accountability for 
impacts on emissions, society will need to invest billions of dollars 
more in pollution abatement technologies to clean up mobile and non-
mobile sources so we can achieve healthful air quality.
    The amount of motor vehicle pollution emitted per mile driven has 
fallen by more than 90 percent since 1970, but today motor vehicles 
still account for a major share of pollution--from one forth to three 
fourths of the NOx and VOC emissions--in most non-attainment areas. 
Adopted or submitted SIPs show that in the attainment year and in 
future years going out as far as 2020, motor vehicle emissions are 
expected to continue to account for a large share of emissions in many 
metropolitan areas, as Graph 1 shows. For example, despite adoption of 
cleaner technologies, motor vehicles are estimated to account for 28 
percent of VOC and 39 percent of NOx emissions in Washington, DC (in 
2005), 31 percent of NOx emissions in Connecticut/NY (in 2007), 45 
percent of VOC and 61 percent of NOx emissions in Chicago/Illinois (in 
2007), 67 percent of NOx emissions for Portland, Maine (in 2012), 30 
percent of VOC and 39 percent of NOx emissions in Denver (in 2013), 79 
percent of CO emissions and 71 percent of PM emissions in Las Vegas (in 
2020), and 38 percent of VOC and 44 percent of NOx emissions in Salt 
Lake City (in 2020). And despite the fact that California leads the 
Nation in adopting cleaner vehicles and fuels, the Bay Area expects 
motor vehicles to contribute 42 percent of VOC emissions and 52 percent 
of NOx emissions (in 2006), and the South Coast non-attainment area 
expects motor vehicles to contribute 59 percent of PM emissions and 49 
percent of NOx emissions (in 2020).
[GRAPHIC] [TIFF OMITTED] 90365.005


    The magnitude of emission reductions needed to reach healthful air 
quality is considerably greater than that now identified through 
submitted and approved SIPs. EPA's recent posting of maps of estimated 
effects of the proposed ``Clean Skies'' initiative (http://www.epa.gov/
clearskies/maps.pdf) shows that adopted and proposed measures are 
together inadequate to bring many of the nation's largest metropolitan 
areas into full attainment of the NAAQS even by 2020. Significant 
further emission controls will be needed also to deal with hazardous 
air pollutants, greenhouse gas emissions, and other environmental 
pollution, even with the cleaner motor vehicles produced under the Tier 
II and heavy-duty diesel engine rules.
    A conservative estimate is that Smart Growth strategies have the 
potential to reduce traffic growth and emissions over the timeframe of 
20-year regional transportation plans by 15 to 25 percent compared to 
forecast trends in most metropolitan areas. Over the shorter timeframe 
of a 2-year TIP conformity cycle or the several years prior to reaching 
ozone attainment deadlines, many regions could accomplish reductions in 
traffic growth and related pollution well of several percent a year 
relative to trends with a concerted effort combining Smart Growth, 
pricing, and demand management strategies.
    The degree to which Smart Growth can affect emissions and traffic 
growth is closely related to the pace of job and housing growth in a 
community. In slow growth communities, the opportunities for Smart 
Growth to change travel patterns are modest compared to fast-growing 
communities. Smart Growth is very pro-growth in the areas where it is 
being implemented while seeking to discourage job and housing growth in 
other locations where people lack non-driving travel choices. Where 
fast growth is occurring, there tend to be more opportunities for 
growth to become smarter.
    The effectiveness of Smart Growth strategies in reducing traffic 
and pollution is also closely linked to how comprehensively these 
strategies are implemented. Effective Smart Growth means transit-
oriented (not just transit proximate) development that is attractive 
for walking and cycling, includes a vibrant mix of land uses for 
various income groups, and highly attractive non-automobile access to 
other parts of the metropolitan area. It includes pricing policies and 
incentives that favor transit, walking, bicycling, and alternatives to 
driving while curbing subsidies for driving. Even in slow growth areas, 
Smart Growth transportation pricing and urban design incentives, such 
as Commuter Choice programs where employers pay for transit benefits 
and offer cash-in-lieu-of-parking benefits can produce substantial 
shifts in travel behavior and pollution reductions in the span of a 
year or two, with concerted marketing, promotions, demonstrations, and 
incentives for rapid adoption of Smart Growth changes. Research and 
experience cited in my most recent testimony to the Committee shows the 
magnitude of near-term travel behavior and emission changes that have 
been achieved in a number of communities with these sorts of 
strategies.

    Question 4. In your written testimony you State, ``Because of steep 
increases in the number of vehicle miles, cuts in the amount of 
pollutant emitted per mile, particularly for NOx, and small 
particulates, have been offset by growth in miles driven.'' While this 
has been true in the past, doesn't EPA's data clearly show that future 
vehicle emissions are decreasing, even as vehicle travel increases?
    Answer. Since the 1970 Clean Air Act, increasingly stringent motor 
vehicle and fuel standards have significantly reduced vehicle emissions 
per mile. Federal light duty Tier 1 vehicle emission standards today 
allow only 4 percent as much VOC pollution per mile as vehicles emitted 
in 1969, and 10 percent as much NOx. Despite this sharp reduction, in 
1999 motor vehicles still accounted for 29 percent of VOC and 34 
percent of NOx emissions nationwide according to EPA. VOC emissions 
from highway vehicles declined 18 percent during the past decade, but 
NOx emissions increased by 19 percent during the same period. And as a 
2002 TRB study, The CMAQ Program: Assessing 10 Years of Experience, 
noted (page 70), ``Although tailpipe emissions from highway vehicles 
are only a small share of directly emitted PM on a national basis, they 
account for a substantially higher proportion of longer-lived 
atmospheric concentrations of fine particles in urban areas, for 
example, up to 40 to 50 percent in the Denver and Los Angeles 
metropolitan areas.''
    With the full phase-in of Tier 2 standards beginning in 2009, light 
duty vehicle emission standards will allow only 22 percent as much VOC 
pollution per mile as Tier 1 standards, and 18 percent as much NOx. But 
the slow pace of motor vehicle fleet turnover means that the full 
benefits of these emission reductions will not take effect until 2020 
or later. In the meantime, unless regions adopt strategies to better 
manage travel demand, sprawl, and subsidies that encourage driving, 
motor vehicle travel will continue to grow and offset much of these 
emission reduction benefits. Between 1980 and 1999, vehicle miles 
traveled grew by 87 percent. If a similar pattern continues through 
2020, NOx and VOC emissions from motor vehicles will decline by 2020 by 
only little more than half. But much deeper reductions than this will 
be needed to achieve healthful air quality for all Americans. In other 
words, technology alone will not make the amount of driving irrelevant 
to considerations of pollution control in the foreseeable future.
    The recent adoption of more stringent motor vehicle emissions and 
fuel standards for light duty trucks and heavy-duty diesel engines will 
offer important additional contributions toward clean air. Nonetheless, 
progress toward timely attainment will for the next several decades be 
dependent on continued and improved measurement and monitoring of the 
amount and pattern of motor vehicle use, and greater efforts to avoid 
pollution by shaping motor vehicle use and travel behavior.

    Question 5. In your written testimony, you State, based on the 
MATES-II study, ``that 90 percent of the total cancer risk is 
attributable to toxic air pollutants emitted by mobile sources.'' But 
you fail to mention that 70 percent of that risk is from diesel 
emissions, and the EPA heavy duty diesel rule will substantially reduce 
these emissions. Moreover, you also fail to mention that the same study 
shows that cancer risk has been declining from 700 per million in 1990 
to 300 per million in 1997, which suggests progress is being made on 
non-diesel related toxic emissions. You suggest that less highway 
construction and more programs to reduce vehicle travel are needed to 
reduce these risks, yet isn't technology and better fuels the real 
answer to reduce most of these risks?
    Less highway construction and improved programs to reduce vehicle 
travel should indeed be evaluated through the planning and project 
review process to appraise their capacity to avoid or mitigate adverse 
health risks caused by transportation related air toxics emissions. 
Travel demand and growth management strategies, pricing incentives, and 
other actions related to the operation, management, investment in 
transportation systems and related community systems can often provide 
very cost-effective approaches to reduce exposure of communities to air 
toxics and the cancer and other health risks associated with these 
exposures. Indeed, expansion of highways where unacceptably high air 
toxic exposure problems already exist will likely increase the scope of 
the problem by inducing traffic growth and exposures to air toxics. 
Cleaner technology and better fuels are not the only or best way to 
reduce most of these health risks, although these are an important part 
of the solution. While a reduction in cancer risk from 1990 to 1997 is 
documented in the MATES-II study, the cancer risk in 1997 is many times 
higher than the level at which EPA and FHWA are required to take 
actions to safeguard public health from such documented risks.
    Diesel emissions are indeed the largest source of toxic air 
pollutants emitted from mobile sources and the EPA heavy duty diesel 
rule will eventually reduce those emissions substantially. But because 
of the long-delayed timeframe for implementation of the heavy-duty 
diesel rule and the very long lifetime of diesel engine equipment, 
barring major new pollution control initiatives, it will take decades 
to achieve the substantial emission reductions required to protect 
public health from toxic air pollutants from these motor vehicles. 
While technology and fuels will do a lot to reduce these risks, public 
health will be best protected by a program that combines such 
initiatives with better strategies to manage the demand and use 
patterns of motor vehicles--both diesel and non-diesel--and to manage 
exposure of the public to these emissions. This must include 
consideration of how changes in transportation investments--such as 
highway expansions--will affect the amount of traffic emitting toxic 
air pollutants, and whether alternative investments might better 
satisfy mobility objectives while avoiding or mitigating these adverse 
health impacts. As the example in Washington, DC, cited above shows, 
reducing highway system expansions can--at least at times--produce both 
cost savings and substantial reductions in pollution. There are many 
ways to better manage the system to minimize air toxics while meeting 
mobility needs, including promotion of faster adoption of cleaner 
technologies and alternative transportation investment and management 
strategies. But FHWA is refusing to face core issues related to health 
impact assessment in its project approval and transportation plan and 
program approval process.

          The health risks from transportation related air toxics 
        remaining after the emission reductions of the last decade far 
        exceed Federal criteria for unacceptable health risks, and will 
        continue to be unacceptably high even if further reductions in 
        per-vehicle emissions are achieved in the foreseeable future. 
        The future risks expected due to the traffic volume anticipated 
        in many major highway corridors are not acceptable to the 
        families who are exposed to toxic emissions. Furthermore, 
        proper consideration of strategies that serve mobility needs 
        without increasing single occupant vehicle travel can minimize 
        these risks. FHWA has not given adequate consideration of these 
        harmful health effects and the alternatives that could mitigate 
        them in its process for reviewing and approving transportation 
        plans, programs, highway funding agreements, and project 
        environmental and design documentation.

    The National Environmental Policy Act (NEPA), 42 U.S.C. 4321 et 
seq., requires a review of the harmful effects of exposure to these 
motor vehicle pollutants generated by highways. FHWA has violated both 
NEPA and the requirements imposed by 23 USC Sec. 109(a) and (h) and 23 
CFR Sec. 771.105 to assess and mitigate the adverse effects of air 
pollution from highway projects in a number of cases, such as the 
proposed widening of US 95 in Las Vegas.

          It is not acceptable to dismiss the substantial cancer risks 
        that are exacerbated by highway expansions simply because 
        cleaner technologies are likely to be introduced into the 
        marketplace at some future time without considering the health 
        impacts on several generations of children and adults who we 
        know will be harmed by these effects in the decades prior to 
        these cleaner technologies coming into wider use. The evidence 
        of serious health risks is compelling. California's South Coast 
        Air Quality Management District published a study entitled 
        Multiple Air Toxics Exposure Study (MATES-II) in March 2000. In 
        February 2000, the Journal of the Air and Waste Management 
        Association published a study entitled ``Distance Weighted 
        Traffic Density in Proximity to Home is a Risk Factor for 
        Leukemia and Other Childhood Cancers'' (JAWMA Study). But FHWA 
        routinely fails to even attempt to estimate the concentrations 
        of toxic vehicular emissions likely to result from vehicle 
        travel in high volume traffic corridors proposed for major 
        expansion, or to assess the health risks of public exposure to 
        pollutant concentrations identified by these recent scientific 
        studies as the source of elevated cancer risks and rates. Not 
        performing such an assessment is arbitrary and capricious and 
        inconsistent with NEPA.
          EPA has listed 21 toxic air contaminants from mobile sources, 
        including diesel particulate and diesel exhaust organic gases. 
        The EPA concluded that ``[t]he current EPA position is that 
        diesel exhaust is a likely human lung carcinogen and that this 
        cancer hazard exists for occupational and environmental levels 
        of exposure.'' 65 Fed. Reg. 35, 446 (June 2, 2000). The EPA 
        premised this position on findings by the World Health 
        Organization, National Institute for Occupational Safety and 
        Health, and International Agency for Research on Cancer. Id. 
        Other Federal health agencies have listed diesel emissions as 
        containing carcinogens. The National Toxicology Program at 
        NEIHS on May 15, 2000, 2 months before your letter, listed 
        diesel particulate as a ``known human carcinogen.'' EPA has 
        published a list of ``Mobile Source Air Toxics (MSAT)'' which 
        ``includes various volatile organic compounds (VOCs) and 
        metals, as well as diesel particulate matter and diesel exhaust 
        organic gases (collectively DPM + DEOG).'' 66 FR 17,229 (March 
        29, 2001). This list clearly defines the hazardous air 
        pollutants from motor vehicles that FHWA should consider in 
        assessing the health effects of air toxic emissions from the 
        major highway expansion projects.

    In refusing to prepare environmental analyses, FHWA has cited 
evidence that toxic emissions from individual automobiles and overall 
emissions in urban areas had declined from 1990-97. FHWA has failed to 
explain, however, why this decline justifies a refusal to consider the 
public health significance of ongoing cancer risks identified in 
studies that relied on monitored ambient concentrations of toxic 
contaminants near major highways and other information gathered after 
1997. Indeed, the toxic pollutant concentrations reported in MATES-II 
reflect lower per-vehicle emissions than are occurring in most States, 
because California vehicles are subject to stricter emission standards.

          FHWA's response to environmental critics does not address the 
        information showing that the health risks remaining after the 
        emission reductions of the last decade far exceed Federal 
        criteria for unacceptable health risks, and will continue to be 
        unacceptably high even if further reductions in per-vehicle 
        emissions are achieved in the foreseeable future. The future 
        risks expected due to the traffic volume anticipated in the US-
        95 Las Vegas corridor and many other areas of the Nation 
        subject to highway expansion are not acceptable to the families 
        who are exposed to toxic emissions. Furthermore, proper 
        consideration of strategies that serve mobility needs without 
        increasing single occupant vehicle travel can minimize these 
        risks. Congress should reaffirm FHWA's obligation to consider 
        as part of project reviews these harmful health effects and the 
        alternatives that could mitigate them.

    Emissions per vehicle mile traveled are not relevant to assessing 
the magnitude of the public health risk associated with motor vehicle 
emissions. The key issue is total emissions from highway corridors and 
the impacts total emissions are expected to have on the health of 
nearby populations. When highway expansion increases the vehicle-
carrying capacity of the highway it induces additional traffic volumes, 
which in turn will contribute to increased total emissions from the 
highway and exposure to higher concentrations in the ambient air of 
hazardous pollutants in nearby neighborhoods. Risks to human health 
increase in proportion to human exposure to pollutants in the ambient 
air, not emissions per vehicle. These increased exposures create 
significant public health hazards that must be addressed in 
environmental reviews, the regional planning process, and the air 
quality conformity process.
    At least one reasonable estimate of the cancer risk attributable to 
diesel emissions is the estimate developed by the California 
environmental agencies presented in the MATES-II study. Even if a 
careful review of the evidence suggests a better estimate of the cancer 
risk is only one-half or one-quarter of the risk estimated by 
California, the risk would still be very high.
    Estimates that regional concentrations of criteria pollutants may 
improve are simply not relevant to assessing the likely public health 
impacts of toxic contaminants from motor vehicles. The regional 
modeling assessments performed to satisfy the ``conformity'' 
requirements of the CAA address only the direct emissions of CO, 
PM<INF>10</INF> and ozone precursors from motor vehicles. These 
pollutants are subject to emissions limitations established by EPA for 
new motor vehicles, and are expected to decline in the future because 
future vehicles are required to meet more stringent emissions 
standards. But no such standards have been established for toxic air 
contaminants. There is no basis for assuming that comparable reductions 
will be achieved for toxic air contaminants. Even if emissions from 
future vehicles are reduced, that reduction would not obviate the need 
to assess future emissions levels and whether total emissions in a 
heavily trafficked corridor will cause or contribute to unacceptable 
health hazards.

          In considering whether technology cleanup vs. demand 
        management and improved transportation system planning should 
        be preferred strategies for avoiding or mitigating health 
        impacts of transportation, it is vital to consider the health 
        costs of highways. The Department of Transportation has 
        estimated the national aggregate health costs of criteria air 
        pollutants from highways at $40 to $68 billion per year. Table 
        9, Addendum to the 1997 Federal Highway Cost Allocation Study 
        Final Report, U.S. Deppartment of Transportation, Federal 
        Highway Administration (May 2000). The methodology developed in 
        the Addendum to the Highway Cost Allocation Study to estimate 
        the costs of adverse health effects from air pollution provides 
        a basis for estimating the adverse health effects, and costs, 
        attributable to emissions from specific highway corridors. The 
        Addendum assessed only the health effects attributable to pre-
        1997 criteria pollutants, and did not include the health 
        effects attributable to toxic air contaminants emitted from 
        motor vehicles. If FHWA intends to justify highway expansions 
        by comparing the value of increased travel against the costs of 
        providing that capacity, a fair assessment of the health costs 
        to the community must be part of the calculus. In addition, 
        that kind of cost-benefit calculus must be applied to both the 
        highway option and reasonably available alternatives that can 
        reduce or mitigate the adverse impacts on health.

    Recent studies have significantly improved understanding of the 
linkage between vehicle emissions and the risk and incidence of cancer 
among people living near major highways. The MATES-II and JAWMA studies 
demonstrate that projects like the US-95 expansion in Las Vegas will 
increase cancer risks among exposed populations, a highly significant 
impact on the human environment that warrants environmental impact 
review. The most important new information derived from these studies 
is (1) the magnitude of the cancer risk caused by motor vehicle 
emissions from a highway corridor of the size of the US-95 project, and 
(2) the demonstrated increased incidence of cancer among children 
exposed to higher traffic volumes.
    It has been known for nearly two decades that motor vehicles emit 
toxic pollutants that include known or suspected carcinogens. What had 
not been firmly established by sound scientific research prior to the 
MATES-II results is that these pollutants reach concentrations in the 
ambient air in the vicinity of heavily traveled highways that present 
cancer risks of at least 1 in 1,000 to 1 in 650, i.e., levels far 
greater than the threshold for mitigation established by EPA's cancer 
risk policy and Federal agency policies generally.
    EPA's cancer risk policy requires that pollutants be reduced when 
risks exceed 1 in 10,000 for the maximally exposed individual. These 
high cancer risks for nearby residents, and even higher risks for those 
living adjacent to roadways, far exceed the risk levels adopted by EPA 
and Congress in setting national health standards, and are unacceptable 
to the residents of these neighborhoods. EPA has summarized the 
consensus cancer risk policy of Federal agencies as requiring careful 
assessment of measures to reduce cancer risks when the population risk 
is greater than 1 in 1 million.

          Where the entire U.S. population is exposed to a chemical 
        classified as a probable human carcinogen, the agency consensus 
        appears to be that risks less than 1 in 1 million generally can 
        be found acceptable without consideration of other factors 
        while risks greater than that level require further analysis as 
        to their acceptability.

56 Fed. Reg. 7757 (February 25, 1991). On the other hand, EPA and other 
Federal agencies have generally acted to reduce cancer risks greater 
than 1 in 10,000. Here, the evidence from MATES-II shows that 
communities near corridors such as US-95 with traffic volumes in excess 
of 220,000 vehicles per day will be exposed to cancer risks well above 
1 in 10,000.
    The MATES-II study derived its estimates of community cancer risks 
from ambient air monitoring of toxic pollutants in 12 residential 
neighborhoods during 1998 and 1999. MATES-II also included regional 
toxic emission data for the Los Angeles Basin and a computer modeling 
program to estimate exposures for areas of the region where monitors 
were not located. The conclusions of the MATES-II study are startling: 
the regional average risk of cancer for residents of the Basin is 1400 
in one million (1 cancer for each 714 residents), and 90 percent of 
this heightened cancer risk is attributable to air pollution from 
mobile sources. (MATES-II at ES-3).
    MATES-II determined that exposure to diesel particulate emissions 
and other toxics from mobile sources combine to cause 90 percent of the 
elevated risks. Id. at E-3. Areas with concentrated traffic suffered 
from increased risks of cancer above the regional average. Id. at ES-5. 
The study found that the highest cancer risk is in neighborhoods 
nearest highways where modeled risks were as high as 5800 in one 
million, meaning that one person out of 170 is likely to suffer cancer. 
Id. at Fig. 5-3a, p. 5-10.
    The JAWMA study of cancer rates in Denver, also published in 2000, 
is consistent with the MATES-II findings. That study focused on rates 
of childhood leukemia among children under 12 living very near highways 
(within 750 feet). The study found that children with leukemia were 12 
times more likely to live close to highways than children without 
leukemia, and concluded that a ``strong association'' exists between 
proximity to high traffic streets and childhood leukemia. JAWMA Study 
at 2. The study built on established research connecting childhood 
cancers to benzene and other volatile organic compounds found in 
automobile emissions. Id.

          Both the MATES-II and JAWMA studies have broad applicability. 
        While MATES-II examined the L.A. Basin specifically, the 
        general findings establish a clear link between automobile 
        emissions and cancer risk. Even if the relative magnitude of 
        emissions of cancer causing agents differs somewhat between 
        locales, the underlying conclusion remains irrefutable: 
        highways are the largest source of carcinogens emitted into the 
        ambient air in the urban environments, and the pollutant 
        concentrations are highest in neighborhoods near highways. The 
        size of the cancer risk is proportional to daily traffic loads 
        in the corridor. When traffic loads are known, approximations 
        of ambient concentrations of mobile source toxics can be made 
        for neighborhoods located next to highways in other States by 
        comparing the daily traffic loads on those highways with the 
        daily traffic loads on highways for which emissions are modeled 
        in the MATES-II study.

Except for diesel particulate, these risk estimates are derived from 
well-established risk factors that have been the subject of intensive 
scrutiny for many years. Although the MATES-II cancer risks are derived 
from risk factors adopted by the California environmental agencies, 
those factors do not differ significantly from those reported by EPA. 
See Integrated Risk Information System (EPA, Cincinnati, OH)[http://
www.epa.gov/iris]. In addition, these risk estimates are not for the 
maximally exposed individual living adjacent to heavily traveled 
highway corridors, but rather for regional populations. Nearby 
neighborhood exposures are substantially higher, and may be as much as 
an order of magnitude higher for the maximally exposed individuals.
    With regard to diesel particulate, the cancer risks in MATES-II are 
estimated based on unit risk factors adopted by California, but not yet 
by EPA. ``The current EPA position is that diesel exhaust is a likely 
human lung carcinogen and that this cancer hazard exists for 
occupational and environmental levels of exposure.'' 65 FR 35,446 (June 
2, 2000). This characterization of DPM as a carcinogen is supported by 
the National Institute for Occupational Safety and Health (NIOSH), the 
International Agency for Research on Cancer, and the World Health 
Organization (WHO). Id. The National Toxicology Program at NEIHS on May 
15, 2000, also listed diesel particulate as a ``known human 
carcinogen.'' Although a risk factor for DPM has not yet been adopted 
by a Federal agency, more than enough data has been accumulated from 
numerous epidemiological studies to allow a risk factor to be 
determined for risk assessment purposes. Further, California's more 
stringent emissions standards mean that other jurisdictions, like Las 
Vegas, may suffer from higher concentrations of toxic emissions from 
mobile sources.
    The JAWMA study emphasized the relationship between proximity to 
highways and childhood cancers. As such, this study has broad 
application. Nothing in the study indicates that the areas examined 
were in any way exceptional. Based on the findings in the JAWMA study, 
one would predict higher rates of childhood leukemia among those living 
near major highways such as the expanded US-95 in Las Vegas.
    In response to this new information, Sierra Club and local civic 
and environmental interests have sought action by FHWA to assure a 
Supplemental Environmental Impact Study (SEIS) for the US-95 corridor 
expansion project in Las Vegas. Similar issues are presented in other 
corridors around the country where extremely high traffic volumes would 
be increased by road expansions in an area close to thousands of 
residents. But FHWA has refused to consider the issues being raised by 
environmental and health groups. These issues go to the underlying 
questions posed by Senator Smith--should such requests for analysis be 
dismissed because of cleaner technologies are expected to become 
available in coming years and because emissions are decreasing somewhat 
in some areas? And are facility investment and transportation system 
management strategies worth considering as control strategies related 
to these public health problems?
    A significant purpose of an EIS is the involvement and education of 
the public that the process entails. The U.S. Supreme Court has held 
that SEISs are necessary to ensure that this purpose is furthered. 
Marsh, 490 U.S. at 371 (1989). The cancer studies raise an issue that 
clearly warrants such public involvement. The US-95 expansion may look 
dramatically different to residents alerted to the heretofore 
unconsidered link between highways and cancer. An SEIS would provide an 
opportunity to inform the public about the issue and the degree of risk 
involved. The public has an obvious, critical interest in providing 
input on this issue.
    Public involvement in the consideration of alternative modes of 
meeting travel demand in the US-95 corridor is critical. NEPA not only 
serves as a vehicle for informing the public of impacts, it also 
requires that alternatives be considered. Taken together with the 
requirement of 23 U.S.C. Sec. 109(h) to mitigate the adverse impacts of 
air pollution from highways, an SEIS should identify the alternatives 
that can mitigate or eliminate the cancer risk while at the same time 
meeting the mobility needs of people who live and work in the US-95 
corridor or other similar corridors around the United States
    Federal law requires assessment, reporting, and mitigation of 
health risks attributable to highway projects. FHWA's failure to assess 
the adverse health effects, the costs of these health effects, and the 
alternative transportation facilities and/or services that could 
prevent or minimize the adverse effects of the project violates NEPA, 
section 109 of the Federal transportation code and the Department of 
Transportation's (``DOT'') environmental regulation at 23 CFR 
Sec. 771.105.
    The U.S. Supreme Court has affirmed the position adopted by the 
Council on Environmental Quality (CEQ) that the purpose of the National 
Environmental Protection Act would be thwarted without an SEIS 
requirement. 40 C.F.R. Sec. 1502.9(c); Marsh v. Oregon Natural 
Resources Council, 490 U.S. 360, 370 (1989). Accordingly, CEQ 
regulations implementing NEPA impose a duty on Federal agencies to 
prepare an SEIS when ``[t]here are significant new circumstances or 
information relevant to environmental concerns and bearing on the 
proposed actions or its impacts.'' 40 C.F.R. Sec. 1502.9(c)(ii). As 
noted above, the CEQ defines ``significantly'' according to context and 
intensity. Context includes effects on society generally and the 
locality in particular, and intensity includes the magnitude of the 
impacts on public health and the nature of the risks. 40 C.F.R. 
Sec. 1508.27.
    When deciding whether to prepare an SEIS, the agency must apply a 
``rule of reason,'' while taking a ``hard look'' at new information. 
Marsh, 490 U.S. at 373-74. In weighing the value of new information, 
the agency must make the decision according to the same NEPA guidelines 
governing the decision whether to prepare an EIS in the first instance. 
Id. If new information shows that the proposed action will affect the 
environment in ``a significant manner or to a significant extent not 
already considered, a supplemental EIS must be prepared.'' Id. When new 
scientific data raise environmental concerns that have not been 
addressed in a previous EIS, an SEIS is required. Portland Audubon 
Society v. Babbitt, 998 F.2d 705, 708 (9th Cir. 1993). New concerns 
that require an SEIS can be either quantitative or qualitative. 
Environmental Defense Fund. v. Marsh, 651 F.2d 983, 996 (5th Cir. 
1981).
    In addition to NEPA, Federal highway law requires the consideration 
of the adverse effects of air pollution prior to approval of the plans 
and specifications for a highway, 23 U.S.C Sec. 109(a), and the 
adoption of measures that ``eliminate or minimize'' the adverse effects 
of ``air pollution.''

23 U.S.C. Sec. 109(h). In a case challenging DOT's approval of a 
highway project without assessing its impact on air pollution, the 
court in D.C. Federation of Civic Associations v. Volpe, 459 F.2d 1231 
(D.C. Cir. 1971), held that 23 U.S.C. Sec. 109(a) required such an 
analysis:

          We can find no basis in the statute's language or purpose for 
        the conclusion that certain hazards are, as a matter of law, 
        immaterial to the Secretary's evaluation of a project's safety. 
        The District Court would surely agree that Congress did not 
        intend to permit construction of a bridge in a situation, 
        however rare, where air pollution would be a significant threat 
        to safety. It does not follow, of course, that air pollution 
        will be a significant hazard in all-or even any-highway 
        projects. And the District Court apparently concluded that no 
        extraordinary dangers are likely to arise from the Three 
        Sisters Bridge. Still, the gathering and evaluation of evidence 
        on potential pollution hazards is the responsibility of the 
        Secretary of Transportation, and he undertook no study of the 
        problem.

DOT's approval of the highway bridge was remanded.
    Federal highway law goes beyond NEPA by requiring that the decision 
to approve a highway be----

        ``made in the best overall public interest taking into 
        consideration the need for fast, safe and efficient 
        transportation, public services, and the costs of eliminating 
        or minimizing such adverse effects and the following: (1) air, 
        noise, and water pollution; (2) destruction or disruption of 
        man-made and natural resources, aesthetic values, community 
        cohesion and the availability of public facilities and 
        services; (3) adverse employment effects, and tax and property 
        value losses; (4) injurious displacement of people, businesses 
        and farms; and (5) disruption of desirable community and 
        regional growth. Such guidelines shall apply to all proposed 
        projects with respect to which plans, specifications, and 
        estimates are approved by the Secretary after the issuance of 
        such guidelines.''

    23 USC Sec. 109(h). At a minimum, this provision requires DOT to 
determine the costs of eliminating or minimizing the adverse health 
effects attributable to air pollution, and then requiring mitigation in 
the ``best overall public interest.''
    DOT's 1987 regulations implementing this requirement and NEPA 
provide that the analyses required by Sec. 109(a) and (h) are to be 
performed as part of the NEPA review of the project. 23 CFR Part 771. 
Thus because both Sec. 109(a) and (h) require an analysis of the 
adverse effects of air pollution and the costs of eliminating or 
minimizing such effects, a supplemental EIS is required.
    Section 109(h) also requires DOT to ``eliminate or minimize'' the 
adverse effects attributable to a new or expanded highway. This 
provision is implemented through DOT regulations in 23 CFR 
Sec. 771.105, but has not been applied by FHWA with regard to the 
adverse health affects associated with toxic and fine particle air 
pollutants emitted from this highway project. DOT's regulation adopts 
as----

        the policy of the [Federal Highway] Administration that:
          (b) Alternative courses of action be evaluated and decisions 
        be made in the best overall public interest based upon a 
        balanced consideration of the need for safe and efficient 
        transportation; of the social, economic, and environmental 
        impacts of the proposed transportation improvement; and of 
        national, State, and local environmental protection goals.
          (c) Public involvement and a systematic interdisciplinary 
        approach be essential parts of the development process for 
        proposed actions.
          (d) Measures necessary to mitigate adverse impacts be 
        incorporated into the action. Measures necessary to mitigate 
        adverse impacts are eligible for Federal funding when the 
        Administration determines that:
          (1) The impacts for which the mitigation is proposed actually 
        result from the Administration action; and
          (2) The proposed mitigation represents a reasonable public 
        expenditure after considering the impacts of the action and the 
        benefits of the proposed mitigation measures. In making this 
        determination, the Administration will consider, among other 
        factors, the extent to which the proposed measures would assist 
        in complying with a Federal statute, Executive Order, or 
        Administration regulation or policy.

    On its face, paragraph (d) requires that measures necessary to 
mitigate the adverse health effects of hazardous air pollutants and 
fine particles be incorporated into the plans and specifications for 
the project. Subparagraphs (1) and (2) then establish criteria for 
determining whether the costs of mitigation are eligible for Federal 
funding. The rule does not contemplate the approval of a project that 
would have significant adverse effects on human health without 
requiring that those effects be mitigated. The project must either 
include measures to eliminate long-term human exposure to the levels of 
hazardous air contaminants that are associated with significant risks 
of adverse health effects, or alternatives must be developed that can 
prevent these adverse health effects. None of these requirements of 
DOT's rule have been addressed in the review of the US-95 project in 
Las Vegas.
    For all of the above reasons, less highway construction and more 
programs to reduce vehicle travel should indeed be evaluated through 
the planning and project review process to appraise their capacity to 
avoid or mitigate adverse health risks caused by transportation related 
air toxics emissions. While cleaner technology and better fuels are an 
important part of the solution, they are not the only way or 
necessarily the best way to reduce most of these risks.
    Proposals to streamline NEPA reviews through such actions as 
imposition of arbitrary deadlines for agency action, limits on public 
involvement, curbs on the engagement of resource agencies and the 
public in determinations of project purpose and need or available 
reasonable alternatives, limitations on judicial review of NEPA 
decisions threaten to reduce compliance with these important legal 
requirements and public health safeguards. We urge Congress to oppose 
such efforts as fundamental assaults on America's core environmental 
and public health laws.
                               __________
Statement of Howard Maier, Executive Director, Northeast Ohio Areawide 
    Coordinating Agency, Cleveland, OH and Jerry Lasker, Executive 
      Director, Indian Nations Council of Governments, Tulsa, OK, 
 Representing The Northeast Ohio Areawide Coordinating Agency (NOACA), 
  The Indian Nations Council of Governments (INCOG) and The National 
                Association of Regional Councils (NARC)
                       what are noaca and incog?
    The Northeast Ohio Areawide Coordinating Agency (NOACA) and the 
Indian Nations Council of Government (INCOG) are two of over 300 
federally designated Metropolitan Planning Organizations (MPOs) in the 
country. MPOs perform the planning component of the Federal surface 
transportation act to keep the funding for transportation projects 
flowing into their regions. Part of their responsibility is meeting 
Clean Air Act and Transportation Equity Act for the 21st Century (TEA-
21) requirements and regulations relating to transportation conformity 
and clean-air planning.
    NOACA represents 170 local governments in a five county region. 
These five counties (Cuyahoga, Geauga, Lake, Lorain and Medina) total 
2.1 million people. This is one fifth of the State of Ohio's 
population. NOACA operates in the heart of a home rule State--where 
units of local government make autonomous decisions regarding roads, 
zoning, and economic development within the confines of their 
respective boundaries. There is no State or Federal mandate to compel 
these communities to cooperate on these issues. NOACA is the one forum 
in which these communities come together and make decisions from a 
regional perspective.
    INCOG is a voluntary association of some 50+ local governments in 
the five-county Tulsa, Oklahoma metropolitan area and has served as the 
MPO for over 20 years. The city of Tulsa, the region's largest city, 
contains about half of the region's approximately 800,000 population. 
Osage County, the region's largest county, borders the State of Kansas, 
is bigger than the State of Rhode Island and has a population of 
approximately 45,000.
          the national association of regional councils (narc)
    NARC is a 32-year-old organization serving the interests of 
regional councils, and MPOs. NARC is an umbrella organization comprised 
of planning commissions and development districts made up of large 
urban and small rural councils, and MPOs from across the country. NARC 
provides advocacy and technical assistance in and for environmental 
issues, economic and community development, emergency management, and 
transportation. NARC emphasizes regional intergovernmental cooperation 
to resolve common problems in all of these important areas.
    Regional councils and MPOs are created by compact and enabling 
legislation as consortia of local governments. As such, regional 
councils and MPOs represent local elected officials from cities, 
counties, townships, and villages. Their mission is regional planning 
and coordination across multiple jurisdictions. Regional Councils and 
MPOs deliver a wide-range of programs and services such as economic 
development, first responder and 9-1-1, health care, infrastructure 
development, aging services, air and water quality, land-use planning, 
work force development, emergency management and homeland security, and 
transportation.
    Among all of these programs, transportation is key to the continued 
prosperity and health of all regions across the country. Access to 
employment and recreation and the movement of goods and services, drive 
regional economies and serves to bridge communities otherwise 
separated.
    The Committee is addressing one of the most complex aspects of 
transportation system development--transportation conformity. First and 
foremost, Congress should consider whether air quality conformity as it 
currently exists is a tool that truly achieves clean air quality goals 
in our regions.
    Our Nation needs to maintain its commitment to clean air and 
healthy communities. The Nation has made great strides in the 
application of new technology to environmental betterment, in the 
maintenance of our freight and transport fleets, and in energy savings, 
all leading to cleaner air across the country. However, the complex and 
burdensome system currently used for assisting our regions in 
determining standards, in applying data, and in selecting projects does 
not always work to improve community livability. The current process, 
while proving itself over the years, also has proven challenging for 
MPOs. Benefits gained in clean air through the law need to be measured 
against the increasing cost and complexity of clean air planning.
         the northeast ohio experience with cmaq and conformity
    The 1992 classification of Northeast Ohio as a moderate 
nonattainment area for ozone generated a planning challenge for the 
region. State Implementation Plans (SIPs) must be developed for 
nonattainment areas. SIPs identify how an area will achieve attainment 
of the National Ambient Air Quality Standards (NAAQS). Because earlier 
SIP planning efforts often generated documents that did not result in 
significant improvements in actual air quality conditions, USEPA 
required a specific format for the new SIPs for the newly classified 
nonattainment areas. USEPA required that moderate ozone nonattainment 
areas develop plans that would generate 15 percent reductions in 
hydrocarbon pollutant emissions by 1996 beyond already mandated 
improved vehicle technologies (e.g., catalytic converters). 
Hydrocarbons, a precursor of ozone, were believed to be the primary 
contributor to ozone attainment problems at that time. In northeast 
Ohio, the required reduction amounted to roughly 75 tons per day. This 
SIP requirement gave areas less than 4 years to generate a considerable 
decrease in hydrocarbon emissions.
    Northeast Ohio, like many nonattainment areas, found itself facing 
a challenge. The reductions identified in the 15 percent SIP had to be 
real, that is, the activities that were to generate the reduction had 
to be recognized by USEPA to be certain to achieve the stated 
reduction. USEPA held the authority to approve or reject any 
methodology submitted for a given reduction strategy. In many instances 
(e.g. the Automobile Inspection Maintenance Program), USEPA supplied 
the approved methodology for local use. Congestion Mitigation and Air 
Quality (CMAQ) funded projects also had to meet this ``verifiable 
reduction'' requirement.
    Areas planning to achieve the 15 percent reduction generally 
adopted a two-tiered approach to the planning effort. First, they 
identified the available control measures that could be mandated. These 
included m easures such as changes in fuel formulation and the 
Automobile Inspection and Maintenance (AIM) Program. Second, once all 
the possible reductions from these measures were identified, other 
measures were identified to make up the remaining reduction target. 
These measures (e.g. signal projects) were generally not things that 
could be mandated. They also generally required the development of some 
quantitative or qualitative methodology for estimating the emission 
reductions associated with them.
    During this planning stage, USEPA approved a NOACA methodology for 
estimating emission reductions from signalization projects. This 
approval, and the need for additional reductions toward the 15 percent 
target, led NOACA to ask local governments to identify signalization 
projects that could aid in meeting its goal. Generally, only signalized 
corridors generated sufficient reductions to be worth consideration for 
this planning purpose. Once a set of possible candidate projects was 
identified, NOACA asked municipalities to become project sponsors and 
to commit to implementing the projects by the summer of 1996. The 
projects of those municipalities who could make this commitment were 
added to the 15 percent Plan. Twenty-two signalization projects made 
this cut. CMAQ funds were the obvious choice for funding these 
transportation improvements.
    These events led to three results that persist to this day:
    1. Twenty-two signalization projects were guaranteed CMAQ funding 
for their projects in order to ensure compliance with the 15 percent 
SIP;
    2. A large reservoir of additional signal projects whose project 
sponsors could not commit to the 1996 deadline were on the table and 
were also candidates for CMAQ funding; and
    3. Local communities became aware that CMAQ funds were available 
and could be used for signalization projects. This resulted in a 
continuing stream of applications for additional signal projects.
    In addition to signalization projects CMAQ dollars have also been 
used to fund the purchase of buses and the construction of park-n-ride 
lots. These lots provide an increased opportunity for non-auto 
dependent travel to work and other destinations. It is probable that 
many of these projects would not exist in the absence of the CMAQ 
program.
    The CMAQ program through its specialized focus affords a unique 
opportunity to pursue projects that are beneficial to air quality. It 
is likely that given the limited resources available, these projects 
would not be completed with regular transportation dollars. They would 
fall victim to the many competing priorities for these funds. For this 
reason, NOACA believes that the CMAQ program should remain to give 
priority to these air-quality projects.
    It should be noted that in the State of Ohio, as it is in many 
States, CMAQ funding is allocated by the Department of Transportation. 
While there is general agreement about this process--it is applied at 
the discretion of the State. Direct apportionments to MPOs in this next 
surface transportation bill would eliminate any uncertainties they have 
concerning their share of CMAQ dollars.
    NOACA's experience with transportation conformity analyses has been 
somewhat different than that experienced in many metropolitan areas 
around the country. Conformity analyses were introduced as a required 
element of transportation planning in December 1993. Since that time 
all proposed new projects or revisions that could generate a possible 
air quality impact must be evaluated for their conformity to the 
purposes of the State Implementation Plans (SIPs) in nonattainment and 
maintenance areas. Conformity determination in nonattainment areas 
involves the comparison of the aggregate system-wide emissions 
resulting from the construction of a project with those existing in its 
absence. This is referred to as the Build/No-Build Test. Conformity 
determination also involves the comparison of the resulting emissions 
with those in the emissions budget from the applicable SIP. This is 
called the Budget Test. In maintenance areas, only the SIP Budget Test 
is required.
    Prior to its redesignation to attainment of the 1-hour ozone 
standard in 1996, NOACA had to conduct both the Build/No-Build and the 
Budget Tests for its transportation plans, programs, and projects. 
During this period, the Build/No-Build test was the only aspect of the 
conformity process that posed a potential problem in the NOACA area. 
This is because in a long established area like Northeast Ohio, new 
capacity additions are responsible for very small changes in total area 
wide emissions. As a result, differences between Build/No-Build 
scenarios were very small and the demonstration of a net improvement 
from an analysis frequently needed to rely on the use of off-network 
reductions to offset tiny increases generated by the model. Off-network 
reductions are reductions from activities that cannot be captured by 
the transportation-modeling environment. Signalization projects are an 
example of such a reduction. Changes in signal number and or timing are 
not captured in a traditional four-step transportation model. As a 
result, their impact must be determined separately and then combined 
with the model results. Using these off-network results, NOACA 
successfully passed both Build/No-Build and Budget Tests during its 
period of nonattainment.
    Following redesignation, NOACA only experienced problems with 
conformity determinations when changes in the MOBILE model resulted in 
dramatic changes in the forecast of emissions from the transportation 
system. The MOBILE model, which is developed and updated by USEPA, has 
been updated several times during the past decade. Twice during this 
period, NOACA has had to seek revision to its SIP Budgets in order to 
allow for conformity of its transportation plans with the SIP budget.
    Outside of the aforementioned modeling circumstances, the remaining 
conformity challenge for the area has been that its transportation 
plans, programs, and projects must be conformed based on the entire 
nonattainment/maintenance area. In the region this has meant the need 
to conduct conformity for two MPOs and one additional county.
    This situation has resulted in the need for significantly more 
coordination, and therefore, time than would be experienced in the 
absence of this requirement. Compounding this situation have been 
efforts by FHWA to require the two MPOs to share identical 
transportation planning timeframes as a result of their participation 
in conformity planning for this multi-jurisdictional area. It severely 
taxes the governing bodies of two independent MPOs to be required to 
establish transportation planning schedules based solely on a required 
conformity finding. The conformity process in and of itself is 
expensive and time consuming--when the coordination of two Federal 
agencies, a State DOT, and multiple local jurisdictions is added the 
costs become unmanageable. This experience is similar for all MPOs--and 
many of them have multiple State boundaries and many more local 
jurisdictions.
    NOACA recognizes that its experience of CMAQ and conformity 
analyses has been different from many other metropolitan areas. The 
area's relatively stable population has resulted in slower VMT growth 
than in many other areas. As a result, emission reductions from new 
vehicle improvements have outweighed any emission increases associated 
with VMT growth. This has averted any of the planning difficulties 
associated with major population growth and capacity increases realized 
in other urbanized areas. NOACA expects however along with our 
colleagues from other MPOs that we will have difficulty in planning for 
the new 8 hour standards.
        the experience of tulsa, oklahoma in cmaq and conformity
    Tulsa County was a non-attainment area until 1990. INCOG worked 
very hard locally to achieve attainment status and Tulsa became a clean 
air county prior to the signing of the Clean Air Act Amendments. It was 
very important to avoid the stigma associated with being on the EPA 
non-attainment list, especially for economic development purposes. 
Since that time, INCOG worked even harder to maintain our clean air 
status. While efforts were wide ranging, perhaps most notable was the 
creation of the nationally recognized Ozone Alert! Program, the 
nation's first episodic voluntary emissions control program. This 
program reflects INCOG's philosophy of seeking voluntary common sense 
measures that are most effective in improving air quality rather than 
the command and control approach too often used by State and Federal 
regulators. As part of this program, gasoline suppliers and 
distributors agreed to voluntarily reduce the Reid Vapor Pressure (RVP) 
of gas sold in the Tulsa area. The regional transit agency provided 
free bus rides on Ozone Alert! Days and citizens and businesses were 
asked to voluntarily reduce their driving and other pollution causing 
activities.
    In addition to the Ozone Alert! Program, Tulsa, by formal agreement 
with EPA and a host of other Federal, State and local partners, became 
the nation's first Flexible Attainment Region (FAR). Beginning in 1995, 
the FAR provided the region a locally crafted strategy to reduce 
emissions and adequate time to evaluate results before implementing 
more stringent measures to meet regional goals. This approach avoided 
the ``one-size-fits-all'' command and control system , which has been 
historically imposed by EPA. The FAR agreement came about because the 
region as local governments and private industry are committed to 
improving air quality. The necessary ingredients to make this work are 
flexibility and common sense. When the regions are allowed to develop 
their own program the local ``buy in'' is assured and the willingness 
to commit financial and political capital to achieve results is more 
readily accepted.
    The Tulsa area successfully maintained the 1-hour ozone standard 
during the 5-year FAR agreement. After the expiration of the FAR 
agreement in 2000, the Tulsa area experienced a unique weather pattern 
that resulted in a number of exceedences of the ozone standard, putting 
the region close to violating the standard. Again, in order to avoid 
going into non-attainment INCOG entered into EPA's Ozone Flex program 
which was designed to defer redesignation until it was shown that 
locally imposed emission control reduction measures would not work. 
INCOG is proud to relate that their continuing efforts have been 
successful and they have remained in attainment of the 1-hour standard.
    Presently, Tulsa faces its next challenge in meeting the 8-hr. 
standard. Current readings at two of the five ozone monitors in Tulsa 
County place the entire five-county Metropolitan Statistical Area (MSA) 
on the verge of non-attainment. EPA provided two strategies for 
reaching attainment. The conventional nonattainment approach requires 
the Governor of each State to submit to EPA a classification of 
`attainment', `nonattainment' or `unclassifiable' based on information 
available for each affected area. This conventional approach then 
requires nonattainment areas to develop enforceable control measures to 
reduce emissions, modify the State Implementation Plan (SIP) 
accordingly and reach attainment by as early as 2009. Transportation 
conformity analysis begins 1 year after nonattainment designation and 
is required to continue for 20 years after reaching attainment. 
Specific EPA guidance for the implementation of this strategy is not 
yet available for the 8-hour standard. The second strategy provided by 
EPA is the Early Action Compact (EAC).
    The EAC is a 5-year agreement allowing local areas to develop an 
area specific program identifying and implementing effective control 
measures to achieve attainment at the monitors by 2007. Further, EAC 
defers the effective date of the nonattainment designation. If an area 
fails to achieve EAC commitments, then the conventional nonattainment 
strategy kicks in. INCOG has pr oactively entered into the EAC. The EAC 
will allow EPA to defer the effective date of designation. In return, 
the EAC commits INCOG and the Oklahoma Department of Environmental 
Quality to develop additional modeling necessary to identify control 
measures that will be implemented to bring the area into compliance by 
2007 rather than 2009, the date required if INCOG were to slip into 
non-attainment this next season.
    Since the Tulsa area is in compliance with our EAC, INCOG is 
requesting the definition of `unclassifiable' designation be expanded 
to include areas under EAC agreements. Even though INCOG is under an 
EAC, and the effective date of the designation is put off, they are 
told that EPA designations of nonattainment will still occur. This 
being the case, Tulsa will be designated nonattainment. The problem 
will be solved if States are given the opportunity to defer the 
designation by recommending an `unclassifiable' designation.

    For a complete discussion of the EAC, please see the material in 
Attachment A.
    INCOG has taken a pro-active approach to improve regional air 
quality. The stigma associated with being designated non-attainment 
will have adverse effects on the region's economic development 
initiatives that so desperately need to be effective during these tough 
times. INCOG is also very concerned about the health related 
implications of poor air quality and its program is designed to address 
those concerns.
    For all of our regions, it is clear that clean air is one of 
several key health goals. They do everything possible to balance 
accessibility and development goals with a healthy environment. It also 
is clear that air quality planning is very complex, often 
misunderstood, and misapplied.
    There is also concern in our regions and local communities that 
current conformity law may strip local elected officials of the 
authority they exercise through the comprehensive transportation 
decisionmaking process. This process is adopted in coordination with 
their citizens, environmental groups, and the business community. 
Conformity law has the capability to alter decisions made locally and 
change the very structure of decisionmaking process in a sweeping and 
possibly regionally detrimental fashion. Therefore, NARC believes, with 
this new reauthorization, we have the opportunity to fix provisions 
that will serve only to enhance the current process.
    NOACA, INCOG, and NARC as well as all the associations regional 
members have undertaken an extensive look at current conformity 
processes and what can be done to make the process smoother, easier to 
apply, and more effective and meeting clean air goals. The key issues 
are summarized as follows:
                clean air planning cycles and conformity
    MPOs are required by law to undertake a comprehensive planning 
process. Concurrently, air quality plans are undertaken as well. There 
is no synchronization of timing on all the different plans that MPOs 
are doing. Plans start and stop at different times and for different 
reasons. Because this makes coordination extremely difficult between 
transportation and air-quality planning, NARC proposes the following 
revisions.
    <bullet> Congress should require the planning horizons of State 
Implementation Plan (SIP) and transportation plans consistent. 
Furthermore, the Metropolitan Plan would only have to conform every 5 
years--when it is updated.
    <bullet> ``Maintenance'' should be reduced to 5 years.
    There is also the problem of implementing new national modeling 
standards. NARC is concerned about the implementation of these new 
standards and the effect new data runs in new models will have on 
transportation programs. NARC recommends that:
    <bullet> Conformity modeling processes and modeling results Federal 
and State Governments adopt should be consistent with regional 
metropolitan transportation planning processes and fluctuations in 
modeling outcomes should be accounted for. Furthermore, an appropriate 
timeframe for model implementation should be allowed and regions should 
not be held accountable for new variances in model outputs without 
adequate time to plan.
    Very specific aspects of conformity need to be changed to allow our 
regions to meet clean air goals. For example, the mitigation of 
emissions from industry to offset emissions from mobile sources can be 
used as a comprehensive clean air strategy. Specifically, NARC believes 
changes in these areas will have tremendous benefits to regions:
    <bullet> Congress should eliminate the conformity update triggers.
    <bullet> Allow Transportation Control Measure (TCM) substitution in 
SIPs without SIP revisions as long as equivalent emissions reductions 
are identified and implemented on a consistent schedule.
    <bullet> Congress should allow the use of intersector trading for 
attaining clean air standards. Congress should also allow trading 
between pollutant categories.
    <bullet> Conformity provisions should be reassessed in light of 
experience with implementation of existing provisions. The purpose/
benefit of Build/No-Build Tests should be closely reviewed.
    <bullet> Conformity requirements for areas containing more than one 
MPO must be clearly stated so as to inform those areas of the precise 
requirements regarding the coordination of their planning efforts.
    <bullet> The loss of highway funds as a penalty for non-compliance 
with conformity or other air quality requirements should be closely 
reexamined. The penalty should not exacerbate the problem. In many 
instances, the project that would not be completed due to the loss of 
highway funds would contribute to reductions in congestion and air 
pollution.
             congestion mitigation and air quality program
    CMAQ has been demonstratively successful in helping to relieve 
congestion and improve air quality. Recently released reports indicate 
that CMAQ is a very effective program and well received by MPOs. Some 
specific adjustments will improve the program and the use of it at the 
regional level:
    <bullet> Congress must increase CMAQ funding.
    <bullet> Congress needs to introduce more flexibility into CMAQ 
with fewer restrictions on how long programs or projects can be funded 
and which are eligible, e.g. 13-year limitation on operations.
    <bullet> Congress should suballocate CMAQ funds to all MPOs in air 
quality non-attainment and maintenance areas.
    <bullet> In States where all regions are in attainment, the CMAQ 
funds will be provided to all MPOs through suballocation (see above) in 
order to maintain attainment.
    <bullet> Congress needs to incorporate PM<INF>10</INF> and 
PM<INF>2.5</INF> into calculations on funding for a region.
                          eight-hour standards
    NARC is also aware that current advances in attaining clean air 
goals may change as a result of the implementation of USEPA's new more 
stringent 8-hour ozone standard. This will place Northeast Ohio, Tulsa, 
and many other regions, under a nonattainment status once more. 
Depending on how conformity analysis is handled under this new 
standard, this could result in more difficulty in demonstrating 
conformity, and could influence how the area chooses to spend available 
CMAQ dollars.
    The new 8-hour standards (NAAQS) were revised by EPA in July 1997. 
The standard set at 0.08 parts per million (ppm) with 8-hour readings 
that would be averaged over 3 years. If an MPO is designated 
nonattainment then requirements will result in a State Implementation 
Plan (SIP), Conformity, New Source Review, and other planning 
requirements--a cumbersome process.
    MPOs are concerned by the litigation that took place under the 1-
hour standard and the potential for a similar rash of lawsuits once the 
8-hour designations are made and the SIPs are submitted. MPOs and 
States would like to find a legislative solution to this problem in 
order to avoid the financial burden of defending their TIPs and SIPs.
    Rural communities and counties are also aware that their 
designations for nonattainment may change. Under the new 8-hour 
standards over 400 counties may be newly designated for nonattainment. 
Many of these areas are small city or rural counties not covered by MPO 
planning areas. These areas have neither the tools nor expertise 
necessary to prepare for and/or meet the standards. The costs of 
compliance far outweigh the ability of rural counties to fund air-
quality initiatives.
    To help MPOs prepare for the new standards NARC has a cooperative 
agreement with EPA and FHWA to provide outreach to all regional 
councils and MPOs on integrating transportation and air quality 
planning. A series of workshops have been provided to help our members 
understand the 8-hour standards and the implementation. NARC is in the 
process of preparing Guidelines for Regional Councils and MPOs on 
Integrating Transportation and Air Quality Planning.
                          clean air incentives
    The only ``incentives'' that exist relative to clean air and 
conformity are disincentives aimed at punishing regions that fail 
current air quality standards. These disincentives may, in the extreme, 
shut down a region's transportation program. The only extra funding 
regions receive to combat air quality problems are those from the CMAQ 
program, applied when a region reaches non-attainment or maintenance 
status. To correct this imbalance and reward those regions that are in 
attainment or moving toward a maintenance or attainment status, NARC 
proposes the Clean Air and Attainment Pilot Program (CAAPP).
    <bullet> Congress should consider setting-aside, above the normal 
allocation of category funding, a reward to those regions that are in 
attainment or in demonstrated maintenance for a set number of years. 
This allocation would be discretionary and allocated directly to 
regions to fund strategies to promote clean air. The funding could be 
used to fund planning, management and operations, and other ``clean-
air'' activities. The program would help create a set of `best 
practices' that could be emulated by other regions to improve air 
quality.
    <bullet> Funding for the CAAPP shall not be taken from the CMAQ 
program.
    Of concern to our regions is the purported linkage between 
congestion and air-quality. MPOs do not necessarily believe there is 
always a direct linkage between the two. While cities grow and become 
more vibrant and while roads in some areas become congested--our air is 
becoming cleaner. Government reports have concluded that the 
application of new vehicle technology has been a positive contributor 
to air being the cleanest it has been in decades. NARC respectfully 
encourages Congress to look at congestion mitigation in other 
discussions and through other programs--not through the conformity 
process.
    NARC proposes changes in TEA-21 to allow all States and regions the 
flexibility to achieve air quality goals and implement world-class 
transportation systems.
    NARC is urging Congress to consider all its partners as important 
to building and maintaining the best transportation system in the 
world. NARC has released a twelve-point program to help our lawmakers 
help regions. NARC seeks more funding for MPOs, better coordination 
within State and Federal programs, and new and innovative programs 
aimed at alleviating urban transportation problems such as congestion, 
funding flexibility, and freight and goods movement. To this end, 
Congress should guarantee States the flexibility to spend funds and 
program projects based on their priorities and extend that same 
responsibility and authority to all local elected officials.
    Our association hopes Congress will also consider the role of 
fiscal constraint on MPOs and councils. While absolutely necessary to 
allow for the accurate accounting of our public expenditures it is 
critical that revenue forecasts are precise and fiscal standards remain 
consistent. MPOs and regional councils are held to higher fiscal 
standards in their planning and programming processes then the States 
that fund them. Congress should require States to provide accurate 
revenue forecasts to MPOs and councils and engage them in calculating 
these forecasts as well.
    NARC will also urge Congress throughout this and the coming year to 
consider greater emphasis on safety in rural and urban communities, a 
balanced and intermodal approach to Federal funding, comprehensive 
review and consideration of technology deployment, and greater 
consideration of freight movement as an essential part of the 
transportation planning process.
    Of particular concern to NARC members and the citizens they 
represent are the tens of thousands of accidents and deaths on rural 
roads each year. Coupled with increasing safety concerns in urban 
areas, this presents a sobering picture of travel on America's roads. 
NARC is urging Congress to apply resources in new and innovative ways 
to lessen this tragedy.
    NARC is also urging Congress to consider ways to streamline the 
project delivery process, while ensuring the health of our natural 
environment. The ability to move projects quickly, especially those 
that will make our roads safer and eliminate bottlenecks is of key 
concern. Bound intimately with safety are new concerns for security.
    Given the fact that many regional councils are currently involved 
in emergency management planning, NARC will also urge Congress to 
consider regional councils and MPOs as primary recipients of homeland 
and surface transportation security funding.
    NARC would like to help all MPOs achieve the same success as that 
of Cleveland, Tulsa, and in other places, through a balanced, 
intermodal, comprehensive, and locally and regionally led process of 
planning, programming, and project selection.
                                 ______
                                 
Attachment A.--Consideration of Early Action Compact Areas and Regions 
                        Currently in Attainment
    a. the tulsa area's designation for the revised naaqs should be 
``unclassifiable''. it may be necessary to clarify the caa language for 
     ``unclassifiable'' areas, (caa sec 107 d-1 a iii) to provide 
  appropriate designation status for eac areas meeting all milestones
    By July 15, 2003, State Governors are to submit to EPA a list of 
all areas in the State recommending designation of nonattainment, 
attainment, or unclassifiable on the basis of available information as 
meeting or not meeting the revised NAAQS. These designation and 
boundary recommendations will precede the EPA's April 2004 
designations. We believe it appropriate and critical that the Tulsa 
area be ``unclassified'' during this initial revised NAAQS designation 
process. We believe we meet the intent of the CAA's unclassifiable 
provision through the Tulsa area's EAC commitment and efforts.
    Tulsa is very nearly meeting the 8-hour standard, clearly meeting 
the 1-hour standard, and through EAC MOA, committed to meeting the 8-
hour standard by 2007. The EAC provides for `deferring the effective 
date of a non-attainment designation' for the Tulsa area. With the past 
13 years of pro-active air quality improvements, Tulsa's air quality 
continues to improve. At present, two of the five Tulsa area monitors 
are only marginally above 8-hour standard and are expected to be in 
compliance before the end of 2007. Given that the EAC effectively is 
intended to provide a transition status only for those areas meeting 
the 1-hour standard but only marginally not meeting the 8-hour 
standard, we believe it reasonable and appropriate to be considered 
``unclassifiable'' on the basis of available information as EAC 
committed milestones are underway and monitor data reflecting these 
aggressive EAC strategies pending near-implementation.
    Once EAC areas are determined to be fully incompliance with all 
milestones and meeting the standard at the monitor, a designation of 
attainment could be issued. The EAC agreement includes a local 
`maintenance plan' for growth. This plan takes the place of 
transportation conformity maintenance requirements and includes 
updating and modeling for future transportation projects for 5 years 
beyond December 2007.
    Additional support for not designating EAC areas, rather defining 
them as unclassifiable, is provided by EPA's own statement in the 
November 14, 2002 Jeffrey Holmstead, Memorandum, page 7, 2d paragraph 
3d sentence: ``If any milestone is missed and EPA withdraws the 
deferred effective date, thereby triggering a nonattainment designation 
and applicable statutory requirements, a nonattainment SIP would have 
to be submitted to EPA within 1 year of the new effective date of the 
nonattainment designation.''
                  b. transportation conformity issues
    Transportation conformity is intended to encourage municipalities 
and States to consider the impacts of transportation projects on air 
quality. State Transportation Improvement Plans (TIPs) must conform to 
State Implementation Plans (SIPs). S pecific mandates are placed on 
areas not in attainment with clean air standards. The current 
transportation conformity law holds several requirements we find 
counterproductive to cleaner air, and more costly than beneficial. 
Additionally, because the Tulsa area is an EAC Agreement area and 
expected to meet NAAQS by 2007 or earlier, the `triggers' for 
transportation conformity requirements are unclear.
    Transportation conformity requirements add burden and significant 
cost to MPOs and local regions by requiring modeling of mobile source 
emissions for future year modeling. The non-attainment SIP already 
takes into account the prescribed future growth for all area emissions. 
Mobile source emissions are modeled for future growth and incorporated 
into an EPA approved SIP.
    There is a disconnect between areas covered by EAC agreements and 
Federal transportation conformity requirements. If a nonattainment 
designation (with a deferred effective date on non-attainment 
designation and related requirements) were to occur for the Tulsa area 
in 2004, it is unclear whether or not conformity would kick-in within 1 
year. Reasonably, transportation conformity would also be deferred 
under the EACs ``related requirements'' clause.
    There is a disconnect between whether or not--and when--
transportation conformity would begin for EAC areas meeting milestones 
and meeting attainment at the monitors in 2007. The problem arising 
from this issue is resolved through our earlier recommendation that EAC 
areas, like Tulsa, be eligible to be designated unclassifiable until 
2007. At the end of 2007, when EAC area monitors are in compliance with 
the revised NAAQS, transportation-planning requirements as planned for 
in the EAC agreement and SIP planning process would begin.
    Once an area reaches attainment, the 20-year maintenance 
transportation conformity requirement for areas redesignated to 
attainment creates an arbitrary and unreasonable burden for areas, like 
Tulsa, that have never been more than marginally above the standard. A 
reasonable rule for maintenance conformity requirements would take into 
account the degree of nonattainment an area reached. Areas like Tulsa 
should not be required to perform conformity nearly as long as areas 
classified as `serious' or `extreme'. A 5-year maintenance conformity 
period is more reasonable. Also, maintenance requirements for 
conformity should be better partnered with SIP planning, providing 
reasonable synchronization of modeling efforts.
    Newly designated nonattainment areas will be faced with data 
inadequacies. Local areas, like Tulsa, will need time to accumulate the 
necessary resources and data to produce updates to the long range plan 
every three rather than 5 years. There should be some consideration for 
a necessary delay in shifting the requirement to update the long-range 
transportation plan from 5 to 3 years at a minimum. We believe 
retaining a 5-year plan update is appropriate.
                        c. other related issues
    The current limitations placed on Congestion Mitigation and Air 
Quality (CMAQ) funding is constraining and minimizes effective project 
implementation especially in the area of using funds for operational 
purposes. For example, our transit agency provides free bus rides on 
Ozone Alert! Days--an important part of our program. They are 
constrained by the current CMAQ rules for continuing this program for 
more than 3 years. We recommend allowing more flexibility in both the 
type of CMAQ projects selected and removing the 3-year limitation for 
project eligibility for funding.
    The current TEA-21 legislation does not provide for areas that are 
in attainment, like Tulsa, to receive CMAQ funds to undertake air 
quality improvement programs. We would recommend that consideration be 
given to expanding the eligibility for receiving CMAQ funds to those 
areas that have entered in to Early Action Compact agreements with EPA. 
Simply put, ``An ounce of prevention is worth a pound of cure''.
                               __________
  Statement of Diane Steed, President, American Highway Users Alliance
                              introduction
    Mr. Chairman and members of the subcommittee, I am honored to 
appear before you for the first time as the new President of the 
American Highway Users Alliance. Since 1932, The Highway Users has 
represented both motorists and a broad cross-section of businesses that 
depend on safe and efficient highways to transport their families, 
customers, employees, and products. From coast-to-coast, our members 
pay the user fees that finance the Federal highway program, and they 
expect the government to be good stewards of their investment in our 
nation's roads and bridges. Highway User members strongly believe that 
user fees paid on the nations roads should be rapidly returned to the 
roads through projects that make their motoring experience safer and 
less frustrating.
    I use the term ``rapidly'' for a reason. Mr. Chairman, I know that 
you have been a leader among Senators who want to streamline the 
project delivery process. I want to take a second to thank you for your 
attention to the problems of project delay. You can count on us to 
support your efforts to advance highway projects quickly.
    This morning I will focus my testimony mainly on our views of the 
Congestion Mitigation and Air Quality program or CMAQ. However, I would 
also like to state for the record that I endorse the comments of those 
who testified last summer (and here today, if applicable) on the 
specific need to coordinate the submission of Clean Air Act State 
Implementation Plans (SIPs) with statewide and Metropolitan 
Transportation Improvement Plans (TIPs).
             we care about congestion relief and clean air
    When I tell someone that I work for the Highway Users, the 
frequent, joking reply is that he or she is one. Nearly every American 
can claim to be a highway user--regardless of race, creed, or even 
political affiliation. Representing such a broad group, I can say 
confidently that highway users, like all Americans, care about the 
quality of the air we breathe and want it to keep getting cleaner.
    Of course, we have also lost patience with the increasing amount of 
traffic that chokes up our roads, delays our trips home to our 
families, causes accidents, strangles commerce, and even slows 
emergency vehicles when time really matters most.
    With that in mind, I am so pleased to speak to you about the Clean 
Air Act and the CMAQ program--a transportation program that should 
address both the problems of congestion and air pollution.
                           clean air progress
    The good news is that we have a freer, more mobile society than 
ever and our air is cleaner. The dramatic improvements in air quality 
are truly a testament to the outstanding benefits of the Clean Air Act. 
Incredibly, today's car on the road emits less pollution than a 1960's 
car sitting in its driveway with its engine off. And more progress has 
been made in mobile source pollution reduction than any other source. 
For most metropolitan areas, mobile source emissions are no longer the 
principal source of pollution; for many, they aren't even second.
    Since 1970, there is 28 percent less carbon monoxide in the air, 39 
percent less sulfur dioxide, 42 percent less volatile organic 
compounds, 75 percent less particulate matter, and lead pollution has 
been all but eliminated. In fact, the only pollutant that has increased 
since 1970 has been Nitrous Oxides. However the amount of NOx being 
emitted from automobiles is down over 31 percent.
    At the same time, the population has grown 38 percent, 
transportation energy consumption has gone up 61 percent, there are 71 
percent more drivers, and 99 percent more vehicles. And most 
impressively, vehicle-miles-traveled or VMT has increased nearly point-
by-point with the gross domestic product at 148 percent and 158 
percent, respectively. This is no coincidence. Mobility leads to 
economic growth.
    In the State of the Union address, President Bush introduced his 
pollution-free fuel cell car initiative by noting that ``the greatest 
environmental progress will come about . . . through technology and 
innovation''. When contrasting the growth in vehicle miles traveled 
with the reductions in Clean Air Act pollutants, it is clear that 
technology and innovation have done far more to clean the air than 
increased travel has done to sully it. For example, today's diesel 
truck engine is eight times cleaner than an engine built just a dozen 
years ago. And with new technology for dramatically cleaner diesel 
fuels and engines coming online, it is clear that technological 
advancement leading to cleaner air is only gaining in momentum.
           a major flaw in the 1990 clean air act amendments
    When the Clean Air Act Amendments were written in 1990, there was 
an assumption from EPA models that increased vehicle-miles of travel 
(VMT) would be a major source of increased air pollution. As I have 
already discussed, this has not been the case. VMT has gone up; 
pollution has gone down. EPA's models did not reflect the improvements 
that would be realized by technology. But due to this flaw in the CAAA, 
State Implementation Plans for air quality conformity are not approved 
unless States include projects to reduce VMT. If States do not show how 
their plans would reduce VMT, the EPA can impose sanctions that freeze 
money for highway projects.
               which cmaq projects work and which do not
    Mr. Chairman, last summer this Committee held a hearing on CMAQ and 
conformity. One common conclusion reached by several witnesses was that 
the biggest environmental bang for the buck comes from traffic flow 
improvements, diesel engine retrofits, and vehicle inspection and 
maintenance programs. Yet, according to the EPA, the highest priority 
for CMAQ funds is the implementation of transportation control measures 
(TCMs) intended to reduce VMT. The use of the word ``control'' is 
telling. TCMs are intended to control the ``bad'' people who either 
need or choose to drive alone. These measures are the ``carrots and 
sticks'' advocated by some anti-car, anti-motorist planners and groups 
who believe that government should be in the business of forcing people 
out of their cars. TCMs sit uneasily with a population accustomed to 
basic freedoms. However, even if that were not the case, TCMs are 
doomed to failure for another reason: They are directed mainly at 
commuters--but over 80 percent of trips are NOT commutes. It should be 
no surprise that TCMs have little to no proven track record in causing 
measurable clean air progress or congestion relief.
    What should be clear is that there are serious flaws in the CMAQ 
program. And the reasons are actually quite simple. First, road 
improvements that increase capacity for single occupant vehicles are 
prohibited. In other words, by law, the vast majority of drivers idling 
in congestion cannot get any relief under the program. Second, there is 
no measurement of the projects funded under the program so there is no 
incentive for prioritize the most effective projects. For example, 
according to a recent Federal Highway Administration report, transit 
improvements cost $272,000 per ton of hydrocarbon removed while traffic 
signalization improvements only cost $23,000 per ton. Yet inexplicably, 
the year that this data was reported, transit received 47 percent of 
all CMAQ funds while only 32 percent went to traffic lights.
     some of the most effective projects are ineligible for funding
    Many projects that would result in clean air progress and 
congestion relief are not mutually exclusive. Nowhere is that more 
clear than in a comprehensive examination of the benefits of making 
modest improvements to unclog America's worst bottlenecks. In 1999, we 
analyzed the worst traffic bottlenecks in the country and calculated 
the benefits of improving them from what engineers call level of 
service ``F'' (or failing) to just passable level of service ``D''. 
What we found was astonishing. If the worst 167 bottlenecks were 
unclogged, the average emissions of volatile organic compounds would 
drop by 44 percent, carbon monoxide would be reduced 45 percent. 
Greenhouse gases would drop over 70 percent. At the same time, traffic 
delays would be reduced by 71 percent, saving the average commuter 40 
minutes per roundtrip. Clearly, a comprehensive program to relieve 
traffic bottlenecks is an example of a program that should meet the 
logical requirements for an effective Congestion Mitigation and Air 
Quality program. But under the current program it is ineligible because 
it would provide capacity for single occupancy vehicles.
    In addition, vehicle scrappage programs are ineligible under CMAQ. 
The EPA estimates that the dirtiest 10 percent of vehicle contribute 40 
percent of the pollution. Providing incentives to scrap old, dirty 
vehicles would do nothing for congestion relief, but it would do far 
more to improve air quality than trying in vain to convince people to 
give up their cars.
              recommendations to improve the cmaq program
    Although we clearly have concerns with the CMAQ program, 
fortunately the majority of problems can be remedied with only minor 
statutory adjustments. We believe the CMAQ program can be restructured 
to better meet the true pollution-reduction goals of the Clean Air Act. 
At the same time, these program improvements can markedly reduce 
traffic congestion. We recommend the following:
    (1) Ease CMAQ's inflexibility. Allow all transportation projects 
that reduce congestion and Clear Air Act pollutants to be eligible for 
funding.
    (2) Focus on technological improvements instead of trying to gget 
people out of their cars. Let's be realistic: TCMs aren't convincing 
people to stop driving and they never will. And changes in VMT are not 
accurate indicators of air pollution anyway.
    (3) When funding CMAQ projects, measure the benefits and costs of 
alternative strategies to relieve congestion and reduce air pollution. 
Based on those criteria, engage in projects that can be shown to do the 
most good for congestion and air quality. DOT should report results and 
develop best practices for obligating CMAQ funds.
    (4) Frustrated drivers stuck in traffic would appreciate a targeted 
program that fixws the worst bottlenecks. Give motorists a break from 
traffic jams and clean the air! Traffic congestion is positively 
nightmarish in many parts of the country. We're wasting 3.6 billion 
hours and 5.7 billion gallons of fuel in delay. The air quality, 
safety, and time management benefits of unclogging those bottlenecks 
would be extraordinary.
                               conclusion
    Since 1991, $14 billion has been authorized for the CMAQ program. 
But CMAQ doesn't reduce congestion and clean the air because of its 
name alone. Changes in the way the account is administered could go a 
long way toward realizing the transportation-related goals of the Clean 
Air Act. We look forward to working with you as you reconsider the 
structure of this program. I'd be happy to answer your questions at the 
appropriate time.

------------------------------------------------------------------------
                                        Congested    Total
                                         Miles of   Miles of  Percentage
                States                    Major      Major     Congested
                                         Highways   Highways
------------------------------------------------------------------------
Alabama...............................        490      1,349         36%
Alaska................................         28        110        25
Arizona...............................        793      1,316        60
Arkansas..............................        141        859        16
California............................      5,314      8,379        63
Colorado..............................        637      1,289        49
Connecticut...........................        385      1,048        37
Delaware..............................        128        188        68
District of Columbia..................         91        121        75
Florida...............................      2,433      3,677        66
Georgia...............................      1,013      2,360        43
Hawaii................................        129        221        58
Idaho.................................         92        347        27
Illinois..............................      1,481      3,359        44
Indiana...............................        686      1,988        35
Iowa..................................        116        863        13
Kansas................................        162        957        17
Kentucky..............................        394        977        40
Louisiana.............................        406      1,181        34
Maine.................................         40        248        16
Maryland..............................        817      1,349        61
Massachussetts........................        805      2,155        37
Michigan..............................      1,317      2,699        49
Minnesota.............................        409        939        44
Mississippi...........................        195        854        23
Missouri..............................        603      1,743        35
Montana...............................         31        230        13
Nebraska..............................        157        476        33
Nevada................................        188        350        54
New Hampshire.........................         68        260        26
New Jersey............................      1,028      1,926        53
New Mexico............................        199        629        32
New York..............................      1,376      3,986        35
North Carolina........................        769      2,022        38
North Dakota..........................         20        204        10
Ohio..................................      1,042      3,110        34
Oklahoma..............................        355      1,155        31
Oregon................................        327        858        38
Pennsylvania..........................        962      3,305        29
Rhode Island..........................        144        468        31
South Carolina........................        395        933        42
South Dakota..........................         21        182        12
Tennessee.............................        846      1,778        48
Texas.................................      2,686      7,159        38
Utah..................................        284        455        62
Vermont...............................         11        155         7
Virginia..............................        837      1,665        50
Washington............................        645      1,677        38
West Virginia.........................         89        306        29
Wisconsin.............................        382      1,665        23
Wyoming...............................         13        297         4
                                       ---------------------------------
  U.S. Total..........................     31,980     75,827         42%
------------------------------------------------------------------------

                               __________
     Statement of Marsha Kaiser, Director of Planning and Capital 
 Programming, Maryland Department of Transportation, on Behalf of The 
   American Association of State Highway and Transportation Officials
    Mr. Chairman and Members of the Committee, my name is Marsha 
Kaiser. I am Director of Planning and Capital Programming for the 
Maryland Department of Transportation. I am here today to testify on 
behalf of the American Association of State Highway and Transportation 
Officials (AASHTO). We applaud your continuing commitment to improving 
air quality in your State and across the Nation, and thank you for your 
leadership in holding this hearing to address transportation congestion 
and the Congestion Mitigation and Air Quality Program (CMAQ).
    In my testimony today, first I will discuss ``next-generation'' 
refinements to the transportation conformity process to build on the 
experience we have gained over the last decade. We would like to see 
procedural modifications to conformity to provide for:
    <bullet> The alignment and greater consistency between the 
transportation and air quality planning processes, including analytical 
tools and planning assumptions;
    <bullet> Greater flexibility to implement cost effective emission 
reduction strategies; and
    <bullet> Enhanced consultation on implementation of the new 
national standards for ozone and fine particulates.
    Second, I will discuss AASHTO's views on the Congestion Mitigation 
and Air Quality Program, which we believe should be continued with some 
added flexibility to enhance our ability to meet the dual challenges of 
congestion and air quality improvement.
                       transportation conformity
    Background. The Clean Air Act closely aligned transportation and 
air quality planning through an analytical process called 
``transportation conformity.'' The policy objective of transportation 
conformity is to coordinate air quality and transportation planning by 
ensuring that transportation plans are consistent with plans for 
attaining Federal air quality standards.
    Mr. Chairman, I want to assure you that all of the State 
transportation officials across the country fully support the national 
goal of improving air quality and ensuring a healthy environment in all 
of our States. After 10 years of experience, transportation and air 
quality agencies have learned a great deal about how to better 
coordinate their intertwined planning efforts. That experience has also 
exposed procedural weaknesses with transportation conformity that we 
believe can only be addressed legislatively. After 10 years, it is 
appropriate for Congress to consider refinements to the conformity 
requirements.
    The current transportation conformity regulations were drafted by 
the U.S. Environmental Protection Agency (U.S. EPA) to implement 
provisions of the Clean Air Act Amendments of 1990, which more 
explicitly defined the process for ensuring that transportation plans 
and programs conform to State air quality implementation plans (SIPs). 
The dual policy objectives of transportation conformity are to:
    <bullet> Coordinate the transportation and air quality planning 
processes; and
    <bullet> Ensure that transportation plans and Transportation 
Improvement Programs (TIPs) are consistent with SIPs.
    There is generally agreement among the transportation agencies that 
implement the conformity process that it has improved coordination 
between transportation and air quality plans and has vastly improved 
communications between transportation and air quality professionals. In 
addition, the process has been successful in raising awareness among 
decisionmakers of the connection between transportation and air quality 
and has promoted broader involvement in transportation planning by 
stakeholders.
    Nevertheless, 10 years of experience with transportation conformity 
has also exposed some weaknesses in the current procedures designed to 
integrate air quality and transportation planning through conformity:
    <bullet> Misalignments and inconsistencies in planning assumptions, 
planning horizons, and modeling tools; and
    <bullet> Absence of any flexibility to revise Transportation 
Control Measures without first revising the State air quality 
implementation plan (SIP).
    The impact on transportation programs is substantial. Just since 
1997, over 80 nonattainment or maintenance areas have gone into--or 
barely missed going into--a conformity lapse, putting billions of 
dollars of transportation dollars at the risk. Process inefficiencies 
impose an additional administrative burden with sizable opportunity 
costs--scarce staff and resources are diverted from addressing the wide 
array of existing and emerging transportation policy challenges, 
including for example, safety and security or broader environmental and 
community objectives.
    AASHTO has identified several procedural improvements to the 
conformity process improvements which would harmonize the 
transportation and air quality planning process and reinforce the role 
of conformity to ensure consistency with SIPs. The goal is simply to 
strengthen the connection between transportation and air quality 
planning by making common sense improvements to the conformity process 
that will benefit transportation and air quality agencies alike.
             transportation conformity procedure revisions
Provide better integration and consistency in the transportation and 
        air quality planning processes, timelines and updates, planning 
        assumptions and modeling tools.
            1. Align Planning Horizons
    Metropolitan transportation plans are required to have a minimum of 
a 20-year planning horizon. The time horizons for SIPs are much 
shorter--the SIP time horizons extend only to the attainment date, with 
the latest being 2010. As a result, there is frequently a gap of 10 
years or more between the horizon year for the SIP and the horizon year 
for the long-range transportation plan.
    Transportation agencies must demonstrate conformity to the last 
year of the plan which means that on-road mobile sources are 
constrained to the motor vehicle emissions budget from the attainment 
year to the last year of the transportation plan unless SIPs 
specifically establish budgets for years after the attainment date yet 
within the transportation planning horizon. Also, there can be no 
credit taken for technology or other measures that may be available 
during the out-years unless those measures have a regulation in place 
and implementation is assured.
    The mismatch in the timeframes for transportation and air quality 
plans has placed an undue burden on the on-road mobile sector where 
there are very few measures remaining that can be implemented that will 
yield significant emissions reductions. This is especially true as 
vehicles continue to get cleaner and Federal controls on vehicles are 
phased in. This has caused problems for transportation agencies in 
making conformity determinations, which is a criterion for receiving 
Federal highway and transit funding.

    Recommendation: Require conformity determination on the first 10 
years of the transportation plan or to the attainment date, whichever 
is the longer time period. For informational purposes, regional 
emissions analysis would be done on the remaining years of the 
transportation plan.
            2. Provide More Predictable and Coordinated Planning Update 
                    Cycles and Consistent Planning Assumptions
    Long-range transportation plans, which are for 20 year periods, 
must be updated not less frequently than every 3 years. Transportation 
Improvement Programs (TIPs) must be updated every 2 years. In addition, 
there are various SIP-related triggers in the transportation conformity 
rule that require plan and TIP updates within 18 months of various SIP 
actions. State Implementation Plans (SIPs) do not have a regular update 
cycle.
    This has created a situation where transportation plans are updated 
regularly while SIPs are updated on a discretionary and sporadic basis, 
resulting in overlapping plan cycles, public confusion, less time spent 
on other important planning tasks and a continuous conformity process 
in many areas. In addition, the unpredictable nature of the 18-month 
SIP triggers for conformity redeterminations has caused uncertainty in 
the transportation planning and TIP development processes. Because 
transportation plans, TIPs and SIPs must use the latest planning 
assumptions each time they are updated, the assumptions used in SIPs 
tend to be older than--and inconsistent with--those in transportation 
plans and TIPs. AASHTO believes that the conformity process must 
provide a more predictable and coordinated transportation and air 
quality plan update cycle along with consistent planning assumptions.

    Recommendation: Require the update of metropolitan transportation 
plans at least every 5 years with transportation conformity 
determinations required after each update, unless more frequent updates 
of the TIP are needed. Reaffirm that TIPs must continue to be 
consistent with plans and eliminate the requirement for a conformity 
determination on TIPs because it is duplicative of the conformity 
requirement for plans.
            3. Provide Coordinated and Consistent Use of Emissions 
                    Models and Emissions Factors
    EPA recently released MOBILE6, the new generation of the emissions 
factor model used in all States except California. The California 
model, EMFAC2000 was released in 2001 and will be updated in the near 
future. The conformity rule requires that latest planning assumptions 
and emissions models be used in transportation plans, TIPs and SIPs 
when they are updated.
    Nonattainment areas have 2 years to begin using MOBILE6 (or 
EMFAC2001) in conformity determinations with no corresponding 
requirement that SIPs be updated during that period using the new 
emissions factors model. (There are exceptions to this 2-year phase in 
for areas that took credit for Tier II vehicle standards and heavy duty 
engine regulations in their SIPs--these areas have either 1 or 2 years 
depending on the specific conditions in their SIPs).
    The thrust of the transportation conformity requirement was to 
provide for an integrated transportation and air quality planning 
process. However, requiring that regional emissions analysis be done 
with latest emissions model without requiring a SIP revision using that 
model prior to use in conformity is contrary to an integrated and 
seamless process. In fact, the different estimating techniques and 
parameters used in the models result in significant differences in 
estimates of current and future emissions levels. Conducting conformity 
analysis on transportation plans and TIPs that use one model while SIPs 
used an older model creates an apples to oranges comparison, contrary 
to congressional intent and rationale for transportation conformity.
    Use of latest planning assumptions requires that vehicle mix data 
be the most recently available data for use in conformity 
determinations and in SIPs. However, because SIPs are not updated on a 
regular basis, the vehicle mix data used to develop SIPs may be many 
years older than that required for use in transportation conformity 
determinations. This has caused problems in several areas simply 
because different data was used in the SIP planning process than is 
being used in transportation plan and TIP development.

    Recommendation: Require that SIP budgets and conformity 
demonstrations be based on the same mobile-source emissions factors 
model and/or same vehicle fleet mix data. Require the use of the latest 
EPA-approved emissions models in SIPs prior to requiring their use in 
transportation plans and TIPs. Require the use of the latest vehicle 
fleet mix data in SIPs prior to requiring their use in transportation 
plans and TIPs.
            4. Synchronize Sanction Clocks
    In the event of a conformity lapse, there are immediate 
consequences in that only certain types of transportation projects may 
proceed until the lapse is resolved. In contrast, in the event of a SIP 
failure, there is an 18-month period in which to correct the SIP 
failure prior to the imposition of sanctions. In essence, a conformity 
lapse functions as an immediate sanction with no time permitted to 
correct situations that might have led to the lapse.

    Recommendation: Align the conformity lapse with same 18-month time 
clock for imposition of sanctions for SIP failures in order to provide 
a similar amount of time to correct deficiencies in transportation 
plans and TIPs.
            5. Require Conformity Only for Nonattainment and 
                    Maintenance Areas
    Transportation conformity determinations must be undertaken for all 
nonattainment and maintenance areas. Currently, if an area has 
completed its 20-year maintenance period prior to the last year of 
transportation plan, the area still must meet conformity requirements 
all the way to the last year of the transportation plan--the ``horizon 
year'' (e.g., end of 20-year maintenance period is 2006 and the 
transportation plan horizon is 2025). Because some areas are 
approaching the end of their 20-year maintenance periods, this 
situation is beginning to surface. Similarly, when Maintenance Plans 
reach their 8-year update point, the new SIP budget need only be for 10 
years out, rather than the 20+ years required for transportation plans.

    Recommendation: Clarify that conformity determinations are required 
only for that time period when an area is classified as nonattainment 
or maintenance, and can be suspended when reclassified as attainment.
Provide flexibility to enable transportation agencies to respond to 
        changing circumstances.
            1. Allow Substitution of Transportation Control Measures 
                    (TCMs) Without 
                    a SIP Revision
    Transportation control measures that are included in SIPs cannot be 
added, deleted, or changed unless a formal SIP revision is made with 
its accompanying processing delays, and a subsequent conformity 
determination. This discourages the inclusion of TCMs in SIPs with the 
result that transportation control measures are often included in 
transportation plans and TIPs and contribute to meeting emissions 
budget, but are only included in SIPs if they are absolutely essential 
to achieving needed emission reductions.

    Recommendation: Permit the revision or substitution of 
transportation control measures that yield equivalent emission 
reductions without the need for either a SIP revision or a conformity 
determination.
            2. During a Conformity Lapse, Consider Emission Reductions 
                    from Other than On-Road Mobile Sources
    In the event of a conformity lapse, transportation agencies have 
very few tools at their disposal that will generate sufficient emission 
reductions to correct a lapse. This is increasingly the case because 
vehicle technologies continue to improve and new technologies are being 
phased in that will continue to reduce the amount of emissions from on-
road motor vehicles. Further, the cost of emission reductions from on-
road sources is higher than other sectors given the tight controls on 
these sources already.
    At the same time, there are uncontrolled sources that account for 
large portions of emissions in nonattainment and maintenance areas 
(e.g., marine vessels, off-road vehicles, etc.) Such sources could 
generate emissions reductions more cost effectively than on-road mobile 
sources. The ability to ``purchase'' emissions credits from other 
sources would provide needed flexibility and cost effective emissions 
reductions.

    Recommendation: In the event of a conformity lapse, permit all 
polluting sectors to be included in an analysis of strategies to reduce 
emissions in order to correct the conformity lapse and permit the 
purchase of emissions credits from other sources.
Develop an inclusive process for implementation of the new National 
        Ambient Air Quality Standards (NAAQS) for ozone and fine 
        particulates.
            1. Require Adequate Consultation
    EPA recently held public meetings on the implementation of the new 
ozone and PM NAAQS. These new standards are expected to affect many 
areas that are not currently nonattainment areas. A significant number 
of the new nonattainment areas are rural. The impacts will include 
transportation conformity requirements and new areas will need adequate 
time to prepare to meet these new requirements.

    Recommendation: Require that EPA provide adequate notification of 
proposed, new requirements and consult with affected areas sufficiently 
in advance of new designations for those areas to be prepared to 
address any new transportation-related requirements.
            2. Provide an Adequate Grace Period for New Nonattainment 
                    Areas 
                    to Demonstrate Conformity
    Congress provided a 1-year grace period for new areas to 
demonstrate conformity after the new ozone and/or PM<INF>2.5</INF> non-
attainment designations are made. One year may be insufficient for 
areas, particularly those that have not had to address conformity 
issues in the past.

    Recommendation: Allow for a 3-year period for an area to 
demonstrate conformity after the EPA makes designations under the ozone 
and PM<INF>2.5</INF> NAAQS. Ensure that the SIPs for these areas are 
also developed within this timeframe, which is consistent with Clean 
Air Act requirements for SIP development within 3 years of a 
designation.
          congestion mitigation and air quality program (cmaq)
    Since the 1970's we have made remarkable progress in reducing air 
pollution, including emissions from motor vehicles. According to the 
U.S. Federal Highway Administration\1\ emissions from Volatile Organic 
Compounds (VOCs) are down 59 percent and emissions from Carbon Monoxide 
(CO) are down 43 percent. Emissions from Nitrogen Oxides (NOx) are up 
slightly (5 percent) for all vehicles, but decreased by more than 30 
percent for automobiles. The introduction of Tier II engine and 
gasoline standards and heavy duty diesel engine standards are predicted 
to decrease NOx emissions by 61 percent and 88 percent, respectively, 
by 2030. This is a remarkable success story when we recognize that 
these reductions have occurred at the same time we had 37 percent 
growth in population, 147 percent growth in gross domestic product and 
143 percent growth in vehicle miles traveled.
---------------------------------------------------------------------------
    \1\ U.S. Federal Highway Administration, Transportation and Air 
Quality: Selected Facts and Figures, January, 2000.
---------------------------------------------------------------------------
    Despite the progress we have made in reducing emissions, the 
complementary goal of congestion relief remains a challenge. Too many 
Americans are spending time stuck in traffic. Congestion deeply affects 
our nation's ability to move goods and services and threatens the 
health of our economy. Congestion is no longer confined to urban areas, 
peak periods or work trips. According to the Texas Transportation 
Institute's 2002 Urban Mobility Study, ``Congestion is growing in 
metropolitan areas of every size . . . The average annual delay per 
peak road traveler climbed from 16 hours in 1982 to 62 hours in 2000.''
    At least fifty percent of the congestion problem is associated with 
inadequate capacity. The remainder is caused by non-recurring delays, 
which result from vehicle crashes and breakdowns, weather, 
construction, special events, poor signalization and even the mix of 
vehicle types.
    To address the dual goals of relieving congestion and reducing 
emissions, a diverse set of strategies and options--tailored to 
individual States and regions--is needed. The CMAQ Program was 
established in 1992 in the Intermodal Surface Transportation Efficiency 
Act (ISTEA) with funding targeted for programs and projects that could 
address mobility and air quality needs simultaneously. CMAQ provided 
flexibility to fund a wide array of transportation improvements 
including more traditional projects such highway traffic flow and 
intersection projects, transit, bicycle and pedestrian projects as well 
as alternative fuels and new vehicle technologies, telecommuting, 
intermodal highway facilities, and inspection and maintenance programs.
    After 10 years and a $14 billion Federal investment, the CMAQ 
Program enjoys broad support, largely attributable to its flexibility 
and broad eligibility. We believe that the key to the continued success 
of the CMAQ program is continuing and enhancing that flexibility.
              aashto recommendations for the cmaq program
    <bullet> Continue the CMAQ Program with funding levels increasing 
commensurate with increases in the overall highway program.
    <bullet> Extend the eligibility of CMAQ funds to all types of 
projects that reduce congestion or improve air quality, including 
traffic flow improvements and Single Occupancy Vehicle (SOV) capacity 
enhancement projects that have air quality benefits.
    <bullet> Permit States to use CMAQ funds in attainment areas if 
emissions reductions benefit adjacent non-attainment or maintenance 
areas, or in areas identified as high risk.
    <bullet> Eliminate the CMAQ 3-year restriction on highway and 
transit projects, including operations and Inspection and Maintenance.
    Mr. Chairman, I want to assure you that all of the State 
transportation officials across the country fully support the national 
goal of improving air quality and ensuring a healthy environment in all 
of our States. We strongly believe that environmental stewardship is 
very much a part of our fundamental transportation mobility mission, 
and continually seek new and innovative, multi-modal strategies to more 
effectively unite the two. We stand ready to work with you, the Members 
of your Committee and your staff to simplify, demystify and bring 
common sense to transportation conformity. And we urge you to broaden 
the CMAQ Program to enable funds to be used to more effective target 
the dual goals of improving mobility and air quality.
                               __________
   Statement of Melody Flowers, Sierra Club Washington Representative
    Thank you for this opportunity to comment on the implementation of 
Clean Air Conformity and the CMAQ program. The Sierra Club, the 
nation's largest and oldest grassroots environmental organization with 
over 700,000 members in 65 chapters and over 400 local groups 
nationwide, is committed to protecting and strengthening Clean Air 
Conformity and the CMAQ program as one of our top priorities in the 
reauthorization of TEA-21.
    These important programs are aimed at achieving clean air in order 
to protect public health and safety. While the improvements in air 
quality over the past 30 years have been impressive, we still have a 
long way to go. One-half, or more than 142 million, Americans breathe 
air that is not healthy, according to the U.S. Environmental Protection 
Agency. It is essential that we maintain conformity between clean air 
and transportation rules since transportation is one of the largest 
sources of air pollution in many areas. The Sierra Club endorses the 
testimony and recommendations put forward today by Michael Replogle.
    We would like to take this opportunity to specifically draw your 
attention to the mounting number of studies that examine health and 
safety questions surrounding the expansion of highways near schools, 
hospitals, and other places where children, the elderly and vulnerable 
populations spend large amounts of time. These studies link air 
pollution near high-traffic areas to cancer, asthma, heart attacks, and 
low birth weight babies for people who live in nearby communities.
    We have attached 17 peer-reviewed, published studies making this 
link between traffic-related air pollution and increased health risks. 
We have raised these issues on numerous highway projects from 
Washington, DC. to Los Angeles to Las Vegas and Wisconsin.
    With highway expansions and constructions proposed in many 
populated urban areas across the country, the Sierra Club and public 
health professionals are calling on the Federal Highway Administration 
of the U.S. Department of Transportation to study the health impacts of 
increased air pollution and air toxics on children and neighbors where 
these expansions and constructions are planned.
    According to Dr. Ronald Rosen, a pediatric oncologist from Las 
Vegas, demographic and environmental risk factors are linked to 
increasing incidence and trends for certain malignancies. Highway air 
pollution and particulate matter aggravate respiratory and 
cardiopulmonary disease, asthma, bronchitis, and preliminary data 
suggest a relationship to childhood leukemia. Historically and more 
recent studies call attention to urban industrialization contributing 
to serious public health problems.
    Furthermore, Dr. Seth Foldy, city of Milwaukee Medical 
Commissioner, States there is mounting evidence that people who live 
near highways and other high-traffic areas may be at higher risk for 
asthma attacks, lung cancer and other health problems because of motor 
vehicle pollution, and that in general, expanding highways will draw 
more cars and trucks to neighboring communities and exacerbate these 
problems.
    The USA Today story printed on March 7, 2003, Lawsuits Pits Risks 
and Roads,\1\ focused in particular on the health impacts of the 
proposed expansion of US-95 in Las Vegas to ten lanes. Sierra Club is 
suing the Federal Highway Administration on the grounds that the agency 
failed to adequately consider the health risk associated with increased 
air pollution and air toxics from the expansion.
---------------------------------------------------------------------------
    \1\ http://www.usatoday.com/news/nation/2003-03-06-vegas-highway-
usat--x.htm
---------------------------------------------------------------------------
    Studies conducted in Las Vegas confirm what similar studies across 
the country have shown: that people who live adjacent to large highways 
are at a much higher risk for cancer and lung disease because of the 
pollution from cars.
    More recently, scientists have begun to look at the problem on a 
neighborhood scale to estimate how particular sources of air 
pollution--including highways--affect nearby communities. These studies 
have found that certain pollutants can be 25 times more concentrated 
near busy highways, and people who live near high-traffic areas are 
more likely to suffer a variety of health problems, like more asthma, 
cancer, and low birth weights. People who spend many hours driving in 
traffic are at high risk as well.
    The good news is that the California Air Resources Board is 
considering mapping neighborhoods to warn residents of the pollution 
risk. See the Los Angeles Times story attached below.\2\
---------------------------------------------------------------------------
    \2\ http://www.latimes.com/classified/realestate/la-re-
freeway15dec15.story
---------------------------------------------------------------------------
    We ask you to require detailed studies to investigate how much of 
the health risk could be eliminated if cleaner transportation 
services--such as clean buses, rail systems, and improved pedestrian 
and bicycling infrastructure--are built in high traffic corridors.
    As Congress proceeds to chart the spending of billions of dollars 
in Federal transportation funding in the reauthorization of TEA-21, we 
need to look at the impact of transportation investments on densely 
populated, high-traffic areas, where highway expansions cause the 
greatest health problems. These locations are precisely the kinds of 
places where public transportation is most practical.
    By law, the Federal Highway Administration is supposed to evaluate 
public health risks and explore alternatives for transportation 
projects. When the agency ignores that part of its responsibility, 
neighborhoods get more pollution and communities get stuck with bad 
projects and never know what they are missing--clean air.
    For a summary of scientific studies on the health risks associated 
with high-traffic highways, please contact <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3072425544441e58455c43554970435955424251535c45521e5f4257">[email&#160;protected]</a>, 
608-257-4994.
    Thank you.
                                 ______
                                 
Key Studies on Air Pollution and Health Effects Near High-Traffic Areas
      air pollution from busy roads linked to shorter life spans 
                          for nearby residents
    Dutch researchers looked at the effects of long-term exposure to 
traffic-related air pollutants on 5,000 adults. They found that people 
who lived near a main road were almost twice as likely to die from 
heart or lung disease and 1.4 times as likely to die from any cause 
compared with those who lived in less-trafficked areas. Researchers say 
these results are similar to those seen in previous U.S. studies on the 
effects of long-term exposure to traffic-related air pollution. The 
authors say traffic emissions contain many pollutants that might be 
responsible for the health risks, such as ultrafine particles, diesel 
soot, and nitrogen oxides, which have been linked to cardiovascular and 
respiratory problems. (Hoek, Brunekreef, Goldbohn, Fischer, van den 
Brandt. (2002). Association between mortality and indicators of 
traffic-related air pollution in the Netherlands: a cohort study. 
Lancet, 360 (9341): 1203-9.)
       truck traffic linked to childhood asthma hospitalizations
    A study in Erie County, New York (excluding the city of Buffalo) 
found that children living in neighborhoods with heavy truck traffic 
within 200 meters of their homes had increased risks of asthma 
hospitalization. The study examined hospital admission for asthma 
amongst children ages 0-14, and residential proximity to roads with 
heavy traffic. (Lin, Munsie, Hwang, Fitzgerald, and Cayo. (2002). 
Childhood Asthma Hospitalization and Residential Exposure to State 
Route Traffic. Environmental Research, Section A, Vol. 88, pp. 73-81.)
  pregnant women who live near high traffic areas more likely to have 
                 premature and low birth weight babies
    Researchers observed an approximately 10-20 percent increase in the 
risk of premature birth and low birth weight for infants born to women 
living near high traffic areas in Los Angeles County. In particular, 
the researchers found that for each one part per million increase in 
annual average carbon monoxide concentrations where the women lived, 
there was a 19 percent and 11 percent increase in risk for low birth 
weight and premature births, respectively. (Wilhelm, Ritz. (2002). 
Residential Proximity to Traffic and Adverse Birth Outcomes in Los 
Angeles County, California, 1994-1996. Environmental Health 
Perspectives. doi: 10.1289/ehp.5688.)
  traffic-related air pollution associated with respiratory symptoms 
                        in two-year-old children
    This cohort study found that 2 year old children who are exposed to 
higher levels of trafficrelated air pollution are more likely to have 
self-reported respiratory illnesses, including wheezing, ear/nose/
throat infections, and reporting of physician-diagnosed asthma, flu or 
serious cold. (Brauer et al. (2002). Air Pollution from Traffic and the 
Development of Respiratory Infections and Asthmatic and Allergic 
Symptoms in Children. Am J Respiratory and Critical Care Medicine. Vol. 
166 pp 1092-1098.)
    people who live near freeways exposed to 25 times more particle 
                               pollution
    Studies conducted in the vicinity of InterStates 405 and 710 in 
southern California found that the number of ultrafine particles in the 
air was approximately 25 times more concentrated near the freeways and 
that pollution levels gradually decrease to near normal (background) 
levels around 300 meters, or 990 feet, downwind from the freeway. The 
researchers note that motor vehicles are the most significant source of 
ultrafine particles, which have been linked to increases in mortality 
and morbidity. Recent research concludes that ultrafine particles are 
more toxic than larger particles with the same chemical composition. 
Moreover, the researchers found considerably higher concentrations of 
carbon monoxide pollution near the freeways. (Zhu, Hinds, Kim, Sioutas. 
Concentration and size distribution of ultrafine particles near a major 
highway. Journal of the Air and Waste Management Association. September 
2002; Zhu, Hinds, Kim, Shen, Sioutas. Study of ultrafine particles near 
a major highway with heavy-duty diesel traffic. Atmospheric 
Environment. 36(2002), 4323-4335.)
          asthma more common for children living near freeways
    A study of nearly 10,000 children in England found that wheezing 
illness, including asthma, was more likely with increasing proximity of 
a child's home to main roads. The risk was greatest for children living 
within 90 meters of the road. (Venn et al. (2001). Living Near A Main 
Road and the Risk of Wheezing Illness in Children. American Journal of 
Respiratory and Critical Care Medicine. Vol. 164, pp. 2177-2180.)
    A study of 1,068 Dutch children found that asthma, wheeze, cough, 
and runny nose were significantly more common in children living within 
100 meters of freeways. Increasing density of truck traffic was also 
associated with significantly higher asthma levels--particularly in 
girls. (van Vliet et al. (1997). Motor exhaust and chronic respiratory 
symptoms in children living near freeways. Environmental Research. 
74:12-132.)
     children living near busy roads more likely to develop cancer
    A 2000 Denver study showed that children living within 250 yards of 
streets or highways with 20,000 vehicles per day are six times more 
likely to develop all types of cancer and eight times more likely to 
get leukemia. The study looked at associations between traffic density, 
power lines, and all childhood cancers with measurements obtained in 
1979 and 1990. It found a weak association from power lines, but a 
strong association with highways. It suggested that benzene pollution 
might be the cancer promoter causing the problem. (Pearson et al. 
(2000). Distance-weighted traffic density in proximity to a home is a 
risk factor for leukemia and other childhood cancers. Journal of Air 
and Waste Management Association 50:175-180.)
most traffic-related deaths due to air pollution, not traffic accidents
    Another study analyzed the affect of traffic-related air pollution 
and traffic accidents on life expectancy in the area of Baden-
Wurttemberg, Germany. It estimated that 4325 deaths in this region 
would result from motor vehicle emissions compared to 891 from traffic 
accidents (over a lifetime). (Szagun and Seidel. (2000). Mortality due 
to road traffic in Baden-Aurttemberg--air pollution, accidents, noise. 
Gesundheitswesen. 62(4): 225-33.)
           emissions from motor vehicles dominate cancer risk
    The most comprehensive study of urban toxic air pollution ever 
undertaken shows that motor vehicles and other mobile sources of air 
pollution are the predominant source of cancer-causing air pollutants 
in Southern California. Overall, the study showed that motor vehicles 
and other mobile sources accounted for about 90 percent of the cancer 
risk from toxic air pollution, most of which is from diesel soot (70 
percent of the cancer risk). Industries and other stationary sources 
accounted for the remaining 10 percent. The study showed that the 
highest risk is in urban areas where there is heavy traffic and high 
concentrations of population and industry. (South Coast Air Quality 
Management District. Multiple Air Toxics Exposure Study-II. March 
2000.)
   cancer risk higher near major sources of air pollution, including 
                                highways
    A 1997 English study found a cancer corridor within three miles of 
highways, airports, power plants, and other major polluters. The study 
examined children who died of leukemia or other cancers from the years 
1953-1980, where they were born and where they died. It found that the 
greatest danger lies a few hundred yards from the highway or pollution 
facility and decreases as you get away from the facility. (Knox and 
Gilman (1997). Hazard proximities of childhood cancers in Great Britain 
from 1953-1980. Journal of Epidemiology and Community Health. 51:151-
159.)
   a school's proximity to freeways associated with asthma prevalence
    A study of 1498 children in 13 schools in the Province of South 
Holland found a positive relationship between school proximity to 
freeways and asthma occurrence. Truck traffic intensity and the 
concentration of emissions measured in schools were found to be 
significantly associated with chronic respiratory symptoms. (Speizer, 
F.E. and B.G. Ferris, Jr. (1973). Exposure to automobile exhaust. I. 
Prevalence of respiratory symptoms and disease. Archives of 
Environmental Health. 26(6): 313-8. van Vliet, P., M. Knape, et al. 
(1997). Motor vehicle exhaust and chronic respiratory symptoms in 
children living near freeways. Environmental Research. 74(2): 122-32.)
     lung function reduction among children more likely if living 
                           near truck traffic
    A European study determined that exposure to traffic-related air 
pollution, `in particular diesel exhaust particles,' may lead to 
reduced lung function in children living near major motorways. 
(Brunekreef B; Janssen NA; de Hartog J; Harssema H; Knape M; van Vliet 
P. (1997). ``Air pollution from truck traffic and lung function in 
children living near motorways.'' Epidemiology. 8(3):298-303.)
                asthma symptoms caused by truck exhaust
    A study was conducted in Munster, Germany to determine the 
relationship between truck traffic and asthma symptoms. In total, 3,703 
German students, between the ages of 12-15 years, completed a written 
and video questionnaire in 1994-1995. Positive associations between 
both wheezing and allergic rhinitis and truck traffic were found during 
a 12-month period. Potentially confounding variables, including 
indicators of socio-economic status, smoking, etc., did not alter the 
associations substantially. (Duhme, H., S. K. Weiland, et al. (1996). 
The association between self-reported symptoms of asthma and allergic 
rhinitis and self-reported traffic density on street of residence in 
adolescents. Epidemiology 7(6): 578-82.)
  proximity of a child's residence to major roads linked to hospital 
                         admissions for asthma
    A study in Birmingham, United Kingdom, determined that living near 
major roads was associated with the risk of hospital admission for 
asthma in children younger than 5 yrs of age. The area of residence and 
traffic flow patterns were compared for children admitted to the 
hospital for asthma, children admitted for nonrespiratory reasons, and 
a random sample of children from the community. Children admitted with 
an asthma diagnosis were significantly more likely to live in an area 
with high traffic flow (> 24,000 vehicles/24 hrs) located along the 
nearest segment of main road than were children admitted for 
nonrespiratory reasons or children form the community. (Edwards, J., S. 
Walters, et al. (1994). Hospital admissions for asthma in preschool 
children: relationship to major roads in Birmingham, United Kingdom. 
Archives of Environmental Health. 49(4): 223-7.
   exposure to carcinogenic benzene higher for children living near 
                           high traffic areas
    German researchers compared 48 children who lived in a central 
urban area with high traffic density with 72 children who lived in a 
small city with low traffic density. They found that the blood levels 
of benzene in children who lived in the high-traffic-density area were 
71 percent higher than those of children who lived in the low-traffic-
density area. Blood levels of toluene and carboxyhemoglobin (formed 
after breathing carbon monoxide) were also significantly elevated (56 
percent and 33 percent higher, respectively) among children regularly 
exposed to vehicle emissions. Aplastic anemia and leukemia are 
associated with excessive exposure to benzene. (Jermann E, Hajimiragha 
H, Brockhaus A, Freier I, Ewers U, Roscovanu A: Exposure of children to 
benzene and other motor vehicle emissions. Zentralblatt fur Hygiene and 
Umweltmedizin 189:50-61, 1989.)
                                 ______
                                 
                            [From USA Today]

                    Lawsuit Pits Risks and Roads\1\

                            (By John Ritter)
    Las Vegas.--Tens of thousands of workers commute from suburbs to 
resort and casino jobs on the glimmering Strip, the economic soul of 
this booming entertainment mecca. Many of them creep tediously along 
U.S. 95, the most congested road in the nation's fastest growing urban 
area.
---------------------------------------------------------------------------
    \1\ Find this article at http://www.usatoday.com/news/nation/2003-
03-06-vegas-highway-usat--x.htm
---------------------------------------------------------------------------
    With the six-lane freeway morphing twice daily into a rush-hour 
parking lot, policymakers from the Governor on down ardently support a 
plan to widen 95 to 10 lanes.
    Bucking the popular project are environmentalists and health 
experts worried about pollution from the more than 300,000 vehicles a 
day that already troll up and down 95. They cite studies linking higher 
levels of foul air along busy urban highways to heightened cancer risks 
among people who live and work nearby.
    Urban highway ``hot spots'' such as 95 are battlegrounds in many 
cities, but here the issue has come to a head. The Sierra Club sued in 
January to stop the project. It says the Federal Government failed to 
consider health consequences and alternatives to highway construction 
as required by law.
    Highway projects have been challenged before on environmental and 
health grounds, but this is the first such lawsuit based on scientific 
research into traffic-generated pollution.
    U.S. 95 is a test case with broad implications for urban highway 
expansion and population growth in metro areas across the USA. The 
outcome not only could send Nevada transportation officials back to the 
drawing board but also could delay relief measures for other snarled 
roads. It could force planners to give greater weight to solving 
congestion with mass transit and even alter the patterns of where 
people choose to live.
    ``We're spending the most money on the most polluting source, 
highways, and we're saying we need to balance that out,'' says Brett 
Hulsey, national coordinator of the Sierra Club's anti-sprawl campaign.
    Besides 95, environmentalists want the Federal Highway 
Administration to study the health risks of widening InterState 75 from 
Dayton, Ohio, to Cincinnati; building a beltway segment around Denver 
called the Northwest Parkway; widening 1-94 in downtown Detroit; 
widening 1-94 and U.S. 45 around Milwaukee; expanding 1-10 and U.S. 290 
out of Houston; and widening Virginia's portion of the Capital Beltway 
around Washington, DC.
                         highways can't keep up
    Beyond health issues, the Las Vegas case spotlights a problem 
facing many thriving cities, particularly in the West. Las Vegas has 
grown so fast that its highway system hasn't kept up. Congestion 
worsens monthly. Yet in the last decade, population spilled over such a 
wide area that developing mass transit will be costly.
    ``We have 6,000 people a month moving here, bringing 4,000 
automobiles with them,'' says Jacob Snow, general manager of the 
Regional Transportation Commission of Southern Nevada. ``The worst 
thing we could do from an air quality standpoint is stop building 
roadways.''
    Last month, Federal Judge Philip Pro denied the highway 
administration's motion to dismiss the Las Vegas case.
    Opponents say the widening will funnel even more traffic onto U.S. 
95. ``I'll leave if this project goes in,'' says Barbara Roth, 70, who 
moved near what was then a two-lane street 38 years ago. ``The 
pollution is going to be terrific because the traffic will back up 
immediately, just like it is now. Crazy is the word.''
    The judge could stop work on the project and order the highway 
agency to reassess health risks. He could order it to consider 
alternatives to widening, such as mass transit, as required under the 
National Environmental Policy Act.
    Highway administration officials won't comment on the case. But in 
a sign that the highway pollution issue is gaining traction, a 
Transportation Department research panel held a forum in January called 
``Air Toxics: The Next Poison Pill for Transportation?''
    Delaying or killing the 95 expansion would anger many who believe 
growth will choke southern Nevada unless its road system expands 
rapidly. The 6 miles to be widened have more aggressive drivers than 
any other road in the region, a study in January found. An irate Gov. 
Kenny Guinn threatened to erect billboards on 95 that say, ``Traffic 
congestion brought to you by the Sierra Club.''
    At the lawsuit's core is whether high concentrations of auto 
emissions such as benzene and 1,3 butadiene, which are known 
carcinogens, raise health risks. Opponents of the expansion say they 
do:
    A Denver study in 2000 found that children living within 250 yards 
of highways used daily by more than 20,000 vehicles were eight times 
more likely to get leukemia.
    A study the same year of InterStates 405 and 710 in Los Angeles 
showed that vehicles accounted for 90 percent of the cancer risk from 
air pollution, and that the highest risk was in congested, heavily 
populated urban zones.
    A study in suburban Buffalo last year found that children living in 
neighborhoods close to heavy truck traffic had increased asthma risks.
    A Sierra Club-financed study of three pollutants concluded that 
widening 95 would cause up to 1,400 more cancers per 1 million people 
over 70 years, more than 10 times greater than what the Environmental 
Protection Agency considers a serious risk.
    ``It's obvious there's some correlation,'' says Ronald Rosen, a 
pediatric oncologist in Las Vegas. He says he has no evidence of more 
cancers along 95. The study only predicted higher rates. ``But to 
dismiss an environmental group that wants to look at this critically is 
really a big mistake.''
                        transit's limited reach
    Environmentalists want more buses, trains and light rail, but 
relying on mass transit as much as denser Eastern cities do is 
unrealistic in the greater Las Vegas sprawl, experts say. Even in the 
most optimistic scenario, transit could handle no more than 15 percent 
of trips, says Shashi Nambisan, director of the Transportation Research 
Center at the University of Nevada-Las Vegas.
    ``People are choosing to live farther and farther out. Commute 
times and distances are going up,'' Nambisan says. Low gasoline prices, 
the comfort and convenience of personal vehicles, and abundant, cheap 
parking also work against mass transit in Las Vegas.
    But efforts are underway. Nevada voters in November endorsed a $2.7 
billion transportation initiative that includes $1 billion for transit. 
The first leg of a 3.6-mile monorail serving the Strip will open next 
year. A rapid transit bus line will begin serving northern suburbs next 
winter.
    Environmentalists complain that bus service was the budget ax's 
first victim in the recession. Transit officials say they had no choice 
because fewer riders meant declines in operating revenue. Transit's 
supporters point to Salt Lake City's two light-rail lines as proof Las 
Vegas could do more. Ridership on both lines is nearly double initial 
estimates. Still, that system carries only about 1 percent of peak-hour 
trips.
    Work is progressing despite the lawsuit. Bulldozers are moving 
earth, overpasses are being built and new sound walls are going up. 
More than 200 homeowners were forced to sell and leave.
    Three schools, two community centers, a day care facility, 27 
apartment buildings and nearly 400 houses abut this stretch. But many 
residents are unaware of health concerns. Rick Winget, principal of 
Ruth Fyfe Elementary School, says he's eager to use more of his 
playground once a wall replaces a chain-link fence between the school 
and the highway. He says no parents have complained about pollution.
    ``People are really insensitive to the health risks,'' says Jane 
Feldman of the Sierra Club's Las Vegas chapter. ``They think cancer 
won't happen to them, that it happens long-term. But this is hard 
scientific data and it's scary.''
                                 ______
                                 
                     [The Times, December 15, 2002]

                         Too Freeway Close?\2\

                         (By William J. Kelly)
    Homes along the Southland's busy highways may be more affordable, 
but new studies show possible health risks linked to increased 
pollution.

    At sunset, Regina Kennard's house stands in the shadow of an 
elevated stretch of InterState 15. Attracted by the home's 
affordability and its proximity to, the onramp for her daily commute to 
work at a mortgage company in Orange County, Kennard moved from Ontario 
to Fontana more than a year ago and joined countless other Southern 
Californians who live along a freeway.
---------------------------------------------------------------------------
    \2\ Find this article at http://www.latimes.com/classified/
realeStatella-re-freeway15dec15.story
---------------------------------------------------------------------------
    The mother of two chose the 4,729-square-foot lot next to the 
freeway because it was bigger than those farther up the street. She 
purchased the 1,977-square-foot home new last year for $189,900.
    ``I wanted a big yard,'' said Kennard, who keeps the windows shut 
at night because of the din. ``I should have been more concerned. I 
didn't realize the noise.''
    Even further from her thoughts were the long-term health effects of 
freeway pollution. Like most buyers, Kennard was unaware of emerging 
scientific research that shows air pollution immediately downwind of 
freeways can be more than 4 to 10 times higher than average levels 
throughout much of Southern California.
    ``There's a building body of data that living next to a freeway has 
adverse health effects, particularly among children,'' said Ira Tager, 
a UC Berkeley epidemiologist who is studying how air pollution affects 
asthmatic children for the California Air Resources Board. Work by a 
variety of health researchers and environmental agencies is finding 
that the highly concentrated pollution from autos and trucks increases 
the incidence of asthma, respiratory infections and cancer in people 
residing along freeways and other heavily traveled thoroughfares.
    The studies, some of which have come out in California during the 
last year and others that are ongoing, are attracting attention as new 
homes and condominiums have become more common along freeways because 
of the shrinking availability of land suitable for building and the 
increasing demand for housing.
    If buyers are unaware of the health dangers, so are builders. 
``It's new information to me,'' said Tim Piasky, director of 
environmental affairs for the Building Industry Assn. of Southern 
California, who noted that individual builders cannot track every 
study.
    ``We count on our regulatory agencies to set the requirements,'' he 
said. ``Unless there are requirements, builders will use the maximum 
area.''
    There are no current requirements or recommendations for buffers 
between homes and freeways, but the Governor's Office of Planning and 
Research has drafted new planning guidelines for cities and counties, 
which are responsible for regulating local land use. The guidelines, 
according to associate planner Brian Grattidge, ask cities to consider 
whether it is appropriate to zone housing right next to freeways, given 
the emerging studies on air pollution.
    The California Air Resources Board will issue its first official 
warning in the spring and advise, but not require, that builders create 
buffer zones between future residential developments and freeways.
    ``People who construct new homes should consider having at least 
100 meters [less than a tenth of a mile] between them and the 
freeway,'' said Shankar Prasad, health advisor for the board.
    Buyers have long been aware of home health risks ranging from 
groundwater contamination--think Erin Brockovich--to the interior 
culprits of leaded paint, mold and asbestos. But most haven't 
considered air pollution levels along freeways, according to real 
eState broker Remy Agaton, who is selling the home of Lydia Fabres, 
just one house north of InterState 10 in West Covina. Like Kennard, 
Fabres did not know about the studies showing higher pollution levels.
    ``Out of 100, maybe 10 are concerned about the noise, and they 
never ask about the pollution,'' said Agaton of Jasrel Real EState 
Brokers Inc. in the city of Industry. Buyers are more concerned about 
amenities, such as good schools and proximity to shopping and 
transportation routes, said Agaton, who has sold many homes near 
freeways in her 17-year career.
    Fabres, a single mother of four teenagers, said that the location 
is what attracted her to the West Covina home. She worked in the 
health-care field near downtown Los Angeles when she purchased the 
house 3 years ago after a divorce, and freeway proximity saved the busy 
mother time.
    ``It was an advantage,'' she said. ``When you came home it was 
close.'' It also was close enough for her children to walk to school, a 
nearby park and the West Covina Plaza.
    The noise bothered the family at first, and Fabres said she was 
fleetingly concerned about pollution. However, she found that the 
location and features of the three-bedroom, two-bath home with a den 
and large backyard outweighed those concerns. Fabres is taking time off 
from work to sell her home and move to Walnut for its schools and 
proximity to Mt. San Antonio College, where her children, who have no 
respiratory disease, plan to continue their education after completing 
high school.
    In addition to saving time, buyers are often attracted to freeway-
close homes because of lower prices, according to real eState industry 
executives. Fabres, for instance, is asking $275,000 for her home.A 
couple blocks farther north of InterState 10, a comparable three-
bedroom home in the same neighborhood sold for $289,900 in mid-
November.
    ``Home prices near freeways generally are less expensive,'' said 
John Burns, president of John Burns Real EState Consulting in Irvine. A 
rule of thumb, he said, is that these homes cost the buyer about $5 
less per square foot than a comparable home in the same area far enough 
away that buyers do not perceive the freeway as a negative.
    But researchers are beginning to document the drawbacks. Large 
doses of pollutants emitted by motor vehicles can irritate the 
respiratory system and exacerbate asthma and chronic bronchitis, from 
which 10 percent to 20 percent of the population suffers, according to 
Dr. John Balmes of UC San Francisco. Published studies examining the 
respiratory health of people along freeways show a 75 percent to 100 
percent increase in asthma because of the higher concentration of air 
pollutants, said Balmes, former president of the California Thoracic 
Society, the medical section of the American Lung Assn. of California. 
Some of the pollutants, including benzene and diesel soot, are known 
carcinogens.
    One study published earlier this fall in the Journal of the Air & 
Waste Management Assn. shows that the level of so-called ultra-fine 
particles, which are emitted from automotive tailpipes but are too 
small to be visible, was four times higher just downwind and east of 
the 405 Freeway in Westwood. About a fifth of a mile downwind, the 
level of the particles gradually fell to the same level as upwind of 
the busy freeway, wrote the research team, headed by William C. Hinds, 
a professor in the Department of Environmental Health Sciences at UCLA. 
Carbon monoxide, a good indicator for a range of other automotive 
emissions, also fell sharply a fifth of a mile downwind of the freeway.
                               __________
       Statement of the Associated General Contractors of America
    The Associated General Contractors of America (AGC) is the largest 
most diverse trade association in the construction industry. The 
association's 33,000 members include 7,500 of the nation's leading 
general construction contractors engaged in the construction of 
highways, bridges, tunnels, airport runways and terminals, buildings, 
factories, warehouses, shopping centers and both water and wastewater 
treatment facilities. AGC members perform construction contracts for 
states and other recipients of Department of Transportation (DOT) 
funding and are, therefore, directly impacted by changes in 
administration of the Federal-aid highway program. AGC is pleased to 
provide the following comments on Clean Air Act Transportation 
Conformity requirements.
                           clean air progress
    Americans have made great progress in cleaning the air. Over the 
past 30 years national emission trends have been declining. All of the 
years throughout the 1990's have had better air quality than any of the 
years in the 1980's, demonstrating a steady trend of improvement. Air 
quality has improved nationwide primarily because motor vehicle 
emissions have decreased substantially even as vehicle travel has 
increased rapidly. From 1980 through 1998, overall motor vehicle 
emissions of volatile organic compounds (VOC) was reduced 41 percent, 
emissions of nitrogen oxides (NOx) were reduced 10 percent, and carbon 
monoxide emissions were reduced 35 percent. This improvement came 
despite a 72 percent increase in travel during that period.
    These reductions are the result of an array of cleaner fuels that 
have virtually eliminated lead and other pollutants and reformulated 
gas that reduce smog and tailpipe emissions. New engine technology and 
vehicle design and construction have reduced tailpipe emissions in the 
average car in use today by 95 percent compared to the average car in 
use in the 1960's.
    EPA studies show that air quality by 1996 had improved to the point 
that 80 percent of Americans lived where air quality met the standards 
for six criteria air pollutants, nearly double the amount from 10 years 
earlier. Since 1996 air quality has continued to improve. In the past 
10 years, the average number of days the air in major metropolitan 
areas failed to met Federal ozone (smog) standards has been cut in 
half. Violations of the national standards for carbon monoxide have 
been virtually eliminated. U.S. Environmental Protection Agency (EPA) 
studies estimate that an additional 32 million tons of emissions per 
year (22 percent) will be eliminated between 1997 and 2015 because of 
better motor vehicle technology. All of this progress despite 
significant increased motor vehicle usage.
                 overview of transportation conformity
    Transportation conformity provisions under the Clean Air Act (CAA) 
attempt to coordinate transportation planning and air quality planning. 
The CAA requires metropolitan areas with air quality problems to 
demonstrate that future transportation projects will not impede the 
area's ability to attain air quality standards established by the Act. 
Under the CAA the EPA is required to establish national Ambient Air 
Quality Standards (NAAQS) for six criteria pollutants. If an area 
exceeds the Federal standard for any one of these six pollutants, it is 
designated as a nonattainment area. States must submit State 
Implementation Plans (SIPs) detailing how these nonattainment areas 
will be brought into compliance. The SIP typically includes a specific 
motor vehicle emissions budget (MVEB) capping emissions from 
transportation sources. Nonattainment areas are then required to 
demonstrate, using various calculations and models, that car and truck 
emissions associated with current and future road, highway, and transit 
projects listed in the area's transportation plan are below this 
budget. This demonstration is called transportation conformity. If the 
metropolitan area cannot demonstrate that car and truck emissions from 
new roads and highways are below the motor vehicle emissions budget, 
the area falls into a transportation conformity ``lapse'' where many 
new road and transit projects cannot move forward.
                 transportation conformity requirements
    Under the Federal-Aid Highway Act (as amended in ISTEA and TEA-21), 
metropolitan planning organizations (MPOs) for each urban region 
develop a long-term regional transportation plan and a short term 
transportation improvement plan (TIP). Section 176 of the CAA links air 
quality planning with transportation planning by requiring both of 
these transportation plans to match, or ``conform'' to the SIP. 
Transportation conformity must be demonstrated once every 3 years, 
although numerous other triggers render this requirement almost 
meaningless. For example, conformity must be demonstrated every time a 
significant change is made to a transportation plan and within 18-
months of a State Implementation Plan modification that effects the 
motor vehicle emissions budget. This overabundace of conformity 
triggers means that planning organizations are continually performing 
overlapping demonstrations. The resulting web of incongruous deadlines 
impose a minefield of procedural traps for nonattainment areas to fall 
into. As Judge Williams in the U.S. Circuit Court of Appeals for D.C. 
wrote, ``the Act's conformity requirements are astonishingly confusing, 
and could if interpreted as stringently as possible seriously disrupt 
state and local transportation planning.''
      ramifications of failing to demonstrate conformity ``lapse''
    One of the principle disruptions to state and local transportation 
planning from transportation conformity requirements is the 
consequences of a conformity ``lapse''. A conformity ``lapse'' occurs 
when a conformity determination for a transportation plan or TIP has 
expired and is no longer valid. A conformity lapse may be caused by 
several situations such as: (1) not meeting the required 3-year period 
for conformity redetermination of a transportation plan or TIP; (2) 
certain State Implementation Plan consequences; (3) not redetermining 
conformity within 18 months of a specific State Implementation Plan 
modification; or (4) a potentially successful citizen suit that 
invalidates the conformity determination or the motor vehicle emissions 
budget on which the conformity determination was based.
    Only certain types of projects can advance during a conformity 
lapse. FHWA will not fund active highway design and right-of-way 
acquisition projects during a conformity lapse. Only those highway 
projects which have received full funding and/or approval prior to the 
conformity lapse may continue. A conformity lapse applies to both road 
and transit projects. Moreover, lapses impact both federally funded and 
non-federally funded but regionally significant projects (since these 
projects require Federal approval).
    Conformity lapses have caused significant problems across the 
country. In Atlanta, for example, a conformity lapse suspended over 
$700 million in much needed road work. In the Southern California Air 
Quality Management District, $0.5 and $2 billion in transportation 
projects were subject to postponement during a 1998 and 2001 conformity 
lapse, respectively.
    Conformity lapses have several deleterious impacts. Financially, 
delays increase project costs due to normal cost escalation factors and 
contractors needing to reschedule planned work. Costs also increase due 
to delayed traffic congestion relief (for example, the Houston-
Galveston Area Council estimates that traffic congestion costs the 
Houston area approximately $2 billion per year). Delays due to 
conformity lapses also effect road safety. According to the U.S. DOT, 
poor road conditions or obsolete road and bridge alignments are a 
factor in 12,000 highway-related deaths each year--that's four times 
the number killed in fires and a third more than die annually of asthma 
and bronchitis combined.
    Conformity lapses are almost never caused by a nonattainment area 
building too much transportation infrastructure, but are almost always 
caused by procedural problems with the timing of multiple deadlines for 
revising the motor vehicle emissions budget, revising the 
transportation plans, and/or lawsuits.
    Currently there are 142 nonattainment areas which contain 414 
counties nationwide that are out of compliance for ozone alone with 
more out of compliance for other pollutants. An additional 194 areas 
which include 656 counties may soon be in nonattainment status when EPA 
imposes new standards for ozone and particulate matter.
            conformity process does not improve air quality
    The transportation conformity process is expensive and burdensome 
and has not been shown to have a significant impact on improving air 
quality. The United States General Accounting Office (GAO) in testimony 
before the Committee on Environment and Public Works, U.S. Senate, July 
30, 2002 (GAO-02-988T p. 10), said that, ``Only 31 percent of the 
planners responding to our survey found the process of demonstrating 
conformity to be effective in helping their areas achieve air quality 
goals (40 percent found it to be ineffective).'' GAO also stated that, 
``[T]he current clean air and surface transportation requirements and 
programs do not directly encourage communities to consider more 
innovative transportation projects or alternative land development 
strategies as a means to reduce emissions. Nor do they encourage 
communities to take action that will preserve the clean air that they 
still enjoy.'' (Id. at 15-16).
    In addition, the conformity process is being used as a means to 
prevent transportation improvement projects from being built, not 
because of their impact on air quality but as a tactic to prevent any 
transportation improvement project from being undertaken. 
Transportation project opponents use legal challenges and other 
maneuvers to disrupt the planning process and stop project 
construction. This activity undermines safety improvements, increases 
the cost of the projects significantly and can undermine clean air 
objectives. Delaying or and stopping transportation improvements has no 
beneficial impact on air quality and can have a negative impact by 
keeping congestion relief projects from moving forward. Idling in 
traffic significantly increases air pollution. Eliminating bottlenecks 
and traffic congestion can reduce carbon monoxide emissions by as much 
as 45 percent and ozone forming VOCs by 44 percent. Automobiles operate 
at a higher efficiency at higher speeds and emission rates for major 
air pollutants increase at slower speeds. Congress should reconsider 
whether the costs associated with the transportation conformity process 
result in equal benefits.
                           Recommended Reform
            separate transportation and air quality planning
    Steps should be taken to improve the process and keep it from being 
used merely as a means for delaying necessary transportation 
improvement projects as follows:
    <bullet> Transportation planning and air quality planning should 
not be linked. There is no air quality improvements that result from 
the conformity process.
    Reducing the Number of Conformity Triggers and Increasing the Time 
Between Conformity Determinations
    <bullet> Non-attainment areas are continually and exhaustingly 
performing transportation conformity demonstrations. Although the Clean 
Air Act requires a conformity demonstration once every 3 years, 
numerous other triggers render this requirement meaningless. Under 
EPA's rules, non-attainment areas must demonstrate conformity each time 
EPA proposes or approves a control strategy implementation plan 
revision which affects an existing motor vehicle emissions budget, each 
time the EPA modifies a control measure that impacts the motor vehicle 
emissions budget, and each time a transportation control measure is 
added, modified, or deleted. Conformity demonstrations are also needed 
each time the metropolitan planning organization needs to add or modify 
a project in its transportation plan (since a road or transit project 
cannot generally move forward unless it is specifically included in a 
conforming transportation plan). This overabundance of conformity 
triggers means that planning organizations are continually performing 
overlapping demonstrations, wasting valuable time and resources. As the 
GAO stated in its recent assessment of the transportation conformity 
requirements: ``According to DOT program managers, some planners have 
found the requirement to update their transportation plans and meet the 
conformity test at least every 3 years to be too burdensome. Because of 
the complexity and time involved in preparing the plan and 
demonstrating conformity, it can take some areas more time than 3 years 
to complete their plan updates, after which time they need to begin the 
update process all over again. The tight timeframe inhibits them from 
devoting their attention or resources to developing more strategic 
transportation solutions or adopting new and better models for 
assessing emissions and analyzing transportation plans, among other 
things.''\1\
---------------------------------------------------------------------------
    \1\ Environment Protection: The Federal Government Could Help 
Communities Better Plan for Transportation That Protects Air Quality, 
United States General Accounting Office, Testimony Before the Committee 
on Environment and Public Works, U.S. Senate, GAO-02-988T, July 30, 
2002, p. 11.
---------------------------------------------------------------------------
    <bullet> Transportation conformity demonstrations are a prolonged 
and arduous process. The metropolitan planning organization (typically 
a local council of governments) must conduct extensive emissions 
modeling and inventory work. All conformity demonstrations must go 
through an interagency consultation process and other agency scrutiny 
that involves EPA, the Federal Highway Administration (FHWA), and state 
agencies. Conformity demonstrations must also go through public notice 
and comment and public hearing procedures.
    <bullet> Once a conformity demonstration is complete (often after 
more than a year and hundreds of thousands of dollars worth of work), 
each conformity demonstration becomes subject to a potential lawsuit 
from environmental organizations and others who are unhappy with such 
issues as urban sprawl, the construction of certain road projects, or 
the area's mass transit choices. Transportation conformity lawsuits 
have occurred across the country; including Houston, Atlanta, 
Sacramento, San Francisco, and Salt Lake City. These suits force local 
governments or other interested parties to mount legal defenses which 
are expensive and time consuming. The costs of these legal defenses 
take funds that could otherwise be used to provide services to the 
public. The potential repercussions of a successful lawsuit or 
repercussions for failing to demonstrate conformity are the withholding 
of Federal highway funding or the halting of road and transit projects, 
including those that do not receive any Federal funding.
    <bullet> For the above reasons, the number of conformity triggers 
should be reduced to one, whether that one trigger be a specific date 
in time or the time at which the transportation plan is approved.
    <bullet> In addition to reducing the number of conformity triggers, 
the length of time between mandatory conformity demonstrations should 
be increased from 3 years to at least 5 years. As stated above, many 
metropolitan planners are already having trouble meeting the 3 year 
requirement. Since most road projects take at least 15 to 20 years to 
plan and construct, projects will still have several opportunities to 
be included in a conformity demonstration.
    <bullet> Along with reducing the number of conformity triggers and 
the length of time between conformity determinations, a method is 
needed whereby metropolitan planners can add or modify a road or 
transit project (to some degree) without the need for a full conformity 
demonstration. Currently, planning organizations must essentially go 
through a full conformity analysis in order to make certain changes to 
a road or transit project. This exercise is unnecessary and a waste of 
valuable local, state, and Federal resources.
                             grandfathering
    <bullet> Up until 1999, transportation improvement projects that 
had reached a certain stage in the review and approval process could 
continue through the design and construction phase despite a conformity 
lapse. These projects were said to be ``grandfathered.'' A Federal 
Court ruled in 1999 that EPA did not have the statutory authority to 
permit grandfathering. State departments of transportation were put 
under a constraint on what activities they can undertake during a 
conformity lapse. As a result, $700 million in transportation projects 
in Atlanta were halted and projects throughout the country have been 
threatened.
    AGC recommends that transportation projects that are included in a 
conforming plan and TIP should be allowed to move forward to 
construction if an area later has a conformity lapse. Project design 
and right of way acquisition should be allowed to continue during a 
conformity lapse.
                 use of the latest planning assumptions
    <bullet> The Clean Air Act requires that all conformity 
demonstrations be based on the latest planning assumptions. 
Specifically the Act states that ``the determination of conformity 
shall be based on the most recent estimates of emissions, and such 
estimates shall be determined from the most recent population, 
employment, travel and congestion estimates as determined by the 
metropolitan planning organization or other agency authorized to make 
such estimates.''\2\
---------------------------------------------------------------------------
    \2\ 42 C.F.R. Sec. 7506.
---------------------------------------------------------------------------
    <bullet> Conformity problems can result if modeling assumptions 
change between the time the motor vehicle emissions budget from the 
State Implementation Plan was created and the time that conformity must 
be demonstrated. For example, if a nonattainment area sets a motor 
vehicle emissions budget at 156 tons of NOx per day and later realizes, 
prior to its next conformity determination, that the number should 
really be 165 tons per day (because of new inventory information 
regarding the number of sport utility vehicles in the area), the 
metropolitan area could have a difficult time demonstrating conformity 
to the lower number. This problem could lead to a transportation 
conformity lapse because it would take several months to revise the 
motor vehicle emissions budget through the notice-and-comment 
rulemaking process.
    <bullet> The Clean Air Act should be clarified to stipulate that 
the most current modeling assumptions are those assumptions used in the 
creation of the latest motor vehicle emissions budget. In the 
alternative, the Act should be amended to include a time-delay before 
new planning assumptions must be used in a conformity determination.
          ramifications of conformity failure vs. sip failure
    <bullet> When an area fails to demonstrate conformity and enters 
into a conformity lapse, the consequences of the lapse are immediate. 
On the other hand, if an area fails to submit or implement an adequate 
State Implementation Plan, there is a range of time, a minimum of 18 to 
24 months, before sanctions are imposed. This disparate treatment is 
not warranted. Transportation planners should also have time to remedy 
problems before sanctions are imposed. Most of the time conformity 
lapses occur only for a few short months due to a technical or 
procedural error. Rather than the current ``gotcha'' system, planners 
should be given a short period of time to rectify minor problems before 
public transportation projects are halted. This would save communities 
millions of dollars without negatively impacting air quality (since 
roads and highways in the TIP are not even built, let alone in 
operation).
                            limit law suits
    <bullet> Special interest groups have successfully used legal 
challenges to advance no-growth strategies. They have demonstrated the 
ability to delay and in some cases curtail development of significant 
transportation projects throughout the country. Limits should be placed 
on ``citizen suits'' filed under the authority of the CAA.
                               conclusion
    AGC strongly urges Congress to reconsider the impact of the 
transportation conformity process on motorist safety, economic 
development and even air quality improvement.
    For further information contact Brian Deery, Senior Director, 
Highway Division, AGC of America, 703-837-5319, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afcbcacaddd6cdefcec8cc81c0ddc8">[email&#160;protected]</a>
    Leah Wood, Environmental Counsel, Environmental Law, AGC of 
America, 703-837-5332, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed9a828289ad8c8a8ec3829f8a">[email&#160;protected]</a>
  

                                <greek-d>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
